<html>
<title> - CLEAN WATER ACTION PLAN</title>
<body><pre>[Senate Hearing 106-389]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-389

 
                        CLEAN WATER ACTION PLAN

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 1999

                               __________

   REVIEW OF A WATER POLLUTION CONTROL ``BLUEPRINT'' PROPOSED BY THE 
                               PRESIDENT


  Printed for the use of the Committee on Environment and Public Works

                               <snowflake>

                    U.S. GOVERNMENT PRINTING OFFICE
59-384cc                    WASHINGTON : 2000
_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       one hundred sixth congress

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
JAMES M. INHOFE, Oklahoma            FRANK R. LAUTENBERG, New Jersey
CRAIG THOMAS, Wyoming                HARRY REID, Nevada
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
MICHAEL D. CRAPO, Idaho              BARBARA BOXER, California
ROBERT F. BENNETT, Utah              RON WYDEN, Oregon
KAY BAILEY HUTCHISON, Texas
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 13, 1999
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     8
Chafee, Hon. John H., U.S. Senator from the State of Rhode Island     1
Crapo, Hon. Michael D., U.S. Senator from the State of Idaho.....     9
Graham, Hon. Bob, U.S. Senator from the State of Florida.........    47
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
    Analysis of S. 1175..........................................     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    46
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................    48
Thomas, Hon. Craig, U.S. Senator from the State of Wyoming....... 4, 45

                               WITNESSES

Beach, Gary, Administrator, Wyoming Department of Environmental 
  Quality........................................................    26
    Prepared statement...........................................    86
    Responses to additional questions from:
        Senator Chafee...........................................    88
        Senator Crapo............................................    89
Browner, Hon. Carol M., Administrator, Environmental Protection 
  Agency.........................................................     6
    Prepared statement...........................................    48
    Responses to additional questions from:
        Senator Chafee...........................................    53
        Senator Crapo............................................    62
        Senator Hutchison........................................    71
        Senator Inhofe...........................................    65
        Senator Lieberman........................................    57
        Senator Thomas...........................................    59
Glickman, Hon. Dan, Secretary, Department of Agriculture.........     9
    Prepared statement...........................................    78
    Responses to additional questions from:
        Senator Chafee...........................................    80
        Senator Crapo............................................    83
        Senator Thomas...........................................    84
Godbee, John, Environmental Manager, Forest Resources, 
  International Paper Corp., on behalf of the American Forest and 
  Paper Association..............................................    28
    Prepared statement...........................................    91
    Responses to additional questions from:
        Senator Chafee...........................................    93
        Senator Crapo............................................    94
Heilig, Dan, Executive Director, Wyoming Outdoor Council, on 
  behalf of the Clean Water Network..............................    30
    Prepared statement...........................................    95
    Responses to additional questions from Senator Chafee........    99
Nishida, Jane, Secretary, Maryland Department of the Environment.    35
Wilson, Ross, Vice President, Texas Cattle Feeder's Association, 
  on behalf of the National Cattlemen's Beef Association.........    33
    Prepared statement...........................................   106
    Responses to additional questions from Senator Chafee........   122

                          ADDITIONAL MATERIAL

Letters:
    Atlanta Audubon Society......................................   135
    Michael Evans................................................   136
    National Cattlemen's Beef Association........................   111
    State of Michigan, Department of Environmental Quality, with 
      attachments................................................   137
    Wind River Environmental Quality Commission..................   146
    Several U.S. Representatives...............................119, 121
    Several U.S. Senators........................................   118
Statements:
    American Farm Bureau Federation..............................   124
    Associated General Contractors of America....................   133
    Clean Water Network, Paul Schwartz...........................   100
    Earth Justice Legal Defense Fund, Mary Wells.................   102
    National Association of Conservation Districts...............   147
    Natural Resources Defense Council, Robbin Marks..............   102
    The Coast Alliance, Jacqueline Savitz........................   101
    Yozell, Sally, Deputy Assistant Secretary for Oceans and 
      Atmosphere National Oceanic and Atmospheric Administration, 
      Department of Commerce.....................................   140



                        CLEAN WATER ACTION PLAN

                              ----------                              


                         THURSDAY, MAY 13, 1999

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Senate Dirksen Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee, Inhofe, Thomas, Baucus, Hutchison 
and Crapo.

           OPENING STATEMENT OF HON. JOHN H. CHAFEE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Chafee. Good morning, everyone. We're delighted to 
have everyone here.
    I want to thank the witnesses for also appearing before the 
committee this morning.
    On February 19, 1998, in response to a directive from the 
Vice President, the Department of Agriculture and the 
Environmental Protection Agency unveiled the Clean Water Action 
Plan. The Plan is a combination of 111 ongoing and future 
actions aimed at improving our Nation's water quality. The 
purpose of today's hearing is to review and discuss this Clean 
Water Action Plan. I know that several of the members of this 
committee have questions and concerns.
    Before we begin, I'd like to note the remarkable progress 
we have made under the Clean Water Act and the great challenges 
that lie ahead.
    I think the Clean Water Action was passed in 1972. Before 
we passed the Clean Water Act, approximately two-thirds of our 
waters were neither fishable nor swimmable. Due to the hard 
work of local communities, States, the Federal Government and 
industry, we have reversed that statistic. Today, approximately 
two-thirds of our waters are now fishable and swimmable.
    However, we lack basic data about the health of many water 
bodies and watersheds. The 1996 surveys conducted by the States 
examined only 6 percent of all ocean and shoreline miles and 
only 40 percent of all lakes and estuaries. We know that many 
watersheds are impacted by pollution, but 615 of the 
approximately 2,000 watersheds in the Nation lack the necessary 
data to make a reliable assessment.
    We may not know everything but what we do know gives us 
cause for concern. According to the 1996 water quality 
inventory, 36 percent of the river miles surveyed, 39 percent 
of the lake acres and 28 percent of the estuary square miles 
surveyed were too polluted to support basic uses such as 
fishing and swimming.
    EPA's Index of Watershed Indicators lists 458 watersheds 
with aquatic conditions well below State and tribal water 
quality goals. An additional 708 watersheds are listed as being 
marginally impaired.
    One of the primary causes of waterbody impairment is 
polluted runoff from residential areas, city streets, 
agricultural lands, forest pollutants and pollutants settling 
out of the air. EPA estimates that 75 percent of all water 
quality impairment is linked to nonpoint source pollution.
    In contrast to point source pollution, which are relatively 
easy to locate, monitor and permit, non-point sources are 
diffuse, hard to locate and even harder to measure. Non-point 
source pollution control forces us to deal with local land use 
decisions and individual actions. Increasingly, the debate is 
centered on such questions of how we farm, where we build and 
who should make these decisions.
    This committee has wrestled with non-point source pollution 
for a good number of years and that is really difficult.
    The majority of the 111 different actions in the Plan 
address non-point source pollution. Some have voiced concern 
over the process by which this plan was developed and whether 
the agencies charged with carrying out these actions have the 
necessary authority under existing environmental law.
    In addition to these procedural and legal issues, we need 
to examine whether the Federal Government and the States have 
the resources necessary to implement these 111 actions.
    Finally, we should consider whether the actions in the Plan 
address the appropriate environmental priorities.
    Senator Baucus isn't here, I know he's expected to be here 
very shortly. Senator Inhofe, do you have an opening statement?

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Yes, I do, Mr. Chairman.
    I regret that we're marking up our defense authorization 
bill and I have a lot of provisions in that and will not be 
able to stay here. I'd like to stay here to be able to hear the 
testimony of Administrator Browner and also my neighbor.
    To let you know how strange politics are, Secretary 
Glickman's godfather happens to be my campaign chairman. You 
figure that out.
    This is very important. I've been hearing from my many 
ranchers in Oklahoma who have expressed concern over the EPA/
USDA Unified National Strategy for Animal Feeding Operations. 
Generally, these comments criticize the Federal Government for 
coming into States and mandating a ``one-size-fits-all'' 
program that may or may not get to the heart of the problem.
    In Oklahoma, we have already passed significant legislation 
that deals with issues relating to the swine and poultry 
industry. We have really a booming industry in our States of 
Kansas and Oklahoma.
    I'd like to introduce a 1-page analysis of the bill that 
was passed last year by the Oklahoma legislature that outlines 
all new measures that poultry and swine operations must comply 
with. I received a letter from the Oklahoma Secretary of 
Environment, Bryan Griffin, that sums it up best. He states, 
``The Federal intervention is unnecessary and could, in fact, 
have a negative impact on our ability to adequately address the 
problem at hand.''
    We have also received comments that address specific 
sections of the strategy, including deregulation of multiple 
animal feeding operations in a single watershed and questions 
regarding the EPA's authority to regulate non-point source 
water pollution.
    In section 4.5 of the strategy, you address significant 
contributors to water quality impairment and state that, ``Even 
a collection of smaller AFOs that may cause impairment should 
be designated as CAFOs.'' You've elected to attack small, 
independent operators who may not have the resources and may 
not be a significant contributor in a particular watershed. 
Potentially, you could be punishing an operator based simply on 
his location.
    Questions have also been raised about the EPA's authority 
to regulate non-point source issues under the Clean Water Act. 
Congress clearly meant for point source discharges to be 
regulated at the Federal level and non-point sources to be at 
the discretion of the States. Now you have potentially expanded 
your authority and are threatening to regulate some operators 
who would have never qualified as CAFOs prior to this plan. The 
EPA and USDA should pull back and let the States continue to do 
their good work that they've been doing on these problems.
    Thank you for giving me the opportunity, Mr. Chairman, and 
for holding this hearing. A lot of Oklahomans are very 
interested in this.
    [This attachment referenced by Senator Inhofe follows:]

              Analysis of Senate Bill 1175 (``Hog Bill'')
                 Office of the Secretary of Environment
                              new measures
    <bullet> requires $0.80 per ``animal unit capacity'' for all LMFOs
    <bullet> mandatory licensing for all swine and poultry liquid waste 
facilities > 1,000 animal units
    <bullet> ten foot separation between bottom of lagoon and maximum 
groundwater elevation (unless ODA grants an exception down to 4 feet 
under certain conditions) for all LMFOs
    <bullet> requires ODA building permits prior to LMFO construction/
expansion
    <bullet> education/training for all LMFO operators and animal waste 
personnel
    <bullet> leak detection systems or monitoring wells for all LMFOs
    <bullet> increases and standardizes setbacks for LMFOs with 
applications on file after March 9, 1998 or established after June 1, 
1998:
        <bullet> 2 miles for operations > 4,000 AU
        <bullet> 1.25 miles for operations * 2,000 AU
        <bullet> 0.75 mile for operations > 1,000 AU
        <bullet> 0.5 mile for operations > 600 AU
        <bullet> 0.25 mile for operations > 300 AU
        <bullet> 3 miles from non-profit camp/recreation site 
        boundaries
        <bullet> 3 miles from Scenic Rivers
        <bullet> 3 miles from State-owned historic properties or 
        museums
        <bullet> 3 miles from public drinking water wells
        <bullet> 1 mile from Outstanding Resource Waters listed in the 
        standards
        <bullet> 3 miles from National Parks
    <bullet> allows NRCS lagoon liner specifications only for 
facilities <1,000 AU
    <bullet> annual lagoon liner evaluations conducted by a licensed 
P.E. or NRCS engineer for all LMFOs
    <bullet> liner retrofitting for all LMFOs located in ``nutrient-
limited watersheds'' or ``nutrient-vulnerable groundwaters''
    <bullet> allows ODA to deny licenses based on evidence that 
property values will be degraded
    <bullet> any swine AFO that voluntarily obtains a license must meet 
all requirements of an ``LMFO''
    <bullet> expansion of ``affected property owner'' for LMFOs > 2,000 
AU to 2 miles
    <bullet> holds LMFOs liable for proper disposal of animal waste 
regardless of who disposes of it
    <bullet> limits the facilities that must meet liner requirements 
and document ``no hydrologic connection'' to only those that house 
animals in a roof-covered structure (i.e., exempts most cattle)
    <bullet> requires Odor Abatement Plans for all LMFOs
    <bullet> OWRB annual report of swine facilities with ground water 
permits
    <bullet> OWRB will define ``nutrient-limited watersheds'' and 
``nutrient-vulnerable aquifers'' in WQS
    <bullet> LMFO lagoons designed for odor abatement, groundwater 
protection, and nutrient conservation
    <bullet> redefines rule advisory committee for more general public 
and environmental representation
    <bullet> substantially increases fines and penalties for violations 
of the Act
    <bullet> establishes a ``Violation Points System''
    <bullet> requires certain records to be kept as long as the 
facilities are in operation
    <bullet> requires certain records to be kept of animal waste that 
is removed from the operation
    <bullet> limits who can certify ``no hydrologic connection'' to 
licensed P.E.s or NRCS engineers
    <bullet> 300 foot land application setback from ``public or private 
drinking water wells'' remains

    Senator Chafee. Senator Thomas.

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Thank you, Mr. Chairman, for holding this 
oversight hearing. As one of the members who requested the 
hearing, I appreciate the opportunity to examine the Clean 
Water Action Plan, especially since the initiative was created 
without the input of Congress, nor was it subject to 
assessments under the National Environmental Policy Act.
    I'm especially pleased to have the Secretary of Agriculture 
and the Administrator of EPA with us today. I want to welcome 
the other witnesses of our second panel. Certainly having two 
witnesses from Wyoming emphasizes the importance of this issue 
to my State.
    Mr. Chairman, none of us would disagree with the importance 
of improving our Nation's water resources. In Wyoming, the 
tourism industry depends on pristine environment. We have 
streams that boast world class trout fishing, so it's 
imperative that we protect our water.
    Let me be very clear on this. I support the efforts to 
improve water quality, but I have substantial concerns with the 
Administration's approach to the problem. As many of you know, 
I strongly oppose the use of Executive orders to launch efforts 
as broad and overreaching as the Clean Water Action Plan. It is 
essentially 111 ``key actions'' affecting Federal agencies and 
State and local governments. Since the Clean Water Act leaves 
non-point source largely unregulated, I believe this committee 
needs to ensure that the Action Plan does not become a 
mechanism for agencies to overstep statutory authority.
    In addition, I question whether the Clean Water Action Plan 
truly targets the problem it is intended to solve, reducing 
non-point source pollution. The justification for the plan is 
based upon EPA's own National Water Quality Inventory, which is 
a summary of States' 305(b) reports. Scientific assessment by 
the U.S. Geological Survey have indicated the National Water 
Quality Inventory is so severely flawed and scientifically 
invalid that it could not be used to summarize water quality 
conditions. The problem with the Inventory is the States use 
different measures to determine water impairment, but yet data 
is compiled into one report, a report that is somehow supposed 
to summarize the status of the Nation's waters. To me this 
comparison makes little sense.
    Earlier this year, GAO released a report that criticized 
EPA's assessment of non-point source pollution problems. 
Specifically, GAO highlighted concerns relating to No. 1, how 
the agency identifies waters polluted by non-point sources; No. 
2, the need for more data to develop cost estimates; and No. 3, 
the extent to which the Federal Government contributes to water 
pollution. Further, GAO cautioned the methodology used in 
determining both water impairment levels and impacts from non-
point source in that this study was underfunded and 
consequently the results are possibly inaccurate.
    These findings trouble me greatly. I understand the 
challenge Federal entities have in allocating limited financial 
resources. However, it seems to me that if the goal is to 
improve water quality with the Clean Water Action Plan, they 
should first have accurately identified the cause of the 
problem. Without using sound, credible science to assess the 
health of our waters, how can we be sure the initiative and the 
taxpayers' dollars to support will reduce pollution. We already 
have programs in place such as the Clean Water State Revolving 
Fund that successfully reduced pollution problems and, in my 
view, the Administration's proposed budget cut does little to 
promote clean water.
    What is the harm in wanting to know the scientific basis 
for an action plan and, more importantly, why is this request 
deemed somehow being opposed to cleaning up our environment.
    After collecting scientific data, if non-point sources are 
found to be a significant obstacle to clean water, then I urge 
the Congress and the Administration to make funding for 
voluntary and incentive-based programs a priority, as was done 
with point source to assist landowners with pollution reduction 
efforts.
    My interest in today's hearing also encompasses financial 
burdens being placed on the State and local communities, 
individual landowners. This issue is not unique, of course, to 
Wyoming. I'm concerned that States are spending their time and 
resources complying with the ``key actions'' called for in the 
Plan instead of protecting water resources.
    Again, my belief is these types of problems are best dealt 
with at the local and State levels rather than federally 
mandated. Certainly we all have a responsibility to improve 
water quality. The question is the approach.
    I hope we don't spend our time talking about the value of 
water quality. We all recognize that. The question is how do we 
best do it.
    Thank you, Mr. Chairman. I look forward to hearing from the 
witnesses.
    Senator Chafee. Thank you very much, Senator.
    We welcome our two witnesses. It's my understanding that 
neither of you have time urgencies?
    Mr. Glickman. Mr. Chairman, I have a doctor's appointment 
and I need to leave about 11:15 a.m.
    Senator Chafee. OK. We will definitely get you out of here 
by then.
    I will start with Administrator Browner.

 STATEMENT OF HON. CAROL BROWNER, ADMINISTRATOR, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Browner. Thank you, Mr. Chairman.
    I want to thank you and the members of this committee for 
the opportunity to appear before you again.
    The issue that we are here to discuss today is the Clean 
Water Action Plan announced by President Clinton and Vice 
President Gore in February of last year. This Action Plan is a 
comprehensive blueprint for restoring and protecting the 
Nation's water resources. It truly charts a course for 
fulfilling the original goal of the Clean Water Act, fishable 
and swimmable waters for all Americans.
    Over the past quarter century, America has made tremendous 
strides in cleaning up its rivers, lakes and coastal waters. 
The Clean Water Act in particular has prevented literally 
billions of pounds of pollution from entering and fouling our 
Nation's waters and doubled the number of waterways that are 
today safe for fishing, swimming and recreation.
    In addition to the environmental and health benefits that 
we have enjoyed because of the Clean Water Act, restoring these 
waters has also generated jobs and economic growth, growth in 
recreation, tourism, and the commercial fishing and 
shellfishing industries. The vast majority of Americans today 
choose for their vacation a water resource, bringing to those 
communities the kind of investments and economic prosperity 
that is so important to all Americans.
    Despite all of our progress in addressing the water 
challenges of this country, about 40 percent of the Nation's 
waterways that have been assessed--I think it is important to 
recognize that not all have yet been assessed--but that have 
been assessed by the States are still unsafe for fishing and 
swimming.
    I think it is fair to say that what we have done thus far 
are very big steps but in many ways it is the easier things 
which we have addressed. As you said, Mr. Chairman, finding the 
point source is far easier than finding and dealing with all of 
the polluted runoff or the non-point sources.
    Pollutions from factories and sewage treatment plants have 
been dramatically reduced as we have gone about our business of 
focusing on point sources and we're doing a better job of 
protecting our wetlands from loss and our soil from erosion.
    Now what we need to do, based on the work of the last 25-30 
years, is to focus our attention on the runoff, runoff that 
comes from our city streets, our rural areas and other sources 
and that results in the continuing challenge of the pollution 
and the degradation to far too many rivers, lakes and coastal 
waters.
    To fulfill the original goals of the Clean Water Act, we 
need to chart a new course to address these kinds of pollution 
problems and that is why the Administration put forward the 
Clean Water Action Plan. With this detailed plan, we give our 
States, tribes and communities the tools, the resources they 
need to strengthen public health protection, to aid community-
based watershed protection efforts, and to provide new 
resources to control polluted runoff.
    The Action Plan was developed through a cooperative 
effort--EPA, USDA, other agencies, the Department of Interior, 
the Army Corps of Engineers, NOAA and the list goes on and on. 
We also received extensive input from State and local 
governments as well as agriculture, environment, industry and 
other stakeholders. Together, we are working smarter, we are 
avoiding duplication and we are getting the most out of the 
programs and resources.
    The pollution problems affecting our waters vary greatly 
from region to region and from watershed to watershed. A one-
size-fits-all approach will not effectively address these 
issues, we agree. Therefore, a watershed approach to 
implementing the Clean Water programs is at the heart of this 
action plan. It literally puts in place the mechanisms and the 
tools to address the remaining water pollution problems, 
watershed by watershed.
    The plan lays out a vision of local leadership in watershed 
restoration and protection. It calls on the Federal agencies, 
State, tribal, local governments as well as the private and the 
public sector, to target efforts to the particular needs of the 
individual watershed, to assess the full range of clean water 
problems and to identify the solutions that will work best for 
that specific watershed.
    Successful models of public-private partnerships for 
watershed management can be found all over the country. This 
plan is literally built on successes across the country. In 
small places like the Guess River in Virginia, the Upper Salt 
River Basin in Missouri to the large watershed such as the 
Chesapeake Bay, the Great Lakes, and the Everglades.
    Although we have completed only 1 year of this plan, 
already a great deal has been accomplished, if I might just 
quickly mention a few things.
    Each of the 50 States, the territories, the District of 
Columbia and 76 tribes have now completed unified watershed 
assessments. They are now building on that and developing 
watershed restoration action strategies that will allow them to 
focus and guide their efforts and the efforts of all within 
their State to restore these waters. In addition, they are 
developing work plans to qualify for the new $100 million which 
Congress provided through section 319 funds to support 
watershed restoration action strategies.
    To respond to environmental emergencies, we have created an 
Interagency Emergency Response Plan that can coordinate Federal 
assistance to State and local governments. We hope these things 
don't occur but for example, the outbreak of pfysteria, 
bringing together all of the Federal agencies with the 
expertise, with the know-how was extremely important to 
addressing that problem.
    An action plan for beaches and recreational waters has been 
issued. It was issued just this last March by EPA. This plan 
complements legislation that was recently passed by the House 
of Representatives and I think is under consideration in this 
body and outlines the agency's multi-year strategy for reducing 
health risks to recreational water users through improved 
recreational water quality programs, pollution alerts and 
scientific research.
    For the last year in which we have information, there were 
over 4,000 beach closures in the United States. Clearly 
focusing on this issue and focusing on these resources is an 
extremely important part of how we go about addressing the 
remaining water pollution problems that the people of this 
country face.
    USDA and EPA have also cooperated in the development of the 
Animal Feeding Operations Strategy to control polluted runoff 
from cattle, dairy, poultry and pig farms. The Strategy is 
aimed at reducing pollution while ensuring the economic health 
of our farmers.
    The Watershed Information Network is now up and running on 
the Internet and accessible to the public as a prototype. It 
can provide communities with the information they need to help 
them make the decisions about how best to protect and restore 
their local waterways.
    This Plan, the Clinton-Gore administration's Clean Water 
Action Plan, provides a vision for a future of clean, healthy 
water and a map that shows us how we can best get there. By 
focusing on restoring and protecting watersheds, we can more 
effectively implement clean water programs. By continuing to 
support locally-led partnerships across all levels of 
government and the private sector, we can nurture a sense of 
shared stewardship of our Nation's waters.
    Again, we appreciate the opportunity to be here today, to 
continue to work with you, Mr. Chairman, Senator Baucus and the 
members of this committee as we complete the task of providing 
to the American people clean, safe, healthy water.
    Mr. Chairman, if I might just again thank you for the 
leadership you have provided for so many years and particularly 
the work that you have done going back to the Clean Water Act 
amendments of 1987 in terms of strengthening the Nation's 
public health and environmental laws.
    Thank you.
    Senator Chafee. Thank you very much, Administrator Browner.
    I think we will reserve the questions until we have the 
testimony from both.
    Senator Baucus, do you have any comments you'd like to make 
now?

  OPENING STATEMENT OF HON. MAX BAUCUS, U.S. SENATOR FROM THE 
                        STATE OF MONTANA

    Senator Baucus. Just very briefly, Mr. Chairman.
    I very much appreciate both the Secretary and the 
Administrator being here.
    Obviously it is a very important subject and we need to 
take a unified watershed approach. I hope that the Action Plan 
that is being contemplated does that.
    We are also going to have to have a coordination among 
relevant agencies and I'd be interested to hear from the 
administration and their comments on how to make that happen. 
Obviously it's better to use existing resources rather than 
duplicate efforts.
    I also might say that some States are taking action on 
their own which has to be recognized. For example, in my State 
of Montana, we have a streamside management zone that is set up 
for timber harvest to address runoff from timber harvesting. I 
hope the Action Plan takes those State plans into consideration 
and allows States to have the flexibility that is needed and 
recognizes the actions States are taking.
    Thank you, Mr. Chairman. I do look forward to hearing more 
about the Plan and the opportunity to probe it a little more 
deeply.
    Senator Chafee. Thank you, Senator Baucus.
    Senator Crapo, do you have any comments you'd like to make 
now?

          OPENING STATEMENT OF HON. MICHAEL D. CRAPO,
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Crapo. Thank you, Mr. Chairman.
    I briefly wanted to thank the chairman for holding this 
hearing. We are finding that the implications of this plan and 
the actions that will be required under it are critical and 
potentially have far-reaching impacts in our State as well as 
in other States that I'm aware of.
    We appreciate this opportunity today to closely review 
these issues and thank you for holding the hearing.
    Senator Chafee. Good. I hope you will be able to stay for 
the balance of the hearing.
    Mr. Secretary, we are delighted to have you here. We don't 
often have an Agriculture Secretary before us. I can't remember 
since I've been on this committee when we have had an 
Agriculture Secretary, so I can clearly say you're the best 
Agriculture Secretary that's appeared before us.
    [Laughter.]
    Mr. Glickman. And you're the best chairman of this 
committee I've ever testified before.
    [Laughter.]
    Senator Chafee. Thank you very much.
    With all those kudos, why don't you proceed?

          STATEMENT OF HON. DAN GLICKMAN, SECRETARY, 
                   DEPARTMENT OF AGRICULTURE

    Mr. Glickman. Thank you very much, Mr. Chairman.
    I want to echo Carol's comments about your leadership on 
environmental issues. I want to thank Senator Baucus, Senator 
Thomas and Senator Crapo for their friendship and help as well.
    I'm going to try to summarize my remarks because I assume 
my entire statement will appear in the record.
    Let me first talk about coordination. Historically, the 
role of EPA and the role of USDA were often viewed as very 
serious adversaries. There are an awful lot of folks out in the 
country who still to this day see agriculture and the 
environment as inconsistent with each other. I don't think 
there is any question that under this Administration, we have 
done I think an excellent job of coordinating our respective 
statutory responsibilities, recognizing that there is nothing 
inconsistent with good stewardship of the land and good 
environmental protection.
    The economy and the environment are compatible, can work 
together. Largely under our programs, through voluntary 
efforts, we are doing that and it is much more comfortable than 
it was 10, 15 or 20 years ago about that cooperation that 
exists.
    With respect to the Clean Water Action Plan, the President 
and Vice President instructed EPA, USDA and the other Federal 
agencies to work together to continue the progress in water 
quality. We have done that in the areas of our jurisdiction. We 
obviously have a great jurisdiction when it comes to the Forest 
Service because we manage the forestlands and most of the head 
waters of the country comes out of the U.S. Forest Service 
activities. So that is a key part of our efforts.
    In addition, the Natural Resources Conservation Service, in 
coordination with all the conservation districts around this 
country, help to guide the stewardship of our private lands. I 
think 72 percent of the land in this country is held in private 
ownership, and helping folks deal the best they possibly can 
with the stewardship of their water is something that is very, 
very important to deal with in terms of the NRCS activities.
    Sound environmental practices such as conservation buffers, 
conservation tillage, forest management, integrated pest 
management, health improved water quality, soil health, 
wildlife habitat, keeping our agricultural and forestlands 
economically productive, economically sustainable, and keeping 
our farmers globally competitive, our farmers, ranchers and 
foresters.
    In addition, we have worked together with EPA and jointly 
held 11 national listening sessions to discuss the draft 
strategy concerning the animal feeding operations. Most of 
these sessions were co-chaired by USDA Deputy Secretary Rich 
Rominger of California, Under Secretary Jim Lyons, who is 
sitting right behind me. We also managed a hotline for the 
public to receive clarification about the draft strategy. We 
received about 1,800 comments on the Animal Feeding Operation 
Strategy from the public, written comments, in addition to 
about 300 oral comments.
    In addition to the Forest Service's present investment to 
improve watershed health on the national forests, the fiscal 
year 2000 budget includes refunds to accelerate maintenance of 
needed national forest roads, the obliteration of roads are no 
longer essential for rural commerce or administrative or 
recreational activities and the Forest Service will be central 
to developing a unified Federal policy for managing watersheds 
administered by all Federal land management agencies. A draft 
of this policy is currently being prepared for publication in 
the Federal Register.
    NRCS provides extensive technical and financial assistance 
to farmers, ranchers and rural communities on water quality and 
quantity issues. It has an incredible field structure working 
with landowners providing technical assistance through the 
Small Watersheds Program, the EQIP Program, Environmental 
Quality Incentives Program, Wetland Reserve, RC&D Program, all 
of which are in your States. In addition to that, USDA has 
enrolled over 30 million acres in the CREP, the Conservation 
Reserve Program, which idles farm land for 10 to 15 years, 
creating valuable wildlife habitat among other amenities.
    We have also established a new program called the 
Conservation Reserve Enhancement Program which establishes a 
Federal-State partnership to encourage farmers and ranchers to 
remove sensitive lands from agricultural use in Oregon and 
Washington. That plan is to provide streamside buffers critical 
to water quality and salmon protection.
    In Maryland, we're focusing on the Chesapeake Bay. We 
focused on Illinois, Minnesota and in all there are seven CREP 
programs in place. Several others are under development.
    With respect to the Clean Water Action Plan, first, let me 
mention as it applies to private lands, the Clean Water Action 
Plan emphasizes voluntary approaches to solving problems. A key 
component of the strategy we at USDA have used since the dust 
bowl era of the 1930's, to assist farmers and ranchers in 
conserving our natural resources.
    When we vary very far from the voluntary approach, we 
usually get a lot of blood pressure out there in the 
countryside. We've talked about this over the years. I, myself, 
talked about it when I was on your side of the aisle when I 
used to deal with the Administration on a variety of issues. 
The fact is we're most effective at USDA when we pursue and 
promote voluntary practices. In fact, for that reason, 
generally speaking, the public believes very strongly that our 
cooperative conservation practices are of great, great help to 
them.
    In addition, the Department's natural resource conservation 
and environmental protection activities will continue to 
involve the public through locally-led conservation including 
people at the local level to identify various private, local-
State funding sources that would help them meet their goals.
    For example, the community of Squaw and Baldwin Creeks, 
Wyoming, I know Senator Thomas is well aware of that, 
exemplifies the meaning of locally-led conservation. The Squaw 
and Baldwin Creeks contributed significant amounts of silt and 
nutrients to the Popo Agie River. Primarily due to the 
subdivision of large grazing areas into small ranchettes, the 
resulting concentration of livestock caused the stream banks to 
become badly eroded and storage capacity at the reservoir was 
greatly reduced by sedimentation and trout habitat was 
degraded.
    Using locally-led conservation efforts, this watershed 
rehabilitation project began in 1990 installing erosion and 
sediment control conservation practices, restoring stream, 
repairing habitat and improving grazing practices. They have 
improved the irrigation and fishery capabilities in the 
watershed and the restored natural, meandering pattern of the 
creeks.
    These experiences, and there are many others like them, 
when people were first very skeptical of this project but when 
they saw the water getting clearer, demonstrating the voluntary 
efforts of local people who understand the natural resource 
needs of their communities, they liked the project. We believe 
these experiences can continue elsewhere in the country.
    Mr. Chairman, I'd like to make a couple of other quick 
comments. In response a bit to Senator Thomas, we have made 
funding for voluntary programs a priority at USDA. For example, 
we have asked for $300 million for the EQIP Program in fiscal 
years 1999 and 2000. Congress did not provide the full amount 
that we requested, but provided about $174 million for EQIP 
which was a cut of $26 million from fiscal 1998.
    I mention this because the EQIP Program is the heart of our 
technical assistance program to provide voluntary compliance to 
farmers and ranchers who need the help. The primary focus of 
the Clean Water Action Plan as it relates to USDA and EPA is 
voluntary nutrient management planning. The best way to do that 
is to have the technical resources and people out in the 
countryside who are able to help farmers and ranchers meet 
their needs.
    Our key role in this area is providing technical and 
financial assistance to landowners based upon local 
conservation needs, with local leadership on a voluntary basis. 
I think because of that, we have become a lot more successful 
than we used to be in dealing with the problems.
    Thank you very much, Mr. Chairman.
    Senator Chafee. Thank you very much, Mr. Secretary.
    Let me ask you the following. Whether we like it or not, 
the agricultural operations in the United States, it's my 
understanding, are becoming bigger and bigger and more 
concentrated, in other words mammoth swine herds and cattle and 
poultry operations. From these you get a farmer, I presume and 
you can help me out on all this, the manure that he recovers 
and seeks to spread on his fields is too great for what the 
fields can absorb. In other words, he's got so many swine or 
whatever they might be that the fields can't take it. What do 
we do in a situation like that? How do you handle that?
    Mr. Glickman. First of all, you are correct in your 
assumption. That is, we've seen, particularly in the livestock 
industry, a very rapid consolidation in beef, poultry and pork. 
There are significant, even monumental, environmental problems 
associated with this what some would call the industrialization 
of agriculture where you feed large, large numbers of animals 
in confined areas. This is not to say whether it's good or bad; 
it's a fact. It's happening and it's happening with respect to 
the raising of almost all animals in this country.
    The States have created nutrient management programs and 
manure management and runoff programs both of water and waste 
and that's one of the reasons why the EPA has been designated 
as the lead to try to develop some national standards, 
hopefully voluntarily imposed in most cases--imposed is 
probably not a very good word--voluntarily encouraged, in order 
to deal with this problem.
    In addition to that, our Agricultural Research Service is 
actively from a research perspective on ways to convert that 
waste into productive things, compost, fuels, all sorts of 
other things to deal with the fact that there may be other uses 
for these particular products.
    You are talking about significant problems, runoff is 
significant and it's one of the reasons why the Clean Water Act 
has provided, we believe, the authority for the Clean Water 
Action Plan to take place.
    Senator Chafee. Ms. Browner, I'd like to address the issue 
of abandoned mines. It's my understanding that in some States, 
50 percent of the water impairments are adversely affected by 
acid drainage from abandoned mines. The EPA has estimated the 
Federal liability for abandoned hardrock mines on Federal lands 
is a whopping $4 billion. What can we do about this? Obviously, 
in many Western States, the Federal land is a very significant 
portion of the total.
    Ms. Browner. Mr. Chairman, you're exactly right. The issue 
of abandoned mines or improperly closed mines creates a number 
of problem, significantly water pollution problems. These mines 
can create an opening, if you will, that can contribute to 
groundwater contamination and even in some instances, because 
the groundwater connects to surface water, a river or lake 
contamination.
    The numbers are quite large. We would certainly look 
forward to the opportunity to work with this committee or any 
other committees to develop legislation, perhaps good samaritan 
legislation, that would allow parties who are willing to take 
the steps to close these, to provide the safeguards, to do so 
without any kind of adverse liability.
    I don't think this solves the entire problem by any means 
but I think it could be helpful in terms of encouraging people 
to take some reasonable steps that they are pretty much 
inclined to take but are worried about accepting liability when 
they take those steps.
    Senator Chafee. It's my understanding Arizona and Oregon 
attribute 50 percent of their water quality problems to non-
point source pollution from Federal lands?
    Ms. Browner. I think that is an accurate figure. I'm sure 
it is. I don't think all of that is coming from mines but from 
other activities.
    Senator Chafee. Probably not all from mines, no.
    Senator Baucus.
    Senator Baucus. I want to first underline the point you 
both made very well about the need and also the progress in 
coordination between the EPA and USDA. You well know that a lot 
of farmers and ranchers, USDA is OK but EPA is another matter. 
The more you can work together and EPA take some of the cues 
from USDA as to how they have good relations. One frankly, Ms. 
Browner, is something that you have a hard time solving and 
that's the number of personnel. There's a lot of USDA personnel 
on the ground and in the field. They are there, know the people 
and over time have built up relationships, have cups of coffee, 
their kids go to the same schools and that kind of thing. But 
there are so few EPA personnel on the ground, the perception is 
those are people out of State, that they are in Denver or 
Washington making these decisions rather as locals.
    I really urge you to keep working on that and develop that 
trust. I commend you for the efforts you have made thus far.
    How are the States going to pay for this? I don't 
understand how States are going to pay for it.
    Ms. Browner. They are eligible, for example--all 50 States 
have completed their unified watershed assessments--that then 
makes them eligible for the new $100 million that Congress 
added to section 319. That program had previously been funded 
at $100 million and it is now at $200 million. We are asking 
Congress in this year's budget to continue that. That money 
will be available. It's a State formula and we do anticipate 
every State will qualify for those resources.
    In addition to that, we provide other grant monies to the 
States and we are asking Congress to permit the States, if they 
so desire, to take up to 20 percent of their State Revolving 
Fund money and turn that into grants for local communities and 
for local efforts. In no way do we suggest that the challenge 
of wastewater sewage plants doesn't continue but when we look 
at the impacts on our rivers and lakes and the health of our 
rivers and lakes, we think it would be important to give States 
this additional funding flexibility. So we are asking for that 
in this year's budget.
    Senator Baucus. Some of the witnesses on the second panel I 
think are going to voice their concern about inadequate 
information in determining what water bodies are impaired, that 
the data is not that reliable, that there is not enough out 
there really to know. Is there more money for the U.S. 
Geological Survey, for EPA or the States to conduct more 
monitoring to get better data?
    Ms. Browner. Yes, there is.
    Senator Baucus. How is that going to happen?
    Ms. Browner. If I might say, it's important to remember 
that it is the States who make these determinations, who make 
these designations in terms of what is impaired or what is not 
impaired. For example, I'm sure Senator Thomas is keenly aware 
we worked very closely with Wyoming and in the initial review, 
looked much broader and in fact, now it's a smaller number of 
water bodies the State believes are impaired.
    What we are trying to do is work with each of the States to 
make sure that they have the tools they think are important in 
terms of the kind of assessments of water bodies they need to 
do. There is funding available. Section 106 funds are available 
to States to do the kind of research and monitoring they need 
to do to make sure these reports are accurate.
    Senator Baucus. Secretary Glickman, some of the cattle 
operators are concerned how all this will affect offsite manure 
management, that is many operators will sell the manure to a 
third party who hauls it away, uses it himself or sells it. 
They are concerned that they might be liable for how manure is 
used once it leaves their operation. How is that being handled?
    Mr. Glickman. I'm not aware there is any third party 
liability involved here. I'd have to think about that 
particular issue. Maybe that will come up in the next panel. 
That's one of the reasons why we need to look at this on a 
watershed basis, just on a ranch by ranch, farm by farm basis 
so there are some kind of general standards across the board.
    One thing I'd like to mention quickly on the issue of 
funding is one of the things we find most in agriculture is 
that program funding is great but what folks really need is the 
technical assistance as to how to comply, how to do the basics 
in terms of the practices, tillage practices and those kinds of 
things.
    I want to put in another plug for those technical 
assistance dollars particularly in the NRCS budget. The 
supplemental that I think you were all dealing with last night, 
I think you did put in enough assistance so we could provide 
technical assistance for the CRP Program. We were having to cut 
back on the NRCS technical assistance on CRP. Having those 
human beings out there in the countryside, the ones you just 
mentioned, makes a big difference in peoples' lives in order to 
comply voluntarily. I hope we can keep those people out there.
    Ms. Browner. If I might add to that, I think one of the 
great areas of agreement between EPA and USDA is the 
comprehensive nutrient management plans. This goes to the issue 
of manure application. We recognize at EPA that USDA has the 
relationships with the farmers, they have the technical 
expertise and they will be taking the leadership and working 
with farmers who do use the manure from these larger facilities 
to ensure that it is applied properly.
    The issue for us from the EPA perspective is not the farmer 
who wants to enrich their soil and grow better crops with 
manure, it's these very large facilities. In the Delmarva 
Peninsula, the poultry operations now produce as much waste as 
the Washington, D.C., Virginia, Baltimore metropolitan area. We 
all would agree that waste from the sewer plants should be 
properly managed. When you look at the volume of wastes that 
are coming not from the small farmer but from the sort of 
industrial facilities, the issue is simply the appropriate 
management. It is not the farmer who rightly takes advantage of 
applying manure so they can grow.
    Senator Baucus. I understand and I think people agree. I 
think most operators just want to make that clear.
    Ms. Browner. That's why having USDA do the plans with the 
farmers I think actually is one of the real sensible things in 
this program. They have the expertise, they have the 
relationships. We know that.
    Senator Baucus. Thank you.
    Senator Chafee. Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman.
    I thank both of you for your comments. If one just flew in 
from Mars and listened to you, they would think everybody was 
on board. That's not the case, as you know. There's substantial 
amount of concern in the country and I have a number of 
letters, you have a number of letters, I'm sure, and there 
indeed will be some lawsuits filed as a matter of fact.
    Specifically, Secretary Glickman, you mentioned the one-on-
one assistance which I certainly agree with, yet your budget 
for 2000 proposes substantial cuts in field services. This 
discrepancy between the field staff will be lost, between OMB 
numbers and NRCS calculations, is 200 from OMB and 1,000 staff 
members from NRCS. How do you reconcile those two things?
    Mr. Glickman. Part of this was because there is a cap under 
section 11 which funds the technical assistance programs like 
CRP. With that cap, we couldn't ask for additional money to 
provide some of that technical assistance. Hopefully, working 
with you all and with OMB, we'll be able to.
    Senator Thomas. But you're reducing it, not just keeping 
the cap. Why would you reduce it when you tell us how important 
it is to have NRCS out there in person?
    Mr. Glickman. I'd like to eliminate the cap, myself.
    Senator Thomas. I'm not talking about the cap; I'm talking 
about reduction of 1,000 which is the number that comes from 
your agency.
    Mr. Glickman. One of the reasons is the cap but I would 
have to tell you we're talking about reductions across the 
board at USDA in FSA operating staff and everything else. When 
you come up with these budgets, we couldn't exempt one part of 
the group from the whole thing.
    Senator Thomas. I understand but this is part of the 
difficulty. You all come up and talk about these things and in 
the next paragraph, well, we're not going to do that because of 
caps and so on. Those things are difficult to take to the 
country.
    Ms. Browner, you've indicated in the past that you thought 
there was sufficient authority for the action plan?
    Ms. Browner. Yes.
    Senator Thomas. Yet I understand you went to the 
Subcommittee on Appropriations and asked that the subcommittee 
members provide authority in the 2000 appropriations bill to 
enable EPA to implement the projects?
    Ms. Browner. That's not what I was seeking. I can explain. 
I just mentioned it previously which is we are asking the 
appropriators to allow the States to take 20 percent of the 
money they receive and transfer that from the Revolving Loan 
Fund Program into a grants program. It's not a question of 
legal authority; it's a question of giving the States greater 
flexibility in how they make use of their funds.
    Senator Thomas. That's not what it says in the ``Inside 
EPA.''
    Ms. Browner. Inside EPA is a private publication; it is not 
owned by the Environmental Protection Agency.
    Senator Thomas. I understand that but they are wrong 
because they're private?
    Ms. Browner. No. I know what I said. They're wrong because 
I know what I said.
    Senator Thomas. I see. Let's see what the committee says.
    Tell me something else then, the Gore plan was put into 
place in 1997 and you've conducted apparently some listening 
sessions. Did you solicit public comment?
    Ms. Browner. Are you referring to the Clean Water Action 
Plan discussed in February 1998?
    Senator Thomas. Yes. It stated in 1997, I believe. You were 
asked to put it together.
    Ms. Browner. Yes. There were listening sessions.
    Senator Thomas. No, I'm not talking about listening 
sessions. I'm talking about NEPA kinds of--after your plan was 
out there did you solicit and have a time for public comment?
    Ms. Browner. The keeper of the NEPA statute, the CEQ, 
Council on Environmental Quality, has responded I think to this 
committee's questions as to whether or not NEPA would apply to 
this plan. They do not believe that NEPA does cover this plan.
    Senator Thomas. You did not have a public comment period 
after the plan was announced?
    Ms. Browner. This plan is not covered by NEPA. That is what 
CEQ has determined, it's not covered by NEPA.
    Senator Thomas. My question is, did you have a public 
comment period?
    Ms. Browner. There's been a tremendous amount of public 
input in the creation of this document.
    Senator Thomas. You did not have a public comment period?
    Ms. Browner. This plan is not covered by NEPA.
    Senator Thomas. That's not what I'm asking you, 
Administrator. I don't know that I accept that but even if you 
do, this is a pretty major Federal action. Did you have a 
comment period?
    Ms. Browner. It's not a Federal action, with all due 
respect. It's a blueprint laying out a series of proposals and 
actions. Any one of those which will result in any ``Federal 
action'' in the legal sense is obviously subjected to all of 
the requirements, notice and comment, publication in the 
Federal Register.
    So, for example, the work that we've all been doing on the 
CAFOs and AFOs, has been in keeping with all of those 
procedures, but this plan, in and of itself, is simply a 
blueprint that lists the Administration, in conjunction with 
lots of other peoples' best thinking on what are the steps that 
would need to be taken. Any individual step would have to play 
in accordance with all of the legal requirements.
    Senator Thomas. Thank you but you did not have a comment 
period then for the Plan? It's a pretty simple question. Did 
you have a comment period after the Plan was announced?
    Ms. Browner. The Plan is the subject of extensive outreach.
    Senator Baucus. If I might jump in here, at my peril, there 
have been at least 11 public hearings all over the country.
    Senator Chafee. On the Plan, I think the question is kind 
of a yes or no.
    Senator Baucus. People have commented to those public 
hearings.
    Senator Thomas. I understand that but I have a fairly 
simple question, whether or not there was a comment period when 
the Plan was issued. The answer is no.
    Senator Baucus. I don't know.
    Senator Chafee. Is that correct, Ms. Browner? You have a 
plan out there with 111 recommendations.
    Ms. Browner. Yes.
    Senator Chafee. Senator Thomas says did you have a hearing 
and what are you saying, you had a hearing on each one of the 
subjects, the 111?
    Ms. Browner. As each of those would go forward into an 
implementation phase.
    Senator Chafee. Will go forward in the future?
    Ms. Browner. Yes, they would be subject to whatever 
requirements of the law there are. So for example, the best 
example right now would be the CAFOs and the AFOs for which 
there have been hearings, there's been notifications. All of 
that has been done in accordance with the requirements.
    I think what the Senator is attempting to suggest is that 
the Plan, in and of itself, is a ``Federal action, a 
rulemaking,'' and therefore should have been subjected to a set 
of procedural requirements. We do not believe that is the case. 
We believe that individual actions will be, in some instances, 
subject to all of that and we will follow all of that. Having 
said all of that, I want to be very clear, the amount of public 
involvement and public input in this document was extensive.
    Senator Chafee. OK. Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman.
    I'd like to follow up on that in one context. If I 
understand what you're saying, Administrator Browner, the Clean 
Water Action Plan has nothing new in it, there's no new binding 
regulatory authority involved?
    Ms. Browner. Correct. It is not, in and of itself, self-
executing. Any requirement that could be placed on any industry 
to reduce their pollution would be subject to all of the 
procedural requirements of the Act.
    Senator Crapo. So we have your assurance that if there are 
any new requirements that will result from the Plan----.
    Ms. Browner. Any regulatory requirements, that's correct.
    Senator Crapo. [continuing.] . . . there will be complete 
NEPA compliance?
    Ms. Browner. No. Clean Water Act compliance. That's a good 
question. I don't know, and I'll be honest with you, is there 
anything in here of the 111-plus steps that might, in and of 
themselves, be subject to NEPA. I think the question that was 
posed by the committee previously was, was the Plan itself 
subject to NEPA? In terms of the individual actions, I am happy 
to have CEQ respond to you with respect to that. I just don't 
know the answer to that.
    Senator Crapo. I'd appreciate that. I would expect that 
most of them, if they're going to be major new changes in 
regulatory policy, would require NEPA compliance. Would you not 
expect that?
    Ms. Browner. No, NEPA doesn't cover all changes in 
regulatory policy. For example, in the work we're doing under 
the NPDES permit with respect to the large, industrial, 
agricultural facilities, I don't think anyone is of the opinion 
that would be subjected to a NEPA review. It will be done in 
accordance with the Clean Water Act requirements.
    Senator Crapo. I would like the CEQ to respond.
    Ms. Browner. We can ask them that question for you, 
certainly.
    Senator Crapo. I'd also like to talk with you about the 
question of flexibility. In the first paragraph of your written 
testimony, you indicate that a one-size-fits-all approach is 
not the right approach. Both of you have testified today about 
the importance of flexibility, watershed approaches and so 
forth. That all sounds very good.
    The concern that we are picking up from those out in the 
country who are dealing with this, whether at the State or 
private levels, is what they are seeing and what they are 
finding is the opposite, strong concerns about one-size-fits-
all rules and the failure to take into consideration as this 
proceeds, the various differences in geography that can impact 
dramatically.
    I'm thinking myself right now about the CAFO and AFO 
situation where Idaho has 15 or 20 inches of rainfall and other 
States have much more rainfall, and you have a difference 
between arid climates and other types of climates which does 
not seem to be taken into account at all.
    The question is, we can agree in this room and can all talk 
about the importance of flexibility and not having one-size-
fits-all requirements, but how do you have a national standard 
that is developed that then has to be met in individual 
watersheds without having a one-size-fits-all approach?
    Ms. Browner. The States will manage the permitting of the 
facilities and as is true under existing water quality 
permitting programs managed by the States, they will take into 
account the special needs of their State. You mentioned, for 
example, the geological formation. I'll give you a good 
example. An example might be that in one State, a facility can 
be constructed in such a way so that it is ``zero discharge,'' 
but that exact same construction in another State, because they 
have different soil, would not be zero discharge. That is what 
the permitting process your State will manage is designed to 
speak to.
    Senator Crapo. So do I understand you to say that the 
States will be able to apply the standard as flexibly as they 
can or can the States design the standards?
    Ms. Browner. Excuse me for 1 second. Because your State is 
in a slightly different situation, your State has never--as I 
understand it, most of the States here manage their water 
quality permitting, we have delegated that authority to them. I 
think there are seven where that has not occurred for any 
number of reasons. We just completed Texas, a very large State. 
Your State does not have it. We'd love to work with them on 
delegating it to them and then they would actually be the 
permitting agency.
    However, we will, if we continue to be the permitting 
authority, as we are today in your State, obviously take into 
account the local concerns. We would work with the State agency 
even though they cannot actually legally issue the permit. The 
far better way to resolve this would be if we could work with 
your State to take control of the program.
    Senator Crapo. I'd like to see that move ahead as well and 
see Idaho given that delegation, so I'd like to do whatever I 
can to work with you in that regard.
    When that arrives and in the other States when that is done 
the question still exists to me, if the State is simply being 
allowed to implement an already rigid, one-size-fits-all set of 
rules, that doesn't really get you flexibility just because 
you're allowing the State administrators to be the ones who 
make the decisions that are already predetermined or at least 
preguided by very rigid structures.
    Ms. Browner. Let's go back to my example. I'll pick my home 
State of Florida. We have very different soil types than your 
State of Idaho. You could construct a facility, one of these 
large, industrial, agricultural facilities in your State and it 
would be zero discharge, it would not be required to have a 
permit for discharge because it is not discharging and that 
would in part be a function of both the engineering and 
geological formations in your State. That exact same 
construction project could move to Florida and because of their 
soils, would require a permit.
    There are many examples but that I think is a relatively 
easy example of where State differences will come into play and 
should. We absolutely agree they should come into play.
    Senator Crapo. We're in an early enough stage of this where 
it's hard for me to give you specifics, they aren't there yet. 
I would like to work with you so that when we get to the final 
analysis, you and I can agree that in fact we have reached a 
point where the States are given that flexibility. It sounds 
good and I'm glad to hear you talking in this way because there 
is a lot of concern on my part and those who are dealing with 
this at its initial stages that that is not how it will evolve.
    Senator Chafee. We have to move on to the questioner in a 
minute.
    Ms. Browner. There are approximately, people estimate about 
400,000 to 450,000 animal feeding operations. Working with USDA 
and the States, we estimate that 95 percent of those will 
simply work through best management practices on a voluntary 
basis and will not require permits. It is only the very large 
ones, 1,000 animal units, those that are located on impaired 
water bodies which your State makes a determination about, but 
the universe is not all of these facilities out there. It is 
much smaller, about 5 percent of the facilities.
    Senator Crapo. Thank you.
    Senator Chafee. Thank you, Senator.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    Administrator Browner, I have two areas of concern. The 
first is one you and I visited about on the stormwater 
regulations and the situation we have in my State where we have 
counties that basically use vegetative overland processes and 
they don't have ordinance-making power. They are very 
concerned; in fact, so concerned that they formed a coalition 
in Texas called the Stormwater Coalition because they are 
panicked really.
    Ms. Browner. We met with them. Did you know that?
    Senator Hutchison. Yes. I know you met with them and they 
said they took many of your people out to show them what they 
were doing, but they didn't get feedback, they didn't get any 
indication there was an understanding of their situation such 
that they would be able to have some relief from the one-size-
fits-all regulations. If you have another view, I'd like to 
hear it.
    Ms. Browner. I obviously was not a part of the meeting. 
Based on your request and your concerns and I'd also heard of 
the concerns, we did ask people to go meet with them. Our 
impression is that it was a helpful meeting.
    One of the concerns you had raised to me was the question 
of urbanized versus rural. I think we've worked through that 
now and if there is any confusion left on that, Phase II is not 
about the rural activities, it's about the urbanized areas of a 
county not the rural areas of the county. I think that was a 
big concern.
    We also talked about grading of roads; that was another 
issue that came up, sort of the maintenance grading of roads or 
not changing the slope or the curve of the road, just 
maintenance grading. That would be exempt which we think takes 
out a lot of the concerns.
    There were three issues. One was the geographic area 
covered and the grading.
    Senator Hutchison. Tell me how you are handling the issue 
of urban versus rural?
    Ms. Browner. I think that may have been, in part, a 
confusion. If we need to fix it in the rule, we will fix it in 
the rule. We are under the impression there was a 
misunderstanding. The intent is not to cover the rural areas 
and if there is an ambiguity, we're happy to go back and look 
at the final rule as we complete the work on that.
    The third question is a question we are still working on 
and is a question very unique to Texas, and that is the 
structure of your local government. For those activities that 
would have to be taken pursuant to the Clean Water Act, the 
question is where the responsibility and authority will rest, 
and we are continuing to work on that.
    Senator Hutchison. Yes, our counties don't have the ability 
to actually regulate in that area, but many of these counties 
don't use sewers, they use the vegetated ditches. One of their 
concerns was that was not going to be exempt or that you 
weren't going to take into account when that worked. Actually, 
it is their understanding that in many cases, that has been an 
acceptable process but under the rule, they were concerned they 
were not going to be allowed to have that as an acceptable 
process.
    Ms. Browner. I think what they had sought, and maybe we 
misunderstood them, was a complete exemption for all of that. 
We don't disagree that there are instances where that is the 
preferred solution and it works well. I think the concern we 
have is simply exempting all of those. I think we have to 
continue to work with them to come to an agreement on how you 
would deal with those that we all could agree are working and 
serve and are the sensible solution and then for those which 
may not provide all of the pollution protection that is 
necessary.
    We don't disagree that in some instances that may, quite 
frankly, be the right decision. I have to say I'm disappointed 
if your report of the meeting is that it didn't go well. I did 
check with people after our meeting. I asked them to go to the 
meeting and I checked with them to find out how the meeting 
went. They were under the impression that we had made some 
progress. So if we need to go back, we will go back.
    Senator Hutchison. It may be that there just wasn't a 
communication of where they were going to have some relief from 
the kind of one-size-fits-all, everything has to be underground 
view of the regulations that they have. This is the comment 
period and hopefully, the overland route will be acceptable 
when it's acceptable.
    Ms. Browner. If you can just convey to them, and we're 
happy to do it again, that we felt we learned a lot and that 
certainly reduced geographic coverage in terms of the rural 
versus urbanized areas of the county, the grading of roads, the 
maintenance grading of roads, and we want to continue to work 
with people on the jurisdictional question.
    Senator Hutchison. That's fairly rigid for us because we 
just don't have ordinance-making for counties and it's very 
jealously guarded by cities.
    Ms. Browner. I think we would agree with you that obviously 
there can't be a requirement for a body to do something if they 
don't have the authority to do it. I think the issue we're 
trying to resolve with the State right now is would the State 
be the responsible entity.
    Senator Hutchison. I'm sorry, it appears my time is up and 
I thank you. I didn't get to get into the Clean Water Action 
Plan and the issue of our feedlots and there are concerns both 
by our livestock feeders, but also by our TNRCC, our State 
regulatory agency about this plan. There is a feeling that 
maybe the action plan is being substituted for regulations and 
they are losing some of the emphasis on the Clean Water Act in 
favor of the action plan.
    There's a lot of concern but I'm going to have to go to the 
mark-up of the supplemental appropriation, so I'm not going to 
be able to stay but I will submit some of these questions in 
writing, if you would permit me, to let you know of some of the 
concerns.
    Senator Chafee. OK. We promised the Secretary he could be 
out of here by 11:15 a.m., so we have 5 minutes. We'll have 
rapid fire questions of him before he goes.
    I want to follow up on what Senator Thomas was asking about 
the personnel. My records show that 10 years ago in 
conservation operations, technical assistance for just the 
thing we're talking about, you had 9,560 full-time equivalents. 
The figure for the next budget is not 9,560 with these added 
duties that would come on here but 8,769, a little less than a 
1,000 drop. In watershed operations and small watershed 
authorities, you had 10 years ago, 1,400 full-time equivalents, 
now it's going down to 586.
    I know you say that is due to the caps but yes, the caps 
have come down, we recognize that, so you presumably have less 
money overall. It seems to me, when you take some of these, 
going from 1,400 to 586, that's a whale of a drop, about 60 
percent, something like that isn't it? So you've got to get in 
there and battle for these things.
    Mr. Glickman. Senator, I can't argue with your numbers. I 
was listening to Senator Thomas and the fact is that oftentimes 
in our Government, and this is a bipartisan issue, we tend to 
focus on program dollars rather than on people. When it comes 
to a lot of the things we do at USDA, particularly the 
conservation issues, these are not programs, these are human 
beings out there helping folks do their job.
    For a lot of different reasons, overall budgeting at USDA, 
our total numbers are down as much as 15,000 people over the 
last 5 years at USDA across the board. Maybe the focus hasn't 
been enough on this particular aspect, which is the personnel 
side of the conservation operation. I'm saying to you I don't 
disagree with what you're saying.
    Senator Chafee. Because it seems to me the programs that 
we're selling here, one-size-doesn't-fit-all, we're going to 
give the farmers technical assistance as well as some financial 
assistance, and the technical assistance obviously is people.
    Any other questions of the Secretary?
    Senator Thomas.
    Senator Thomas. Just a quick one, the road moratorium on 
the Forest Service. You've had that, it's been in there by the 
Forest Service. Now the water plan mandates the decommissioning 
or obliteration of 5,000 per year by 2002. I don't understand 
how these two things work together and I don't understand why 
that's not some kind of a major action.
    Mr. Glickman. Perhaps Under Secretary Lyons may want to 
comment quickly on your question.
    Senator Chafee. Why don't you identify yourself?
    Mr. Lyons. My name is Jim Lyons. I'm Under Secretary for 
Natural Resources and Environment at USDA.
    Senator Thomas, some goals were set in the Clean Water 
Action Plan and for it to be comprehensive in looking at the 
various issues that affected clean water, and one, of course, 
is roads and the issue of maintenance of roads. We set some 
goals toward the development of a plan for decommissioning 
roads that were no longer needed and also for maintaining the 
roads that are needed.
    We're proceeding with the road rule of which you're aware 
that Chief Dombeck has put together and that will serve as a 
basis for providing guidance in terms of future road management 
and maintenance.
    I'd say that the primary focus now really is in trying to 
develop a final rule that will allow us to determine, working 
with local communities, what roads we should maintain, which 
roads are no longer needed for public transportation, access or 
recreation use and then working to secure the funds to 
decommission.
    Senator Thomas. Does the water plan specifically as for 
5,000 miles?
    Mr. Lyons. The water plan I think set a goal of 5,000 miles 
based on the preliminary estimates we had then. I think it is 
probably fair to say, given the fact we have over 400,000 miles 
of road, that's a fairly reasonable goal to set in terms of 
decommissioning. The determinations are going to be made 
through a process that involves local communities and forest 
planning.
    Senator Thomas. We just went through a process. We've just 
had 18 months of moratorium and that was what it was for, 
wasn't it?
    Mr. Lyons. No. That was related specifically to the 
construction of roads in roadless areas. We're in the process 
now of developing a final rule for managing the transportation 
system in the National Forest System. That will be finalized 
sometime next year.
    Senator Thomas. Will that be put out for public comment?
    Mr. Lyons. Yes, sir.
    Senator Chafee. Did you say you've got 400,000 miles in the 
Forest Service?
    Mr. Lyons. We think 400,000-plus.
    Senator Chafee. So you take 5,000 out per year?
    Mr. Lyons. Our goal was to eliminate 5,000 per year. We 
actually lose more miles, Mr. Chairman, out of neglect and 
failure to maintain the roads than we actually lose through 
active----
    Senator Thomas. I'm not debating whether that is a good 
idea or not. This is a procedural question for most people. I 
remember the feedback when you had an 18-month moratorium, then 
you did a study, you had comments, people had their comments 
in. Now you've got a new action plan and you have a different 
set. These are the kinds of things that keep peoples' blood 
pressure up a little high.
    Senator Chafee. Senator Crapo, do you have a question of 
Secretary Glickman?
    Senator Crapo. I have a bunch of them but since there's 
about 30 seconds left, I'll submit them to the Secretary.
    Senator Chafee. And would you be good enough to respond to 
the questions that are submitted to you in writing?
    Senator Baucus. I have some questions about wolves.
    [Laughter.]
    Senator Chafee. Thank you, Mr. Secretary.
    Any other questions of Ms. Browner?
    Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman.
    Administrator Browner, has a cost analysis been done to 
calculate the requirements to implement the Clean Water Action 
Plan? What I'm getting is we talked about the need for EQIP 
funds and all the other different sources of help that we need 
to provide to achieve this, have we identified the cost that 
the plan would impose on State and local government, the 
private sector and so forth as we proceed, if it were 
implemented?
    Ms. Browner. As each of the individual actions are 
developed--I'm not the keeper of the Forest but that probably 
is a good example, in the Action Plan, it's a goal and they 
then have to come through the entire regulatory process--public 
comment and notice--with all of the cost information that 
you're talking about. Another example would be in the AFO-CAFO 
work, those issues are being looked at.
    So they are looked at in the context of the individual 
actions as those are developed beyond the basic plan which is 
really, I'll be honest with you, the best way to do it because 
it's when you get into all of the details of how to address the 
large industrial feeding operations that you can start to best 
understand that and to make sure that you are achieving an 
appropriate cost-benefit relationship.
    Senator Crapo. I've been out on the ground with some of 
these operations, the smaller ones.
    Ms. Browner. Which are probably the ones that are not 
covered?
    Senator Crapo. I'm hoping I'm hearing you right, that I 
didn't need to be out on the ground working with them on this. 
As I was out on the ground with them, the issue that seemed to 
be the biggest, after getting past the questions of 
jurisdiction and whether the rules were going to result in 
anything positive rather than just work that didn't create an 
improvement for the water quality, the question was how are we 
going to find the financial ability to do what it appears we're 
going to be forced to do.
    Again, we don't know what that is going to be yet, so 
there's a lot of concern being generated simply because of 
these questions, but it seems to me that one of the most 
important things we can do here, if we're going to answer these 
questions about EQIP funding and all of the other resources 
that we can bring to bear, we'd better find out how much each 
of the individual components are going to cost so that we can 
build the case for providing the resources to solve these 
problems, so I would encourage a very aggressive focus on that.
    One last comment because I know the chairman wants to move 
on quickly here. With regard to the question of flexibility 
that I started out visiting with you about, back in September 
of last year, the Idaho Department of Environmental Quality and 
the NRCS, as well as your EPA Assistant Administrator, wrote a 
letter to both Secretary Glickman and yourself indicating that 
Idaho is already using a form of the unified watershed 
assessment and that the TMDLs are being developed on a 
watershed basis in Idaho in consultation with the State and 
Federal Land Management Agency.
    What I'm getting at is I think that Idaho can very clearly 
show that we are well underway in working out this problem.
    Ms. Browner. We agree.
    Senator Crapo. I'm glad to hear your comments here today. I 
hope that when the dust settles and we see what really is going 
to happen here, that we do have the kind of watershed approach 
that allows State and local involvement in managing and 
actually developing the applicable standards. I appreciate your 
commitment to that.
    Ms. Browner. We appreciate the work your State is doing and 
I think we feel it is a good and positive relationship, which 
is not to say we don't have moments of disagreement, but I 
think in terms of serving the needs of your citizens, we are 
working together in the way that this plan was designed to 
ensure. I think at this point in time that is a good example.
    I think there was some concern when the unified watershed 
assessment work first began that every State had to do it 
exactly the same, but actually this is a good example of where 
we recognize that some of the work your State had done, which 
might be different from another State, still got to the same 
point and it made sense to rely on that, and things didn't need 
to be redone or duplicated.
    Senator Crapo. I look forward to working with you to help 
this happen.
    Senator Chafee. Senator Thomas has a quick question and 
then we will move on.
    Senator Thomas. A little follow-up, Administrator, on that 
unified watershed assessment. Section 319 does not implement 
regulations that require it. How do you justify congressionally 
withholding appropriated funds from a State that did not 
complete it?
    Ms. Browner. Every State has completed theirs. We signed 
off on your unified watershed assessment. The last time I was 
here before this committee, Senator Thomas, you were concerned 
that your State was the only one. Now all 50 States have 
unified watershed assessment plans and the next phase is to 
work on the section 319 funding.
    Senator Thomas. They completed it because you threatened 
not to pay if they didn't, isn't that correct?
    Ms. Browner. No.
    Senator Thomas. It's funny, we get different information, 
Ms. Browner. We'll have to get together won't we?
    Ms. Browner. We're working with your State now, as we are 
with every State, to provide the $100 million in additional 
funding and the back and forth process of determining how they 
can best use the money.
    Senator Thomas. I understand that. The key, however, to 
what Senator Crapo is talking about is when you have money, 
then you set the requirements for what you have to do to get 
the money and that kind of takes a little of the friendliness 
out of the partnerships.
    Ms. Browner. The good news is, I think the last time we 
were here, you were correct that your State's plan was still 
not resolved. It is today resolved. We worked hard with your 
State to make sure that happened and now they are in exactly 
the same place as every other State which is, working on the 
funding mechanisms.
    Senator Chafee. Thank you very much, Ms. Browner. We 
appreciate your coming here today.
    Now we will go to the next panel: Mr. Gary Beach from 
Wyoming; Mr. John Godbee from International Paper; Mr. Dan 
Heilig of the Wyoming Outdoor Council; Mr. Ross Wilson of the 
Texas Cattle Feeder's Association; and Ms. Jane Nishida, 
Secretary, Department of Environment, Maryland. If each of you 
will take a seat, we'd like to move right along here.
    We will start with Mr. Gary Beach. Senator Thomas, do you 
want to introduce Mr. Beech?
    Senator Thomas. Yes, sir. I'd like to do that. I could do 
two at one time, as a matter of fact.
    Mr. Beach is from Wyoming and represents the DEQ there. Mr. 
Heilig, whose name is not in the right place, is also from 
Wyoming and represents the Outdoor Council. So we will have a 
little different point of view but I think that's helpful. I 
welcome both here and appreciate their making the effort to 
come.
    Thank you, Mr. Chairman.
    Senator Chafee. Mr. Beach, why don't you proceed? If you 
could restrict your testimony to 5 minutes, we'd appreciate it. 
All statements will go in the record anyway.

 STATEMENT OF GARY BEACH, ADMINISTRATOR, WYOMING DEPARTMENT OF 
                     ENVIRONMENTAL QUALITY

    Mr. Beach. Thank you, Mr. Chairman.
    I will summarize my testimony and I'd like to draw to the 
last page of that with respect to recommendations but before I 
get there, let me share with you some thoughts.
    I didn't fly in from Mars, I flew in from Wyoming. I sense 
there is kind of a lovefest going on here and I want to bring 
you a perspective from the netherlands. These are the people 
clear out, almost on the other side of the Nation that I'm 
talking about. We talk about locally-led partnerships and we 
all agree with that; we talk about existing resources, we ought 
to use what's working; and we all seem to agree with that. We 
talk about CAFOs, animal feeding operations and we're only 
going to capture 5 percent of them by regulation.
    When I listen to these things, I'm confused because I'm not 
sure that we understand one another. I think what I want to try 
to leave you with is not a criticism of the Clean Water Action 
Plan. I realize my job on the panel here I think is to be 
against it but I want to talk more about how we deliver 
services in this Nation to our citizens. In my mind, that's the 
bottom line, the service we deliver to our citizens.
    We're dealing with people, personalities and locations. Let 
me tell you, in Wyoming, when I go out to a community, I 
realize the first thing I do in that community will be 
different from what I do everywhere else in the State because 
they are different people. They don't want to be the same; they 
wanted to be treated unique and different.
    What that tells you here is you have to be ready to look at 
all ways to skin the cat, that's more than nine ways, many 
ways, to skin the cat if I'm going to achieve my job on the 
front line of getting clean water for you. So I'm troubled when 
you say everything is locally-led partnerships. I can assure 
you the Clean Water Action Plan was not a locally-led document. 
I can assure you of that. I can assure you that when you say 
use existing resources, we have a wonderful TMDL program going 
on in Wyoming now. It took the encouragement of our friends 
from the environmental organizations to sue us to get us to 
realize we needed to do it, but we're doing it. We've gotten 
our stakeholders together and we've past their fear of what 
government is about to their willingness to accept 
responsibility and to do something about it. It took us 2 years 
to do that. That is a resource we have.
    What happens? We just get this done and out comes this 
Clean Water Action Plan and it's broadcast across the Nation. 
Everybody has to do it and our people go ballistic then. Why 
couldn't we have rolled out a program that says we want clean 
water, we want to do it holistically, we want to coordinate, we 
want to communicate and we want to include people and use the 
things you've got going for you to do that. Then we would have 
maintained trust because fundamentally that's what we have to 
have in this country, if you're really going to achieve your 
goal of getting local people involved in solving their 
problems, and I think that's what you have to do in clean 
water. We have to do that because the non-point source program 
is a program where no longer do I just write a letter to 
industry corporations and say, hey, clean up your water and 
they hire attorneys and experts and put money into it and lo 
and behold, it's clean. That's an easy job. Now you're asking 
me to go visit with my grandmother and say grandma, I've got to 
convince you to get the cows off the creek. How do I do that? 
That's what we're dealing with today. Your message has to be 
different.
    You talk about the CAFO document, confine animal feeding 
operations, but we talk about that's only going to touch a few 
people. It's nonsense. It will touch everyone. It will touch 
operators that don't even have a confined animal feeding 
operation because they're afraid now that when they put their 
cows on the creekbed in the winter for winter feeding, that's a 
confined animal feeding operation and EPA is going to be out 
one of these days to inspect me. It's nonsense. Once again, 
we've rolled out a message the wrong way.
    All I'm really suggesting is that we need to rethink in 
this country how we achieve what we want. I know our Governor 
keeps talking national goals. Tell us what your goal is, leave 
it to neighborhood solutions. That's not State solutions, 
that's even a lower level. That's neighborhood solutions.
    Before my time runs out, I'll take you to the last page of 
my testimony and there are three suggestions there. I'm sure 
the first one, you think, well, that's nonsense, withdraw the 
Clean Water Action Plan. Once a government puts something out, 
does it ever take it back. I would suggest to you that in 
Wyoming if you really want to come to the table and talk about 
how we achieve the results, not just process but results, be 
willing to pull it off the table and throw it on the floor. 
Then we can talk about how do we achieve results and we won't 
get all hung up in this document.
    I suggest that we look at functionally equivalent programs. 
Allow a State to come in with a program that they think meets 
your goals and honestly consider it. Let me tell you, there may 
be 50 different programs, but you need to be willing to 
consider those personalities because they matter.
    Finally, I talk about new regulatory programs. It seems 
like there's a rush to regulate. I think this is particularly 
the case in the large animal feeding operations. I would 
suggest to you that if you looked around this Nation at the hog 
industry, you would find that most States by now have a pretty 
good regulatory program in place. Why does the Federal 
Government need to adopt regulation on hog farms. Maybe there's 
one or two States that need the support of EPA and you can work 
individually with that State to help them beef up the program. 
We don't need to rush out a whole new set of regulations that 
captures all these animal feeding operations before we've even 
done the first analysis of do we need this. It's once again how 
you roll out your goal.
    With that, I will end my suggestions and answer questions.
    Senator Chafee. Thank you very much, Mr. Beach.
    Mr. Godbee.

    STATEMENT OF JOHN GODBEE, ENVIRONMENTAL MANAGER, FOREST 
RESOURCES, INTERNATIONAL PAPER CORP., ON BEHALF OF THE AMERICAN 
                  FOREST AND PAPER ASSOCIATION

    Mr. Godbee. Thank you, Mr. Chairman and members of the 
committee. I appreciate the opportunity to testify today for 
the American Forest and Paper Association on the President's 
Clean Water Action Plan.
    The American Forest and Paper Association is the Nation's 
trade organization for the forest products industry. We 
represent about 90 percent of the industrial forest land 
ownership in this country, 50 percent of the solid wood 
manufacturing and 84 percent of the pulp and paper production. 
We also represent and work very closely with the over 9 million 
private, non-industrial landowners that own 56 percent of the 
Nation's productive forestland. In working with International 
Paper, we are the largest private forest landowner in this 
country with over 7.5 million acres of land and operations in 
46 States. The Clean Water Action Plan is very important to us.
    Upon release of the plan, our first effort was to look at 
the plan and see if it was consistent with the private sector 
initiatives that are underway. After reviewing this, we, 
unfortunately, came to the conclusion that it was too 
proscriptive, that it failed to recognize and promote the 
private sector initiatives that are aggressively underway to 
meet and obtain the goals of protecting clean water in this 
country.
    Back in 1994, our members committed to the Sustainable 
Forestry Initiative as an example of a program that's working, 
a comprehensive set of principles and guidelines that are 
underway that combine the growing and harvesting of trees with 
the protection of soil, air, wildlife and water quality. This 
program is a condition of membership within our trade 
association and unfortunately, we have lost a few members 
because of this commitment but we've gained others. We believe 
in what we're doing. Members are required to meet or exceed all 
established best management practices that are developed and 
applied at the State level--our objective is and can be no less 
than 100 percent compliance--to establish and implement 
additional riparian protection measures, work with the States 
and to provide funding for water quality research.
    In 1997, we rolled out a report and began to look at what 
we're doing on the numbers of acres committed to voluntary 
plans and conservation agreements with State and Federal 
regulatory agencies and conservation groups. Almost 11 million 
acres, or approximately 20 percent of the industrial forest 
ownership, has been enrolled in plans, voluntary conservation 
plans, to protect soil, water and wildlife. Over 4,300 miles of 
streams are also included in these plans.
    As you can tell from these commitments, we believe the 
forest products industry has our own clean water action plan 
and we're very proud of it and feel like it's working. It's 
from being a program based in Washington; it's about on the 
ground application of forest management and water quality 
protection.
    State implementation committees have been established in 32 
States. American Forest and Paper Association members have 
committed to funding logger education and landowner education 
assistance programs. We've spent over $3.1 million in doing so. 
Over 20,000 foresters and loggers have been trained in 
sustainable forestry and implementation of best management 
practices in these programs, and more than 86,000 private, non-
industrial landowners have been reached and provided 
information and professional assistance.
    We hope the Federal agencies, as they look at their clean 
water action plan, will recognize what we're doing and will 
step up and help us to identify those areas that will 
complement these actions that are already underway. We believe 
that the implementation of forestry best management practices 
represents the solution for obtaining water quality. Eighteen 
States have recently reported that in assessing the compliance 
with best management practices across all ownerships, 
compliance rates were 85 percent and we can do better. As I 
said, we can't accept any less than 100 percent. These results 
are encouraging.
    We strongly support funding for the States to conduct 
additional monitoring and to audit the effectiveness of these 
programs. Numerous studies show that when these practices are 
implemented, they are effective in protecting water quality.
    At this point, I'd like to shift to two issues that are 
within the plan with which we have some concerns. First, EPA is 
preparing rules for the TMDL, Total Maximum Daily Load Program. 
While we await issuance of these proposed rules, we're 
concerned about the lack of sufficient data that is used to 
classify many of the over 21,000 streams that are listed in 
this country. We are also concerned with the methods that are 
used to determine what sources of impairment have caused these 
listings. We believe any plan must include more scientific 
data, better data to understand water quality monitoring 
samples conducted over time and space, not just a one time, 
point in time sampling. The determination of actual maximum 
daily loads and allocation to stream segments is a very complex 
process and this process is generally impractical for 
addressing non-point source pollution.
    I have one final point regarding EPA's request for 
additional authority and money to run a non-point source 
control program. We believe approved best management practice 
programs tailored specifically to the conditions and forest 
types of the States are the way we must go. As I said earlier, 
the results are impressive. BMP and compliance rates are very 
high. We don't need a Federal agency prescribing forest 
management practices from Washington. What we do need is a 
compliance standard evaluation program where States are 
auditing and monitoring and conducting research to help us in 
an ongoing process of continuous improvement.
    As EPA proceeds to implement the actions related to the 
forest management in the Clean Water Action Plan, we hope the 
agency will recognize the ongoing efforts that are out there in 
the private sector and we ask them to join with us in 
protecting water quality.
    With that, Mr. Chairman, I appreciate the opportunity to 
speak and will be glad to answer any questions.
    Senator Chafee. We will reserve the questions until 
everyone has testified.
    Mr. Dan Heilig, Wyoming Outdoor Council.
    Mr. Heilig.

 STATEMENT OF DAN HEILIG, EXECUTIVE DIRECTOR, WYOMING OUTDOOR 
         COUNCIL, ON BEHALF OF THE CLEAN WATER NETWORK

    Mr. Heilig. Thank you very much, Mr. Chairman, Senator 
Thomas and Senator Crapo, for having me here today. I 
appreciate the opportunity to testify on behalf of the Wyoming 
Outdoor Council.
    Wyoming Outdoor Council is Wyoming's oldest and largest 
independent conservation organization. We were established in 
1967 and today have about 1,600 members in Wyoming and many 
other States across the Nation. WOC is also an active member of 
the Clean Water Network, an alliance of over 1,000 public 
interest groups representing environmentalists, family farmers, 
anglers, commercial fishermen, civil associations, rural policy 
and consumer advocacy groups, working together to implement and 
strengthen the Federal clean water policies. I am testifying 
today on behalf of both the Clean Water Network and the Wyoming 
Outdoor Council.
    Wyoming is known better by its official motto as the 
equality State but it's also the Nation's headwaters State. The 
Snake River, Green, Madison, Yellowstone, Big Horn and North 
Platte Rivers all originate in my State high in the Rocky 
Mountains.
    Our organizations support the Clean Water Action Plan 
because it focuses significant Federal resources on the most 
pervasive cause of water quality impairment to Wyoming, surface 
waters, polluted surface runoff. The Plan's emphasis on 
watersheds rather than discrete stream segments makes sense 
given that surface polluted runoff comes from many different 
and often diffuse sources spread out over large areas.
    A key feature of the Plan is the $100 million increase in 
funding under section 319 of the Clean Water Act for fiscal 
year 1999 for locally-led restoration efforts in watersheds 
that do not meet clean water or other natural resource goals.
    Unfortunately, not everyone in Wyoming shares my enthusiasm 
and my group's enthusiasm about the Plan. In February of this 
year, the Wyoming Association of Conservation Districts and 
several other parties filed a 60-day notice of intent to sue 
the EPA and the U.S. Department of Agriculture. They claim in 
their notice, among other things, that the Plan violates the 
National Environmental Policy Act, the Unfunded Mandates Act, 
the Federal Administrative Procedures Act, and constitutes a 
taking of private property.
    For the benefit of the committee, I would like to provide a 
brief overview of the situation in Wyoming from my vantage 
point vis-a-vis the Clean Water Act and the efforts to 
implement it. I hope and expect that you will conclude from my 
testimony that a stronger Federal presence is needed in 
Wyoming, more oversight, more enforcement, more technical and 
financial assistance.
    In 1996, using information provided by a variety of 
sources, including many Wyoming conservation districts, the 
Wyoming DEQ listed over 360 stream segments as water quality 
limited, therefore requiring watershed restoration strategies 
or TMDLs. However, the Conservation Districts concerned about 
the implications of such a large number of listed streams, 
began to take action and has focused its attention and 
resources on strategies to block the creation and 
implementation of TMDLs. This strategy involves removing as 
many segments as possible from the 303(d) list without taking 
corrective action and efforts to reclassify surface waters to a 
lesser standard to obviate the need for pollution limits.
    As a result, citizens in Wyoming today are involved in a 
pitched battle to prevent the further weakening of water 
quality standards and efforts to circumvent other important 
provisions of the Act.
    The Unified Watershed Assessment is the centerpiece of the 
Clean Water Action Plan. Wyoming was the only State in the 
Nation to miss the initial deadline for submitting a unified 
watershed assessment. As correctly pointed out earlier, they 
have in fact submitted an assessment which I believe was 
approved by EPA and has received some 20 percent of the 
incremental funding made available through section 319.
    Wyoming was also the only State in the Nation that failed 
to identify any watersheds requiring restoration efforts. The 
absence of such watersheds should not be construed as evidence 
we have no water quality problems in Wyoming. Rather, it 
reflects a concern that identifying damaged watersheds could 
trigger a regulatory response that includes restrictions on 
land use or mandatory imposition of best management practices.
    Wyoming's triennial review of its surface water standards 
is nearly a decade behind schedule. Last completed in 1990, 
this 3-year review is required by section 303(c) of the Clean 
Water Act. As a result of the nearly 10-year delay and due to 
inadequate oversight by EPA, many of Wyoming's surface waters 
do not meet minimum Federal requirements. For example, all of 
Wyoming's Class IV waters, which are classified for industrial, 
agriculture and wildlife water uses, do not comply with the Act 
because they are not supported by use attainability analyses. A 
use attainability analysis is required by the Federal 
regulations before agencies can set a standard that is not 
protective of the basic fishable, swimmable uses prescribed in 
the Act.
    Although the antidegradation provisions are a critical 
element of the Clean Water Act, Wyoming's water quality 
standards still lack 27 years after the passage of the Act this 
mandatory provision. As a result, many of its high quality, so-
called Tier II waters have been unlawfully degraded by point 
and non-point source pollution. In some cases single point 
sources lacking proper effluent controls have consumed 
substantially all of the water bodies' assimilative capacity.
    Recent legislative enactments in Wyoming block attainment 
of clean water goals and threaten Wyoming's primacy to 
administer environmental laws. Earlier this year, the Wyoming 
State Legislature passed Senate File 27 which requires the use 
of credible data to find scientifically valid, chemical, 
physical and biological monitoring data collected under an 
accepted sampling and analysis plan, including quality control, 
quality assurance procedures and available historical data to 
designate uses and to establish water quality impairment.
    Because the law requires that designated uses assigned by 
the DEQ be backed by credible data, it frustrates the water 
quality enhancement goals of the Clean Water Act. Under the 
Clean Water, designated uses must reflect potential water 
quality.
    Senator Chafee. Mr. Heilig, you'll have to wind up now 
fairly close.
    Mr. Heilig. You see in my written testimony a litany of 
problems that we're confronting in Wyoming. Before I conclude 
my remarks, I want to inform the committee that last night I 
received a fax from the chairman of the Wind River 
Environmental Quality Commission expressing some concerns 
about, first of all, not being invited to participate in 
today's hearing.
    Senator Chafee. I think we did pretty well out of five, we 
got two from Wyoming. That's not too bad a score.
    Mr. Heilig. If there is some way to enter this into the 
formal record, there are some interesting observations made by 
the chairman.
    Senator Chafee. You can tell that gentleman I don't know at 
which end of the spectrum his views are, but they've been 
represented by one member from Wyoming or the other. I don't 
think you and Mr. Beach are singing off the same sheet. Have 
you met?
    Mr. Heilig. I believe we have.
    Senator Chafee. Did you come on the same plane?
    Mr. Beach. No, we didn't.
    Senator Chafee. Thank you, Mr. Heilig.
    Mr. Ross Wilson, vice president, Texas Cattle Feeder's 
Association.
    Mr. Wilson.

STATEMENT OF ROSS WILSON, VICE PRESIDENT, TEXAS CATTLE FEEDER'S 
    ASSOCIATION, ON BEHALF OF THE NATIONAL CATTLEMEN'S BEEF 
                          ASSOCIATION

    Mr. Wilson. Mr. Chairman, members of the committee, thank 
you for this opportunity to testify.
    I am Ross Wilson, vice president of the Texas Cattle 
Feeder's Association. We are a State affiliate of the National 
Cattlemen's Beef Association. I am also involved in the Clean 
Water Working Group that NCBA has recently developed in an 
effort to work with USDA and EPA on reasonable regulations for 
our industry.
    Our organization represents 30 percent of the Nation's fed 
cattle, about 7.2 million head per year. Cattle feeders and 
ranchers are keenly interested in protecting the environment, 
but it is also crucial that we maintain a strong livestock 
industry that is essential to the Nation's economic stability 
and our rural communities.
    TCFA and other NCBA State affiliates have implemented 
proactive environmental protection programs. Some of those 
would include development of pollution prevention plans, manure 
management manuals, environmental research with several land 
grant universities, actual coring of retention ponds to ensure 
the liners are working and the list goes on and on, employee 
training, et cetera. That is taking place in a number of the 
major cattle feeding States, particularly in Texas, Kansas and 
Nebraska where 70 percent of the Nation's cattle are fed.
    The USDA-EPA unified strategy for animal feeding operations 
has a broad goal and an extremely ambitious timetable to 
minimize water quality impacts from animal feeding operations. 
Please remember the cattle feeding industry has been regulated 
for some 25 years. Concentrated animal feeding operations 
currently are held to a zero discharge standard with the 
exception of the 25-year, 24-hour storm event.
    Senator Chafee. Where does that regulation come from? Is 
that the State?
    Mr. Wilson. That's Federal but it's reflected also in many 
of the State regulations. That's in the EPA regulations.
    We're generally located in arid regions of the country as 
you can see from the map that was attached to our statement. As 
the title states, this is a strategy for animal feeding 
operations and thus applies to all livestock. The problem with 
this one-size-fits-all approach is that pork, poultry, dairy 
and cattle operations are run with different management 
strategies. This approach failed to recognize topography and 
climate differences within our industry. Some cattle feed lots 
are located 10 miles from surface water, over a 300-foot deep 
groundwater aquifer; others may be 400 yards or 100 yards from 
a stream and over a shallow groundwater aquifer. While these 
operations utilize different management practices due to their 
diverse risk factors, the strategy treats them the same.
    Another concern is the requirement for watershed permits 
where clusters of feedlots are located in a potentially 
impaired watershed. Current law requires a site specific 
determination for each of the animal feeding operations before 
they can be regulated as a concentrated animal feeding 
operation.
    Also of concern, the strategy calls for comprehensive 
nutrient management plans, not the plans themselves, but the 
fact that they will be required for some 450,000 animal feeding 
operations by 2009. This is an extremely aggressive plan with a 
very stringent timetable, especially in light of some of the 
historical implementation of programs at the Department of 
Agriculture.
    EPA also wants States to issue permits to 20,000 
concentrated animal feeding operations designated as priorities 
by January 2000. The models for these permits would be 
finalized in August of this year, leaving only 3 months for 
States and the EPA to issue these 20,000 permits. It is these 
unrealistic timetables that concern our industry as well as the 
limited agency resources to accomplish these goals.
    One of the areas of greatest concern in the comprehensive 
nutrient management plan is the discussion on land application 
of manure. There are two categories to consider--land 
application on land owned or controlled by the concentrated 
animal feeding operation and land application on land that is 
owned or controlled by a third party.
    In our area, and in much of the Great Plains feeding 
States, the manure from feedlots is sold to a third-party to 
contract haulers who then provide the manure and the service of 
land application as a part of a business agreement, i.e., the 
sale of commercial organic fertilizer, to farmers.
    To hold the CAFO operator liable for a product that has 
been sold and taken miles away from the CAFO would not only be 
extremely burdensome and costly, it also appears to exceed the 
EPA's authority under the Clean Water Act. As we interpret the 
Act, the agricultural stormwater exclusion applies to off-site 
land application and places this in the non-point source 
category. EPA should respect this exclusion and let States 
remain in control of non-point sources.
    Mr. Chairman, the market for manure versus commercial 
fertilizer is a very thin, fragile and competitive one. If EPA 
puts undue regulatory restrictions on land application of 
manure, we will see many farmers switch to commercial 
fertilizer.
    Before I close, I have two more important points to make. 
First, the strategy will likely force small- to medium-sized 
operations to either expand or go out of business because of 
increased compliance costs. This should concern several of the 
Senators who have spoken on the floor recently about the 
consolidation in American agriculture.
    Second, we recommend that EPA implement existing 
requirements before introducing a new, costly and perhaps 
unnecessary regulatory program. EPA, in its own document, 
admits that they have a very small implementation percentage 
across the Nation of the current permitting program for feeding 
facilities.
    EPA must recognize that many States and most of our 
industry are doing an excellent job and are going beyond what 
the agency requires, but how can we judge the sufficiency of 
the current program before it is fully implemented.
    Thank you and I will be happy to answer any questions.
    Senator Chafee. That's constructive testimony, Mr. Wilson.
    Ms. Jane Nishida, secretary, Maryland Department of the 
Environment.

 STATEMENT OF JANE NISHIDA, SECRETARY, MARYLAND DEPARTMENT OF 
                        THE ENVIRONMENT

    Mr. Nishida. Thank you, Mr. Chairman and members of the 
committee.
    My name is Jane Nishida, secretary of the Maryland 
Department of the Environment, which is the principal 
regulatory agency for the environment for the State of 
Maryland.
    I am pleased to be here today to support President 
Clinton's new national initiative to protect American waters 
and to give Maryland's perspective on behalf of Governor Parris 
Glendening.
    After 27 years of pursuing regulatory solutions under the 
existing Clean Water Act, the Clean Water Action Plan 
represents a fresh and innovative approach which enhances the 
environmental options available to States to address impaired 
waters.
    Maryland is fortunate to have one of the Nation's most 
outstanding resources, the Chesapeake Bay. The people of 
Maryland know the importance of the Chesapeake Bay and are 
committed to continue the excellent progress in restoring the 
health of the Bay. There are many waters around the country 
which could similar benefit from a comprehensive watershed 
management approach like the watershed assessment resource 
prioritization process and action strategies which are outlined 
in the Clean Water Action Plan.
    The Action Plan will provide Marylanders a process for 
refocusing priorities and a mechanism for developing an 
overarching strategy to address issues which transcend various 
environmental laws such as the Clean Water Act, the Safe 
Drinking Water Act, and the Coastal Zone Management Act.
    No better model exists as to how a watershed approach can 
serve as a catalyst for developing interrelated, voluntary and 
regulatory solutions to water quality management than the 
Chesapeake Bay Program. Through the Chesapeake Bay Program, 
strong Federal, State and local partnerships were achieved. 
Tributary teams were made up of citizens, farmers, local 
governments, environmentalists, scientists and various business 
interests to assess the waters, to identify problems and to 
establish goals. One of the most successful outcomes of these 
voluntary efforts was a goal to achieve a 40 percent nutrient 
reduction by the year 2000. Each tributary strategy team has 
identified reductions and targeted both point and non-point 
sources in each watershed.
    In Maryland, we have instituted a 50-50 cost share program 
which has contributed over $125 million in the last 10 years to 
the cost of installing nitrogen removal equipment at 63 
targeted wastewater treatment plants. This effort alone has 
reduced nitrogen to the Chesapeake Bay by 27 percent. Last 
year, the Maryland General Assembly passed landmark legislation 
which would require nitrogen and phosphorous-based nutrient 
management plans on almost all farms by the year 2002 and 
complete implementation by the year 2005.
    The Clean Water Action Plan will reinforce Maryland's 
efforts to clean up the Chesapeake Bay through various 
initiatives: No. 1, by promoting watershed assessments, by 
providing guidance to the State for establishing total maximum 
daily loads, for enhancing current funding levels for State 
programs such as 319, and by requiring all States to manage 
nutrients on farms by implementing the new CAFO or AFO strategy 
which would create a level playing field among farmers.
    Although the Chesapeake Bay Program has focused on 
traditional pollutants like nutrients and toxics, in the summer 
of 1997, Maryland also experienced a serious health threat 
called Pfiesteria. Emerging diseases like Pfiesteria and the 
outbreak of cryptosporidium in Milwaukee illustrate the need to 
reinvigorate our public health program. Source protection 
studies under the Safe Drinking Water Act and the river basin 
studies in the Clean Water Act can achieve far greater results 
by combining them under a collaborative watershed assessment 
approach as encouraged under the Clean Water Action Plan.
    Another approach encouraged through the Clean Water Action 
Plan which Maryland is aggressively pursuing involves smart 
growth. Governor Parris Glendening introduced landmark 
legislation in 1997 which discourages sprawl development by 
targeting public funds to existing communities where 
infrastructure is in place to accommodate planned growth. This 
program protects and preserves our green and open spaces and 
targets our limited public funding to existing infrastructure 
needs which significantly enhance our efforts to reduce 
pollution. Key projects targeted for receiving funds include 
combined sewer overflows, stormwater retrofits, sewage 
treatment upgrades, water source protection and wetland 
creation projects.
     In summary, much progress has been made under the 
framework of the Clean Water Act, but as we move forward to the 
next millennium, new challenges must be met with renewed focus 
and commitment. Watershed assessments and permits, nutrient 
water quality standards, a progressive CSO strategy, 
implementation of the AFO-CAFO strategy, new wetlands 
initiatives and stricter controls on non-point source runoff, 
including smart growth, must be elements of our new 
environmental management approach.
    Maryland strongly supports the watershed restoration and 
assessment approach outlined by the Clean Water Action Plan 
because by bringing together efforts to comprehensively address 
public health, water quality and living resources, it will 
enable us to meet the continuing challenges of restoring and 
preserving fishable, swimmable waters not only in Maryland but 
throughout all the waters in the Nation.
    Thank you.
    Senator Chafee. Thank you very much, Ms. Nishida.
    We had testimony on smart growth and we had a witness, as I 
recall, from Maryland who talked about some of the steps you've 
been taking, for example, making sure that if you build a new 
courthouse, you build it in the town instead of outside 
somewhere in some lovely field and lose that open space 
needlessly.
    In your State, you have massive poultry operations. What do 
they say when you embrace the Clean Water Action Plan? What do 
they do with all the manure that emerges from these massive 
operations? What happens to it?
    Mr. Nishida. As I mentioned, as a result of the Pfiesteria 
crisis that the State of Maryland suffered 2 years ago, we were 
able to introduce legislation and enact legislation that does 
require almost every farm in Maryland to adopt nutrient 
management plans.
    Senator Chafee. What do they do? Do they have holding 
lagoons but then what happens to it?
    Mr. Nishida. Yes. Obviously not every farm in Maryland is 
the same. Some farms land apply their nutrient. Under the 
legislation in Maryland, they will be required to reduce the 
amount of nitrogen and phosphorous in the manure. We have 
provided technical assistance to them; we have provided 
additional resources in terms of the NCSR and we have tried to 
work with them to try to develop new technology in terms of 
reduction of nitrogen in manure.
    Senator Chafee. Have you succeeded?
    Mr. Nishida. The legislation was just passed in 1998. We 
have been working closely with the agricultural community to 
address it.
    Senator Chafee. Is there a certain time to meet these 
deadlines?
    Mr. Nishida. Yes, 2002 to adopt the plans and 2005 to 
implement them.
    Senator Chafee. I think Maryland certainly has a wonderful 
record as far as environmental protection goes. I think 
Governor Glendening has been a leader in all that.
    Mr. Beach, you didn't have many good things to say about 
the Plan and yet you heard the prior testimony of the Secretary 
of Agriculture and the head of the EPA, saying they sought 
cooperation, that one-size-doesn't-fit, that they worked with 
the locals. What's been your experience on that score?
    Mr. Beach. My experience is that the Plan was crafted 
within the Beltway in a very short period of time. Yes, they 
flew around the country and offered about 11 meetings. Most of 
those meetings were by invitation, not a public forum. 
Fortunately, we were invited to attend. We were critical of the 
plan at that time because it wasn't bottom up, it was top down.
    I'm not sure that our time there was worth the effort 
because I didn't see much change in the final that came out. I 
guess that's my perspective and hopefully that answers your 
question.
    Senator Chafee. Mr. Heilig indicated that more can be done, 
he thought, by the State in Wyoming. Do you have any comments 
on his testimony?
    Mr. Beach. I would say that if you go to any State in this 
Nation, you will find stakeholders who feel the State is not 
doing enough, you will find stakeholders who feel they are 
doing too much. So I think Mr. Heilig pointed out some of the 
dirty laundry we have in Wyoming and there are some things we 
need to do. No doubt about it, there's a lot there to do.
    What is fundamental though that I think explains some of 
the indifference that's going on in Wyoming is that you have to 
reach people. If we're to solve the problem, if we want to 
solve this national mission you have of clean water and you 
want to tackle non-point sources of pollution, we have to reach 
people, we have to motivate people and we have to make it 
meaningful for them to do something.
    That will take time. You will not just send a rule out that 
says everyone will do this. I think that explains the 
difference, sir.
    Senator Chafee. Mr. Godbee, I listened to what you said and 
it seems to me the folks who belong to your association--and 
I've heard the radio ads too--the companies have to adhere to 
the best management practices as you set them forth, and if 
they don't, they get thrown out. You indicated that you thought 
those best management practices were what's required. What 
happens when you talk with the Agriculture Department on these 
best management practices?
    Mr. Godbee. As I understand it, what happens when we talk 
with the Agriculture Department, most of our interface and best 
management practice is with the State Environmental Protection 
Divisions and with the State Forestry Commissions, indirectly 
with the Department of Agriculture. Department of Agriculture 
interaction would come through the Forest Service participation 
at the State level in the development and implementation of 
best management practices. Our interaction with USDA specific 
is pretty limited.
    Senator Chafee. I see. How do you get along with the 
States? If they belong to your association, the company, that's 
good enough? In other words, do they give you some credit for 
the best management practices you've adopted?
    Mr. Godbee. It varies from State to State. State best 
management practice programs are developed for the specific 
forest practices, geological conditions, climatic conditions, 
the size of the industry and the types of industries within the 
States and we go from State programs that are fairly 
proscriptive to State programs that are completely voluntary in 
nature.
    Our relations with the States are generally very good. My 
experience is primarily within the Southeast. In the State of 
Georgia, we worked very carefully over the last few years in 
the development of new best management practices with the State 
Environmental Protection Division, the Wildlife Resources 
Division, the local Nature Conservancy, conservation groups, 
forestry industry and State government all worked hand in glove 
in order to develop a new program, very strong working 
relationships.
    Senator Chafee. My time is up.
    Senator Thomas.
    Senator Thomas. Mr. Beach, Wyoming has primacy in the 
administration of EPA, is that correct?
    Mr. Beach. Yes, we have primacy for the Surface Water 
Quality, NPDES Program, yes.
    Senator Thomas. What's been your experience in terms of 
flexibility and so on as you exercise this primacy in carrying 
out the regulations?
    Mr. Beach. I wouldn't say there's a lot of flexibility. 
What I find is most people, if you take the Clean Water Action 
Plan, they carry it around like the Bible and they flip it 
open. Action item so and so says to do it this way. I'm talking 
about the staff level now. So if you want flexibility, you 
almost have to elevate that to management level to get that 
consideration. Many of them strictly follow what is put into 
their instructions and that's the limit of their flexibility.
    Senator Thomas. If the State doesn't administer it, then 
they lose the primacy; EPA comes in and does it, isn't that 
correct?
    Mr. Beach. That's correct.
    Senator Thomas. Ms. Nishida, I listened to your progress. 
Why would you want the Federal Government to become involved? 
It sounds like you've been very successful. What is it you 
expect them to add to what you're doing?
    Mr. Nishida. Again, the reason we're supporting the Clean 
Water Action Plan is because it is consistent with the approach 
Maryland is taking. We believe that EPA has provided 
flexibility to the States. We understand that one-size-doesn't-
fit-all and I think EPA recognizes it as well.
    The advantage of obviously the Clean Water Action Plan is 
it requires all States, given their unique circumstances, to 
develop a level playing field so that all waters--many of them 
are interstate waters--that there will be national standards 
and national protections for all our citizens.
    Senator Thomas. And there are not standards on interstate 
movement?
    Mr. Nishida. Again, each State takes different approaches. 
One obviously is on nutrient management. Maryland took I guess 
a leadership role in adopting our nutrient management 
legislation last year. That is not something that most of the 
country has done.
    Senator Thomas. So your main thing is you want others to do 
the same thing you're doing?
    Mr. Nishida. Again, we believe there should be minimum 
guidelines to the States. There are certain essential elements 
in the CAFO strategy like public participation, enforcement 
standards, but we also believe States need the flexibility 
through what can be determined by them to meet those standards.
    Senator Thomas. And you're comfortable there will be 
flexibility here?
    Mr. Nishida. I know there have been concerns raised with 
the CAFO strategy among many States. My Governor is the chair 
of the Natural Resources Committee and he has initiated 
conversations with EPA and with USDA through NGA to work out 
those issues such as the definition of functional equivalent 
programs. So we are engaged in dialog with EPA.
    Senator Thomas. Mr. Heilig, you indicated in your statement 
you had submitted hundreds of pages of written comment in the 
public comment period. When was the public comment period?
    Mr. Heilig. I believe it was opened in late 1997 and 
extended on into early 1998.
    Senator Thomas. An open comment period for everyone to 
comment like in NEPA?
    Mr. Heilig. No, it was not a comment period that one would 
associate with a NEPA process; it was a notice in the Federal 
Register and many groups did respond, including the National 
Association of Conservation Districts during that period.
    Senator Thomas. You mentioned the lawsuit being filed and 
so on, not just Wyoming but a number of States and a number of 
organizations. If this has been accepted and signed on by 
everyone, why do you think that's happening?
    Mr. Heilig. I think frankly, Senator, there's quite a bit 
of misunderstanding about what the plan is proposing to do. 
I've read through it carefully now twice and many of the 
initiatives, while important, are somewhat innocuous. For 
example, there is an action item that would require EPA to 
improve its website to better facilitate the dissemination of 
information to the public. A number of initiatives like that, 
increased monitoring, research and education, most of which 
would have absolutely nothing to do with the States, would put 
no burdens or mandates on States or local governments.
    Senator Thomas. And you think other people don't understand 
that apparently?
    Mr. Heilig. I know from my discussions with people who have 
shared concerns that they have not taken the time to read the 
Plan. Again, I have been through it carefully now a couple of 
times. There are action items that will lead to rulemaking and 
as Administrator Browner stated earlier, those will be subject 
to EPA rulemaking and Clean Water Act requirements.
    Senator Thomas. Some of them, for example, indicate that 
only a very small percent, 3.5 percent of the assessed streams, 
go in as the scientific base for this. Isn't that troublesome?
    Mr. Heilig. I think it suggests we need to do a better job 
monitoring and assessing the Nation's waters.
    Senator Thomas. You mentioned the TMDLs. What really 
happened in Wyoming, as I recall, is that these streams were 
listed without any scientific basis. Some of them weren't even 
in the right county.
    Mr. Heilig. There were some mistakes made.
    Senator Thomas. There were lots of mistakes made.
    Mr. Heilig. And the science varied highly. Many of the 
streams though were placed on the list because of information 
provided by the Conservation Districts. The folks in Wyoming 
refer to these listings as drive-by listings where one would 
look out the window----
    Senator Thomas. And some of them were because they reduced 
it.
    Mr. Heilig. But many others were based on very good 
scientific evidence provided by Fish and Wildlife Service, 
Wyoming USGS.
    Senator Thomas. Mr. Wilson, do you think the runs on the 
confined cattle feeding are pretty simple and innocuous and 
don't amount to much?
    Mr. Wilson. Not at all, Senator. Look first at the animal 
feeding operations which in the document, EPA proposes to 
regulate with a voluntary type of approach and says ``implement 
a comprehensive nutrient management plan,'' but then insinuates 
very strongly later on in the document that if you do not do 
that on a voluntary basis, then you will come under some type 
of regulatory proposal in the future.
    Later on in the document when they talk about specific 
strategies for implementation, they talk about changing the 
definition of a CAFO which would pull in animal feeding 
operations today into a regulatory-based program.
    Another concern we would have, a significant concern that's 
been previously discussed, is the lack of resources at the 
Department of Agriculture. In Texas over the last several 
years, the NRCS Regional Office has lost 34 percent of their 
manpower to work with producers, to implement programs like 
this. We seriously question whether the commitment in funds 
and/or manpower is there to get this implemented.
    Senator Thomas. Mr. Chairman, I want to thank all the 
witnesses for being here. I think it's been very helpful. I am 
concerned that we're told by the EPA that there's 110 
propositions out there, that each of them as they are 
implemented will go through a process. I frankly am not 
persuaded that is going to be the case. I think you'll see many 
of them implemented without any congressional authority or 
without any public comment. That's one of the concerns I have.
    Senator Chafee. I think the point Mr. Wilson made about the 
reduction in manpower at the Agriculture Department, what were 
the figures you gave a minute ago?
    Mr. Wilson. Yes, sir. USDA NRCS regional office in Texas.
    Senator Chafee. That really worries me because one of the 
inducements of this whole program is meant to be not only some 
money but they said even more important than the money is the 
technical assistance, but if they don't have the people, I 
don't know how they're going to give that.
    Senator Crapo.
    Senator Crapo. Thank you, Mr. Chairman. I had to step out 
for a minute, so if the question I ask was just asked by 
Senator Thomas, please excuse me.
    Mr. Wilson, I want to direct my first question to you. You 
were here during the testimony of Administrator Browner and 
Secretary Glickman, were you not?
    Mr. Wilson. Yes, sir.
    Senator Crapo. As I took their testimony, they describe a 
situation in which we were going to have a very locally-
oriented, bottom up type of development of standards, working 
on a watershed basis and that there's going to be a lot of 
flexibility at the State and local level. Is that your 
experience with the process to this point in time?
    Mr. Wilson. No, sir. The document does talk about 
flexibility and voluntary versus regulatory, but also we must 
remember that the States are going to be held to implementing 
EPA standards or they run the risk of losing the delegation of 
the State program.
    In dealing with some of the EPA regions, we also don't 
necessarily see the flexibility. The 1,000 per animal unit 
permitting threshold that moves you from an animal feeding 
operation to a concentrated animal feeding operation has been 
proposed for change.
    Also, the Administrator talked about flexibility in some 
arid regions of the country. I believe she used your State for 
an example and indicated that you might not even have to have a 
permit. Today there exists what we call a CAFO exclusion within 
the regulations that says if you only discharge under certain 
circumstances, you don't have to have a permit. EPA, in its 
strategic initiatives later on in the document, proposes to 
eliminate this exclusion. So I'm not sure the flexibility will 
be there.
    Senator Crapo. A lot of those concerns have been expressed 
to me and I assume you heard the Administrator say something 
like 95 percent of the operations would not be covered. As you 
review the Clean Water Action Plan and the CAFO requirements, 
do you reach the same conclusion?
    Mr. Wilson. It will be a high percentage that will first 
have an initial opportunity to be regulated on a voluntary 
basis but again, our concern is they will ultimately be forced 
into a regulatory approach.
    Our other major concern, as outlined in my testimony, is 
that we have some very good standards in place today. Our 
State, our region, in fact, our Region VI permit has been cited 
as a model for CAFO permits around the country but yet this 
strategy proposes to raise some of those technical standards. 
We seriously question, based on EPA's data, that only 25 to 30 
percent of the concentrated animal feeding operations around 
the Nation have permits under the current strategy. We 
seriously question how you can judge the completeness of 
today's requirements without seeing those are fully 
implemented.
    On a parallel track, EPA has proposed an expanded and 
enhanced compliance and enforcement program. We support that. 
Let's see what we have today with the current standards before 
we raise the bar.
    Senator Crapo. Mr. Beach, I'd like to direct a few 
questions to you as well. You are the Administrator of the 
Wyoming Department of Environmental Quality?
    Mr. Beach. Yes, the Water Quality Division of the 
Department.
    Senator Crapo. In Idaho that department is the one that 
administers--for example, I assume Wyoming has primacy under 
the Clean Water Act?
    Mr. Beach. Yes.
    Senator Crapo. So you would be the department that has the 
responsibility for administering that Act under the State 
primacy provisions?
    Mr. Beach. That's correct.
    Senator Crapo. As we deal with the question, getting back 
to the testimony of the Secretary and the Administrator, of 
flexibility and the issue of whether the States, under their 
primacy, will be able to have the flexibility to deal with the 
different needs in each watershed as I discussed with Senator 
Browner in my questions, do you see that under the Clean Water 
Action Plan as you're seeing it unfold, that type of 
flexibility true does and will continue to exist at the State 
level?
    Mr. Beach. My testimony was that I don't see the degree of 
flexibility that we need at each State level to give to the 
Federal Government the kind of program that will work in each 
watershed throughout the different basins in Wyoming.
    If you ask me to give you a program, I might give you a 
program by basin in Wyoming of how I will approach clean water 
because I have to do it that way to reach those people who will 
be influenced by that program.
    Senator Crapo. But you don't have that flexibility?
    Mr. Beach. I don't think I have that flexibility now, no.
    Senator Crapo. So even though the Federal Government could 
say we are letting the State have primacy and we are letting 
the State address this on a watershed by watershed basis, what 
I understand you to be telling me is that because of either the 
withdrawal of funds or the requirements of regulations, 
whatever, the pressures are there for the State to follow 
pretty rigid rules even though the State is administering it?
    Mr. Beach. Right. What actually happens is you come out 
with a document endorsed by the President that says, here's 
some great goals we want to achieve. None of us disagree with 
those goals--we want clean water, we want to approach it 
holistically. The next thing is that out of that then rolls out 
all of these individual initiatives and those become more and 
more prescriptive. Finally, they say, Gary if you want the 
money, you've got to do these things and this is exactly how 
you've got to do it and this is when you've got to do it.
    Senator Crapo. If the State chose to not accept the Federal 
funding, would it be able to avoid the Federal mandates? Would 
you still have your hands tied in much of the administration 
which you are required to do?
    Mr. Beach. I assume that in the case of the Unified 
Watershed Assessment, we chose to do ours a certain way which 
was to take our TMDL program and say that's working for 
Wyoming, we think that achieves your results. That's what we 
want to do.
    Initially, the Administration said, no, that doesn't meet 
our requirements for a unified watershed assessment and because 
of that, you're not going to get any of the incremental 
funding. Now they have come back and begrudgingly accepted that 
and we are getting 20 percent of the funds. So we're going to 
lose the other portion of the funds because we did not 
categorize our watersheds on a unit basis and Category I, II, 
III or IV as instructed. We didn't do that. Because we didn't 
do that, we didn't get the Federal funds.
    Senator Crapo. Do you believe the State of Wyoming's 
failure to do that caused any damage to the quality of the 
water?
    Mr. Beach. I think anytime you deprive a State of 
resources, you damage the resources.
    Senator Crapo. So the failure to allow the State access to 
the Federal funding is going to have an impact on water quality 
in Wyoming?
    Mr. Beach. Yes. I think there is a direct tie there.
    Senator Crapo. But if the Federal Government had allowed 
the State to do it its way, would there have been a negative 
impact on the water quality in Wyoming?
    Mr. Beach. No, I don't believe so. I believe the program we 
offered as a substitute to their prescription would have 
achieved the same results.
    Senator Crapo. So if I understand your testimony correctly, 
what you're saying is that there wouldn't have been an impact 
on the water quality, maybe even a better impact if the State 
had been allowed to do it its way, and yet the result of the 
Federal mandates that the State has to deal with is that either 
you have to shift to a different program, which you've chosen 
not to do, or you have to lose Federal funding which will then 
have an impact on the water quality in a negative way?
    Mr. Beach. That's correct. We had to make that choice and 
we realized we may lose access to Federal money by not shifting 
to their program. The compromise was to betray our citizens 
where we have told them this is the program we're going forward 
with.
    Senator Crapo. It seems to me there's kind of an irony in 
that the State has to either submit itself to a rigid, 
bureaucratic, Federal mandate or put at risk Federal funding 
that will help in protecting its own water quality, so the 
water quality of the State is actually the pawn in this 
decision the State has to make between retaining its own 
control or submitting to Federal mandates.
    Mr. Beach. That's how I view it, Senator.
    Senator Crapo. Thank you. I have no further questions, Mr. 
Chairman.
    Senator Chafee. I must say that I don't find it so 
shocking. As I understand what you're saying Mr. Beach, if the 
State adheres to the Federal guidelines, if you would, they get 
some money. If they don't, they don't get the money. So the 
State makes a decision. I must say I'm not sure I find that----
    Senator Thomas. Mr. Chairman, I don't think that's quite 
what we're saying. We're saying here is the result, here is the 
goal and if you achieve that goal in a different way, then you 
shouldn't be deprived of the money.
    Senator Chafee. I agree with that.
    Senator Thomas. We're saying you shouldn't have to 
necessarily do it in exactly the same technique.
    Senator Chafee. What you're saying is there ought to be 
more common sense in their review of what the State has done?
    Senator Thomas. Or goal-oriented.
    Senator Chafee. Yes, goal-oriented. I think those are the 
words.
    Just a statistic here that indicates that these problems in 
agriculture aren't going to get less, they're going to get 
increasingly challenging, between 1978 and 1992, the average 
number of animal units per operation increased. That's 14 
years. The average number of animal units per operation 
increased by 134 percent for hogs and 176 percent for egg-
laying poultry.
    According to the 1997 census, agricultural census, 3.8 
percent of the farms, call it 4 percent of the farms are 
responsible for 56 percent of all agricultural production. 
That's astonishing. Let me ask you experts, what do you say to 
that, Mr. Beach? Do you think that's a trend that probably will 
continue?
    Mr. Beach. The growth of the hog industry?
    Senator Chafee. Yes, the growth per unit, farm unit, for 
cattle, for poultry, for whatever it might be.
    Mr. Beach. Yes, I think that's a reality, whether you look 
at dairy farms----
    Senator Chafee. Whether you like it or not, it's happening?
    Mr. Beach. It's happening and that's the only way you 
survive is to become a big business and not a small business.
    Senator Chafee. What do you say Mr. Wilson?
    Mr. Wilson. I would agree, Mr. Chairman, that it will 
likely continue and one of the things driving that are these 
potentially higher environmental compliance costs.
    Senator Chafee. I think it's disturbing in your testimony 
that the increased compliance costs could force or will force 
small- and medium-sized operations to go out of business. What 
do you call a small or medium operation, just out of curiosity?
    Mr. Wilson. I think if you look at the regulatory threshold 
of 1,000 animal units.
    Senator Chafee. You're talking cattle?
    Mr. Wilson. It's 1,000 animal units regardless of the 
species. It happens to be 1,000 head of beef cattle. I believe 
it's also 2,500 head of swine.
    Senator Chafee. What would that be for?
    Mr. Wilson. That moves you from the animal feeding 
operation category into the mandated regulatory concentrated 
animal feeding division.
    Senator Chafee. How many in a small operation or medium?
    Mr. Wilson. It varies. You get into the uniqueness of the 
different areas of the country. For example, in Texas our 
average size cattle feed yard is probably going to be 20,000 to 
30,000 head. If you put that same operation on the East Coast, 
it would be considered huge. Given the climatic situation and 
depending upon its location, you have some very unique 
management challenges.
    Senator Chafee. Senator, do you have anything further?
    Senator Thomas. No, sir, I don't.
    Senator Chafee. I want to thank this panel very much, each 
of you, Mr. Beach, Mr. Godbee, Mr. Wilson, Mr. Heilig and Ms. 
Nishida. You've been very candid and helpful to us. We 
appreciate it.
    Thank you very much.
    [Whereupon, at 12:28 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the Record follow:]
 Statement of Hon. Craig Thomas, U.S. Senator from the State of Wyoming
    Thank you, Mr. Chairman, for holding this oversight hearing. As one 
of the members who requested this hearing, I appreciate the opportunity 
to examine the Clean Water Action Plan, especially since this 
initiative was created without input from Congress, nor was it 
subjected to assessments under the National Environmental Policy Act 
(NEPA). I am especially pleased to have both the Secretary of 
Agriculture and the Administrator of the Environmental Protection 
Agency (EPA) appearing before us today. I also want to welcome the 
witnesses for our second panel. Certainly, having two witnesses here 
from Wyoming reiterates the importance of this issue to my home State.
    Mr. Chairman, none of us will disagree with the importance of 
improving our Nation's water resources. In Wyoming, the tourism 
industry depends upon a pristine environment. We have streams that 
boast world-class trout fishing, so it is imperative that we protect 
our water resources. Let me be very clear on this, I support efforts to 
improve water quality, but I have substantial concerns with the 
Administration's approach to this problem. As many of you know, I 
strongly oppose the use of Executive Orders to launch efforts as broad 
and over-reaching as the Clean Water Action Plan--it is essentially 111 
``key actions'' affecting Federal agencies and State and local 
governments. Since the Clean Water Act leaves nonpoint sources largely 
unregulated, I believe this committee needs to ensure that the Action 
Plan does not become a mechanism for agencies to overstep their 
congressional authority.
    In addition, I question if the Clean Water Action Plan truly 
targets the problem it is intended to solve--reducing nonpoint source 
pollution. The justification for the Plan is based upon the EPA's own 
National Water Quality Inventory, which is a summary of State's 305(b) 
reports. Scientific assessments by the U.S. Geological Survey have 
indicated that the National Water Quality Inventory is so severely 
flawed and scientifically invalid that it could not be used to 
summarize water quality conditions. The problem with the Inventory is 
that States use different measures to determine water impairment, but 
yet, data is compiled into one report. A report that is somehow 
supposed to summarize the status of our Nation's waters. To me, this 
comparison makes little sense.
    Earlier this year the General Accounting Office (GAO) released a 
report that criticized the EPA's assessment of nonpoint source 
pollution problems. Specifically, the GAO highlighted concerns relating 
to: (1) how the Agency identifies waters polluted by nonpoint sources, 
(2) the need for more data to develop cost estimates, (3) and the 
extent to which the Federal Government contributes to water pollution. 
Further, the GAO cautioned that the methodology used in determining 
both water impairment levels and impacts from nonpoint sources was 
underfunded and consequently, results were possibly inaccurate.
    These findings greatly trouble me. I understand the challenges 
Federal entities face in allocating limited financial resources. 
However, it seems to me that if the goal is to improve water quality, 
the Clean Water Action Plan should have first accurately identified the 
causes of the problem. Without using sound, credible science to assess 
the health of our waters, how can we be sure that this initiative, and 
the tax payer's dollars to support it, will reduce pollution? We 
already have programs in place, such as the Clean Water State Revolving 
Fund (CWSRF), that successfully reduce pollution problems and in my 
view, the Administration's proposed budget cut does little to promote 
clean water. What is the harm in wanting to know the scientific basis 
for the Action Plan and more importantly, why is this request deemed as 
somehow being opposed to cleaning up our environment? After collecting 
scientific data, if nonpoint sources are found to be a significant 
obstacle to clean water, then I would urge Congress and the 
Administration to make funding for voluntary and incentive-based 
programs, a priority, as was done with point sources, to assist 
landowners with pollution reduction efforts.
    My interest in today's hearing will also encompass financial 
burdens being placed on States, local communities and individual land 
owners. This issue is not unique to Wyoming and I am concerned that 
States are now spending their time and resources in attempting to 
comply with the ``key actions'' called for in the Plan, instead of on 
protecting water resources. Again, my belief is that these types of 
problems are best dealt with at a local or State level, rather than 
federally mandated. Certainly, we all have a responsibility to improve 
water quality, the question is how to approach the problem without 
placing an unfunded mandate on our States and landowners.
    Thank you Mr. Chairman and I look forward to hearing from our 
witnesses.
                                 ______
                                 
     Statement of Hon. Frank R. Lautenberg, U.S. Senator from the 
                          State of New Jersey
    We recently celebrated the 25th Anniversary of passage of the Clean 
Water Act. Since that time, we have made great strides in turning once 
polluted lakes, rivers, and streams into places that we can enjoy.
    We are making progress in identifying impaired waters, and 
developing watershed-based approaches to protecting our valuable 
natural resources. In 1975, 60 percent of our waters did not meet water 
quality standards. Today only 40 percent fail that test.
    One of New Jersey's own water bodies to benefit from the Clean 
Water Act is the Raritan River in the central part of my State. The 
Raritan is New Jersey's second largest river system. Thanks to the 
Clean Water Act, this river is cleaner today than it has been in nearly 
a century. Raw sewage discharges are no longer permitted and industrial 
dumping has been held in check. Yet the river still remains heavily 
polluted with contaminated sediments choking off marine life. Polluted 
runoff and landfills still threaten the river basin. Large volumes of 
PCBs and dioxin prevent fishing and swimming in the River.
    The Raritan has been contaminated by ten Superfund sites, including 
one that Administrator Browner's agency identified and placed on the 
National Priority List just last year. The Superfund program is helping 
EPA clean up these toxic sites and restore this once thriving river. So 
I would add that the Superfund program is surely a large part of the 
Clean Water Action Plan.
    I applaud the Administration's commitment to redouble our efforts 
on behalf of cleaner, safer water for all Americans. Under the Clean 
Water Action Plan, the Administration has identified numerous 
environmental threats that still need to be addressed. Both the 
Environmental Protection Agency and the Department of Agriculture have 
done a remarkable job in targeting those areas that need the greatest 
attention.
    I want to highlight just some of the areas in addition to 
Superfund, where this Administration deserves tremendous credit:

    <bullet> Reducing polluted runoff from urban areas.
    <bullet> Improving agricultural practices.
    <bullet> Identifying contaminants in our drinking water like those 
that threaten communities like Toms River in my State.
    <bullet> Protecting the public from water-borne illnesses at the 
beach.

    In 1997, there were over four thousand individual closings and 
advisories at U.S. ocean, Great Lakes, and freshwater beaches. The vast 
majority of these incidents were attributed to monitoring programs that 
detected bacteria levels exceeding beach water-quality standards.
    In addition to causing beach closures, every year, disease-carrying 
pathogens cause thousands of illnesses including gastroenteritis, 
dysentery, hepatitis, respiratory illness, and ear, nose, and throat 
problems.
    With its Beach Action Plan, EPA is assisting the States in 
improving beach water quality. This is a good start.
    As you know, Mr. Chairman, in every Congress since 1993, I have 
introduced legislation to improve citizens Right-to-Know about the 
contaminants that could turn their day at the beach into a visit to the 
doctor.
    My bill, cosponsored by fellow committee members Senators Lieberman 
and Boxer, would require States to develop and implement water quality 
criteria, monitoring, and public notification procedures for beach 
goers.
    This year, the House of Representatives wisely decided to pick up 
on my idea and pass a bill that very closely resembles mine. Perhaps 
they wanted to provide me with a legacy when I leave here. But whatever 
the reason, I thank them for their hard work.
    I hope that the committee will take up the legislation I introduced 
and I hope we can have a lively debate on the merits of improving beach 
water quality. Thank you.
                                 ______
                                 
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, members of the committee, thank you for the 
opportunity to speak on the issue of clean water, an issue that is very 
important to the State of Florida.
    The Clean Water Action Plan presents a multi-agency approach to 
water quality enhancement through watershed protection. The objectives 
of the program are to improve information and citizens' right to know, 
address polluted runoff, enhance natural resource stewardship, and 
protect public health. The State of Florida has used a watershed 
approach to water quality management since 1987, when the Florida 
legislature established the Surface Water Improvement and Management 
(SWIM) program. The SWIM program is implemented by Florida's Water 
Management Districts, and sets priorities for protection and 
restoration of the State's waters. Information from the SWIM program 
was combined with information from other sources, including the Natural 
Resource Conservation Service's Environmental Quality Incentives 
Program, to complete the Unified Watershed Assessments requested as 
part of the Clean Water Action Plan.
    The Southeast Florida watershed, including the Everglades and their 
associated drainages, was identified by the Unified Watershed 
Assessment as a Category I Watershed Most in Need of Restoration. The 
Everglades watershed is already the focus of several restoration 
projects. In its historic natural condition, the basin was a vast, 
continuous wetland. Water flowed slowly in a shallow sheet from Lake 
Okeechobee south to Florida Bay. The basin has been extensively 
modified from its historic condition, with thousands of miles of canals 
and levees constructed over the last century. The area is currently the 
subject of the Central and Southern Florida Project Restudy, conducted 
by the Corps of Engineers together with the South Florida Water 
Management District, as well as other Federal, State, and local 
restoration efforts. The interagency partnerships developed in 
conjunction with the Everglades restoration efforts are examples of the 
type of cooperation called for in the Clean Water Action Plan.
    I understand that some States have concerns about the 
implementation of certain aspects of the Clean Water Action Plan, and I 
look forward to hearing the comments of our witnesses today.
                                 ______
                                 
     Statement of Hon. Joseph I. Lieberman, U.S. Senator from the 
                          State of Connecticut
    Thank you Mr. Chairman for holding this hearing to review the 
progress made during the first year of implementation of the Clean 
Water Action Plan. The Clean Water Action Plan, which was developed 
during the 25th anniversary of the Clean Water Act, in 1997, is an 
exciting strategy. It represents a nationwide commitment to redouble 
our efforts to protect America's rivers, streams, lakes, and estuaries 
for the fish, wildlife and people who depend on them. Few would dispute 
that we made tremendous strides in improving and protecting the quality 
of America's waters between 1972 and 1997. With that 25 years of 
experience and the Clean Water Action Plan as a blueprint for our 
future water quality improvement efforts, I believe we can achieve the 
fishable and swimmable'' waters goal of the Clean Water Act.
    Many aspects of the Clean Water Action Plan are encouraging. For 
example, the watershed-based approach to assessing and protecting water 
resources is an important step toward comprehensive and efficient use 
of conservation resources. In addition, the broad participation of 
citizens, industry, and local, State and Federal Governments in the 
development of unified watershed assessments provides a model of how 
stakeholder collaboration can help define and solve challenging 
environmental dilemmas.
    The State of Connecticut has made great strides in improving water 
quality since passage of Connecticut's Clean Water Act in 1968. The 
ongoing recovery and improvement of Long Island Sound is one great 
success story. However, Connecticut is experiencing an era of 
diminishing returns because many of its traditional programs have 
solved the most obvious water quality problems. We now must balance 
continuing needs of controlling point sources of pollution and 
improvements of wastewater infrastructure, with new programs that 
address runoff from more dispersed nonpoint sources.
    One example of a straightforward problem that requires much more 
attention is the water quality impairment caused by combined sewer 
overflows. Combined sewer systems exist in many of Connecticut's older 
cities including Norwalk, Bridgeport, New Haven, Hartford, and 
Waterbury. Although the Connecticut Department of Environmental 
Protection and municipalities are making progress on this problem, a 
final solution will require much more time and money. It is important 
that we recognize that we cannot abandon our commitment to the ongoing 
efforts that have gotten us this far. Rather we must build on them and 
solve the remaining problems as quickly and cost-effectively as 
possible.
    Nine Federal agencies are, and should be, involved in the Clean 
Water Action Plan. For the Clean Water Action Plan to fulfill its 
promise, it is imperative that these Federal agencies are funded so 
that they can coordinate their efforts, fulfill their current 
obligations and meet their Clean Water Action Plan obligations in a 
timely manner. For example, the vitally important Connecticut DEP-U.S. 
Geological Survey (USGS) cooperative stream gauging and monitoring 
program is in a sustained decline due to insufficient funding of the 
USGS stream gauging program. If we do not provide the funding so that 
agencies can make the Clean Water Action Plan a priority, we will be 
wasting an opportunity to take our water quality protection and 
enhancement efforts to the next level.
    In October 1998, the Connecticut Department of Environmental 
Protection (DEP) and the USDA Natural Resource Conservation Service 
(NRCS) completed the Unified Watershed Assessments'' of the State's 
surface water resources as required by the Clean Water Action Plan. In 
addition, Connecticut DEP developed a State watershed management 
implementation strategy launched pilot watershed management projects 
for the Quinnipiac, Naugatuck, Norwalk, and Sasco Creek watersheds. 
Implementation of the Clean Water Action Plan is underway and working 
in Connecticut.
    Thanks to the hard work of many dedicated participants and the 
vision provided by the Clean Water Action Plan, our second generation 
of water quality improvement efforts hold great promise. I applaud the 
efforts that have been made so far and will work to help ensure that 
Congress makes the sustained investment necessary to put the Plan into 
practice.
                                 ______
                                 
      Statement of Carol M. Browner, Administrator, Environmental 
                           Protection Agency
    Good morning, Mr. Chairman and members of the committee. I am Carol 
M. Browner, Administrator of the U.S. Environmental Protection Agency 
(EPA). Thank you for your invitation to be here today and for the 
opportunity to discuss the Clean Water Action Plan announced by 
President Clinton and Vice President Gore in February of last year.
    The Action Plan is a comprehensive blueprint for restoring and 
protecting the Nation's water resources. It truly charts a course for 
fulfilling the original goal of the Clean Water Act: ``fishable and 
swimmable'' waters for all Americans.
                    i. water quality problems today
Past Progress and Current Problems
    In the first quarter century of implementing the Clean Water Act, 
America has made tremendous strides in cleaning up its rivers, lakes, 
and coastal waters. In particular the Clean Water Act has stopped 
billions of pounds of pollution from fouling the Nation's water, 
greatly increasing the number of waterways safe for fishing and 
swimming.
    In communities across the country, restoration of local water 
resources has had dramatic environmental, recreational, aesthetic and 
economic benefits. Restoring clean water has generated jobs and 
economic growth in recreation (including swimming, boating, sport 
fishing and hunting), tourism, and commercial fishing and shellfishing 
industries, among others.
    Despite great progress, nearly 40 percent of the Nation's waterways 
assessed by States are still unsafe for fishing and swimming, and 
between 70,000 to 90,000 acres of wetlands are lost each year. Although 
pollution from factories and sewage treatment plants, soil erosion, and 
wetland losses have been dramatically reduced, the States identify 
runoff from city streets, rural areas, and other sources degrading the 
environment and putting drinking water at risk. We continue to lose 
wetlands each year. Although the causes of some problems have been 
abated, the consequences may still persist. Much of our historical 
wetlands have been lost, and sediments contaminated with toxic runoff 
and discharges decades ago now contaminate fish and complicate dredging 
our ports.
    After careful consideration of these problems the Administration 
concluded that without the Clean Water Action Plan, implementation of 
the existing clean water programs would not stop serious new threats to 
public health, living resources, and the Nation's waterways, 
particularly from polluted runoff. These programs did not have the 
adequate strength, resources, and framework to finish the job of 
restoring rivers, lakes, and coastal areas.
Addressing Today's Problems: Overview of the Clean Water Action Plan
    In order to energize and re-orient existing programs to address 
current and future pollution problems, and thereby fulfill the original 
goals of the Clean Water Act, USDA and EPA, along with the Department 
of the Interior, the Army Corps of Engineers, and the Commerce 
Department's National Oceanographic and Atmospheric Administration, as 
well as supporting agencies created the Clean Water Action Plan (The 
Clean Water Action Plan: Restoring and Protecting America's Waters, 
February 1998).
    The Action Plan aims to achieve healthy waters through 
collaborative public and private sector efforts on a watershed basis, 
as well as through strengthening and expanding our existing clean water 
programs, to:

    <bullet> protect public health;
    <bullet> enhance natural resources stewardship;
    <bullet> strengthen polluted runoff standards and controls; and
    <bullet> improve information and citizens' right to know.

    As a framework for this collaboration, the Action Plan was 
developed through a cooperative budget planning effort USDA and EPA, 
and the other lead agencies. The process for developing the Action Plan 
included a Federal Register notice soliciting public comment on what 
should be in it. The Federal agencies then held three ``listening 
sessions'' around the country to elicit public comment, and the 
agencies also had numerous informal meetings with a broad range of 
groups, including States, tribes, local governments, non-governmental 
organizations, and others.
    In my remarks today, I want to highlight two aspects of the Action 
Plan that I believe exemplify the vision it provides for the diverse 
efforts to restore and protect water quality into the 21st century:

    <bullet> the commitment to restore and protect water resources on a 
watershed basis; and
    <bullet> the commitment to intergovernmental partnership in meeting 
water resource goals.

    I also want to briefly raise some of our accomplishments over the 
past year and the major challenges we have before us.
                ii. clean water action plan: key themes
A Watershed Approach: Led by States, Tribes, and Local Organizations
    The causes of pollution problems affecting our waters can vary 
greatly from region-to-region and from watershed-to-watershed. A ``one-
size-fits-all'' approach is not the most effective strategy for solving 
many of today's water resource problems.
    A ``watershed approach'' to implementing clean water programs is at 
the heart of the Action Plan. The Plan lays out a vision for Federal 
agencies, in conjunction with State, tribal, local governments, and the 
private and public sectors, to tailor their efforts to the particular 
needs of individual watersheds, assessing the full range of clean water 
problems, and identifying solutions. Locally led conservation, nurtured 
and supported by Federal and State resource conservation agencies, is a 
good example of a ``watershed approach'' envisioned by the Action Plan.
    In addition, the Action Plan tackles problems, such as nutrient 
over-enrichment and sedimentation, that are widespread and contribute 
to interstate impairments. For each State or watershed council to try 
to tackle them in isolation would be neither efficient nor effective. 
Existing national authorities and programs need to help localized 
efforts address these problems, for example, through technical 
assistance, research, demonstrations, monitoring, public information, 
development of water quality criteria, effluent guidelines and 
permitting strategies. The Action Plan calls for strengthening these 
national tools.
            Watershed Restoration
    The Action Plan envisions States and Tribes playing the lead role 
in conducting assessments to determine which watersheds are not meeting 
clean water goals, and then in identifying watersheds that are 
priorities for restoration through the development of Watershed 
Restoration Action Strategies. The Action Plan calls for broadly 
participatory efforts to address place-specific problems and define the 
unique solutions appropriate for each watershed. These watershed 
strategies are not to be top-down, Federal strategies. Existing Federal 
programs can then be focused on Watershed Restoration Action 
Strategies. For example, at EPA we will target the incremental Section 
319 funds (an additional $100 million) to support development and 
implementation of Action Strategies in priority watersheds.
            Watershed Management
    Successful models of public-private partnerships for watershed 
management can be found around the country in hundreds of smaller 
watersheds, as well as in such nationally-visible places as the 
Chesapeake Bay or the Great Lakes, and in more than 2 dozen estuaries 
designated under the National Estuary Program established by section 
320 of the Clean Water Act. In EPA's Adopt-Your-Watershed program, we 
have identified more than 4,000 groups working to protect and restore 
their watersheds.
    For all watersheds, regardless of their degree of impairment, the 
Action Plan identifies ways in which the Federal agencies can help 
locally-led groups work to help ensure clean water and a healthy 
watershed. For example, the internet-based Watershed Information 
Network (WIN), a coordinated, multi-agency undertaking, will allow the 
public to access consolidated watershed information. At EPA we are also 
awarding ``watershed assistance grants'' to some community 
organizations, similar to the technical assistance grants under the 
superfund program, to support local involvement in designing and 
implementing solutions.
Inter-governmental Partnerships
    The second critical aspect of the Action Plan which I'd like to 
emphasize is the inter-governmental coordination that it has 
engendered. We are working smarter, avoiding duplication, and getting 
the most out of programs and resources thanks to the Action Plan.
            Cooperation Across Federal Agencies
    Coordination across the Federal agencies has been extraordinary in 
both the development and implementation of the Action Plan.
    At the national level, teams composed of representatives from 
various agencies cooperate closely to carry out the Plan's action 
items, and senior managers of the nine Action Plan partner agencies 
provide oversight and direction to the overall Action Plan 
implementation. These managers and staff are becoming increasingly 
knowledgeable about each others' programs, and they are making 
decisions about how their programs can work together cooperatively.
    In addition to this interagency cooperation at the national level, 
12 Federal Coordination Teams have been established at the ``regional'' 
level, with representatives from the nine partner agencies, and others, 
to help in Action Plan implementation. Their role is two-fold: (1) to 
help coordinate Federal activities in specific watersheds and (2) to 
identify resources (funding, data, technical expertise, etc.) that can 
help other levels of government and citizen groups addressing water 
issues on a watershed basis.
State and Tribal Partnerships
    As the Federal agencies implement the Action Plan, we're reaching 
out to other levels of government, but especially to States and Tribes, 
because of the lead role they play in clean water programs--and we've 
been seeing a cooperative response. Indeed, the Action Plan asked 
States and Tribes to take the lead in a cornerstone of the Action Plan: 
the development of Unified Watershed Assessments. Through their 
assessments, the States and Tribes identify degraded water bodies and 
determine which of their watersheds are priorities for watershed 
restoration efforts. We are very pleased to note that each of the 50 
States submitted Unified Watershed Assessments by the end of 1998, as 
did many Tribes. States are now developing workplans for the new $100 
million in Section 319 funds to support Watershed Restoration Action 
Strategies in those watersheds.
Involvement of the Public and Stakeholders
    The Federal agencies responsible for Action Plan implementation are 
committed to involving other levels of government, special units of 
government, such as conservation districts and regional councils of 
governments, and the public in carrying out individual action items in 
the Action Plan.
    Each of the Action Plan's 12 Federal Coordination Teams will help 
sponsor ``roundtables''--forums for bringing diverse stakeholders 
together to share information, experience, and expertise regarding 
watershed protection. All of the governmental agencies (Federal, State, 
tribal, and local) can play key roles in these cooperative ventures, as 
can the general public, citizen groups, and the private sector. 
Likewise, EPA and the other Federal agencies encourage States and 
Tribes to work with other levels of government and with the public and 
private sector interests in the development of Watershed Restoration 
Action Strategies.
    The public and private sectors also have opportunities to become 
involved in implementation of the rest of the Action Plan's 111 
individual action items. The Federal agencies responsible for the 
Action Plan maintain a strong commitment to involving the public in 
these actions, whether the action items are regulatory or voluntary in 
nature. Regulatory actions will include appropriate notice and comment 
in accordance with the Administrative Procedures Act. Beyond this, 
however, we are affording many opportunities to guide further 
implementation of the Action Plan. The Clean Water Action Plan web site 
(www.cleanwater.gov), a collaborative, cross-agency effort managed by 
the U.S. Geological Survey, provides regularly updated information on 
all key actions and opportunities for comment or other involvement.
                  iii. accomplishments and challenges
Accomplishments of the First Year
    We've only completed 1 year of the Clean Water Action Plan, but 
already a great deal has been accomplished at various levels of 
government. I'd like to mention just a few of these accomplishments:
    1. Although I've already mentioned Unified Watershed Assessments, I 
want to emphasize their importance as a means to draw together the full 
range of available information on the health of watersheds and to set 
priorities for funding watershed restoration, USDA and EPA cooperated 
in providing guidance to States and Tribes for this action item. All 50 
States and over 76 Tribal leaders rose to the challenge. We at EPA are 
grateful for their leadership.
    2. An Interagency Emergency Response Plan developed by various 
Federal agencies including EPA and lead by NOAA, was issued last year 
to coordinate Federal assistance to State and local governments in 
response to outbreaks of harmful algal blooms, such as Pfiesteria. The 
plan guided our response to last year's Pfiesteria outbreak in North 
Carolina, and it will continue to be refined and expanded.
    3. An Action Plan for Beaches and Recreational Waters was issued by 
EPA in March 1999. It focuses on three key themes: (1) strengthening 
beach programs and water quality standards; (2) informing the public 
about recreational water quality; and (3) conducting research to 
improve the scientific basis for beach programs. One element of the 
plan, the BEACH WATCH web site, is a new Internet data base listing 
beach closings and advisories. It contains the results of the first 
national Beach Health Protection Survey covering approximately 60 
percent of coastal and Great Lakes beaches, and it will be supplemented 
in future iterations with information on the remaining coastal beaches 
and on in-land beaches. The next phase of the Beach Action Plan will 
integrate EPA activities with those of agencies such as NOAA, USGS, the 
Centers for Disease Control and Prevention, and State environmental and 
public health departments.
    4. USDA and EPA have cooperated in the development of an Animal 
Feeding Operations (AFO) Strategy announced on March 9 of this year to 
control polluted runoff from cattle, dairy, poultry, and hog farms. The 
strategy is aimed at reducing pollution while ensuring the long-term 
sustainability of livestock production. The strategy establishes a 
national expectation that all AFOs develop and implement comprehensive 
nutrient management plans by 2009. We estimate that 95 percent of all 
AFOs will be encouraged to implement management plans on a voluntary 
basis, while the remaining 5 percent will be required to develop 
management plans as part of a permit issued under the Clean Water Act's 
National Pollutant Discharge Elimination System (NPDES). The AFOs 
requiring permits would be: the largest AFOs; AFOs with unacceptable 
conditions such as direct discharges; and AFOs that are significant 
contributors to water quality impairment in a watershed.
    5. The Watershed Information Network (WIN), an interagency effort, 
is now operational on the Internet and accessible to the public as a 
prototype, either through the Clean Water Action Plan site maintained 
by USGS or through EPA's web site. As a multi-agency road map to 
watershed programs and services, it can provide communities with 
information needed to help them protect and restore water quality.
    6. The 5-Star Restoration Grants Program has attracted great 
attention from local community leaders. Over 300 applications, 
involving over 1,500 grassroots organizations in 47 States and from 
several tribes, have been received to compete for 40 grants under this 
5-Star program. NOAA's National Marine Fisheries Service has 
participated as a Federal partner for the grant recipients in coastal 
communities.
    7. States and Territories are well positioned today to implement 
management measures needed to protect coastal waters from nonpoint 
source pollution. Most States have already received approval from EPA 
and NOAA for the majority of the management measures addressed by their 
Coastal Nonpoint Source Programs required by the Coastal Zone Act 
Reauthorization Amendments of 1990 (CZARA). Thus, they are eligible to 
use funds available under both the Clean Water Act and the Coastal Zone 
Management Act to help implement these measures. At the same time, we 
are working with the States and NOAA's National Ocean Service to secure 
final, complete approval for many of the State programs by the end of 
1999. Even where full approval is not met by the end of the year, we 
expect significant improvement in their nonpoint programs as they work 
toward final approval.
    8. In partnership with the River Network, EPA established the 
Watershed Assistance Grants Program to support the organizational 
development and long term effectiveness of locally-based watershed 
partnerships. Watershed Assistance Grants will be awarded to diverse 
partnerships who want to work together to assess the needs in their 
watersheds and devise creative, grassroots-grown solutions to the 
problems.
    9. Many other accomplishments are highlighted in the report 
(entitled Clean Water Action Plan: the First Year; the Future) prepared 
to mark the first year anniversary of the Action Plan. I am attaching a 
copy of this report as a source of information on the many 
accomplishments, and future plans, of all the Federal agencies 
cooperating and coordinating in the Action Plan's implementation.
Challenges for the Future
    The Clean Water Action Plan provides a vision of clean water and 
healthy ecosystems. By focusing on restoration and protection of 
watersheds we can more effectively implement clean water programs. By 
continuing to support partnerships across all levels of government, and 
with other stakeholders, we can foster enhanced stewardship of the 
Nation's waters. We have accomplished a great deal in 1 year, but much 
important work remains to be done.
    Under the Action Plan, there are many specific actions which pose 
their own unique challenges. A few examples of these challenges 
include:

    <bullet> States and tribes, with the support of Federal agencies 
and our other public and private partners, face the challenge of 
getting Watershed Restoration Action Strategies developed and 
implemented.
    <bullet> USDA and EPA have issued the Unified National Strategy for 
Animal Feeding Operations, but now we, along with States, face the 
challenge of implementing this largely voluntary program, while also 
issuing permits as appropriate.
    <bullet> EPA has prepared a strategy for development and 
implementation of nutrient criteria and standards tailored to specific 
needs of different types of water bodies. We now must coordinate across 
several Federal agencies and work with scientists to prepare guidance 
and criteria, and then assist States and tribes in the adoption of the 
criteria into their water quality standards.

    Additionally, as we work on these and the other specific action 
items, we face challenges for the overall management of Action Plan. 
Among the broad challenges we face, perhaps most noteworthy are:
    <bullet> the job of effectively involving the public in all aspects 
of implementation of specific action items in the plan;
    <bullet> the challenge of using our limited dollars efficiently and 
wisely, knowing that the needs and demands are great; and
    <bullet> collectively determining how best to measure environmental 
results from watershed-level projects, and how to make those results 
known to national policymakers in the Federal agencies and in Congress.
    Mr. Chairman, this concludes my statement. I am happy to answer any 
questions you may have.
                                 ______
                                 
      Responses by Carol M. Browner to Additional Questions from 
                             Senator Chafee
    Question 1. The primary program for addressing polluted runoff 
under the Clean Water Act is section 319. A 1997 report by EPA's 
Inspector General expressed serious concerns with Region 8's oversight 
of State section 319 programs. Region 8 did not require States to 
update their 319 management plans, and sent unclear messages to the 
State by failing to enforce program requirements. The report concluded 
that Region 8's oversight was inadequate to determine ``if priority 
projects were still being funded and projects were strengthening and 
balancing overall management plan goals and milestones.''
    To what degree do the problems facing Region 8 reflect overall 
weaknesses in the section 319 program?
    Response. The basic issues raised in the Inspector General's report 
are being addressed by program improvements nationwide. EPA and the 
States have recognized for many years that there is a need to improve 
and expedite implementation of the overall nonpoint source program. In 
1995 and 1996, EPA and the States worked closely and cooperatively 
together to develop a set of nine key elements which characterize an 
effective State nonpoint source program. These nine key elements are 
set forth in detail in section 319 program and grants guidance 
published by EPA in May 1996; that guidance was endorsed in writing by 
the Association of State and Interstate Water Pollution Control 
Administrators. At this point, virtually every State in the United 
States is working expeditiously in cooperation with EPA to upgrade its 
State 319 management program. The Agency expects this process to be 
complete in fiscal year 2000.
    Moreover, States have made considerable progress in the past 3 
years to bring focus to their selection of projects for implementation 
and funding. Most States are focusing their nonpoint source 
implementation activities on their top priorities, using their section 
303(d) lists of impaired waters, Unified Watershed Assessments, and 
similar tools to set their implementation priorities. States are 
further using their nonpoint source program upgrades to improve their 
prioritization processes. We are continuing to work with the States as 
they complete their program upgrades to assure that the programs have 
clear management goals and milestones that are in turn supported by 
implementation processes.

    Question 2a. Section 319 and EPA guidance documents require States 
to set measurable goals for their nonpoint source programs. States must 
also submit annual reports to EPA detailing their progress in meeting 
these goals.
    Could you please share with the committee some of the results of 
these annual reports?
    Response. EPA's May 1996 nonpoint source program and grants 
guidance specifically establishes as Key Element #1 of a successful 
nonpoint source program that ``the State program contains explicit 
short- and long-term goals, objectives and strategies to protect 
surface and ground water.'' The States are currently working to upgrade 
their programs to meet each of the nine key elements. A critical 
element of upgrading those programs will be to include such explicit 
goals, objectives and strategies in their programs.
    Each year, the 56 States and territories submit annual reports to 
EPA Regional Offices on their progress in meeting the schedule of 
milestones set forth in their nonpoint source programs and, to the 
extent information is available, reductions in nonpoint source 
pollutant loadings and improvement in water quality. To date, the 
information available indicates increasing progress in States' nonpoint 
pollution control efforts. For example, EPA has published two status 
reports in recent years, Section 319 Success Stories (Nov. 1994) and 
Section 319 Success Stories: Volume 11 (October 1997) that provide 
evidence of progress on all fronts: trout returning to streams; 
improvement of fish habitats; shellfish beds reopening; reduced 
pollutant loadings in project areas; a proliferation of watershed 
partnerships; and the enactment of new State-enforceable authorities.

    Question 2b. Do you have an estimate for the number of impaired 
water bodies that are now in compliance with water quality standards as 
a result of section 319 projects?
    Response. Although we have anecdotal information as described 
above, we do not have a national estimate for the number of impaired 
water bodies that are now in compliance with water quality standards as 
a result of section 319 projects.
    EPA recognizes the need to improve our ability to account 
nationally for the extent and rate of water quality improvements being 
achieved as a result of State NPS program implementation, including 
those watersheds with NPS management efforts supported by section 319 
monies. EPA intends to work with our State partners during the coming 
year to develop appropriate measures to assure that water quality 
improvements from the implementation of nonpoint source programs is 
documented and made publicly available.

    Question 3a. One of the cornerstones of the President's Clean Water 
Action Plan is the watershed approach to environmental protection. This 
approach is embodied in Watershed Restoration Action Strategies. At the 
core of these action strategies are the development of total maximum 
daily loads or TMDLs. EPA and the States will need to calculate 
approximately 40,000 TMDLs.
    What is EPA timetable for completing these calculations?
    Response. Each State, not EPA, completes TMDLs for impaired waters 
on the State's section 303(d) list. EPA's current guidance asks each 
State to commit to an appropriate schedule to complete TMDLs for all 
waters on their most recent section 303(d) list, beginning with the 
1998 list. Each State schedule should reflect the State's own priority 
ranking of the listed waters and be integrated with the Environmental 
Performance Partnership Agreement process. These State schedules 
normally extend from 8 to 13 years in length, but could be shorter or 
slightly longer depending on State-specific factors. These factors may 
include: number of impaired segments; extent of impairments (river 
miles, lakes acres, etc.); number and relative complexity of the TMDLs; 
number and similarities or differences among the source categories to 
be allocated; availability of monitoring data or models; and relative 
significance of the environmental harm or threat.

    Question 3b. What steps is the Agency taking to assist States in 
making their calculations?
    Response. In addition to financial support [see answer to part (d) 
of this question below], Regional EPA TMDL staff work directly with 
States to assist with their TMDL needs. We have helped the States use 
GIS technology to map their 303(d)-listed waterbodies. We have 
developed and distributed to States (and others) a user-friendly, CD-
rom based, TMDL model called BASINS that facilitates fairly rapid 
calculation of TMDLs, using either locally-available data or 
nationally-derived values. We are developing technical protocols for 
establishing TMDLs for nutrients, clean sediments, and pathogens. And, 
finally, EPA is also facilitating the States' use of all available 
data, including data from USGS and NOAA.

    Question 3c. Does EPA have a national cost estimate for calculating 
all the necessary TMDLs?
    Response. We are working to develop an analytically rigorous 
estimate of the total costs to develop TMDLs for all the waters and 
causes currently listed on all of the 1998 State section 303(d) lists. 
We will complete this analysis in time to release it with the proposed 
revision to EPA's TMDL rule in fiscal year 1999.

    Question 3d. Approximately how much total funding has the Agency 
allocated to the TMDL program?
    Response. Resources supplementing State TMDL efforts are found in 
State water pollution control grants under Clean Water Act Sec. 106, 
Sec. 319 (State nonpoint source grants), and in EPA's operating 
resources. Section 106 grants, for which the Agency has requested 
$115.5 million in 2000, support a wide range of water pollution control 
activities including permitting, water quality planning and standard 
setting, assessment and monitoring, and TMDL development and 
implementation. While EPA does not generally request (nor allocate to 
States, Tribes or interState agencies) specific resource levels for the 
various eligible activities within the Sec. 106 budget, EPA's 1998 
request included an increase of $5 million to support State TMDL 
activities, which has been sustained in the fiscal year 1999 and fiscal 
year 2000 budgets. States can also use the $20 million increase to 
section 106 grants in fiscal year 1999 for TMDL activities. This 
funding level was also continued in the fiscal year 2000 Budget. We 
continue to emphasize the importance of establishing and maintaining 
increasingly robust TMDL activities from within available Sec. 106 
resources.
    In addition, beginning in 1999, States are permitted to use up to 
20 percent of their Sec. 319 allocation to upgrade and refine their 
nonpoint source programs and assessments. A prominent example of 
potentially eligible Sec. 319 activities is the development of TMDLs to 
help implement Watershed Restoration Action Strategies developed by 
States for high-priority watersheds. At $200 million appropriated for 
section 319 in fiscal year 1999, this policy makes available at a 
State's discretion approximately $40 million for such high-priority 
TMDLs. Aside from this direct State grant funding, EPA also requests 
resources to be used by EPA in direct and indirect support of States' 
TMDL efforts. At approximately $15 million in the 2000 request, these 
resources support technical assistance on specific TMDLs (primarily via 
expert contractors who work directly with States), training of State 
personnel, development of national guidance and policy, and 
backstopping State efforts as necessary to meet TMDL development 
deadlines. In addition, EPA just submitted a reprogramming request to 
increase EPA TMDL funding by $12 million in fiscal year 1999.

    Question 3e. How does EPA intend to encourage nonpoint sources of 
pollution to implement voluntary best management practices?
    Response. Most States use their section 319 NPS grants to encourage 
voluntary NPS implementation by supporting education, technical 
assistance and cost-sharing that helps farmers and others install and 
demonstrate best management practices. In addition, States are 
increasingly making use of the broad flexibility of the SRF program to 
support implementation of nonpoint source programs. Currently, 27 
States are actively using their SRF programs to fund these kinds of 
projects. EPA and States are also working closely with USDA and other 
Federal agencies to use existing Federal natural resource programs and 
funding to support and encourage voluntary implementation of NPS best 
management practices that address priority State water quality 
problems.
    Nonpoint sources implement the load allocations within TMDLs 
through a wide variety of State, local, Tribal, and Federal programs 
(which may be regulatory, non-regulatory, or incentive-based, depending 
on the program), as well as voluntary action by committed citizens. The 
Clean Water Action Plan, including over 100 specific key actions, 
outlines EPA and other Federal Agencies commitments to work with States 
and others to encourage and facilitate all needed watershed and NPS 
management activities, including accelerated implementation of 
voluntary best management practices. These include, for example, 
commitments by EPA to develop water quality criteria for nutrients and 
commitments by numerous other Federal agencies such as NOAA and USGS to 
increase water quality monitoring.

    Question 3f. What happens if nonpoint sources are unable or 
unwilling to implement voluntary controls, will EPA seek to extract 
increased reductions from existing point sources?
    Response. TMDLs and the associated decisions about the allocation 
of pollution reductions are developed primarily by the States. When a 
TMDL specifies that loads from nonpoint sources need to be reduced to 
meet water quality standards, the State provides reasonable assurances 
that nonpoint source load reductions will be achieved. These assurances 
may be non-regulatory, regulatory, or incentive-based, consistent with 
applicable laws and programs. If nonpoint sources are unable or 
unwilling to implement voluntary controls, then the State may choose to 
secure the needed reductions from the nonpoint sources using State or 
local authorities or from the point sources using NPDES permits.

    Question 4a. The EPA/USDA Unified Strategy for Animal Feeding 
Operations lays out a very ambitious permitting goal for Concentrated 
Animal Feeding Operations. By January of 2000, EPA expects to have 
States permit an additional 15,000-20,000 facilities.
    What type of assistance is EPA providing to the States to help them 
accomplish this goal?
    Response. As described in the Unified AFO Strategy and under the 
current regulations, EPA estimates that a total of 15,000-20,000 CAFOs 
will ultimately need to have NPDES permits to address the Strategy's 
three permitting priorities: (1) facilities with significant manure 
production; (2) facilities with unacceptable conditions; and (3) 
facilities that are significantly contributing to water quality 
impairment. There are approximately 10,000 CAFOs with significant 
manure production. The other two permitting priorities (unacceptable 
conditions and significant contributors to water quality impairment) 
include approximately 5,000-10,000 CAFOs.
    The Strategy discusses the short-term objective of issuing general 
NPDES permits to cover most CAFOs with significant manure production by 
January 2000. Since individual permits may be more appropriate for some 
CAFOs with significant manure production, the estimate of the CAFOs 
that need to have general permit coverage by January 2000 will be 
somewhat less than 10,000. The remaining CAFOs with unacceptable 
conditions or that are significantly contributing to water quality 
impairment will be covered by NPDES permits by about 2002.
    Although EPA is emphasizing these permitting priorities, it is 
important to note that CAFOs have been required to have NPDES permits 
since 1976. There are many reasons why CAFO permits have not been 
issued over the years, including resource constraints.
    EPA received an increase for fiscal year 1999 of $20 million in 
Clean Water Act (CWA) section 106 grants for State and Tribal water 
quality program administration, and requested continuation of the 
increase in section 106 grants for fiscal year 2000 as well. These 
additional funds can be used by States for programs (including 
inspections) to address concentrated animal feeding operations or 
CAFOs, which are regulated under the CWA permitting program.

    Question 4b. What is your estimate for the number of facilities 
that will need individual permits?
    Response. We estimate that only about 5 percent of the entire 
universe of CAFOs will ultimately need individual NPDES permits.

    Question 5a. As a condition of their permit, all CAFOs will be 
required to have a comprehensive nutrient management plan. These plans 
must be developed on a site specific basis. EPA is relying on the NRCS 
to provide technical assistance in developing these plans. NRCS is 
currently working on a draft nutrient management plan, and NRCS has 
informed my staff that it will take at least a year to train field 
personnel to develop the plans. NRCS also estimates a reduction in 
technical assistance staff from previous years.
    Will EPA assist NRCS in developing 15,000 nutrient management plans 
in a reasonable timeframe?
    Response. Under the current regulations, EPA does expect that 
approximately 15,000--20,000 CAFOs will be required through NPDES 
permits to develop and implement site-specific CNMPs. Most will be 
covered under general NPDES permits. Large CAFOs will be a priority for 
permitting under these general permits. EPA believes that many large 
operations will not require extensive assistance from USDA for 
development of these CNMPs. Feedback from site visits and the extensive 
outreach from the national listening sessions and other outreach 
efforts during development of the AFO Strategy suggests that large 
CAFOs may have access to expertise, including from the private sector, 
for development of CNMPs. EPA will help CAFOs to identify such sources 
of assistance.

    Question 5b. What is the estimated time between issuance of general 
permit and the development of a site specific nutrient management plan?
    Response. The schedules and timeframes for CAFOs to develop and 
implement CNMPs may vary somewhat from State-to-State, and should be 
appropriate to the circumstances in each State. While EPA is still 
developing the CAFO permitting guidance, we expect that CAFOs may have 
12-18 months to develop a CNMP and an additional 12-24 months to 
achieve full implementation. (Under the current regulatory framework, 
CAFOs are expected to comply with existing permits and the existing 
effluent limitations guidelines for feedlots.)

    Question 6a. The Action Plan argues that existing programs under 
the Clean Water Act lack the ``strength, resources and framework to 
finish the job of restoring our rivers, lakes and coastal areas.'' This 
assertion is particularly surprising in light of the heavy reliance on 
existing programs in the Action Plan.
    If EPA feels the Clean Water Act is broken, why isn't the Agency 
proposing language to fix it?
    Response. The Administration does not believe that the Clean Water 
Act is broken. In fact, the Clean Water Act created some of the most 
successful environmental programs the Nation has. The quote above was 
not intended to disparage the Clean Water Act, but to highlight the 
fact that more needs to be done to make the best use of the authorities 
for protecting and restoring water quality by the Clean Water Act.
    Question 6b. What are the specific areas in which EPA feels its 
authority is too limited and the Act needs to be strengthened?
    Response. The Administration does believe that the Clean Water Act 
should be reauthorized. In fact, the Administration has made specific 
proposals beginning with President Clinton's Clean Water Initiative in 
February 1994. The President has recently challenged Congress to take 
up reauthorization this year and is committed to working closely with 
the relevant committees to find ways to strengthen the existing 
statute.

                                 ______
                                 
      Responses by Carol M. Browner to Additional Questions from 
                           Senator Lieberman
    Question 1. EPA estimates that approximately 60 percent of the 
pollution to our waters comes from polluted runoff. The CWAP recognizes 
that over 50 percent of the Nation lives within coastal watershed 
areas, contributing substantially to the problems associated with 
polluted runoff.
    How do the agencies expect to address the issue of polluted runoff 
through existing enforceable programs, such as 6217 program under the 
Coastal Zone Management Act? Already, States with coastal zone 
management programs like Connecticut are eligible for 6217 grant funds. 
Unfortunately, historic funding has been inadequate. For example, the 
estimated fiscal year 1999 allotment for the 6217 program in 
Connecticut is only $68,000.
    The Administration has proposed that States have the option of 
using up to 20 percent of fiscal year 2000 Clean Water State Revolving 
Funds as grants for polluted runoff projects. This is a wonderful 
concept, however, EPA already currently grants polluted runoff money to 
the States under section 319. At least for coastal States, why not 
provide the nonpoint money for 6217 instead of for the section 319 
grants, since its provisions are enforceable and the money is based on 
comprehensive management plans approved by EPA?
    Response. EPA believes that all States will most effectively 
prevent and control nonpoint source pollution through a variety of 
programs, including coastal management programs in coastal States, 
through an appropriate mix of voluntary programs and regulatory 
mechanisms. To this end, the recently published Almanac of Enforceable 
State Laws to Control Nonpoint Source Water Pollution (Environmental 
Law Institute, 1998), which was commissioned by EPA, provides guidance 
to States and other interested users describing existing and potential 
models of enforceable authority related to nonpoint source pollution. 
Almost all of the relevant States have decided to apply their 
enforceable programs to the entire State, not just the coastal areas.
    With regard to the section 6217 coastal nonpoint program, EPA and 
the National Oceanic and Atmospheric Administration (NOAA), as co-
administrators of the coastal nonpoint program, are continuing to work 
with coastal States to encourage them to develop fully-approvable 
programs. In October 1998, EPA and NOAA adopted new administrative 
flexibility for the program that will assist States in achieving that 
goal. This flexibility will allow States to receive full approval of 
approaches that include general enforceable authorities when combined 
with voluntary and incentive programs to encourage implementation of 
nonpoint pollution controls. To ensure that these approaches are 
effective, the States are required to describe how the agency 
implementing the voluntary and incentive programs will work with the 
enforcement agency to achieve a State-established implementation 
timetable.
    With regard to funding, States may use their section 319 funds to 
address both coastal and non-coastal nonpoint source pollution, and 
have the discretion to choose the watersheds within the State where 
they will focus their implementation activities. Consistent with the 
section 319 funding guidance, EPA expects the States to focus their 
section 319 funds to address their highest-priority waters, i.e., those 
listed by the State as impaired under section 303(d) of the Clean Water 
Act; those identified by the State as being in greatest need of 
restoration under the State's Unified Watershed Assessment; and those 
high-quality waters that are at greatest risk of impairment. These will 
generally include both coastal and non-coastal waters, but the relative 
balance will vary from State to State.
    Funding under section 6217 has been limited. Since 1992, Congress 
has appropriated approximately $19 million to the 29 coastal States and 
territories developing coastal nonpoint programs. Nevertheless, States 
have made significant progress--all 29 States and territories received 
conditional approval of their programs by the end of June 1998. Section 
6217 was designed to support the development of coastal nonpoint 
programs. Under the statute, implementation of those programs was to 
rely on funding under both section 319 of the Clean Water Act and 
section 306 of the Coastal Zone Management Act (CZMA). Under the 
Administration's proposal for the reauthorization of the CZMA, 
increased authorizations for section 306 would provide this support.

    Question 2. We are hearing some resistance today to the concept of 
watershed assessments of water quality. In my State, however, we have 
had real success in assessing water quality and developing 
comprehensive management plans. In fact, we find it necessary to work 
across State lines in order to protect and restore the most significant 
watershed in our State, the Connecticut River. In your view, what are 
the benefits of the unified watershed approach and what are the 
limitations of State-based water programs?
    Response. The main purpose of the Clean Water Action Plan is to 
identify and restore those rivers, lakes, coastal waters, and wetlands 
that are still not meeting water quality and other natural resource 
goals, including the goal of fishable and swimmable waters. To hasten 
the restoration of the Nation's waterways, the Clean Water Action Plan 
makes best use of available restoration dollars by putting them to work 
in the watersheds with greatest need, i.e., the priority watersheds for 
restoration designated by the States and Tribes.
    This approach reinforces good work underway, such as Connecticut's 
efforts to restore the Connecticut RiverWatershed. Moreover, this 
approach helps align Federal resources and programs with State, Tribal 
and local objectives. By requiring all Federal agencies to agree on 
policies and priorities under the Action Plan, for example, Federal 
agencies can help States and Tribes achieve even greater results than 
they might have been able with their individual efforts. Additionally, 
State and Tribal processes for preparing Unified Watershed Assessments 
and Watershed Restoration Action Strategies are highly inclusive and 
help promote restoration of watersheds which cross State and Tribal 
boundaries.
    A major benefit of the Unified Watershed Assessments is to use the 
States priorities as the basis for coordinating restoration. Rather 
than supplant individual State and Tribal efforts, the Action Plan 
seeks to help raise the visibility of the priorities set by the States 
and Tribes and ensure that the available resources are directed to 
those priorities.

    Question 3. Polluted runoff contributes to the problem of 
contaminated sediments, and complicates the dredging that is required 
to maintain safe and functional ports and harbors. I understand that 
the CWAP includes demonstration projects that are designed to implement 
new ``state-of-the-art'' technology that can be used to decontaminate 
sediment. In Connecticut, additional funding is needed to reduce 
sources of contaminated materials, develop cost-effective 
decontamination strategies, and maintain safe long-term disposal sites. 
What funds are available to address these problems, to study the 
contamination sources, and to develop cost-effective sediment 
decontamination strategies?
    Response. The fiscal year 2000 President's Budget request contains 
$1,733,600 to manage the Agency's Contaminated Sediment program, 
including $750,000 to fund the demonstration projects described in the 
Clean Water Action Plan (CWAP). The Agency has eight qualifying 
candidate projects from which the five Clean Water Action Plan 
demonstration projects are being selected. Agency funding is provided 
to expand or enhance the goals of the selected projects and transfer 
successful approaches to other sites across the Nation. Final decisions 
on the five demonstration projects will be made in the near future. Our 
primary goal is to assure that the five CWAP demonstration projects are 
completed successfully and contribute to our knowledge about 
contaminated sediment remediation.

    Question 4. Atmospheric deposition of mercury has contributed to 
Connecticut's fish contamination problem. Our State has issued 
Statewide fish advisories for mercury in freshwater fish. Connecticut's 
ongoing effort to collect data on mercury contamination sources could 
benefit from Federal support. What is your view of the Federal role in 
addressing atmospheric deposition?
    Response. Mercury is one of the priority persistent, 
bioaccumulative, and toxic (PBT) pollutants covered by EPA's PBT 
strategy. The national action plan for mercury includes a reduction of 
mercury air emissions from municipal waste combustors and medical waste 
incinerators by 50 percent from 1990 levels. EPA is also working to 
better understand the impacts of air deposition of mercury and other 
substances on water quality and to better understand how we can reduce 
emissions, where necessary, using our current authorities.
    In the July 1998 Federal Advisory Committee Report on the Total 
Maximum Daily Load (TMDL) Program, the Committee recognized that 
atmospheric deposition of toxic pollutants (such as mercury and lead) 
or of nutrients (such as nitrogen) may contribute to water quality 
impairments in many waterbodies. For example, in 1996, States estimated 
that approximately 2,000 waterbodies were polluted by mercury and other 
metals, with the pollutants coming from air sources in many cases. The 
Federal Advisory Committee also recognized that waters impaired by 
atmospheric deposition pose some unique challenges to environmental 
agencies. These challenges include attributing atmospheric loadings to 
specific sources, which could be outside a given State's boundaries, 
and identifying which State or Federal authorities can be used to 
address air emissions.
    In an attempt to address these challenges, EPA has begun a pilot 
project that will examine how to address air sources of mercury through 
the TMDL program. The pilot project will examine methods for 
determining the relative contributions of mercury air emissions to 
specific waterbodies, and identifying how much deposition comes from 
local and distant sources. It will also assess how Federal and State 
air and water programs can work together to reduce emissions. The pilot 
is being conducted in Devil's Lake, in Wisconsin, and a portion of the 
Florida Everglades, and involves close coordination with the two 
States. The goal is to help States develop TMDLs for waterbodies 
impaired by air sources. Under the TMDL program, a State identifies 
specific waterbodies that do not meet water quality standards, and 
establishes pollution reduction targets for meeting the standards. EPA 
plans to issue the findings of this pilot project in early 2000.
                                 ______
                                 
      Responses by Carol M. Browner to Additional Questions from 
                             Senator Thomas
    Question 1. Is the EPA currently conducting an effort which, 
according to an EPA source, is for the purpose of intensifying efforts 
to find concrete ways to measure nonpoint source contributions to water 
pollution?

    Question 2. If the EPA is currently involved in the above mentioned 
effort, please explain what methodologies are being used to better 
determine the impact of nonpoint sources to water degradation. Why did 
the Agency not promote a similar effort prior to releasing the Clean 
Water Action Plan?
    Responses 1 and 2. EPA has for many years been engaged in a variety 
of efforts to improve our ability to measure nonpoint source 
contributions to water pollution. These efforts range from continuing 
efforts to improve our modeling capabilities, our monitoring tools, and 
the range of environmental indicators that can be used to measure 
success in our nonpoint source pollution control efforts. For example, 
EPA established in 1991 a National Nonpoint Source Monitoring Program 
that is focusing intensive long-term monitoring on over 20 projects, in 
order to assess the effectiveness of various nonpoint source control 
practices in reducing pollution from a variety of sources in a variety 
of geographic settings. In addition, we have supported and are 
continuing to support many efforts throughout the United States to 
improve our methods of calculating or estimating the pollutant 
reduction effectiveness of a variety of best management practices and 
programs.
    As required by the Government Performance and Results Act, EPA has 
established goals for its nonpoint source program as well as for other 
aspects of its national water quality program. One goal is to reduce 
nutrient loadings. To improve our ability to measure success in this 
regard during the coming years, we have entered into a cooperative 
effort with the U.S. Geological Survey to use their data and techniques 
to improve our capability to assess nutrient loadings at representative 
study sites.
    We intend to continue to refine existing models and measurement 
tools, and develop new ones as appropriate over time. These continuous 
improvement efforts will occur concurrently with our continued 
development and implementation of programs and initiatives, such as 
those included in the Clean Water Action Plan, that have proven value 
in helping to reduce known nonpoint source pollution.

    Question 3. The National Water Quality Inventory (NWQI) and the 
Clean Water Action Plan (CWAP) both State that only 19 percent of the 
Nation's rivers and streams have been surveyed. Of the 19 percent 
surveyed, only 36 percent have been deemed impaired. According to the 
NWQI, actual water quality was collected on slightly over half (51 
percent) of these impaired waters. How do you justify the need for a 
comprehensive Action Plan when water quality data was collected on only 
roughly 3.5 percent of the Nation's waters?
    Response. We believe that the current State section 305(b) reports 
(which make up the National Water Quality Inventory) provide a good 
synopsis of known water quality problems. Our understanding of water 
quality conditions is enhanced by other indicators of watershed health 
such as the Index of Watershed Indicators and by many Federal and State 
water quality assessments, such as the National Ambient Water Quality 
Assessment program managed by the U.S. Geological Survey. Further, the 
Clean Water Action Plan asked States to identify waters in need of 
restoration to meet water quality and other natural resource goals; 
States have identified over 800 watersheds as priorities for 
restoration.
    EPA and State water quality agencies agree that monitoring and 
assessment coverage should continue to expand over time to provide more 
comprehensive water quality management information. EPA and other 
Federal agencies on the National Water Quality Monitoring Council are 
working with States to broaden the coverage of water quality studies, 
including the use of rotating basin monitoring approaches, and to 
provide technical assistance to States to help use statistical surveys 
to provide more information from the monitoring that is accomplished. 
Under the Regional Environmental Monitoring and Assessment Program, the 
Office of Research and Development provides technical assistance to EPA 
Regions and States for design and implementation of probability-based 
surveys to characterize waters at the watershed, State, or ecoregion 
level.
    In addition, EPA and the States are working collaboratively through 
the 305(b) Consistency Workgroup to update and improve the national 
guidelines and protocols for assessing State water quality. Through 
this effort, EPA and the States hope to improve water quality 
monitoring methods, provide consistent schedules for sampling and 
evaluation, and improve reporting mechanisms. Although this is a multi-
year effort, much progress has already been made. However, over the 
next few years, we expect to see vastly improved monitoring and 
reporting by the States which should result in a much improved National 
Water Quality Inventory.
    As all these various assessment efforts mutually highlight known 
watershed and nonpoint source problems that go beyond traditional point 
source concerns, we do support the need for all of us to take 
reasonable next steps as outlined in the Clean Water Action Plan to 
address these remaining problems.

    Question 4. How does the agency justify, in the National Water 
Quality Inventory, that ``without known and consistent survey methods 
in place, the EPA must use caution in comparing data or determining the 
accuracy of data of data submitted by different States and 
jurisdictions'' yet the Agency compares and compiles States' data for 
the development of the NWQI report?
    Response. We believe that the current State section 305(b) reports 
provide a good synopsis of known water quality problems. The NWQI 
report describes the sources of variation among the data reported by 
States; and, EPA, in turn, presents the best national summary that we 
can generate by combining the number of waters States classify as 
either supporting water quality goals or as impaired. We believe that 
these data are currently the best available to characterize national 
water quality. As you note, EPA does highlight the current data 
limitations and emphasizes that additional and more consistent 
information is needed.
    Uncertainties in the national 305(b) summary arise primarily 
because States use different water quality criteria and survey methods 
to rate their water quality. The States also take different approaches 
to designating how their waterbodies are most appropriately to be 
used--such as for swimming, drinking, or fishing. The Clean Water Act 
does provide the States the flexibility to address these issues in ways 
that are the most appropriate to their local watershed conditions and 
circumstances. As described in response to your previous question, 
while still recognizing necessary State and local flexibility, EPA and 
the States continue to work together to improve the national 
consistency of the section 305(b) reporting process.

    Question 5. In States where primacy has been granted over nonpoint 
source pollution, how does that State in turn manage pollution from 
Federal lands, within its boundaries, and more importantly, who retains 
the legal authority over these pollution problems?
    Response. All States currently have approved nonpoint source 
management programs under section 319 of the Clean Water Act. The 
Federal land management agencies have lead jurisdictional authority to 
ensure that the land is managed in accordance with applicable laws. 
Under section 313 of the Clean Water Act, Federal land management 
agencies have the same legal responsibilities to comply with Federal, 
State, and local laws, processes, and sanctions with regard to 
discharges or runoff of pollutants to the same extent as any State or 
private entity. In addition, in section 319 of the CWA, Congress has 
established a process whereby States may review Federal financial 
assistance programs and development projects and, pursuant to Executive 
Order 12372 signed by President Reagan in 1983, identify which of those 
projects or programs are consistent with the State's program. Most 
States have identified in their nonpoint source management programs 
those Federal programs and projects that they review under Executive 
Order 12372. Moreover, many States have signed memoranda of 
Understanding with the Forest Service, the Bureau of Land Management, 
and other Federal agencies to promote water quality protection on 
Federal lands.

    Question 6. The Unified Strategy for Animal Feeding Operations 
(AFOs) seems to require the permitting of AFOs that do not discharge to 
the waters of the United States. The regulations clearly require 
permitting of only those animal feeding operations that discharge at 
storm events that are less than 25-year, 24-hour events. How can 
permits be required for AFOs in areas where regulations clearly State 
that permits are not needed?
    Response. EPA's position is that most AFOs with greater than 1,000 
animal units are CAFOs and should be covered by an NPDES permit due to 
the quantity of manure generated. Further, it is EPA's belief that many 
of the largest CAFOs (greater than 1,000 AU) have had discharges in the 
past and/or have a reasonable likelihood for future discharges and 
therefore should be required to seek coverage under a NPDES permit. 
After a permit application has been received, the State, or EPA as 
permitting authority, will then determine whether a permit is 
appropriate.

    Question 7. What are the criteria for a functionally equivalent 
program? Will functional equivalency be based on performance 
(environmental outcome) or process (permits)?
    Response. A program that is functionally equivalent to an NPDES 
program must first seek and secure authorization under 40 CFR 123.61 
(initial approval) or 40 CFR 123.62 (modification of existing NPDES 
program) before a permit issued by the State will satisfy the NPDES 
permitting requirement. The criteria for authorization are found in 40 
CFR part 123. These criteria include: elimination of conflicts of 
interest; requirements for enforcement authority and penalty 
provisions; confidentiality of permit application information; EPA 
review of and objection to State permits; public notice and public 
hearings for permit issuance; citizens appeal of final-issued permits; 
and citizen intervention in enforcement proceedings. This regulation 
specifies the procedures EPA will follow in approving, revising, and 
withdrawing State programs and the requirements State programs must 
meet to be approved by the EPA Administrator under sections 318, 402, 
and 405 of the Clean Water Act. Included in the regulation are 
procedural requirements intended to meet the procedural and water 
quality and public health objectives of the Act.

    Question 8. The Strategy suggests that a ``functionally 
equivalent'' program for a State is some type of permitting program, 
which will eliminate many State programs that are currently protecting 
the environment. Has the EPA determined that the only way to protect 
the environment is through a permit process?
    Response. The Unified Animal Feeding Operations Strategy emphasizes 
voluntary and incentive-based approaches to encourage AFOs to address 
water quality and public health impacts of their operations. EPA and 
USDA will be working closely with States, Tribes, the agriculture 
industry and other stakeholders to implement best management practices 
using the existing framework of technical and financial assistance, 
including effective State programs on the vast majority of the Nation's 
450,000 animal feeding operations.
    Under the existing regulatory framework of the Clean Water Act, 
NPDES permits are required for approximately 5 percent of all animal 
feeding operations (those that are defined or designated as CAFOs). EPA 
will be working with States to more closely align existing State 
programs to meet the environmental objectives outlined in the Federal 
program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to recognize an existing State 
permit program and can demonstrate that such a program meets the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization. EPA does expect NPDES-authorized States to issue 
NPDES permits to those operations that are CAFOs.

    Question 9. How will the Agency handle a State, with delegated 
authority, that chooses not to implement the Strategy or is prohibited 
from doing so because of financial constraints?
    Response. States and Tribes play a critical role in the development 
and implementation of national and State and Tribal water resource 
protection programs. EPA is committed to work in partnership with 
States and Tribes. EPA believes the need for a national goal and 
performance expectation for AFOs can be balanced with the need for 
flexibility to address the various needs and priorities of the States 
and Tribes, including coordination with other clean water programs. The 
Strategy does not, however, impose any binding requirements on States.
    As a condition of NPDES authorization, each authorized State had to 
demonstrate that it had the necessary legal authority and resources to 
carry out the program. EPA expects authorized States to fully implement 
the NPDES program for CAFOs. In recognition of NPDES-authorized States' 
differing circumstances, the Strategy does, however, provide several 
types of flexibility.
    First, EPA recognizes that some States may be implementing 
permitting programs under State law that meet or exceed the 
requirements of, and, therefore, are functionally equivalent to the 
NPDES program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to recognize an existing State 
permit program and can demonstrate that such a program meets the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization.
    Second, because of differences in workload and resources among 
authorized States, EPA is providing flexibility for States in the 
issuance of permits for CAFOs with fewer than 1,000 animal units (AUs). 
While NPDES-authorized States are expected to issue general permits to 
the largest CAFOs (greater than 1,000 AUs) by January 2000, States will 
have until the end of 2002 to issue permits to CAFOs with fewer than 
1,000 AUs. EPA acknowledges that some States may even need additional 
time beyond 2002 to issue permits for smaller CAFOs.
    A final area of flexibility relates to the schedule for issuing 
individual permits to certain CAFOs. Although these individual permits 
should be issued as expeditiously as possible, EPA and States should 
consider State-specific circumstances such as the total number of CAFOs 
with greater than 1,000 AUs, the need to issue individual permits to 
new or exceptionally large facilities, and the availability of 
technical assistance for development of comprehensive nutrient 
management plans. States may give permitting priority to impaired water 
bodies (such as 303(d) listed waters or those identified in State water 
quality management plans). In addition, where a State develops an NPDES 
program that provides for a comprehensive response to environmental 
issues at CAFOs, EPA will generally defer to an authorized State's 
judgment with respect to the use of individual or general permits.
    To help States with the cost of issuing permits to CAFOs, as well 
as other costs associated with the CWAP, the Administration requested, 
and Congress appropriated, a $20 million increase to section 106 State 
and Tribal water quality program grants in fiscal year 1999. The same 
funding level has been requested for fiscal year 2000 to continue to 
support these activities.

    Question 10. Please explain the number of FTE's the Agency has 
devoted to the Action Plan for (1) the regulatory aspects and (2) the 
voluntary and incentive based portions?
    Response. As you know, most of the Clean Water Action Plan is based 
on voluntary and incentive-based strategies to address the remaining 
threats to water quality, especially polluted runoff. Additionally, 
much of the Federal portion of the Action Plan centers around providing 
the technical tools and assistance, as well as financial assistance to 
our State, Tribal, and local partners to address the wide variety of 
problems facing our rivers, lakes, coastal waters, and wetlands.
    There are approximately 1700 FTE working in the national water 
program that support the general goals of the Clean Water Action Plan 
and the Clean Water Act. The Agency does not track FTEs in the 
categories suggested in the question above, however, we can offer the 
following estimates for the few direct regulatory aspects of the Clean 
Water Action Plan:
    <bullet> Stormwater regulations (phase 11). The Agency is currently 
devoting approximately nine FTE to support the stormwater phase II 
effort.
    <bullet> A small portion of the Unified Animal Feeding Operations 
Strategy (which affects approximately 5 percent of the of the 450,000 
animal feeding operations nationwide) is regulatory in nature. The 
Agency is currently devoting approximately five FTE to support the 
permitting and enforcement aspects of this Strategy.
    <bullet> A new effluent guideline for coal mining. The Agency is 
currently devoting approximately two FTE to this effort.
    <bullet> For fiscal year 2000, the Agency asked the Office of 
Enforcement and Compliance Assurance (OECA) to redirect 20.0 workyears 
within the Water Quality Civil Enforcement program from lower priority 
activities, such as actions against significant non-compliers in non-
priority watersheds, to carry out the Clean Water Action Plan. Two of 
the seven national priority areas in the fiscal year 2000/2001 OECA 
Memorandum of Agreement--Safe Drinking Water Act microbial rules and 
wet weather problems (combined sewer overflows, sanitary sewer 
overflows, concentrated animal feeding lot operations, and 
stormwater)--direct Regional staff to focus on these activities in the 
priority watersheds to be identified under the CWAP. In fiscal year 
2000, both Headquarters and Regional staff will continue work to 
develop strategies and policies as well as improving our targeting to 
more effectively support implementation of the CWAP.
                                 ______
                                 
      Responses by Carol M. Browner to Additional Questions from 
                             Senator Crapo
    Question 1. During the hearing, it was stated that no cost analyses 
had been made on the strategic element of the Clean Water Action Plan. 
Rather, each of the individual elements will be analyzed separately. 
What are the estimated implementation costs to the Federal agencies, 
State agencies, and regulated communities for each of the action items 
under the Plan?
    Response. As was stated during the hearing, cost estimates will be 
prepared for major regulatory elements of the Action Plan, as is the 
standard practice when developing new regulations.

    Question 2. What resources have been or will be made to assist the 
States and regulated communities for carrying out each item?
    Response. The Administration proposed a cross-agency budget 
initiative to support the Clean Water Action Plan. Much of that Budget 
request was intended to support our State and local partners in the 
implementation of the Action Plan. Unfortunately, Congress did not 
fully fund this request in fiscal year 1999. The Administration is 
requesting $2,275 million, a $453 million increase from fiscal year 
1999, to fund such programs in fiscal year 2000 and would appreciate 
Congress's serious consideration of this request.
    Within this funding request, several EPA programs directly support 
our State, Tribal, and local partners, including $200 million in 
polluted runoff funding (section 319 grants) and $116 million for State 
program management (section 106 grants). In addition, base funding for 
the wetlands protection grants, water quality cooperative agreements, 
water quality program management funds, and the State Revolving Fund 
all support our State, Tribal, and local partners in the implementation 
of the Action Plan.
    The fiscal year 2000 President's Budget also includes increases for 
National Oceanic and Atmospheric Administration's polluted runoff State 
grants, the Office of Surface Mining's abandoned mine water quality, 
and the Natural Resources Conservation Service's locally-led 
conservation, all of which assist States and localities with 
implementing the CWAP action items.

    Question 3. Without proper attention to the cost of implementation 
and provision of resources to the producer, this program will not be 
effectively implemented nor done on a voluntary basis. Will EPA tailor 
implementation to the availability of assistance to farmers and 
ranchers?
    Response. As mentioned above, resources are an important part of 
the Clean Water Action Plan. In fiscal year 1999, the Administration 
proposed a multi-Agency budget increase of $568 million to provide much 
needed funds to farmers, ranchers, and others to implement voluntary 
pollution control measures. Unfortunately, Congress only provided $186 
million of the increase requested. These reductions, particularly in 
the USDA portion of the budget request, have restricted our ability to 
provide assistance to farmers and ranchers and other landowners.
    The agencies involved in the Clean Water Action Plan must 
prioritize assistance to correspond to the amount of funding available. 
It should be noted, of course, that there are many landowners who will 
respond to requests to implement pollution control measures on their 
land because they have a strong conservation ethic and have the 
financial resources to do so without governmental assistance. However, 
in today's difficult economy, many farmers, ranchers and other 
landowners do not have the financial resources to implement such 
measures without governmental assistance. Therefore, the financial 
assistance programs represented in the Clean Water Action Plan budget 
request, play a critical role in implementing these important programs.

    Question 4. Have local Soil Conservation Districts been allowed 
significant input into the TMDL identification process.
    Response. EPA regulations and guidance outline our expectations 
that a wide-range of stakeholders, including the general public, 
participate in the State section 303(d) listing process where impaired 
and threatened waterbodies needing TMDLs are identified. As just one 
example, the TMDL regulations require States to identify impaired 
waters by assembling and evaluating ``all existing and readily 
available data'' from a variety of sources, including water quality 
problems reported by local organizations [40 CFR 130.7(b)(5)]. Given 
their particular knowledge and expertise on agricultural pollution 
problems and solutions, the States and EPA have worked closely for many 
years with USDA's Natural Resources Conservation Service and their 
local Soil Conservation District partners on NPS programs; our programs 
and guidance encourage these partnerships. EPA also provides grant 
support to the National Association of Conservation Districts and the 
National Association of State Conservation Agencies to help their 
members become more involved in water quality issues, including TMDLs.

    Question 5. What is the intention of the Watershed General Permit? 
Do you really intend for rural residents with a handful of horses to be 
subject to the same permitting requirements as a large farm? Do you 
intend to follow the complete Federal rulemaking process before you 
institute this and other parts of the Clean Water Action Plan?
    Response. The Unified Animal Feeding Operations Strategy emphasizes 
voluntary and incentive-based approaches to encourage AFOs to address 
water quality and public health impacts of their operations. EPA and 
USDA will be working closely with States, Tribes, the agriculture 
industry and other stakeholders to implement best management practices 
using the existing framework of technical and financial assistance, 
including effective State programs on the vast majority of the Nation's 
450,000 animal feeding operations.
    Under the regulatory framework of the Clean Water Act, NPDES 
permits are required for approximately 5 percent of all animal feeding 
operations (those that are defined or designated as CAFOs). EPA 
believes that most CAFOs will be covered by a Statewide general permit. 
A watershed-specific permit is nothing more than a general permit with 
a narrower geographic scope that corresponds to a particular watershed. 
The NPDES permitting authority may choose to use a watershed specific 
CAFO permit to address the unique problems facing a particular 
watershed. The AFO Strategy calls for primarily large operations 
(greater than 1,000 AUs) be covered by NPDES permits. EPA does not 
anticipate ``rural residents with a handful of horses'' to be CAFOs or 
to be covered by an NPDES permit. EPA will follow the Federal 
rulemaking process as it reviews and revises the current regulations 
for CAFOs. The AFO Strategy itself is not a rule and does not change 
the legal requirements for CAFOs. General permits are not rules, but 
EPA will follow a very similar administrative process to issue general 
permits.

    Question 6. How does the EPA intend to use general discharge 
permits? Will these be handled at the discretion of State regulators 
under their Clean Water Act primacy or by the EPA?
    Response. EPA believes that most CAFOs will be covered by a State-
wide general permit. For those States with authorized NPDES programs, 
the States issue NPDES general permits. For those States that do not 
have authorized NPDES programs, EPA will issue the general permit.

    Question 7. Given the likelihood that many smaller operations will 
go out of business rather than comply with certain requirements, has 
the EPA measured the probable environmental impact of further 
transforming the AFO industry toward fewer, but considerably larger 
operations?
    Response. The vast majority of AFOs, particularly the small 
operations, will be encouraged to develop comprehensive nutrient 
management plans. These plans are voluntary and should not directly 
contribute to the already existing economic pressures on small farm 
operations. Further, it is not the intent of the anticipated CAFO 
rulemakings to drive out small operations out of business. By law, EPA 
is required to assess the impacts on small businesses. EPA will also 
obtain small business input during the rule development phase to help 
mitigate adverse impacts to small business.

    Question 8. Under the proposed TMDL rules, the EPA may require BMPs 
for nonpoint sources on impaired streams. How is the requirement for 
States to implement BMPs different from Federal establishment of 
nonpoint source regulation.
    Response. The forthcoming changes to the TMDL regulations have not 
yet been proposed; they are expected in late summer 1999. They likely 
will closely follow the consensus recommendations of a Federal Advisory 
Committee Act [FACA] committee for TMDLs submitted to the Administrator 
in mid-1998 (see http://www.epa.gov/OWOW/tmdl/advisory.html). A key 
recommendation of the FACA committee is that BMPs for nonpoint sources 
should be implemented by States where needed, but that reasonable 
assurances for implementation--not regulation--should be required.
    Specifically, if a TMDL identifies load reductions from nonpoint 
sources to meet water quality standards, the State would provide 
reasonable assurances that nonpoint source load reductions will be 
achieved. In addition to any regulatory means a State chooses to employ 
(such as local ordinances for septic tanks), these reasonable 
assurances could be voluntary, non-regulatory or incentive-based, 
consistent with applicable programs at the local, State or Federal 
level and generally reflected in the State's NPS management program 
under CWA section 319.

    Question 9. Has the EPA done an assessment of the impact of 
voluntary BMPs the forest industry has undertaken? Would it be 
appropriate for Federal agencies to undertake an investigation of these 
impacts prior to the development of TMDL requirements?
    Response. EPA has reviewed a number of State assessments of the 
effectiveness of their forestry programs (which in most cases focus on 
voluntary approaches that are backed by enforceable authorities) and 
also has had the opportunity at various times to tour forestry sites 
with State officials. The State assessments over time have indicated a 
general improving trend in the implementation rates of State-
established best management practices. While the improved 
implementation of best management practices does not guarantee that the 
State's water quality standards will be achieved in all cases, it is 
good evidence of the improving effectiveness of the State's programs.
    A total maximum daily load (TMDL), required by section 303(d) of 
the Clean Water Act, is a calculation of the maximum amount of a 
pollutant that a waterbody can receive and still meet water quality 
standards. States identify waters not meeting water quality standards, 
set priorities, and then develop TMDLs for those waters. A State that 
has an effective voluntary BMP program for forestry will very likely 
have fewer waters that are not meeting water quality standards due to 
forestry activities. Thus, an effective voluntary program can reduce 
the number of waters for which a TMDL needs to be developed. 
Furthermore, even where a TMDL is developed, voluntary means may be 
used to implement pollution control measures as long as there is a 
reasonable likelihood that these measures will actually be implemented.
                                 ______
                                 
      Responses by Carol M. Browner to Additional Questions from 
                             Senator Inhofe
    Question 1. The strategy mentions Federal support for State 
certification programs to develop private sector sources of assistance 
in developing Comprehensive Nutrient Management Plans (``CNMP''). 
Specifically, what kind of financial and technical resources will the 
EPA and USDA provide to develop CNMP certification?
    Response. EPA does support the concept of certified specialists to 
help ensure the quality of CNMPs. States will have the lead role to 
establish these certification programs. EPA and USDA will support 
development of these certification programs and have outlined in the 
Strategy several actions related to building capacity for CNMP 
development and implementation. Of course, States may use funding such 
as 106 and 319 funding to establish such a certification program.

    Question 2. How does EPA intend to regulate dry-litter poultry 
operations and ensure compliance with the provisions of the Strategy?
    Response. Currently, most dry poultry operations are not subject to 
NPDES permitting because the current regulation only applies to 
operations with 100,000 layers or broilers with continuous flow 
watering systems, or operations with 30,000 layers or broilers with 
liquid manure systems. In practice, ``continuous watering system'' 
refers to an outdated technology, and the threshold in the CAFO 
regulation that is based on this technology would rarely apply. 
Therefore, the threshold based on liquid manure system'' would be the 
more commonly applied threshold for poultry operations.
    EPA believes that animal feeding operations, including poultry 
operations, that remove waste from pens and stack it in areas exposed 
to rainfall or an adjacent watercourse may have established a crude 
liquid manure system for process wastewater that may discharge 
pollutants, and therefore would be subject to the current CAFO 
regulations. These facilities would be point sources under the NPDES 
program if the number of animals confined at the facility meets the 
regulatory definition in 40 CFR Part 122, Appendix B or if the facility 
is designated a CAFO.
    In addition, under the Strategy, EPA committed to consider revising 
the regulation to include large poultry operations, consistent with the 
size threshold for other animal sectors, as CAFOs, regardless of the 
type of watering or manure handling system. The Agency is at the early 
stages of its rule development process in which this option is being 
considered.
    Under the regulatory framework of the Clean Water Act, 
approximately 5 percent of all animal feeding operations are either 
defined or designated as concentrated animal feeding operations (CAFOs) 
and required to have NPDES permits. The permit, as with permits for 
other CAFOs, would require development and implementation of a 
comprehensive nutrient management plan. This CNMP would be the key 
vehicle for ensuring that the litter is managed properly and water 
quality impacts are minimized.

    Question 3. Does EPA intend to regulate, or have any involvement 
in, dry-litter poultry operations that currently follow a State-
certified, NRCS approved AMP?
    Response. EPA expects that a State-certified AMP would likely 
satisfy or could be modified to satisfy the requirement for a CNMP.

    Question 4. Will EPA Regional Offices be required to follow the 
provisions of the strategy when developing Regional General Permits for 
CAFO's, or will Regional Offices be given the flexibility to tailor 
CAFO General Permits to the needs of States in their regions?
    Response. EPA Regions, where they are the NPDES permitting 
authority, will be expected to issue permits for CAFOs that are 
consistent with the permitting approach in the AFO Strategy, which 
includes the flexibility to issue general permits.

    Question 5. If flexibility is given, will Regional Offices be 
allowed to develop CAFO General Permits that are more stringent than 
what is provided in the strategy (as Region 6 in Dallas has already 
attempted)?
    Response. EPA Regions, where they are the NPDES permitting 
authority, will be expected to issue permits for CAFOs that are 
consistent with the permitting approach in the AFO Strategy. The EPA 
Region 6 draft CAFO general permit proposed on June 26, 1998, is 
largely consistent with the USDA/EPA Unified AFO Strategy issued on 
March 9, 1999. Region 6 has worked closely with EPA Headquarters to 
develop a model general permit and we fully expect that its general 
permit will be consistent with the AFO Strategy.

    Question 6. Because the most limiting factor in most States is lack 
of adequate scientific data to accurately identify sources of nonpoint 
source pollution, (a) what will EPA do to support better water quality 
monitoring and (b) what information will EPA use in the meantime to 
identify watersheds being adversely impacted by AFO's (i.e., for 
watershed-specific CAFO General Permits)?
    Response. One of the actions in the AFO Strategy addresses water 
quality monitoring. EPA, in cooperation with States, will identify ways 
to improve the Clean Water Act section 305(b) Water Quality Inventory 
to better report the water quality impacts caused by AFOs. States, not 
EPA, have historically, and will continue to have the primary role in 
monitoring the condition of their surface waters and in determining 
which watersheds may be adversely impacted by AFOs and may benefit from 
a watershed permitting approach. EPA encourages States to use existing 
watershed assessment processes, such as the Clean Water Act section 
303(d) listing process, to evaluate causes of water quality impairment.
    In addition, EPA is currently reviewing available information to 
determine in which watersheds to focus the Agency's CAFO compliance 
assistance, permitting and compliance monitoring activities. The Agency 
will use watershed information on (1) the potential for manure runoff; 
(2) the amount of surface water (stream miles and lake acreage); and 
(3) water quality monitoring information to determine these CAFO 
priority watersheds. This activity could be used to help determine 
where to use a watershed permitting approach for CAFOs.

    Question 7. The current Clean Water Act and the regulations 
associated with it have not been fully implemented to include all those 
currently required to have CAFO permits. The regulations allow EPA a 
great deal of latitude when it comes to determining what is a CAFO. It 
appears polls and politics are driving this program as opposed to 
science. Why is EPA proposing to expand the current program when it has 
not even implemented the existing program? Should you not interpret the 
success of the current program prior to changing it? You make 
predictions in the Strategy on numbers that cannot be defended yet the 
conclusion that we need to change the focus is made. Is the direction 
of new policy determined by looking at the number of permits and 
enforcement actions?
    Response. The Unified Animal Feeding Operations Strategy emphasizes 
voluntary and incentive-based approaches to encourage AFOs to address 
water quality and public health impacts of their operations. EPA and 
USDA will be working closely with States, Tribes, the agriculture 
industry and other stakeholders to help implement best management 
practices on most of the Nation's 450,000 animal feeding operations.
    Under the regulatory framework of the Clean Water Act, NPDES 
permits are required for approximately 5 percent of all animal feeding 
operations (those that are defined or designated as CAFOs). The 
Strategy includes a number of actions designed to better implement the 
existing regulatory program during the next decade and that reflect the 
expansion and concentration of the animal agriculture industry over the 
past two decades. During Round I permitting of CAFOs (2000-2005), EPA 
is focusing primarily on the large operations, which should be 
addressed through NPDES general permits. EPA expects many other 
operations to seek voluntary assistance to ensure that are not a 
priority in future NPDES permitting. EPA will consider the success of 
the current efforts as we consider changes to the existing regulations, 
which will be in effect during Round II (2005-2010).

    Question 8. You have gone before numerous committees stating EPA 
does not have the resources to implement the current environmental 
statutes. Clearly, EPA has demonstrated that you are unable to fully 
implement the existing programs, as it pertains to agriculture. States 
have made it clear that they do not have the resources to implement the 
existing program. How does the administration expect to implement an 
entirely new program that is much more expansive than the existing 
program?
    Response. The program outlined in the Unified AFO Strategy is a 
largely a collection of existing efforts and programs. EPA and USDA are 
committed to better coordinating these efforts and ensuring that 
programs are more effectively implemented to better address the water 
quality and public health impacts of animal feeding operations while 
maintaining the overall, long-term sustainability of the industry. For 
instance, EPA and USDA have existing programs that provide technical 
and financial assistance, such as the nonpoint source grants program 
(CWA sec. 319), the Clean Water State Revolving Fund Program, the 
Environmental Quality Incentives (EQIP) program, Conservation Technical 
Assistance, and many others. Additionally, concentrated animal feeding 
operations have been required to have NPDES permits since 1976. (There 
are many reasons CAFO permits have not been issued over the years and 
resource constraints are only one of the issues.)
    To support the States in these efforts, in fiscal year 1999 the 
Administration requested and received increases to the nonpoint source 
(319) and State program management (106) grants. However, only $174 
million was authorized for EQIP rather than the $300 million requested 
by the Administration. The Administration has also included additional 
funds to support the Clean Water Action Plan, including a $126 million 
increase to EQIP, in the fiscal year 2000 budget request.

    Question 9. Has a cost analysis been done to determine EPA's needs 
to implement this strategy? Has any cost/benefit analysis been done? 
Are you avoiding SBREFA and Regulatory Flexibility Act by changing 
regulations with Strategies and Policies as opposed to regulations?
    Response. The Strategy summarizes possible changes to EPA's 
regulations that are being considered, but the Strategy is not itself a 
proposed regulation. Nevertheless, EPA and USDA committed in the 
Strategy to develop a joint evaluation of its costs and benefits. In 
addition, EPA will conduct the appropriate cost benefit analyses, cost-
effectiveness analyses and financial analyses as required under the 
Regulatory Flexibility Act, and the other statutes and Executive Orders 
if changes to the existing regulations are proposed.

    Question 10. The Strategy seems to require the permitting of AFOs 
that do not discharge to the waters of the United States. The 
regulations clearly require permitting only of animal feeding 
operations that discharge at storm events that are less than 25-year, 
24-hour events. How can permits be required for AFOs where the 
regulations clearly say they are not needed?
    Response. EPA's position is that most AFOs with greater than 1,000 
AUs are CAFOs and should be covered by an NPDES permit due to the 
quantity of manure generated. Further, it is EPA's belief that many of 
the largest CAFOs (greater than 1,000 AU) have had discharges in the 
past and/or have a reasonable likelihood for future discharges and 
therefore should be required to seek coverage under a NPDES permit. 
After an application has been received, it will then be determined 
whether a permit is appropriate.

    Question 11. What are the criteria for a functionally equivalent 
program? Will functional equivalency based on performance 
(environmental outcome) or process (permits)?
    Response. A program that is functionally equivalent to an NPDES 
program must first seek and secure authorization under 40 CFR 123.61 
(initial approval) or 40 CFR 123.62 (modification of existing NPDES 
program) before a permit issued by the State will satisfy the NPDES 
permitting requirement. The criteria for authorization are found in 40 
CFR part 123. These criteria include: elimination of conflicts of 
interest; requirements for enforcement authority and penalty 
provisions; confidentiality of permit application information; EPA 
review of and objection to State permits; public notice and public 
hearings for permit issuance; citizens appeal of final-issued permits; 
and citizen intervention in enforcement proceedings. This regulation 
specifies the procedures EPA will follow in approving, revising, and 
withdrawing State programs and the requirements State programs must 
meet to be approved by the EPA Administrator under sections 318, 402, 
and 405 of the Clean Water Act. Included in the regulation are 
procedural requirements intended to meet the procedural and water 
quality and public health objectives of the Act.

    Question 12. The strategy suggests that a ``functionally 
equivalent'' program for a State is some type of permitting program. 
This will eliminate many State programs that are currently protecting 
the environment. Has EPA determined that the only way to protect the 
environment is through a permit? Did we not already realize command and 
control does not work?
    Response. The Unified Animal Feeding Operations Strategy emphasizes 
voluntary and incentive-based approaches to encourage AFOs to address 
water quality and public health impacts of their operations. EPA and 
USDA will be working closely with States, Tribes, the agriculture 
industry and other stakeholders to implement best management practices 
using the existing framework of technical and financial assistance, 
including effective State programs on the vast majority of the Nation's 
450,000 animal feeding operations.
    Under the existing regulatory framework of the Clean Water Act, 
NPDES permits are required for approximately 5 percent of all animal 
feeding operations (those that are defined or designated as CAFOs). EPA 
will be working with States to more closely align existing State 
programs to meet the environmental objectives outlined in the Federal 
program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to recognize an existing State 
permit program and can demonstrate that such a program meets the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization. EPA does expect NPDES-authorized States to issue 
NPDES permits to those operations that are CAFOs.

    Question 13. How does EPA make broad conclusions of environmental 
harm when only 19 percent of the rivers in the United States have been 
tested and it can be assumed that those are the waters in the worst 
condition?
    Response. We believe that the current State section 305(b) reports 
(which make up the National Water Quality Inventory) provide a good 
synopsis of known water quality problems. Our understanding of water 
quality conditions is enhanced by other indicators of watershed health 
such as the Index of Watershed Indicators and by many Federal and State 
water quality assessments, such as the National Ambient Water Quality 
Assessment program managed by the U.S. Geological Survey. Further, the 
Clean Water Action Plan asked States to identify waters in need of 
restoration to meet water quality and other natural resource goals; 
States have identified over 800 watersheds in this country as 
priorities for restoration. Also, we don't assume the waters surveyed 
are the worst; many States use probabilistic methods or rotating basin 
approaches for water quality assessments in order to present a balanced 
picture.
    EPA and State water quality agencies agree that monitoring and 
assessment coverage should continue to expand over time to provide more 
comprehensive water quality management information. EPA and other 
Federal agencies on the National Water Quality Monitoring Council are 
working with States to broaden the coverage of water quality studies, 
including the use of rotating basin monitoring approaches, and to 
provide technical assistance to States to help use statistical surveys 
to provide more information from the monitoring that is accomplished. 
Under the Regional Environmental Monitoring and Assessment Program, the 
Office of Research and Development provides technical assistance to EPA 
Regions and States for design and implementation of probability-based 
surveys to characterize waters at the watershed, State, or ecoregion 
level.
    In addition, EPA and the States are working collaboratively through 
the 305(b) Consistency Workgroup to update and improve the national 
guidelines and protocols for assessing State water quality. Through 
this effort, EPA and the States hope to improve water quality 
monitoring methods, provide consistent schedules for sampling and 
evaluation, and improve reporting mechanisms. Although this is a multi-
year effort, much progress has already been made. However, over the 
next few years, we expect to see vastly improved monitoring and 
reporting by the States which should result in a much improved National 
Water Quality Inventory.
    As all these various assessment efforts mutually highlight known 
watershed and nonpoint source problems that go beyond traditional point 
source concerns, we do support the need for all of us to take 
reasonable next steps as outlined in the Clean Water Action Plan to 
address these remaining problems.

    Question 14. How will EPA handle a State with delegated authority, 
that chooses not to implement the strategy or merely cannot under 
financial constraints?
    Response. States and Tribes play a critical role in the development 
and implementation of national and State and Tribal water resource 
protection programs. EPA is committed to work in partnership with 
States and Tribes. EPA believes the need for a national goal and 
performance expectation for AFOs can be balanced with the need for 
flexibility to address the various needs and priorities of the States 
and Tribes, including coordination with other clean water programs. The 
Strategy does not, however, impose any binding requirements on States.
    As a condition of NPDES authorization, each authorized State had to 
demonstrate that it had the necessary legal authority and resources to 
carry out the program. EPA expects authorized States to fully implement 
the NPDES program for CAFOs. In recognition of NPDES-authorized States' 
differing circumstances, the Strategy does, however, provide several 
types of flexibility.
    First, EPA recognizes that some States may be implementing 
permitting programs under State law that meet or exceed the 
requirements of, and, therefore, are functionally equivalent to the 
NPDES program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to recognize an existing State 
permit program and can demonstrate that such a program meets the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization.
    Second, because of differences in workload and resources among 
authorized States, EPA is providing flexibility for States in the 
issuance of permits for CAFOs with fewer than 1,000 animal units (AUs). 
While NPDES-authorized States are expected to issue general permits to 
the largest CAFOs (greater than 1,000 AUs) by January 2000, States will 
have until the end of 2002 to issue permits to CAFOs with fewer than 
1,000 AUs. EPA acknowledges that some States may even need additional 
time beyond 2002 to issue permits for smaller CAFOs.
    A final area of flexibility relates to the schedule for issuing 
individual permits to certain CAFOs. Although these individual permits 
should be issued as expeditiously as possible, EPA and States should 
consider State-specific circumstances such as the total number of CAFOs 
with greater than 1,000 AUs, the need to issue individual permits to 
new or exceptionally large facilities, and the availability of 
technical assistance for development of comprehensive nutrient 
management plans. States may give permitting priority to impaired water 
bodies (such as 303(d) listed waters or those identified in State water 
quality management plans). In addition, where a State develops an NPDES 
program that provides for a comprehensive response to environmental 
issues at CAFOs, EPA will generally defer to an authorized State's 
judgment with respect to the use of individual or general permits.
    To help States with the cost of issuing permits to CAFOs, as well 
as other costs associated with the CWAP, the Administration requested, 
and Congress appropriated, a $20 million increase to sec. 106 State and 
Tribal water quality program grants for fiscal year 1999. The same 
funding level has been requested for fiscal year 2000 to continue to 
support these activities.

    Question 15. Under section 208(j) of the Clean Water Act, EPA, with 
the Secretary of Agriculture, could enter into contracts with producers 
to install and maintain best management practices to control non-point 
sources. Has EPA asked to have this program funded? If yes, how much? 
If no, how can EPA place all the blame on non-point source agriculture 
and not even request funding to address that exact issue under the 
Clean Water Act.
    Response. EPA does not ``place all the blame'' for continuing water 
quality problems on agriculture. We have significant efforts underway, 
as outlined in a variety of documents including the Clean Water Action 
Plan, to address problems associated with stormwater management, 
combined sewer overflows, sanitary sewer overflows, and septic systems, 
among other sources of impairment. Nevertheless, most experts, and many 
agricultural producers, recognize that some farming operations 
contribute to water quality problems. As the States report, in the 
aggregate, agricultural operations are, in fact, the leading cause of 
impairment. Accordingly, EPA has increased its requests for grants to 
States under section 319 of the Clean Water Act to address runoff to 
$200 million/year and has supported increases for complementary USDA 
programs such as EQIP, Conservation Technical Assistance, and CRP. A 
large portion--the exact amount determined by each State--of the 319 
money is passed through to agricultural producers to assist them to 
demonstrate ways to reduce pollution. In addition, EPA has been working 
closely with the States and agricultural interests to increase the use 
of the Clean Water State Revolving Fund program, which may be used to 
provide low interest loans to address nonpoint sources of pollution, 
including animal feeding operations.
    Section 208(j), which was part of the original CWA, was never 
funded largely due to concerns about overlap with existing USDA 
programs and concern about the appropriate role for both USDA and EPA. 
In response to these concerns, Congress created the Rural Clean Water 
Program in USDA to test some of the ideas originally expressed in 
section 208(j). This program ran for approximately 10 years and 
provided funds for pilot projects around the country. Based on these 
and other experiences, the section 319 program was added to the Clean 
Water Act when it was reauthorized in 1987. The section 319 program 
includes State-led nonpoint source assessments and management programs 
as well as a grant program. Based on this history, section 319 is 
generally recognized as the appropriate vehicle for EPA to fund best 
management practices to address nonpoint sources of pollution. The 1996 
Farm bill established EQIP as a means for USDA to fund best management 
practices to address nonpoint source pollution among other things.

    Question 16. Does EPA plan on regulating the land application of 
manure which is applied offsite of the CAFO permit? Will this be part 
of the CAFO permit or are you planning on regulating farmers?
    Response. In general, the Clean Water Act does not regulate farmers 
that, in the normal course of business, use manure on their lands. In a 
case where a third party takes manure from a CAFO and applies it to the 
land (offsite) that party could be subject to regulation under the 
Clean Water Act. If that party develops and implements an appropriate 
comprehensive nutrient management plan, the operator would qualify for 
the Clean Water Act's agricultural stormwater exemption and, thus, 
avoid regulation of its stormwater-related discharges. EPA will provide 
additional information on land application in its forthcoming CAFO 
permitting guidance.

    Question 17. How does EPA plan on using individual permits v. 
general permits? Does EPA or the States make the determination of which 
permit to issue?
    Response. The Unified AFO Strategy encourages the use of general 
NPDES permits for most CAFOs. There are some situations, however, where 
a general permit may not be appropriate, including for exceptionally 
large operations, new operations undergoing significant expansion, 
operations with historical compliance problems, and operations with 
significant environmental concerns. EPA plans to discuss general and 
individual CAFO permits more fully in its forthcoming CAFO permitting 
guidance. Those States with an authorized NPDES program have discretion 
to determine whether to use general or individual permits, particularly 
where a State develops an NPDES program that provides a comprehensive 
response to environmental issues at CAFOs. EPA will make that 
determination for non-authorized States.

    Question 18. The time line for this Strategy is very ambitious. A 
draft model permit is supposed to be out in May and then in August. The 
strategy then states that the priority permits (15,000-20,000) will be 
issued by January of 2000. Is this not an extremely short time for 
States to implement 20,000 permits when EPA claims there have currently 
only been 6,000 permits issued since the beginning of this program?
    Response. As described in the Unified AFO Strategy and under the 
current regulations, EPA estimates that a total of 15,000-20,000 CAFOs 
will ultimately need to have NPDES permits to address the Strategy's 
three permitting priorities: (1) facilities with significant manure 
production; (2) facilities with unacceptable conditions; and (3) 
facilities that are significantly contributing to water quality 
impairment. There are approximately 10,000 CAFOs with significant 
manure production. The other two permitting priorities (unacceptable 
conditions and significant contributors to water quality impairment) 
include approximately 5,000-10,000 CAFOs.
    The Strategy discusses the short-term objective of issuing 
Statewide general NPDES permits to cover most CAFOs with significant 
manure production by January 2000. Statewide general permits are 
designed to cover a large number of a particular type of facility and 
thus only one is needed for each State. Since individual permits may be 
more appropriate for some CAFOs with significant manure production, the 
estimate of the CAFOs that need to have general permit coverage by 
January 2000 will be somewhat less than 10,000. EPA believes that 
because States will use Statewide general permits to cover CAFOs with 
significant manure production, the January 2000 objective is feasible. 
The remaining CAFOs with unacceptable conditions or that are 
significantly contributing to water quality impairment will be covered 
by NPDES permits by about 2002. Although EPA is emphasizing these 
permitting priorities, it is important to note that CAFOs have been 
required to have NPDES permits since 1976.

    Question 19. Do you think every concentrated beef cattle feeding 
operations over 1,000 head should have a general permit? (Yes or no) If 
yes, what was the environmental consideration taken into account in 
making that determination and do you not have to discharge or have the 
potential to discharge into the waters of the United States in order to 
need an NPDES permit? How could a decision based solely on a number 
answer the other permitting questions?
    Response. EPA's position is that most AFOs with greater than 1,000 
AUs are CAFOs and should be covered by an NPDES permit due to the 
quantity of manure generated. Further, it is EPA's belief that many of 
the largest CAFOs (greater than 1,000 AU) have had discharges in the 
past and/or have a reasonable likelihood for future discharges and 
therefore should be required to seek coverage under a NPDES permit. 
After an application has been received, it will then be determined 
whether a permit is appropriate.

    Question 20. Many times when asked about specific sections of the 
Strategy you and your staff have responded with an expansive 
interpretation of that section. The Strategy was written with extreme 
vagueness and you seem to treat it as a living document. How is the 
producer suppose to interpret it? Is he or she to suppose to rest 
assured on your interpretations?
    Response. EPA and USDA have been working together to conduct 
extensive outreach on the Strategy. For example, we sponsored 11 
listening sessions to help explain the draft strategy and gain input 
from the industry and other key stakeholders. Listening sessions were 
held between November 16 and December 15, 1998 in Tulsa, Oklahoma; 
Harrisburg, Pennsylvania; Chino, California; Madison, Wisconsin; 
Seattle, Washington; Des Moines, Iowa; Chattanooga, Tennessee; 
Indianapolis, Indiana; Fort Worth, Texas; Denver, Colorado; and 
Annapolis, Maryland. The meetings provided basic information about the 
draft Strategy, answered specific questions on the strategy, and helped 
facilitate submission of public comments. Roughly 2,300 farmers, 
environmental groups, agriculture industry groups, and other members of 
the public attended the meetings.
    Upon release of the draft Strategy in September, USDA and EPA 
broadcast a video satellite downlink to State conservationists and many 
other interested parties. The draft strategy was distributed widely to 
EPA and USDA stakeholders and partners and posted on the Internet. We 
continue to provide support and outreach to interested parties and are 
preparing support materials, including permitting guidance that will 
help clarify expectations and requirements for CAFOs. The final 
strategy was released in March, and is posted along with an executive 
summary at http://www.epa.gov/owm/afo.html on the Internet.
    In all these cases, we endeavor to provide consistent support and 
interpretations and will continue to work to improve our materials and 
outreach efforts.

    Question 21. The implementers of this Strategy will be regional 
directors and States. There is in many situations of regional 
administrators not agreeing with EPA headquarters and in some cases not 
following the direction of headquarters. Is that not a more immediate 
problem that faces the agency? How are we to know that the regions will 
follow EPA headquarters interpretation of this strategy?
    Response. EPA will continue to work closely with the Regions and 
States to ensure understanding of the AFO Strategy.
                                 ______
                                 
      Responses by Carol M. Browner to Additional Questions from 
                           Senator Hutchison
    Question 1a. The current Clean Water Act and the regulations 
associated with it have not been fully implemented to include all those 
currently required to have CAFO permits. The regulations allow EPA a 
great deal of latitude when it comes to determining what is a CAFO. Why 
is EPA proposing to expand the current program when it has not even 
implemented the existing program? Should you interpret the success of 
the current program prior to changing it?
    Response. As you know, the Unified Animal Feeding Operations 
Strategy emphasizes voluntary and incentive-based approaches to 
encourage AFOs to address water quality and public health impacts of 
their operations. EPA and USDA will be working closely with States, 
Tribes, the agriculture industry and other stakeholders to help 
implement best management practices on most of the Nation's 450,000 
animal feeding operations.
    Under the regulatory framework of the Clean Water Act, NPDES 
permits are required for approximately 5 percent of all animal feeding 
operations (those that are defined or designated as CAFOs). The 
Strategy includes a number of actions designed to better implement the 
existing regulatory program during the next decade and that reflect the 
expansion and concentration of the animal agriculture industry over the 
past two decades. During Round I permitting of CAFOs (2000-2005), EPA 
is focusing primarily on the large operations, which should be 
addressed through NPDES general permits. EPA expects many other 
operations to seek voluntary assistance to ensure that are not a 
priority in future NPDES permitting. EPA will consider the success of 
the current efforts as we consider changes to the existing regulations, 
which will be in effect during Round II (2005-2010).

    Question 1b. Has EPA done an analysis of States with delegated 
authority and their NPDES program? If so, could you supply me with that 
information? If not, how did EPA make the conclusion that the State 
programs need to be changed?
    Response. Forty-three States are authorized to implement the NPDES 
program. EPA believes that, with the exception of Oklahoma, all these 
States currently have authority to address CAFOs through their NPDES 
program. Despite this longstanding authority, some States such as North 
Carolina have developed alternative regulatory programs to deal with 
AFOs. The NPDES regulations provide for the recognition of these State 
programs as NPDES permit programs. Where a State can demonstrate that 
its program meets the NPDES program requirements, EPA will amend the 
State's current NPDES authorization to recognize the State program.

    Question 2. The strategy would put in place thousands of new NPDES 
permits for AFOs across the country, at the same time that EPA's 
enforcement office is pursuing existing CAFO permit holders. What is 
the goal of the Strategy: compliance, assurance or enforcement?
    Response. The AFO Strategy clearly indicates reliance on a complete 
range of tools to ensure that animal waste is effectively managed to 
protect water quality, including permitting, compliance assurance, and 
enforcement as needed. While the vast majority of AFOs will be 
encouraged to implement appropriate environmental safeguards through 
voluntary programs, EPA expects that about 15,000-20,000 CAFOs will be 
covered by NPDES permits under the current regulations. As with all CWA 
regulatory programs, EPA may take action for discharges without a 
permit or discharges in violation of a permit, and may initiate 
emergency action at any time against an entity that presents an 
imminent or substantial endangerment to human health or the 
environment.

    Question 3. The strategy causes States to implement general NPDES 
permits by January 2000, but CNMPs come a couple of years later. Also 
the effluent guidelines (ELGs) are being rewritten and due out in a 
later part of next year. Why rush through a very ambitious permit 
requirement when many pieces of the permits are still being worked on 
and it is obvious the State and Federal officials aren't ready?
    Response. As outlined in the Unified AFO Strategy, EPA plans to 
work with States to establish a two-phase approach to permitting CAFOs 
during the next decade. Round I of CAFO permitting (2000-2005) will 
begin early next year and will focus on large CAFOs (i.e., greater than 
1,000 animal units), and will occur under EPA's existing regulations 
and effluent guidelines. The permits issued during Round I are expected 
to remain in effect at least until 2005. The largest CAFOs should 
develop and begin implementation of CNMPs between 2000 and 2003; EPA 
and States may require CAFO CNMP development and implementation earlier 
depending on the specific circumstances in each State. Many of these 
large CAFOs may already have CNMPs or planning documents that could be 
adapted to meet the requirements of their NPDES permit. EPA believes 
that it is appropriate to proceed with Round I CAFO permitting 
activities since implementing the existing regulations allows for 
substantial short-term progress in addressing the water quality and 
public health impacts of CAFOs. Moreover, all authorized States have 
the necessary authority to issue NPDES permits to CAFOs under Round I.
    In Round II (2005-2010), EPA and States will issue permits that 
reflect revisions to the efffluent guidelines, permit program 
regulations, and State-adopted water quality standards. Although EPA is 
already working on these revisions, they will not be complete until 
about 2003.

    Question 4. During the Hearing you stated that cost/benefit 
analysis was not done on the entire Clean Water Action Plan, however 
the policies and rules coming out of the Clean Water Action Plan would 
have such analysis. Could you supply me with the cost analysis done on 
the USDA/EPA Unified Strategy for Animal Feeding Operations? If one has 
not been done, please explain why not.
    Response. Neither the CWAP nor the Unified Strategy for Animal 
Feeding Operations required a cost/benefit analysis. Nevertheless, EPA 
and USDA committed in the Strategy itself to develop a joint evaluation 
of the costs and benefits of the Strategy.
    We will comply with all the legal and procedural requirements 
associated both with the CWAP and the Strategy, including cost/benefit 
analyses, where appropriate. Each is a compilation of activities that 
we will undertake over a multi-year period. EPA's activities under the 
AFO strategy include the revised regulations for CAFO Effluent 
Guidelines and CAFO Permits. EPA will conduct cost/benefit analyses to 
support these revised rules. The Agency will also comply with the 
Regulatory Flexibility Act, Unfunded Mandates Reduction Act, and 
Paperwork Reduction Act, as appropriate.

    Question 5. In the strategy, you provide specific numbers of CAFOs 
and AFOs. Could you supply the source of those numbers? Also, could you 
supply how the numbers of facilities outlined in the section addressing 
regulatory priorities were reached? Please be specific in how these 
numbers were determined.
    Response. The numbers used in the Strategy are clearly indicated as 
estimates, and are based on the 1992 agriculture census conducted by 
USDA. Based on recent trends within the industry toward consolidation, 
adjustments were made to the base numbers from this 1992 census data.

    Question 6. The regulatory priority section outlines an aggressive 
date of January 2000 to have approximately 20,000 permits in place. 
Could you provide the cost analysis of implementing these permits and 
does the brunt of this cost fall on the States?
    Response. Since most States are authorized to implement the NPDES 
program for CAFOs, States will have the primary responsibility for 
issuing NPDES permits to CAFOs. EPA is, however, encouraging States to 
issue Statewide general permits to cover most large CAFOs by January 
2000: General permits are much less resource-intensive than using 
individual permits.
    In addition, EPA received an increase for fiscal year 1999 in Clean 
Water Act section 106 grants for State water quality program 
administration, and requested continuation of the increase in section 
106 grants for fiscal year 2000 as well. These additional funds can be 
used by States for programs to address CAFOs.
    As we develop regulatory changes called for in the AFO Strategy, we 
are committed to undertaking all appropriate and necessary cost-benefit 
analyses.

    Question 7. You have gone before numerous committees stating that 
EPA does not have the resources to implement the current environmental 
statutes. Clearly, EPA has demonstrated that it is unable to fully 
implement the existing programs, as it pertains to agriculture. States 
have made it clear that they do not have the resources to implement the 
existing program. How does the administration expect to implement an 
entirely new program that is much more expansive than the existing 
program?
    Response. The program outlined in the Unified AFO Strategy is a 
largely a collection of existing efforts and programs. EPA and USDA are 
committed to better coordinating these efforts and ensuring that 
programs are more effectively implemented to better address the water 
quality and public health impacts of animal feeding operations while 
maintaining the overall, long-term sustainability of the industry. For 
instance, EPA and USDA have existing programs that provide technical 
and financial assistance, such as the nonpoint source grants program 
(CWA sec. 319), the Clean Water State Revolving Fund Program, the 
Environmental Quality Incentives (EQIP) program, Conservation Technical 
Assistance, and many others. Additionally, concentrated animal feeding 
operations have been required to have NPDES permits since 1976. (There 
are many reasons CAFO permits have not been issued over the years and 
resource constraints are only one of the issues.)
    To support the States in these efforts, in fiscal year 1999 the 
Administration requested and received increases to the nonpoint source 
(319) and State program management (106) grants. However, only $174 
million was authorized for EQIP rasher then the $300 million requested 
by the Administration. The Administration has also included additional 
funds to support the Clean Water Action Plan, including a $126 million 
increase to EQIP, in the fiscal year 2000 budget request.

    Question 8. The strategy seems to require the permitting of AFOs 
that do not discharge to the waters of the United States. The 
regulations clearly require permitting only of animal feeding 
operations that discharge at storm events that are less than 25-year, 
24-hour events. Is a site-specific determination that a facility is 
discharging into the waters of the United States still needed to 
determine that a permit is required? Can EPA make assumptions that a 
facility is discharging in order to require a permit? If these 
operations are not required to be permitted what is the standard EPA 
will use to exclude these operations from the permitting program? Is 
the burden on the producer to demonstrate they will not discharge?
    Response. EPA's position is that most AFOs with greater than 1,000 
AUs are CAFOs and should be covered by an NPDES permit due to the 
quantity of manure generated. Further, it is EPA's belief that many of 
the largest CAFOs (greater than 1,000 AU) have had discharges in the 
past and/or have a reasonable likelihood for future discharges and 
therefore should be required to seek coverage under a NPDES permit. 
After a permit application has been received, the State, or EPA as 
permitting authority, will then determine whether a permit is 
appropriate.

    Question 9. What are the criteria for a functionally equivalent 
program? Will functional equivalency be based on performance or 
process?
    Response. A program that is functionally equivalent to an NPDES 
program must first seek and secure authorization under 40 CFR 123.61 
(initial approval) or 40 CFR 123.62 (modification of existing NPDES 
program) before a permit issued by the State will satisfy the NPDES 
permitting requirement. The criteria for authorization are found in 40 
CFR part 123. These criteria include: elimination of conflicts of 
interest; requirements for enforcement authority and penalty 
provisions; confidentiality of permit application information; EPA 
review of and objection to State permits; public notice and public 
hearings for permit issuance; citizens appeal of final-issued permits; 
and citizen intervention in enforcement proceedings. This regulation 
specifies the procedures EPA will follow in approving, revising, and 
withdrawing State programs and the requirements State programs must 
meet to be approved by the EPA Administrator under sections 318,402, 
and 405 of the Clean Water Act. Included in the regulation are 
procedural requirements intended to meet the procedural and water 
quality and public health objectives of the Act.

    Question 10. How does EPA make broad conclusions of environmental 
harm when only 19 percent of the rivers in the United States have been 
tested and it can be assumed that those are the waters in the worst 
condition?
    Response. We believe that the current State section 305(b) reports 
(which make up the National Water Quality Inventory) provide a good 
synopsis of known water quality problems. Our understanding of water 
quality conditions is enhanced by other indicators of watershed health 
such as the Index of Watershed Indicators and by many Federal and State 
water quality assessments, such as the National Ambient Water Quality 
Assessment program managed by the U.S. Geological Survey. Further, the 
Clean Water Action Plan asked States to identify waters in need of 
restoration to meet water quality and other natural resource goals; 
States have identified over 800 watersheds in this country as 
priorities for restoration. Also, we don't assume the waters surveyed 
are the worst; many States use probabilistic methods or rotating basin 
approaches for water quality assessments in order to present a balanced 
picture.
    EPA and State water quality agencies agree that monitoring and 
assessment coverage should continue to expand over time to provide more 
comprehensive water quality management information. EPA and other 
Federal agencies on the National Water Quality Monitoring Council are 
working with States to broaden the coverage of water quality studies, 
including the use of rotating basin monitoring approaches, and to 
provide technical assistance to States to help use statistical surveys 
to provide more information from the monitoring that is accomplished. 
Under the Regional Environmental Monitoring and Assessment Program, the 
Office of Research and Development provides technical assistance to EPA 
Regions and States for design and implementation of probability-based 
surveys to characterize waters at the watershed, State, or ecoregion 
level.
    In addition, EPA and the States are working collaboratively through 
the 305(b) Consistency Workgroup to update and improve the national 
guidelines and protocols for assessing State water quality. Through 
this effort, EPA and the States hope to improve water quality 
monitoring methods, provide consistent schedules for sampling and 
evaluation, and improve reporting mechanisms. Although this is a multi-
year effort, much progress has already been made. However, over the 
next few years, we expect to see vastly improved monitoring and 
reporting by the States which should result in a much improved National 
Water Quality Inventory.
    As all these various assessment efforts mutually highlight known 
watershed and nonpoint source problems that go beyond traditional point 
source concerns, we do support the need for all of us to take 
reasonable next steps as outlined in the Clean Water Action Plan to 
address these remaining problems.

    Question 11. There have been many concerns that agriculture is 
becoming consolidated. We have heard from many livestock producers that 
the strategy will clearly force more consolidation of industry and 
eliminate the small livestock producer. Does EPA take this into 
consideration and if so please explain how this strategy will avoid 
forcing consolidation?
    Response. The Strategy emphasizes a balanced voluntary/regulatory 
approach, with permitting focused on the largest CAFOs. EPA expects 
that smaller operations in situations that might otherwise make them 
subject to regulation will voluntarily address those situations to 
avoid the requirement to have a permit under the NPDES program. With 
respect to the anticipated CAFO rulemakings discussed in the Strategy 
it is not EPA's intent to drive out small operations out of business. 
By law, EPA is required to assess the impacts on small businesses. EPA 
will also obtain small business input during the rule development phase 
to help mitigate adverse impacts to small business.

    Question 12. How will EPA handle a State, with delegated authority, 
that chooses not to implement the strategy or merely cannot under 
financial constraints?
    Response. States and Tribes play a critical role in the development 
and implementation of national and State and Tribal water resource 
protection programs. EPA is committed to work in partnership with 
States and Tribes. EPA believes the need for a national goal and 
performance expectation for AFOs can be balanced with the need for 
flexibility to address the various needs and priorities of the States 
and Tribes, including coordination with other clean water programs. The 
Strategy does not, however, impose any binding requirements on States.
    As a condition of NPDES authorization, each authorized State had to 
demonstrate that it had the necessary legal authority and resources to 
carry out the program. EPA expects authorized States to fully implement 
the NPDES program for CAFOs. In recognition of NPDES-authorized States' 
differing circumstances, the Strategy does, however, provide several 
types of flexibility.
    First, EPA recognizes that some States may be implementing 
permitting programs under State law that meet or exceed the 
requirements of, and, therefore, are functionally equivalent to the 
NPDES program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to recognize an existing State 
permit program and can demonstrate that such a program meets the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization.
    Second, because of differences in workload and resources among 
authorized States, EPA is providing flexibility for States in the 
issuance of permits for CAFOs with fewer than 1,000 animal units (AUs). 
While NPDES-authorized States are expected to issue general permits to 
the largest CAFOs (greater than 1,000 AUs) by January 2000, States will 
have until the end of 2002 to issue permits to CAFOs with fewer than 
1,000 AUs. EPA acknowledges that some States may even need additional 
time beyond 2002 to issue permits for smaller CAFOs.
    A final area of flexibility relates to the schedule for issuing 
individual permits to certain CAFOs. Although these individual permits 
should be issued as expeditiously as possible, EPA and States should 
consider State-specific circumstances such as the total number of CAFOs 
with greater than 1,000 AUs, the need to issue individual permits to 
new or exceptionally large facilities, and the availability of 
technical assistance for development of comprehensive nutrient 
management plans. States may give permitting priority to impaired water 
bodies (such as 303(d) listed waters or those identified in State water 
quality management plans). In addition, where a State develops an NPDES 
program that provides for a comprehensive response to environmental 
issues at CAFOs, EPA will generally defer to an authorized State's 
judgment with respect to the use of individual or general permits.
    To help States with the cost of issuing permits to CAFOs, as well 
as other costs associated with the CWAP, the Administration requested, 
and Congress appropriated, a $20 million increase to sec. 106 State and 
Tribal water quality program grants for fiscal year 1999. The same 
funding level has been requested for fiscal year 2000 to continue to 
support these activities.

    Question 13. Under section 208(j) of the Clean Water Act, EPA, with 
the Secretary of Agriculture, could enter into contracts with producers 
to install and maintain best management practices to control non-point 
sources. Has EPA asked to have this program funded? If yes, how much? 
If no, how can EPA place all the blame on non-point source agriculture 
and not even request funding to address that exact issue under the 
Clean Water Act.
    Response. EPA does not ``place all the blame'' for continuing water 
quality problems on agriculture. We have significant efforts underway, 
as outlined in a variety of documents including the Clean Water Action 
Plan, to address problems associated with stormwater management, 
combined sewer overflows, sanitary sewer overflows, and septic systems, 
among other sources of impairment. Nevertheless, most experts, and many 
agricultural producers, recognize that some farming operations 
contribute to water quality problems. As the States report, in the 
aggregate, agricultural operations are, in fact, the leading cause of 
impairment. Accordingly, EPA has increased its requests for grants to 
States under section 319 of the Clean Water Act to address runoff to 
$200 million/year and has supported increases for complementary USDA 
programs such as EQIP and CRP. A large portion--the exact amount 
determined by each State--of the 319 money is passed through to 
agricultural producers to assist them to demonstrate ways to reduce 
pollution. In addition, EPA has been working closely with the States 
and agricultural interests to increase the use of the Clean Water State 
Revolving Fund program, which may be used to provide low interest loans 
to address nonpoint sources of pollution, including animal feeding 
operations.
    Section 208(j), which was part of the original CWA, was never 
funded largely due to concerns about overlap with existing USDA 
programs and concern about the appropriate role for both USDA and EPA. 
In response to these issues, Congress created the Rural Clean Water 
Program in USDA to test some of the ideas originally expressed in 
section 208(j). This program ran for approximately 10 years and 
provided funds for demonstration programs around the country. Based on 
these and other experiences, the section 319 program was added to the 
Clean Water Act when it was reauthorized in 1987. The section 319 
program includes State-led nonpoint source assessments and management 
programs as well as a grant program. Based on this history, section 319 
is generally recognized as the appropriate vehicle for funding best 
management practices to address nonpoint sources of pollution.

    Question 14. Does EPA plan on regulating the land application of 
manure which is applied by a 3rd party, offsite of the CAFO? If yes, 
will this be part of the CAFO permit or are you planning on regulating 
farmers under separate permits?
    Response. In general, the Clean Water Act does not regulate farmers 
that, in the normal course of business, use manure on their lands. In a 
case where a third party takes manure from a CAFO and applies it to the 
land (offsite) that party could be subject to regulation under the 
Clean Water Act. If that party develops and implements an appropriate 
comprehensive nutrient management plan, the operator would qualify for 
the Clean Water Act's agricultural stormwater exemption and, thus, 
avoid regulation of its stormwater-related discharges. EPA will provide 
additional information on land application in its forthcoming CAFO 
permitting guidance.

    Question 15. How does EPA plan on using individual permits vs. 
general permits? Does EPA or the States make the determination of which 
permit to issue? Is there any type of size determination being 
discussed as an automatic individual permit? If yes, are there any 
other factors taken into consideration other than size?
    Response. The Unified AFO Strategy encourages the use of general 
NPDES permits for most CAFOs. There are some situations, however, where 
a general permit may not be appropriate, including for exceptionally 
large operations, new operations undergoing significant expansion, 
operations with historical compliance problems, and operations with 
significant environmental concerns. EPA plans to discuss individual 
CAFO permits more fully in its forthcoming CAFO permitting guidance. 
Those States with an authorized NPDES program have discretion to 
determine whether to use general or individual permits, particularly 
where a State develops an NPDES program that provides a comprehensive 
response to environmental issues at CAFOs. EPA will make that 
determination for non-authorized States.

    Question 16. The strategy discusses new facilities (1,000 hd. )will 
have to get individual permits? Why does a general permit not suffice? 
Is the number the sole issue in making this determination or are there 
any environmental concerns taken into account?
    Response. There is a correlation between number of head and amount 
of manure produced. To properly dispose of large amounts of manure 
requires large amounts of land, which may or may not be available. 
Additionally, the public has stated they want to be notified of new, 
large operations in their area that could affect their health and water 
quality. Public notice is an important component of individual permits.

    Question 17. The time line for this strategy is very ambitious. A 
draft model permit is supposed to be out in May and then final in 
August. The Strategy then states that the priority permits (15,000-
20,000) will be issued by January of 2000. Is this not an extremely 
short time for States to implement 20,000 permits when EPA claims there 
have currently only been 6,000 permits issued since the beginning of 
this program? How will EPA help the States that do not have the 
financial capability?
    Response. As described in the Unified AFO Strategy and under the 
current regulations, EPA estimates that a total of 15,000-20,000 CAFOs 
will ultimately need to have NPDES permits to address the Strategy's 
three permitting priorities: (1) facilities with significant manure 
production; (2) facilities with unacceptable conditions; and (3) 
facilities that are significantly contributing to water quality 
impairment. There are approximately 10,000 CAFOs with significant 
manure production. The other two permitting priorities (unacceptable 
conditions and significant contributors to water quality impairment) 
include approximately 5,000-10,000 CAFOs.
    The Strategy discusses the short-term objective of issuing 
Statewide general NPDES permits to cover most CAFOs with significant 
manure production by January 2000. Statewide general permits are 
designed to cover a large number of a particular type of facility and 
thus only one is needed for each State. Since individual permits may be 
more appropriate for some CAFOs with significant manure production, the 
estimate of the CAFOs that need to have general permit coverage by 
January 2000 will be somewhat less than 10,000. EPA believes that 
because States will use Statewide general permits to cover CAFOs with 
significant manure production, the January 2000 objective is feasible. 
The remaining CAFOs with unacceptable conditions or that are 
significantly contributing to water quality impairment will be covered 
by NPDES permits by about 2002. Although EPA is emphasizing these 
permitting priorities, it is important to note that CAFOs have been 
required to have NPDES permits since 1976.
    As a condition of NPDES authorization, each authorized State had to 
demonstrate that it had the necessary legal authority and resources to 
carry out the program. EPA expects authorized States to fully implement 
the NPDES program for CAFOs. In recognition of NPDES-authorized States' 
differing circumstances, the Strategy does, however, provide several 
types of flexibility.
    First, EPA recognizes that some States may be implementing 
permitting programs under State law that meet or exceed the 
requirements of, and, therefore, are functionally equivalent to the 
NPDES program. Where an NPDES-authorized State indicates an interest in 
amending its NPDES program authorization to recognize an existing State 
permit program and can demonstrate that such a program meets the NPDES 
requirements, EPA is willing to work closely with the State to amend 
its authorization.
    Second, because of differences in workload and resources among 
authorized States, EPA is providing flexibility for States in the 
issuance of permits for CAFOs with fewer than 1,000 animal units (AUs). 
While NPDES-authorized States are expected to issue general permits to 
the largest CAFOs (greater than 1,000 AUs) by January 2000, States will 
have until the end of 2002 to issue permits to CAFOs with fewer than 
1,000 AUs. EPA acknowledges that some States may even need additional 
time beyond 2002 to issue permits for smaller CAFOs.
    A final area of flexibility relates to the schedule for issuing 
individual permits to certain CAFOs. Although these individual permits 
should be issued as expeditiously as possible, EPA and States should 
consider State-specific circumstances such as the total number of CAFOs 
with greater than 1,000 AUs, the need to issue individual permits to 
new or exceptionally large facilities, and the availability of 
technical assistance for development of comprehensive nutrient 
management plans. States may give permitting priority to impaired water 
bodies (such as 303(d) listed waters or those identified in State water 
quality management plans). In addition, where a State develops an NPDES 
program that provides for a comprehensive response to environmental 
issues at CAFOs, EPA will generally defer to an authorized State's 
judgment with respect to the use of individual or general permits.
    In addition to the flexibility offered in the Strategy, EPA 
received an increase for fiscal year 1999 in Clean Water Act (CWA) 
section 106 grants for State water quality program administration, and 
requested continuation of the increase in section 106 grants for fiscal 
year 2000 as well. These additional funds can be used by States for 
programs (including inspections) to address concentrated animal feeding 
operations or CAFOs, which are regulated under the CWA permitting 
program.

    Question 18. Do you think every concentrated beef cattle feeding 
operation over 1,000 head should have a general permit? (Yes or no). If 
yes, what was the environmental consideration taken into account in 
making that determination and do you not have to discharge or have the 
potential to discharge into the waters of the United States in order to 
need an NPDES permit? How could a decision based solely on a number 
answer a permitting question?
    Response. EPA's position is that most AFOs with greater than 1,000 
AUs are CAFOs and should be covered by an NPDES permit due to the 
quantity of manure generated. Further, it is EPA's belief that many of 
the largest CAFOs (greater than 1,000 AU) have had discharges in the 
past and/or have a reasonable likelihood for future discharges and 
therefore should be required to seek coverage under a NPDES permit. 
After an application has been received, it will then be determined 
whether a permit is appropriate.

    Question 19. The implementers of this strategy will be regional 
directors and States. There is in many situations of regional 
administrators not agreeing with EPA headquarters and in some cases not 
following the direction of headquarters. Is that not a more immediate 
problem that faces the agency? How are we to know the regions will 
follow EPA headquarters interpretation of this strategy?
    Response. EPA will continue to work closely with the Regions and 
States to ensure understanding of the AFO Strategy.

    Question 20. The Strategy was written by many individuals who had 
never been on a cattle feedlot.The ones that been on a cattle feedlot 
may have gone to a 2000 head lot but never visited a 150,000 head 
feeding lot. How does EPA justify regulating an industry that officials 
at all levels have admitted to knowing very little about? How is EPA 
clarifying the issue of poor communication between regions, States, and 
communities and how does EPA plan on dealing with this problem in the 
future?
    Response. The Strategy was written by representatives of USDA and 
EPA who had a solid base of experience in agriculture and livestock 
issues. The strength of the AFO Strategy is that EPA and USDA brought 
their very different yet complementary experiences together in a full 
partnership. EPA and USDA are committed to continue to work closely 
with the States and regional counterparts to help ensure a common 
understanding and level playing field.

    Question 21. During your testimony before the Senate VA-HUD 
Appropriations Subcommittee, you expressed the need for the Clean Water 
Act to be amended to allow Federal authority over nonpoint sources. 
Could you please clarify this comment? Have you come to the conclusion 
that all State NPS programs are failing?
    Response. Under the Clean Water Act, States have, and should 
continue to have, the lead responsibility for developing and 
implementing NPS programs and controls. The Administration has long 
supported a framework of voluntary and incentive-based approaches as 
the primary mechanism for controlling nonpoint sources of pollution and 
making progress toward meeting water quality standards. EPA has 
encouraged States to build strong nonpoint source management programs 
and to use their best judgment in determining the appropriate mix of 
voluntary and regulatory tools to address the individual circumstances 
in each State.
    EPA and the States have recognized for many years that there is a 
need to improve and expedite implementation of the overall nonpoint 
source program. In 1995 and 1996, EPA and the States worked closely and 
cooperatively together to develop a set of nine key elements which 
characterize an effective State nonpoint source program. These nine key 
elements are set forth in detail in section 319 program and grants 
guidance published by EPA in May 1996; that guidance was endorsed in 
writing by the Association of State and Interstate Water Pollution 
Control Administrators. At this point, virtually every State in the 
United States is working expeditiously in cooperation with EPA to 
upgrade its State 319 management program. The Agency expects this 
process to be complete in fiscal year 2000.
    EPA and USDA have worked closely on the development and 
implementation of the Clean Water Action Plan to improve the 
effectiveness of voluntary and incentive-based programs at the Federal 
level. The Administration also supports the development of State and 
local authorities to provide a back-up mechanism where voluntary 
approaches fail to achieve the desired results. In fact, President 
Clinton's Clean Water Initiative (February 1994) outlines such a 
strategy and also includes a proposal that would allow EPA to take 
enforcement action in extreme cases where State efforts have failed or 
a State has failed to act. When Congress takes up reauthorization of 
the Clean Water Act, the Administration would like to discuss 
opportunities to strengthen and improve our voluntary and incentive-
based programs and, within the context described above, provide 
appropriate back-up enforcement authorities.
                                 ______
                                 
    Statement of Dan Glickman, Secretary, Department of Agriculture
    Mr. Chairman and members of the committee, thank you for inviting 
me to discuss the Administration's Clean Water Action Plan. Thank you, 
Chairman Chafee and Senator Baucus, for your continued attention to the 
important issue of the health of our Nation's water.
    I am pleased to be here along with Environmental Protection Agency 
(EPA) Administrator Carol Browner. I am also accompanied by Under 
Secretary Jim Lyons, who represented me as co-chairman of the 
President's Clean Water Action Plan team.
    Both the United States Department of Agriculture (USDA) and EPA 
share a common mission helping individuals and communities restore and 
protect the Nation's water resources. The Clean Water Action Plan, that 
President Clinton and Vice President Gore released in February 1998, 
provides a blueprint for how USDA, EPA, the Department of Interior, the 
Department of Commerce, the Department of Defense, and other Federal, 
State, and local partners will work together to continue the progress 
in water quality improvement we have made over the last quarter 
century.
    USDA has a unique role protecting quality and quantity of water 
resources in the United States. The Forest Service's management of 
public forestlands play a critical role determining the quality and 
quantity of waters that flow from the headwaters of most of the major 
river systems in the West. In addition, the Natural Resources 
Conservation Service (NRCS), in concert with local soil and water 
conservation districts, helps to guide the stewardship of private farm, 
forest, and ranch lands downstream from these headwaters, to ensure 
that the quality of the Nation's waters are not impaired. Together, the 
Forest Service and the NRCS are also working in urban and suburban 
areas to reduce storm water runoff and sedimentation through urban and 
community forestry and conservation programs.
                               background
    The Clean Water Action Plan was developed through a cooperative 
budget planning effort. It sets strong goals and identifies the tools 
and resources to protect public health and restore our Nation's 
precious surface and ground waters. It is a broad plan that utilizes 
existing programs and funding, as well as potential new investments to 
address problems in our watersheds. Significantly, the plan emphasizes 
collaborative strategies built around watersheds and the communities 
they sustain--a new component the President and Vice President have 
brought to the Federal strategy to revitalize our water resources.
    Agriculture plays an important role in protecting and enhancing our 
environmental quality of life. Sound environmental practices, such as 
conservation buffers, conservation tillage, forest management, and 
integrated pest management, help improve water quality, soil health, 
and wildlife habitat, keeping our agricultural and forestlands 
economically sustainable and our farmers, ranchers, and foresters 
globally competitive.
    In addition, we made a concerted effort to involve the public in 
developing the plan. For example, in putting together the Unified 
National Strategy for Animal Feeding Operations, USDA and EPA co-
sponsored 11 national listening sessions to discuss the draft strategy 
and, more importantly, to receive the public's comments. Many of these 
sessions were co-chaired by USDA Deputy Secretary Rich Rominger and 
Under Secretary Jim Lyons. We also managed a hotline for the public to 
receive clarification about the draft strategy. Together, these efforts 
generated about 1,800 written comments from the public, in addition to 
the 300 oral comments at the listening sessions.
               usda's clean water action plan activities
    The Clean Water Action Plan sets ambitious goals for improving the 
quality of water resources, and the Department of Agriculture will play 
a key role in achieving them. In addition to the Forest Service's 
present investment to improve watershed health on the national forests, 
the Fiscal Year 2000 budget request includes funds to accelerate the 
maintenance of needed national forest roads and the obliteration of 
roads no longer essential for rural commerce or administrative or 
recreational access. The Forest Service will be central to developing a 
unified Federal policy for managing watersheds administered by all 
Federal land management agencies; a draft of this policy is currently 
being prepared for publication in the Federal Register for public 
comment. NRCS provides technical and financial assistance to farmers, 
ranchers, and rural communities on water quality and quantity issues 
and also has a leading role implementing the plan. Through its field 
structure, NRCS works directly with the land owners and provides 
technical assistance through its Small Watersheds Program, 
Environmental Quality Incentives Program, Wetlands Reserve Program, and 
Resource Conservation and Development Program, all of which play an 
important role in improving and maintaining water quality.
    Also, USDA has enrolled over 30 million acres in the Conservation 
Reserve Program (CRP), which idles agricultural land for 10- to 15-year 
periods. The resulting grassland or woodland filter runoff water and 
create valuable wildlife habitat, among other amenities. A new feature 
USDA has added to the CRP is the Conservation Reserve Enhancement 
Program (CREP), which establishes a Federal-State partnership to 
encourage farmers and ranchers to remove sensitive lands from 
agricultural use. In Oregon and Washington, for example, CREP funds 
will be used to protect streamside buffers critical to water quality 
and salmon restoration. In Maryland, the CREP will enroll lands 
essential to efforts to restore the water quality of the Chesapeake 
Bay. In total, there are 7 CREP programs in place, and several others 
under development.
    Mr. Chairman, I want to emphasize two key elements of the USDA role 
in improving the Nation's waters through implementation of the Clean 
Water Action Plan. First, as it applies to private lands, the Clean 
Water Action Plan emphasizes voluntary approaches to solving problems, 
a key component of the strategy USDA has used since the Dust Bowl era 
of the 1930's, to assist farmers and ranchers in conserving our natural 
resources.
    Second, the Department's natural resource conservation and 
environmental protection activities will continue to involve the public 
through locally-led conservation, involving people at the local level 
to identify various private, local, State, and Federal programs and 
funding sources that would help them best to meet goals.
    For example, the community of Squaw and Baldwin Creeks, Wyoming, 
exemplifies the meaning of locally-led conservation. The Squaw and 
Baldwin Creeks contributed significant amounts of silt and nutrients to 
the Popo Agie River, primarily due to the subdivision of large grazing 
areas into small ranchettes. The resulting concentration of livestock 
caused the stream banks to become badly eroded, and storage capacity of 
a reservoir was greatly reduced by sedimentation and trout habitat 
degraded. Using the locally-led conservation approach, the Squaw and 
Baldwin Creeks Watershed Rehabilitation project began in 1990, 
installing erosion and sediment control conservation practices, 
restoring stream riparian habitat, and improving grazing practices. 
They have improved the irrigation and fishery capabilities in the 
watershed, and the restored natural, meandering pattern of the creeks.
    These efforts have focused community involvement and education. 
People who were at first skeptical of the project joined the effort 
when they saw the water getting clearer, demonstrating how voluntary 
efforts of local people, who know and understand the natural resource 
needs of their community and watersheds, can address their local needs 
and concerns. We believe we can apply these experiences nationwide to 
achieve the goals contained in the Clean Water Action Plan.
    In addition to technical and financial assistance for farmers and 
ranchers, we also need to make further investments in research and 
development. The Agricultural Experiment Stations and Cooperative 
Extension system, coordinated by the Cooperative State Research, 
Education, and Extension Service (CSREES) along with the Agricultural 
Research Service (ARS) have been active for many years in research and 
development that apply to water quality improvement and protection. ARS 
recently held a nationwide conference to assess current research work 
being done by the agency on animal feeding operations, to improve 
coordination among research efforts, and to plan future activities. 
Fourteen land grant universities have formed a nationwide research and 
extension consortium to focus on animal manure management issues. Most 
State extension programs have developed handbooks, training material, 
and offer training on water quality, manure, and nutrient management 
for agricultural producers.
                               conclusion
    As Secretary, I believe that a healthy and sustainable American 
landscape, to which an abundant supply of clean water is critical, is 
one of the most important legacies we can leave to future generations. 
Through our efforts to implement the Clean Water Action Plan, I firmly 
believe we will continue the progress made during the past quarter-
century. I look forward to working with you and the Congress to protect 
the Nation's waters and thank you, Mr. Chairman, for the environmental 
leadership you have provided during your many years of public service.
    I would be pleased to answer any questions that you may have.
                                 ______
                                 
   Responses by Secretary Dan Glickman to Additional Questions from 
                             Senator Chafee
    Question 1a. One of the key actions identified under the Clean 
Water Action Plan is for the Department of Agriculture (USDA) and the 
Department of the Interior to develop a Unified Federal Policy to 
enhance watershed management for the protection of water quality. The 
Federal Government currently owns 22 percent of all land nationwide. In 
certain western States, such as Arizona and Oregon, the Federal 
Government may own up to 60 percent of all land. According to a 
recently released Government Accounting Office report, Arizona and 
Oregon attribute 50 percent of their water quality problems to non-
point source pollution from Federal lands.
    What actions will your draft policy take to address the problem of 
Federal water pollution, and how will you ensure that these actions are 
implemented?
    Response. The draft policy proposes that Federal land and resource 
management agencies move toward a more consistent approach to the 
watershed-based management of Federal lands. The policy proposes 18 
specific actions that address water quality issues on Federal lands, 
and includes a proposed implementation plan to assure implementation by 
Federal agencies.

    Question 1b. In addition, what steps have you taken to ensure that 
not only other Federal agencies, but the States, local industry, 
environmental groups, and other stakeholders also have an opportunity 
to participate?
    Response. States, tribes, and other interested parties will have 
ample opportunity to review and comment on the draft policy, and to 
participate in the implementation of the policy's components. One of 
the main tenets of the draft policy is greater cooperation with State 
and tribal governments in watersheds that include Federal land, and 
greater public participation in resource management. In developing the 
draft policy, we plan a period of consultation with States and tribes, 
followed by publication of the draft in the Federal Register with a 
public comment period, and a number of public listening sessions across 
the country to allow for participation by all interested parties.

    Question 1c. Finally, when do you intend to release your policy?
    Response. A draft Unified Federal Policy will be published in the 
Federal Register later this year, following the consultation with the 
States and tribes.

    Question 2a. According to the 1999 report on the Clean Water Action 
Plan, agriculture accounts for approximately 70 percent of the 
identified water quality problems in assessed rivers, 49 percent in 
lakes, and 27 percent in estuaries. Some have criticized the accuracy 
of this information, citing the heavy reliance on evaluated data, 
rather than actual monitoring.
    Could you please comment on the accuracy of this monitoring data?
    Response. USDA does not question the accuracy of data obtained from 
monitoring. In fact, we support all efforts to monitor water quality 
using scientifically-sound techniques, and we encourage increased use 
of monitoring. A problem with the referenced data is that it was not 
evaluated with a consistent process.

    Question 2b. Do you agree with the assessment that agriculture is 
the primary cause of water quality impairments?
    Response. USDA does not agree with the manner in which the water 
quality assessments have been portrayed. The Clean Water Action Plan 
(CWAP) first-year report references information provided by States for 
their Clean Water Act Section 305(b) reports to the Environmental 
Protection Agency, based on 1996 information. In 1996, States and 
tribes surveyed 19 percent of the total 3.63 million river miles in the 
Nation, or just 693,905 miles. This 19 percent sample did indicate that 
impairment exists in 36 percent of the river miles, or 248,000 miles; 
about 70 percent of the identified water quality problems in the 
impaired rivers, 49 percent in lakes, and 27 percent in estuaries could 
be attributed to agriculture. We are not convinced that a survey of 19 
percent of the river miles is reflective of the remaining 81 percent, 
nor are we convinced that what is found on 248,000 river miles is what 
will be found on the remaining 2.94 million unsurveyed miles.
    Additionally, what the CWAP first-year report did not indicate is 
that 64 percent of the surveyed river miles fully supported all of the 
designated uses for the water. Some form of pollution or habitat 
degradation impairs the remaining 36 percent of the surveyed river 
miles. Siltation was identified as the most common pollutant.
    We do not intend to suggest that our Nation's waters are not 
impaired, or that agricultural operations do not contribute to nonpoint 
sources of pollution. However, we would prefer that more miles of our 
rivers and water bodies be surveyed, so that a more accurate assessment 
can be made. We would also prefer that a more accurate and complete 
description of the findings be used.

    Question 3a. In recent years, we have witnessed a significant move 
toward consolidation; there are fewer operations producing more 
animals. Between 1978 and 1992, the average number of animal units per 
operation increased by 134 percent for hogs and 176 percent for egg 
laying poultry. According to the 1997 Agricultural Census, 3.6 percent 
of the farms are responsible for 56 percent of the market value of all 
agricultural products sold.
    Do you expect this trend toward consolidation to continue?
    Response. Animal agriculture has been transformed from an 
extensive, land-based activity to a specialized, capital-intensive 
activity. Although the trends toward consolidation (i.e. larger animal 
feeding operations) have been underway for many years, the changes from 
1992 to 1997 in the Agricultural Census are particularly dramatic. The 
number of farm operations with animals fell by 25 percent from 1992 to 
1997, and USDA does not see any reason to expect this general trend to 
change in the near future.

    Question 3b. How is the USDA working with farmers to ensure that, 
as these operations increase in size, they are encouraged to mitigate 
their environmental impacts?
    Response. USDA conducts research, facilitates technology transfer, 
and provides information, education, technical and financial assistance 
to help farmers mitigate the environmental impacts of their animal 
feeding operations (AFO). Most information on the environmental impacts 
of larger scale AFOs, however, is anecdotal. USDA, in conjunction with 
industry groups, other Federal agencies, the land grant college and 
university systems, and others, need to further examine the 
environmental impacts of larger scale AFOs, and better define their 
needs.

    Question 4a. The joint Unified National Strategy for Animal Feeding 
Operations lays out a very ambitious goal for its voluntary program. By 
2008, USDA and EPA will encourage over 450,000 animal feeding 
operations to develop and implement comprehensive nutrient management 
plans. Despite this tremendous challenge, NRCS staffing levels have 
decreased considerably over the years. In 1989, technical assistance 
for conservation operations had 9,560 full time equivalents; the 
estimated figure for 2000 is 8,769. In 1989, watershed operations and 
small watershed authorities had 1,396 full time equivalents; the 
estimated figure for 2000 is 586.
    At existing staffing levels, how long do you estimate it will take 
to develop nutrient management plans for all 450,000 animal feeding 
operations?
    Response. Successful implementation of the Unified National 
Strategy for AFOs will require NRCS to deliver more comprehensive 
technical assistance to develop and implement comprehensive nutrient 
management plans, as identified in the Strategy. Delivery of this 
assistance to AFOs through voluntary conservation programs will need to 
be greatly accelerated to achieve this goal, especially considering 
that NRCS is only able to assist roughly 10,000 AFOs per year through 
ongoing programs. At the current rate (10,000 per year), assuming 
450,000 animal feeding operations request NRCS assistance, it will take 
about 45 years to assist all AFOs.

    Question 4b. How do you encourage farmers to voluntarily develop 
nutrient management plans if you cannot provide adequate technical 
assistance?
    Response. The Unified National Strategy for AFOs identifies the 
need to build capacity for comprehensive nutrient management plans. 
USDA recognizes that in order to meet the goals of the Strategy, USDA 
alone cannot address the anticipated workload. USDA will facilitate and 
encourage participation by soil and water conservation districts, State 
conservation agencies, the Cooperative Extension System, and private 
sector consultants, through training certification and other activities 
to increase the number of certified specialists to assist with 
comprehensive nutrient management plan development. The Strategy also 
identifies the need to secure additional funding to support increased 
technical and financial assistance to meet the needs of voluntary 
participation.

    Question 5a. The committee has heard from a number of sources that 
the agricultural sector of our economy, particularly small and medium 
operations, are under tremendous financial pressure.
    Do small- and medium-sized operations have the resources to 
implement the voluntary components of the Strategy?
    Response. The goal of the Unified National Strategy for AFOs is for 
AFO owners and operators to have voluntarily planned and be 
implementing comprehensive nutrient management plans by 2009. In order 
to help AFO owners and operators meet this goal, it is anticipated that 
a large portion of the small- and medium-sized AFOs will need financial 
assistance to help them implement their comprehensive nutrient 
management plans. The comprehensive nutrient management plans for many 
of these small- and medium-sized AFOs will require a variety of 
components, including some structural elements such as manure storage 
facilities and the diversion of clean water (runoff) away from manure. 
The cost of these structural components can be significant, often 
beyond the ability for small- and medium-sized AFO owners and operators 
to pay for on their own. Financial assistance will be necessary from 
either Federal, State, local, or private (for profit and nonprofit) 
sources, or some combination of these.
    NRCS has estimated the financial assistance need for the 298,500 
AFOs likely to seek NRCS assistance by 2009 (as defined by the Agency's 
field-based workload assessment system) as nearly $14 billion. This 
represents an average cost of implementing a comprehensive nutrient 
management plan of over $46,000 per AFO. Employing a 75 percent cost-
share rate, it is assumed the AFO owner or operator will pay the 
remaining 25 percent of the comprehensive nutrient management plan's 
implementation cost.
    Currently, 20 States provide financial incentives to AFOs, such as 
cost-share and loan assistance. Also, five States provide non-cash 
incentives, such as tax relief and limited liability.

    Question 5b. What incentives does USDA intend to offer to encourage 
voluntary compliance?
    Response. USDA intends to continue to offer technical and financial 
assistance, consistent with funding appropriated by Congress, as 
incentives to encourage AFO owners and operators to develop and 
implement comprehensive nutrient management plans. The amount of 
technical and financial assistance available, given current budget 
levels for AFO work, will not be adequate for USDA to meet the needs of 
all small- and medium-sized AFOs.
    USDA expects to continue to make technical assistance available to 
AFO owners and operators, principally through the Natural Resources 
Conservation Service (NRCS) and its Conservation Technical Assistance, 
Conservation Farm Option (CFO), and PL-566 Small Watershed Programs. 
The Environmental Quality Incentives Program (EQIP) also will provide 
financial assistance in priority watersheds and for selected 
conservation practices on a statewide basis. Other USDA agencies will 
play a supporting role, including the Agricultural Research Service 
with research and development, and the Cooperative Extension System 
with technology transfer and some technical assistance.

    Question 5c. What financial programs are available to assist 
farmers in implementing their management plans?
    Response. The EQIP and the PL-566 Small Watershed Program are 
USDA's two principal vehicles for delivering comprehensive nutrient 
management plan implementation of financial assistance to AFO owners 
and operators. During fiscal year 1999, these programs are providing 
$65.6 million in financial assistance for AFO work, the overwhelming 
majority of this money coming through EQIP. Compare the $65.6 million 
available this current fiscal year to the estimated total cost sharing 
needed by 2009, for 298,500 AFOs, of $14 billion. Thus, fiscal year 
1999 funding levels, the available USDA contribution toward total cost 
sharing needs by 2009, would be $656 million or less than 5 percent of 
the $ 14 billion cost sharing need.
    It is apparent that local, State, Federal, and private sector 
resources will also have to contribute to AFO needs, along with 
significantly increased USDA financial assistance, if AFO owners and 
operators are to have the cost-share resources needed to begin 
implementing their comprehensive nutrient management plans by 2009.

    Question 5d. Are these programs receiving adequate funding?
    Response. Funding USDA programs that offer AFO support, at fiscal 
year 1999 levels in future years, will not satisfy the assistance needs 
of AFO owners and operators seeking to plan and to be implementing 
their comprehensive nutrient management plans by 2009. While 
significantly increasing funding for such USDA programs as Conservation 
Technical Assistance, CFO, EQIP, and PL-566 will help to meet the 
needs, other Federal, State, local, and private sector parties must 
also bring new resources to the table in a major way. Additionally, the 
Administration and Congress must work together to find innovative and 
creative incentives to encourage AFO owners and operators to 
voluntarily adopt comprehensive nutrient management plans. Without 
adequate funding and new incentives, AFO owners and operators will be 
less able and likely to plan and implement their comprehensive nutrient 
management plans voluntarily. This will increase the likelihood that 
greater regulation may evolve from Federal and State water quality 
agencies with regulatory authority.
    Jointly, the Administration and Congress will need to look closely 
at tax incentives, risk management insurance approaches, no interest or 
low interest revolving loans, and other measures to encourage voluntary 
comprehensive nutrient management plan development and implementation 
by AFO owners and operators. USDA strongly believes that the voluntary, 
incentive-based approach is the way to accomplish the goals of the 
Unified National Strategy for Animal Feeding Operations. Adequate 
technical and financial assistance and new incentives will be essential 
if the voluntary approach is to succeed.
                                 ______
                                 
   Responses by Secretary Dan Glickman to Additional Questions from 
                             Senator Crapo
    Question 1. In the draft Animal Feeding Operation Strategy, it was 
unclear as to how winter calving pastures for beef cattle would be 
treated. In Idaho, due to cold winters and limited private ground, a 
large number of ranchers gather their cows in one location for calving. 
Do you agree that it is unnecessary and unfair to treat these ranchers 
like you would a large feedlot?
    Response. The aspects of cow-calf operations, and specifically 
winter calving in a central location, are not clearly stated in the 
Strategy. However, based on present EPA National Pollutant Discharge 
Elimination System permit requirements and the individual State 
requirements, the conditions under which a cow-calf operation would be 
treated like a large feedlot rests with EPA and the State water quality 
agencies where the facility is located.

    Question 2. How successful has the EQIP program been? If very, then 
should much of the implementation of the comprehensive CAFO strategy be 
handled on this or a similar cooperative, incentive-based basis?
    Response. EQIP has been a very successful program. In the first 2 
years of the program, over 44,000 contracts have been approved for over 
$320 million. However, these contracts were only able to meet one-third 
of the demand for the program. We project the demand for EQIP to 
increase in future years, as more livestock producers request 
assistance to implement comprehensive nutrient management plans, 
including agricultural waste management systems. We do intend for EQIP 
to be at the very heart of USDA programs to assist livestock producers 
with animal feeding operations.

    Question 3. Without proper attention to the cost of implementation 
and provision of resources to the producer, this program will not be 
effectively implemented nor done on a voluntary basis. Will the USDA 
insist that EPA tailor implementation to the availability of assistance 
to farmers and ranchers?
    Response. The Unified National Strategy for Animal Feeding 
Operations (AFOs) is not a new regulation or program, nor is it a 
substitute for existing Federal regulations. It does not impose any 
binding requirements on USDA, EPA, the States, tribes, localities, or 
the regulated community. The USDA and EPA goal is for AFO owners and 
operators to take actions to minimize pollution from AFOs through the 
development and implementation of technically sound comprehensive 
nutrient management plans. USDA and EPA intend to promote, support, and 
provide incentives for the use of sustainable agricultural practices 
and systems that minimize water quality and public health impacts from 
AFOs. For the fiscal year 2001 budget, the Secretary of Agriculture 
will request additional Conservation Technical Assistance funds, along 
with additional financial assistance funds from the Environmental 
Quality Incentives Program (EQIP) and the Small Watershed Protection 
Program (PL-566). These funds will assist in the development of 298,500 
AFO comprehensive nutrient management plans over the next 10 years.

    Question 4. Federal crop insurance requires farmers to implement 
management practices to address weather-induced losses to crop yields. 
Could similar risk management tools be established to manage water 
pollution risks in an innovative and market-based incentive basis?
    Response. Yes. Increasing use of risk management has potential to 
help producers reduce application rates for fertilizers and pesticides, 
while insuring against crop damages from specific perils, such as 
rootworm damage in corn. The Administration's Clean Water Action Plan 
included a key action stating that USDA will work with private 
insurance companies and foundations to review the feasibility of 
providing an insurance program that enables producers to offset their 
risks of using new technologies to manage fertilizers and pesticides to 
prevent pollution. It is also supported by such groups as the American 
Farm Bureau Federation.
    The Natural Resources Conservation Service (NRCS) has supported 
these efforts, both financially and institutionally. The State of Iowa, 
led by the Iowa Farm Bureau and private insurance companies, has 
undertaken a 3-year effort to develop risk management insurance to 
increase nutrient management adoption.
    NRCS has been developing public-private partnerships that improve 
risk protection for producers willing to voluntarily adopt conservation 
technology. These risk management tools offset the risks of losses and 
help prevent pollution. For the next crop year, for example, the IGF 
Insurance Company will offer an insurance policy that should increase 
farmer acceptance of corn rootworm Integrated Pest Management Systems, 
thus reducing unnecessary pesticide applications. Farmers can also 
purchase innovative risk reduction policies for improved conservation 
tillage from private companies at the same time as they typically would 
be buying their regular crop insurance. USDA believes that it may take 
several years for these risk management tools to be fully adopted in 
the marketplace.

    Question 5. What is the role of NRCS in the Clean Water Action Plan 
strategy? NRCS is playing a key role in carrying out many of the 
actions in the Clean Water Action Plan (CWAP), in association with 
other USDA agencies and the other Departments with roles in the CWAP. 
NRCS is involved in several key action items, such as:
    <bullet> Implementation of the Unified National Strategy for Animal 
Feeding Operations. This will include the technical and financial 
assistance provided to producers to voluntarily develop and implement 
comprehensive nutrient management plans.
    <bullet> Assistance to States and tribes on the development of 
Unified Watershed Assessments.
    <bullet> Development and implementation of rangeland vegetation 
classifications and inventories.
    <bullet> Use of the Wetlands Reserve Program for the protection and 
restoration of wetlands.
    <bullet> Use of various USDA conservation programs to establish 2 
million miles of conservation buffers on agricultural lands by fiscal 
year 2002, to prevent pollution and help meet water quality goals.
                                 ______
                                 
   Responses by Secretary Dan Glickman to Additional Questions from 
                             Senator Thomas
    Question 1. Has the USDA conducted any type of analysis to 
determine what a producer will pay to obtain a water quality permit?
    Response. USDA has not performed a formal analysis to determine the 
cost of a concentrated animal feeding operation permit for each State. 
The cost of permitting is controlled by individual State regulations 
and varies with each State. Animal feeding operations that will be 
addressed by voluntary participation, as covered under the Unified 
National Strategy for AFOs, will not require a permit in most States 
and therefore would not incur a permit cost. USDA is aware that 
presently a permit cost can range from a few hundred to several 
thousand dollars, depending on the size and type of operation, and the 
State.

    Question 2. What will the costs be to an agricultural producer in 
order to develop and implement a comprehensive nutrient management 
plan?
    Response. Generally, there is no direct cost to the producer to 
develop a comprehensive nutrient management plan, unless the work 
involves a private consultant. Factors such as size of operation, 
environmental and public health issues that need to be addressed, the 
amount and percent of cost share, the kind of comprehensive nutrient 
management plan components selected, and other factors will affect 
overall cost. Comprehensive nutrient management plans need to be site-
specific, and are developed and implemented to address the goals and 
needs of the owner or operator, as well as meet the environmental 
needs.

    Question 3. Beyond providing technical assistance to producers 
through the Natural Resources Conservation Service (NRCS), has the 
Department determined if and in what manner it will help producers stay 
in compliance with the various actions called for under the Action 
Plan?
    Response. The Department of Agriculture's role in the Clean Water 
Action Plan is to provide the support for voluntary actions by farmers, 
ranchers, other rural landowners, and rural communities that will 
improve and protect the Nation's water quality. USDA provides this 
support through natural resource information and education, by carrying 
out priority research to ensure that sound science is applied, by 
transferring technology, and by furnishing technical expertise and 
financial assistance that encourages voluntary action.
    At USDA, we use a wide array of agencies, programs, and expertise 
to demonstrate how voluntary collaboration between government and land 
users can yield environmental benefits for the individual landowner, 
the community, and the Nation.
    The Department has the delivery system in place to effectively 
carryout its actions under the Clean Water Action Plan. The 
Agricultural Experiment Stations and the Cooperative Extension System, 
coordinated by the Cooperative State Research, Education, and Extension 
Service and headquarters at State land grant universities, along with 
the Agricultural Research Service (ARS), have been very active for many 
years in technology research and development that applies to water 
quality improvement and protection. ARS recently held a nationwide 
conference to assess current research work being done by the Agency on 
animal feeding operations, to improve coordination among research 
efforts, and to plan future activities. Fourteen land grant 
universities have formed a nationwide research and extension consortium 
to focus on animal manure management issues. Most State extension 
programs have developed handbooks and training material, and offer 
training on water quality, manure, and nutrient management for 
agricultural producers.
    The Forest Service works closely with rural communities and 
neighboring landowners to develop cooperative approaches to natural 
resource management, and administers the Forestry Legacy and 
Stewardship Incentives Programs through State forestry agencies. The 
Farm Service Agency delivers financial assistance programs to the 
Nation's farmers and ranchers through the Conservation Reserve Program 
and the Conservation Reserve Enhancement Program, which result in 
cleaner water.

    Question 4: What is the USDA/NRCS role in the AFO strategy? Does 
the Department believe appropriate funding has been requested for the 
program? Where does funding to implement the Clean Water Action Plan 
rank among your appropriations requests?
    Response. USDA/NRCS has a commitment to providing technical and 
financial assistance to AFO owners and operators through voluntary 
conservation programs. Delivery of the assistance will need to be 
greatly accelerated to achieve the goal, ``All AFOs develop and be 
implementing a comprehensive nutrient management plan by 2009.'' USDA 
will need to increase annually, by at least three times, its technical 
assistance funding and 10 times its financial assistance funding over 
the fiscal year 2000 requested funding levels to meet the potential 
demand. Providing the technical and financial assistance for AFOs to 
meet the goals as identified in the Unified National Strategy for AFOs 
is a high priority within USDA.

    Question 5. Please explain the number of FTE's the Agency has 
devoted to the Action Plan for (1) the regulatory aspects and (2) the 
voluntary and incentive-based portions?
    Response. NRCS is not responsible for any of the regulatory aspects 
discussed in the Clean Water Action Plan (CWAP). However, USDA has 
taken an active role in the development and implementation of 
significant portions of the CWAP. USDA does not keep detailed 
accounting records of time devoted to the CWAP, because funds have not 
been specifically appropriated to address this initiative. It is 
estimated that USDA has spent over 100 staff years on this effort since 
its inception on February 19, 1998, with NRCS staff accounting for over 
90 percent of this time. The majority of this time was spent developing 
the Unified National Strategy for Animal Feeding Operations (AFO), 
assisting with the Unified Watershed Assessments, and serving as 
committee chairpersons and members, action team leaders, and technical 
specialists. USDA has coordinated with EPA eight CWAP rollout sessions 
and 12 regional AFO listening sessions (with USDA taking the lead for 
half of these AFO listening sessions).
                                 ______
                                 
  Statement of Gary Beach, Wyoming Department of Environmental Quality
    Mr. Chairman and members of the committee, my name is Gary Beach. I 
am the Administrator of the State's Water Quality Division. I am here 
on behalf of Mr. Dennis Hemmer, Director of the Wyoming Department of 
Environmental Quality. The Department of Environmental Quality has 
primacy under the Clean Water Act to operate the surface water quality 
protection programs in Wyoming. However, I am here today to talk to you 
about our concerns with the Administration's Clean Water Action Plan.
    In order that you understand our concerns, I need to give you a 
little background. When Wyoming first developed its Non Point Source 
Plan in the late 80's, we encountered a lot of concern and opposition 
from the agricultural community, particularly grazing agriculture. 
After several false starts, the method we selected to address their 
concerns was to organize a stakeholder group to address the issues. By 
incorporating the concerns of the group and other stakeholders, we 
created the document, resolved disagreements, and found common ground. 
In fact, this was such a success the stakeholders became advocates for 
water quality and non-point source pollution. Through the Section 319 
funding you provided, we implemented very successful demonstration 
projects and created enthusiasm about addressing non-point source 
pollution.
    After about 10 years of successful implementation of nonpoint 319 
projects, we were one of the States in which EPA was sued over lack of 
progress on Total Maximum Daily Loads. This litigation once again 
polarized our stakeholders. After going through a period of anger and 
blame, we once again gathered all the stakeholders, including some of 
the litigants, and collaboratively addressed the issue. Through this 
collaborative process, we were able to craft a plan that addresses the 
issues surrounding TMDLs and beyond that, implemented a cooperative, 
local, watershed-based, approach to address these issues. To implement 
this plan, the State dedicated a significant amount of money and 
personnel. A number of entities, particularly the State's Conservation 
Districts dedicated funds and resources to addressing the water quality 
problems. This plan anticipates an aggressive 5-year monitoring program 
aimed at gathering credible scientific data on all potentially-impaired 
streams. We will then develop, in collaboration with the stakeholders, 
watershed management plans to address all problems. We are very proud 
of our progress and believe it could be a model for others. However, we 
would never suggest that it be dictated to others. One of the successes 
is that it is tailored to Wyoming and its stakeholders.
    Enter the Clean Water Action Plan. The publication of the Clean 
Water Action Plan in the spring of 1998 reignited many of the fears and 
concerns we were able to work through in developing our TMDL program. 
Rather than suggest a process for identifying area specific issues and 
allowing these areas to develop a solution, it was a top down edict 
that mandated actions whether they were appropriate or not. It was not 
developed with stakeholder input. Rather, it was developed in a very 
short period within the beltway. As such it is not sensitive to 
stakeholder concerns and does not provide the flexibility for States to 
develop plans tailored to their specific situation.
    The first deliverable was the Unified Watershed Assessment. While 
we have been preparing the Clean Water Act section 305(a) assessments 
for many years and also prepare the Clean Water Act section 303(d) 
impaired stream lists, we were now directed to develop a new plan 
called a Unified Watershed Assessment. In Wyoming it took 2 years of 
stakeholder input to develop our process for listing impaired streams. 
As part of that process, we agreed to quit listing streams on emotion 
and hearsay and to utilize credible scientific data. We then dedicated 
a significant amount of money and committed to a 5-year program to 
gather the credible data. This new action plan of EPA/NRCS now asked us 
to duplicate this 7-year effort in as many months. We refused.
    We didn't refuse to develop data comparable to that in the unified 
watershed assessment. As we pointed out repeatedly, we had already 
committed to doing that. We refused to duplicate our effort that was 
worked out with our stakeholders. Had we agreed to the EPA/NRCS demands 
for an assessment based on eight digit Hydrologic units, in addition to 
betraying the agreements we made with our stakeholders, the product 
would be of questionable value. We don't have good data and in Wyoming 
8 digit units can extend from alpine to high desert ecosystems.
    The second issue is the Clean Water Action Plan, the Confined 
Animal Feeding Operation/Animal Feeding Operation, or CAFO/AFO 
strategy. In Wyoming, we have been addressing feeding operations as 
significant sources of pollution, for many years. We have historically 
required all those over one thousand animal units or that pose a threat 
to surface water to be permitted under the National Pollutant Discharge 
Elimination System. Additionally, we have required construction permits 
from any facility we determined to pose a threat to groundwater. We 
have worked cooperatively with the Department of Agriculture and the 
Conservation Districts to reach out and educate and assist producers to 
properly manage feeding operations. More recently, in an effort to 
reach more producers and take advantage of the excellent relationship 
between operators and the Natural Resource Conservation Service, we 
entered into a Memorandum of Understanding with the NRCS whereby, if 
they help an operator develop a waste handling system consistent with 
our requirements, that system will be recognized as having a State 
construction permit.
    For some reason, the Clean Water Action Plan has focused on CAFO/
AFO's. However, rather than assessing current efforts and the need for 
more regulations, we are once again emphasizing command, control, and 
enforcement. I have listened to EPA and NRCS describing the strategy to 
producers. It is confusing because there is no clear delineation of 
where a permit is required and producers are left without answers. In 
both cases, I had to step in and assure producers that in Wyoming we 
believe that we have all operations over 1000 units permitted, that we 
have permitted all those we know of that pose a risk to surface water, 
and that we intend to work with producers in the watershed plans to 
address remaining problems, if they exist. However, I fear that the 
Federal effort may destroy our good work once again. Believe me, our 
collective work through the TMDL program on a watershed basis, work 
that is locally-based and incentive-driven, will address animal feeding 
operations where we have real problems.
    I also am concerned about the role the NRCS has been assigned. 
Regulators are not the most popular people on farms. On the other hand, 
the NRCS has historically been seen as a partner to the producer. 
Unfortunately, as more regulatory responsibilities have been assigned 
to NRCS, that acceptance is eroding. As I noted, we have used NRCS as 
an effective means of delivering water quality information and 
practices to the producer. I fear that the duties outlined in the Clean 
Water Action Plan may jeopardize that ability.
    In conclusion, I believe the idea of a holistic approach to clean 
water is imperative. Likewise, better coordination between the Federal 
agencies is sorely needed. I believe the results desired are already 
identified in the Clean Water Act. If the Clean Water Action Plan only 
outlined those two needs and emphasized the desired results in the Act, 
it would be a valuable document. Unfortunately, it is a command and 
control document that goes far beyond the tenants of the Clean Water 
Act. It was written without stakeholder input in language that is not 
sensitive to stakeholder concerns.
    My suggested solutions are these:
    1. The President should withdraw the Clean Water Action Plan and 
the EPA and NRCS should withdraw the Unified Watershed Assessment and 
CAFO/AFO strategy.
    2. Each State should be given the opportunity to provide 
functionally equivalent programs that meet the overall objectives for 
addressing non-point sources of pollution in a holistic and 
collaborative manner.
    3. New regulatory programs should not be developed or initiated 
until a State-by-State assessment has been made to verify the need for 
new regulations. We might just find there isn't a national need, rather 
selected States or areas may need support and assistance to strengthen 
their programs.
    The Clean Water Action Plan is another example of focusing on the 
process rather than the results. Allow us to focus on the results and 
we can achieve more improvement to water quality with buy-in rather 
than anger and fear.
                                 ______
                                 
  Responses by Gary Beach to Additional Questions from Senator Chafee
    Question 1a. Mr. Beach, you mention that you are in the process of 
gathering credible scientific data on all potentially-impaired streams:
    What is your criteria for credible data?
    Response. In 1997, after TMDL litigation was filed in Wyoming and 
before developing our 1998 Section 303d list of impaired water bodies, 
we went through an extensive process with our stakeholders to define 
the criteria that we would use to decide if a water body was impaired. 
We did this because we had a real credibility problem with many of our 
stakeholders who felt that our listing process for 1996 was terribly 
flawed. From these collaborative efforts we defined credible scientific 
data as:
    (a) A combination of chemical, physical, biological, and historical 
data, wherever this data is available or collectable, that presents a 
complete picture of the system. For example, biological and chemical 
data may not be easily collected on ephemeral streams in which case you 
may only rely on physical and historical data.
    (b) Acceptable data for chemical, physical, and biological may be 
qualitative or quantitative as long as the methods followed to develop 
the data are:
          1. Published methods that have been subjected to a peer 
        review process, and
          2. The methods follow strict protocols so that the data 
        collected are reproducible, scientifically defensible, and free 
        from preconceived bias.
    (c) We can also consider ``historic data'', which may not meet the 
scientific rigors described in b. above, but is valuable factual 
information to add perspective to the analysis of the water body's 
ability to support designated uses. Historic data may include 
quantitative information, like old USGS water quality data, or 
qualitative anecdotal information, like a historic description of the 
conditions of the water body.
    In 1999, our State Legislature codified this concept into State law 
requiring that all decisions made by our agency for designed uses and 
impairment of use must be supported by credible data. (See Wyo. Statute 
35-11-302(b)). We are currently adopting rules to implement this new 
law. This issue has been very important to stakeholders in the private 
sector. They feel strongly that if government is going to list a water 
body as impaired, go through the process of creating a TMDL, and ask 
people to take corrective actions, they want to be sure that the water 
body is in fact impaired.

    Question 1b. Approximately how much is Wyoming investing in its 
monitoring program?
    Response. In response to the TMDL litigation, we developed a 5-year 
monitoring plan that will give us a basic understanding of the water 
quality conditions in the major basins of the State. After we do this 
initial screening, we will have to return to many sub basins and refine 
our sampling where we find evidence of potential problems. Our local 
conservation districts are also gearing up to collect scientifically 
valid data, and we have encouraged the Federal land management agencies 
to do the same. My best estimate of our collective investments during 
1999 are:
    State DEQ: Greater than $1 Million per year for data collection and 
lab analysis.
    Conservation Districts and Wyoming Dept. of Agriculture: 
Approximately $720,000.
    Federal Land Management Agencies: Making some investment, but not 
sure how much.
    NRCS: Technical assistance in planning, not sure of the dollar 
amount.
    Private Organizations: Very limited investment, however, some NPDES 
dischargers are volunteering to do additional in stream data 
collection.
    Section 319 Projects: Estimate about $50,000.
    Total Estimated Expenditure: Greater than $1.7 Million

    Question 1c. Will Wyoming take action to address water bodies which 
are known to be impaired while additional data is being gathered on 
water bodies suspected of being impaired?
    Response. Yes, for water bodies that have been listed, we will 
proceed with the development of a TMDL or watershed management plan 
(depending on the preference of the local stakeholders). This has been 
case with our 1998 303d list of impaired water bodies. Please realize 
that as we move forward with developing TM DLs or watershed management 
plans, more rigorous field sampling may be necessary to identify 
sources and allocate responsibility.

    Question 2. If you have already issued NPDES permits to operations 
with over 1000 animal units and those operations that pose a threat to 
surface water bodies, haven't you finished your obligations under the 
Unified Animal Feeding Operations strategy? What additional operations 
would you be required to permit under the Strategy?
    Response. Yes, we agree that we should have completed our primary 
obligation under the AFO strategy. However, in addition to permitting 
the CAFOs, we expect the following additional obligations to come out 
of the Unified Animal Feeding Operation strategy:
    1. EPA has signaled their intention to go to rulemaking to update 
their requirements for CAFOs and to reevaluate the need for permitting 
AFOs from 300 AUS and up. The strategy includes providing guidance to 
States for ``model permits'' and states that all permits should include 
a comprehensive nutrient management plan (CNMP). Special types of 
permitting are mentioned when these operations are located in water 
quality impaired watersheds. From these intentions I expect new 
national standards resulting in new requirements that we must respond 
to at the State level and thereafter, incorporate them into existing 
permits.
    2. I look for our involvement in the development of the initial 
CNMPs, to assure they meet State water quality protection requirements.
    3. If NRCS cannot meet the demand to develop CAMP for all AFOs, 
then we must come to some agreement on how we will certify 
professionals to do this work. We will probably have some participatory 
role in this process.
    4. Finally, we will want to encourage AFOs (particularly the 
smaller operations) to use the ``good faith'' incentive of the strategy 
and avoid permitting if this option is feasible. This will require 
coordination efforts to direct operators through this alternative 
process. I acknowledge, this is time well spent as it would achieve the 
desired results and reduce our administrative workload for processing 
permits.

    Question 3. My understanding is that a firewall has been created 
between the EPA and USDA with respect to regulation. According to the 
strategy, the NRCS is only responsible for providing technical 
assistance to farmers. In what way is the NRCS role in the strategy 
regulatory?
    Response. I would suggest that you view this situation from a rural 
landowner's perspective. In the eyes of a skeptic public, perception is 
reality. We realize that the working relationships between landowners 
and the SCS (now NRCS) was built through years of trust and respect. If 
we loose this element of trust, we loose the relationship.
    In rural America you will perceive the following:
    1. That NRCS is tasked to develop CNMP on all operations 2008 
(sounds like a regulatory approach). That operators must accept NRCS's 
technical specifications for an acceptable CNMP. If NRCS personnel are 
unable to do the CNMP, the operator must hire someone certified by the 
NRCS/State to do this work and achieve the goal that all AFOs have a 
CNMP.
    2. USDA sits shoulder to shoulder with EPA to present and defend 
the CWAP and AFO strategy. At the field level, NRCS staff presented and 
support the AFO strategy in front of their customers.
    3. Word got out that EPA had submitted a FOIA request to NRCS to 
access data on AFOs. Although NRCS refused to comply with this request, 
it will still have a chilling effect on the relationships between 
private landowners and NRCS staff.
    4. Finally, one cannot forget that NRCS staff are Federal employees 
that answer to the same chief.
    These perceptions in the field undermine the ``firewall'' that the 
administration has attempted to build in the strategy. I realize there 
are clear benefits from this joint effort, but I'm not sure they will 
outweigh the damage being done at the field level. I feel strongly that 
we must protect this relationship so that landowners will confide in 
and receive much needed educational and technical assistance from NRCS 
technical staff. This is a task that no one else is better equipped to 
do.
                                 ______
                                 
   Responses by Gary Beach to Additional Questions from Senator Crapo
    Question 1. State regulators and the NRCS have historically been 
seen by farmers as more cooperative than Federal agency officials. 
Moreover, AFO operators have a long-term relationship with State 
regulatory officials. Does it make more sense to ensure the voluntary 
and cooperative participation of farmers to have the State continue to 
take the lead in CWA regulatory matter?
    Response. I am a firm believer that the State and local cooperating 
agencies should take the lead role in achieving the requirements of the 
Federal Clean Water Act. Yes, most States by now have established an 
understanding with their operators and have put in place both voluntary 
and regulatory programs that are achieving the Federal goal in a manner 
that the operators can accept. These understandings and relationships 
should not be jeopardized for some new notion or Federal perspective on 
how we should conduct business. I keep reiterating, let's use what is 
already working to achieve our goals, for that which is already working 
has stood the test of time and has been accepted by our people. This 
question goes to the very heart of my testimony. Before we specify a 
new way of conducting business from Washington (i.e., new regulatory 
programs), let's first do an inventory and see where we need to make 
adjustments and then work with those few programs that need more 
support. The NGA has advocated that EPA look more seriously at 
accepting ``functionally equivalent programs.'' This advances the 
notion that each State may have developed different approaches to 
achieve the same outcome.

    Question 2. Are State and regional differences significant enough 
to magnify or reduce the environmental impact of AFO or resource-
industry discharges? Is it appropriate to construct a regulatory system 
within a flexible framework?
    Response. It is my experience that State and regional differences 
are great enough that being specific on how to deal with the problems 
at the national or regional level is the wrong approach. An example for 
AFOs is the use of NRC's technical specifications. To determine sound 
land application practices at an operation, NRCS staff considers the 
local climate, soils, vegetation, geology, and depth to groundwater. In 
the adjoining States of Utah, Idaho, and Wyoming we have real differing 
conditions where land application of animal wastes to agricultural 
lands may be an acceptable practice year round, whereas at other 
locations this practice may be very limited if not impracticable. In 
addition to these environmental differences, we must be responsive to 
local politics. A process (or approach) that may work in one basin may 
not be accepted by local people in another basin. So we need a 
framework of flexibility that allows us to deal with technical and 
political differences between States and within the State.

    Question 3. Has enough time been allotted in the implementation 
process to permit States and local governments to have ample notice and 
adequate opportunity for input?
    Response. I do not believe that adequate time nor opportunity was 
provided for State and local governments to have meaningful input on 
the release of the Clean Water Action Plan. When I say meaningful, I'm 
talking about a process where stakeholders have time and access to 
provide input, this input is seriously considered, and the final 
product reflects a sincere effort to meet stakeholder needs. After 
release of the CWAP, no opportunity was provided for State and local 
governments to comment on the role out of the unified Watershed 
Assessment strategy. It was delivered to States in the spring of 1998 
and by October 1st we had to produce a deliverable if we wanted to 
participate. The instructions in this document included a requirement 
that we include public participation in the development of our State 
Unified Watershed Assessment. In Wyoming, for example, we had just 
completed a year long public participation process to create our 1998 
list of impaired water bodies. We realized that to do the public 
participation process right, we would need to dedicate at least 6 to 8 
months to a public participation process. I will acknowledge that much 
better public participation and outreach was provided for the role out 
of the CAFO/AFO strategy. Maybe this was due in part to the false start 
by EPA and the later joining of forces with USDA. As I indicated, NRCS 
staff and in some cases EPA staff made a number of presentations to 
local groups about the CAFO/AFO proposal. There was a formal notice and 
formal solicitation for comments on the strategy. I know that NRCS/EPA 
received many comments and had limited time after the comment period 
closed to analyze and seriously consider the comments before release of 
the final document. To EPA/USDA's benefit, I did see many good changes 
in the final strategy that I think resulted from a much better outreach 
and public participation process. In summary, only in the case of the 
CAFO/AFO strategy would I say that there was adequate notice and 
comment period for State and local governments. I'm not sure that the 
opportunities that were provided for comments were meaningful.

    Question 4. What reliability can be expected from a watershed 
assessment process done in an abbreviated schedule? What level of 
validity and consistency can be expected from this information?
    Response. When doing a meaningful watershed assessment, one must 
learn to gauge the right pace. I can assure you that this schedule will 
vary from site to site, depending once again onsite conditions, 
complexities and the political environment. A short or an abbreviated 
schedule may work at certain times if the task is simple, the problem 
well defined, and the people are already comfortable with the solution. 
But in most watershed assessments, it will not be simple and people 
must be given the right amount of time to accept the reality and move 
forward with solutions they own. Please realize, He pace can be too 
long in which case you can lose motivation and people will begin to 
think they can avoid doing anything. I am suggesting that the pace or 
schedule is site specific and will be variable. If you try to 
accelerate it too fast you will lift the solutions from the local 
people and they will no longer have an ownership in the problem. Once 
this happens, it will be a uphill battle to achieve the desired 
results.
                                 ______
                                 
 Statement of John Godbee, Environmental Manager, International Paper 
      Company, on Behalf of American Forest and Paper Association
    Mr. Chairman, members of the committee, I appreciate the 
opportunity to present my testimony today on behalf of the American 
Forest and Paper Association on: (1) the Administration's Clean Water 
Action Plan; (2) the significant efforts of the U.S. forest products 
industry to maintain and protect the Nation's waters; (3) improvements 
to State nonpoint source programs that will help restore and maintain 
the physical, chemical and biological integrity of the Nation's waters 
and; (4) upcoming EPA proposals that require special attention.
    AF&PA is the national trade association of the pulp, paper and 
forest products industry. We represent approximately 84 percent of 
paper production, 50 percent of wood production and 90 percent of 
industrial forestland in the United States. Nationwide, there are more 
than 9 million non-industrial private landowners who own 59 percent or 
approximately 288 million acres of the total productive private 
timberland. Most of these landowners have holdings of less than 100 
acres. In comparison, forest products companies own 15 percent of the 
Nation's timberland and rely heavily on the fiber supply provided by 
these small landowners.
    My name is John Godbee and I am Environmental Manager of Forest 
Resources for International Paper. International Paper is a major 
manufacturer of printing papers, packaging and wood products. We are 
the largest private forest landowner in the country with over 7.5 
million acres. We also have 191 operations in 46 States located 
throughout the United States.
    While, as stated, AF&PA also represents the manufacturers of the 
country's paper supply, I will confine my remarks to our forestry 
activities.
    Upon release of the February 1998 Clean Water Action Plan, the 
forest products industry's initial action was to: (1) evaluate the 
Federal Government's proposals in light of what actually is going on in 
the private sector; (2) determine if there was consistency with 
industrial and non-industrial private landowner programs; and (3) 
examine if the Plan recognized private sector initiatives that are 
making progress in meeting the goals of the Clean Water Act. After 
careful review, we believe the Plan is heavily weighted toward Federal 
prescriptiveness, rather than recognizing and promoting successful 
State and private sector initiatives that are making a significant 
difference in water quality protection.
    Back in 1994, members of AF&PA committed themselves to the 
Sustainable Forestry Initiative (SFI)<SUP>SM</SUP>. The SFI program is 
a comprehensive system of principles, guidelines and performance 
measures that integrates the perpetual growing and harvesting of trees 
with the protection of wildlife, plants, soil, air and water quality. 
All AF&PA member companies are required to comply with the 
SFI<SUP>SM</SUP> or their membership will be terminated, as has 
occurred for some. Among the water quality commitments that AF&PA 
members make in subscribing to the SFI is the agreement to:
    <bullet> Meet or exceed all established Best Management Practices 
(BMPs);
    <bullet> Meet or exceed all applicable State water quality laws, 
regulations and the requirements of the Clean Water Act for forestland;
    <bullet> Establish and implement riparian protection measures for 
all perennial streams and lakes and involve a panel of experts at the 
State level to help identify goals and objectives for riparian 
protection;
    <bullet> Individually, or through cooperative efforts, provide 
funding for water quality research.
    In 1997, AF&PA member companies began reporting on the number of 
acres and miles of streams that are enrolled in wildlife and fisheries 
agreements with conservation groups and public agencies that specify 
on-the-ground management practices. Almost 11 million acres, 
representing 20 percent of the total acres in the SFI program, and 
4,286 miles of stream have been enrolled in these agreements.
    As you can tell from these commitments, this effort represents the 
industry's own Clean Water Action Plan and it has the full backing and 
support from an Independent Expert Review Panel that monitors our 
progress. The Panel consists of members from the conservation, 
environmental and academic communities, Federal and State 
representatives and includes the Chief of the U.S. Forest Service and 
an EPA official.
    Far from being a program based in Washington D.C., the SFI program 
has established State Implementation Committees in 32 States that 
receive more than $3.1 million from AF&PA members and allies to foster 
their responsibilities to promote SFI principles.
    While industrial forestland constitutes approximately 15 percent of 
the Nation's forested acreage base, AF&PA members are also committed to 
expanding and promoting sustainable forestry into the broader forestry 
community. For example, in 1997:
    <bullet> Over 9,600 loggers and foresters completed comprehensive 
training programs that include forestry education with over 20,000 
loggers trained since 1995;
    <bullet> More than 86,000 landowners across the country received 
information on the SFI program;
    <bullet> 99 percent of the estimated 9,700 member company employees 
who exercised SFI duties were fully trained in sustainable forestry 
practices.
    As the Federal agencies involved in water quality and forest 
management issues work with State agencies in implementing programs to 
protect water quality from the impacts of land-based activities, we 
would hope that they work with the private sector in identifying areas 
that will compliment our commitments.
    As an example, we believe that implementation of forestry best 
management practices (BMPs) through State-sponsored and directed 
programs are the key mechanisms to protecting water quality in streams 
and lakes. Eighteen States have recently reported that overall 
compliance with BMPs across all ownerships--industry, private 
landowners and public--averaged 85 percent. Although these results are 
encouraging, we can do better through promotion of BMP training and 
monitoring effectiveness. Therefore, AF&PA and our regional and State 
forest associations strongly support funding for States to conduct BMP 
effectiveness audits of forestry practices. Numerous studies show that 
when BMPs are implemented, water quality is maintained. The more recent 
studies conducted in Florida, South Carolina and Idaho illustrate that 
when BMPs are implemented, the biological, physical and chemical 
integrity of the Nation's waters are protected. We can provide copies 
of these studies and others that document our claims. As we move 
forward, we would encourage Federal and State officials to establish a 
dialogue with the SFI State implementation committees and support 
ongoing efforts in the forestry community to reach out to forest 
landowners, loggers, consultants and practicing foresters on promoting 
BMP implementation to protect water quality.
    At this point, I'd like to shift your attention briefly to two 
issues that many in the forestry and other nonpoint source communities 
believe have the possibility of imposing onerous and incompatible 
requirements on land management practices. First, the EPA is in the 
process of issuing proposed rules to revise the total maximum daily 
load (TMDL) program under Section 303(d) of the Clean Water Act. The 
TMDL program is designed to assure attainment of water quality 
standards by requiring the establishment of loading targets and 
allocations for waters that are not in attainment with those standards. 
The Clean Water Act and its implementing regulations require States to 
identify these impaired waterbodies and for EPA to approve the State 
lists and State-developed TMDLs for each pollutant. While we await 
issuance of the proposed rules, we remain very concerned with the lack 
of sufficient data used to list the 21,000 waterbodies identified by 
States and approved by EPA as impaired and the methods used to 
determine which activities have caused impairments. Even after these 
waters have been designated as impaired, which we believe requires a 
scientific water quality monitoring and sampling program conducted over 
time and seasons, the determination of actual daily loads to 
waterbodies and their allocations to individual activities in a stream 
segment is extremely complex and expensive. We do not believe this is a 
practical solution and should only be undertaken as a last resort where 
absolutely necessary and where significant resources are available.
    Second, under the Clean Water Action Plan (CWAP) announced in March 
1998, the Environmental Protection Agency (EPA) is beginning the 
process of re-examining the regulatory, legal and statutory exemptions 
and definitions for defining runoff from forest roads as a nonpoint 
source activity. While the industry supports the Agency's review on the 
effectiveness of forest road construction best management practices, 
their scientific underpinnings and how they are developed and 
implemented to attain and maintain water quality, we do not believe the 
Agency has the statutory authority to revise the regulations which 
recognize forest roads as nonpoint sources. Under the Federal Water 
Pollution Control Act and its amendments in 1977 and 1987, Congress 
cleary recognized forest roads as a nonpoint source category. In fact, 
several recent Federal cases specifically recognize the different 
approaches taken by Congress to regulate point sources on the one hand 
and to address nonpoint sources on the other. Where roads were at 
issue, these courts upheld their definition as a nonpoint source.
    I have one final remark, Mr. Chairman, regarding EPA's request for 
additional authority and money to run a new nonpoint source pollution 
control program under the Clean Water Act. All States with an active 
forestry presence have State and EPA-approved BMP forestry programs 
tailored to the conditions and forest types of the State. A Federal 
Agency prescribing forestry BMP programs to tell us what practices we 
can and cannot do would not be helpful. Likewise, we are not seeking 
Federal financial assistance to implement BMPs. We do this as standard 
business and operating practice. What we do need is forestry BMP 
effectiveness funding for States to document their well-designed and 
scientifically-based programs and additional BMP research support for 
continuous improvement.
    In conclusion, as EPA proceeds in implementing any of the key 
actions related to forest management in the Clean Water Action Plan, we 
hope that the agency recognizes the significant commitment of resources 
and efforts the private sector has launched in promoting water quality 
protection.
    Again, I thank you for the opportunity to present these remarks, 
and I'd be glad to respond to any questions.
                                 ______
                                 
  Responses by John Godbee to Additional Questions from Senator Chafee
    Question 1. Does the 85 percent statistic represent 85 percent of 
all lands, 85 percent of all companies or neither.
    Response. The States, through the State Forestry Agencies conduct 
periodic BMP compliance assessments on all forest lands. States 
generally use a weighted sampling system based on the proportion of 
public, nonindustrial private and industry ownership. The figure of 85 
percent represents a statistically weighted average of BMP compliance 
across all ownerships.

    Question 2a. GAO report on forest roads.
    Do the BMPs implemented by AF&PA members attempt to mitigate the 
damage caused by forest roads?
    Response. To the best of my knowledge all State Forestry BMP 
manuals include specific management criteria for roads. These include 
guidelines for road location, construction, stream crossings, 
maintenance and retirement. In addition, to be exempt from permitting 
requirements under Section 404 of the Federal Water Pollution Control 
Act, all forest road construction and maintenance activities must be 
conducted in accordance with best management practices. Through 
regulation, EPA has promulgated 15 BMPs for forest roads constructed in 
jurisdictional wetlands. AF&PA member companies have committed to 
meeting or exceeding all BMPs on wetlands and uplands they control and 
promoting their use on all lands. As indicated above, compliance with 
these practices on all lands is approximately 85 percent.

    Question 2b. How effective are these BMPs?
    Response. There are numerous studies demonstrating that when BMPs 
are applied, they are very effective in protecting water quality. For 
example, compliance with 8 high risk BMPs, which included 5 forest road 
runoff practices in Montana on 333 sites, it was reported that 90 
percent of these practices were effective in protecting water quality. 
The successful implementation of these practices is evidenced by the 
fact that while forest management represents the single largest land 
use in this country, a very small percentage of streams or water bodies 
are listed as impaired due forestry activities. The forest products 
industry is very supportive of additional funding for State sampling 
and monitoring programs designed to evaluate BMP implementation and 
effectiveness to improve on specific practices where needed.

    Question 2c. After a harvest is completed are efforts taken to 
destroy the roads to prevent future erosion?
    Response. Harvesting activities may require 3 road types; 
permanent, temporary access and skid trails. Temporary roads and skid 
trails are generally retired with culverts removed and the roadbed and/
or site reshaped and revegetated as part of the reforestation effort. 
Permanent roads are stabilized using a variety of practices such as 
waterbars, seeding and mulching. Permanent roads are an essential 
component of forest management as they provide access for forest 
management and protection from insects, diseases and destructive 
wildfire.

    Question 3. If the initial implementation of BMPs does not bring 
the water body into compliance with WQ standards, would you then 
support the development of a TMDL for the Water body?
    Response. BMPs are implemented at the time of the forest management 
activity to prevent water quality impairment from these activities. In 
the unlikely event that the BMPs are found not to be effective in 
preventing WQ impairments, foresters amend the practice to achieve the 
desired results. This reiterative process recognizes the natural 
phyisographic and climatic variables that must be considered by 
professional foresters in conducting these activities. The setting of a 
total maximum daily load (TMDL) for nonpoint pollutants does not 
provide an effective process or mechanism for addressing runoff from 
silvicultural practices. It is extremely cumbersome, expensive and 
cannot be realistically monitored. The most effective process for 
reducing loadings from a nonpoint source category is through 
implementation of BMPs. In contrast the setting of TMDLs for point 
source discharges provides a mechanism through the permit process to 
address the cumulative contributions at the end of the pipe discharges 
by linking known concentration levels and volume of flow.
                                 ______
                                 
  Responses by John Godbee to Additional Questions from Senator Crapo
    Question 1. Your Testimony describes the success of BMPs and the 
SFI. If a forest operation conforms with State and EPA-approved BMP 
program, would you consider similar CWA Plan-driven activities as 
duplicative?
    Response. Yes. BMPs are developed and implemented at the State 
level with Federal assistance from the EPA through CWA Section 319 
funding. This program has proved highly effective in developing public 
private partnerships in education, training and effectiveness 
monitoring. The forest industry's Sustainable Forestry Initiative 
provides an excellent example of our industry's commitment to achieve 
the goals of the CWA without the need for duplicative programs 
administered and funded by the Federal Government.

    Question 2. Your Testimony also mentions that the industry is not 
seeking Federal assistance to implement BMPs. Would the industry 
require additional resources to meet its obligations under the CW 
Action Plan?
    Response. The Forest Industry is not seeking nor does it require 
additional Federal funding for implementation of BMPs. Compliance with 
BMPs is viewed as part of the business of managing industrial forest 
lands. We also have active programs such as the Sustainable Forestry 
Initiative which promote their implementation on all lands through 
industry funded training and education programs. The forest industry 
would like to see more Federal support for State led BMP programs to 
monitor implementation and effectiveness.

    Question 3. Efforts to redefine road construction and maintenance 
as a point source of pollution subject to a discharge permit would 
invalidate congressional intent in establishing road maintenance as a 
nonpoint source. What has been the reaction of the State Forestry 
Agencies to this proposal.
    Response. While the reaction varies somewhat among the States, 
there is general concern that the State Forestry Agencies do not have 
the manpower, resources nor funding to implement an NPDES permit 
program for forest road construction and maintenance. The consensus 
among State forestry agencies which operate in States with an active 
commercial forest industry is that existing statutes clearly define 
road construction and maintenance as a nonpoint source category. Any 
changes proposed to address specific permitting requirements should be 
decided at the State level.

    Question 4. Can you quantify the improvements made to watersheds 
based on the industries SFI program?
    Response. The industry, through the American Forest & Paper 
Association, academic institutions and other research organizations, 
have conducted numerous watershed studies throughout the country to 
examine the industry's landowner education, outreach, logger training 
and on-the-ground BMP implementation programs. We have cooperated with 
State forestry agencies, water quality agencies and members of the 
environmental community to conduct collaborative research on forested 
watersheds. The SFI program has numerous conservation, recreation and 
wildlife associations as sponsors and endorsers of the program. We are 
currently working with many of these organizations to begin the process 
of benchmarking successes and improvements in protecting water quality 
and sustainable forest management such as improvements to fish habitat 
and streamside management zone corridors for wildlife habitat.

    Question 5. Are State regulatory agencies failing to fulfill their 
obligations under the Clean Water Act?
    Response. From our perspective in the forest industry, the States, 
like all of us must set priorities for responding to various programs 
based on the availability of manpower, funding and the cost benefits of 
various compliance options. We believe the States are generally doing a 
responsible job in allocating resources and administering CWA programs 
addressing the regulatory requirements for our industry.

    Question 6. Are States and Federal Agencies working well under the 
current rubric?
    Response. The proof of the success of existing programs is best 
measured by the level of implementation of the intended objectives. 
Under the CWA, the forest industry bases its performance on 
implementation of State and Federal BMP programs. Successful programs 
exist in all States with an active commercial forest industry. 
Compliance levels with BMPs are high and gaining greater acceptance and 
implementation each year. Federal, State and private sector 
partnerships to promote education, implementation and training are 
paying big dividends in improving the health of our Nation's waters.

    Question 7. What is the likely impact of the Clean Water Action 
Plan requirements on this cooperative relationship and State 
enforcement of the forest industry?
    Response. Federal programs with a prescriptive one-size-fits-all 
strategy for meeting and improving the quality of our Nation's waters 
leads to the ineffective allocation of limited resources. The setting 
of WQ standards for individual streams and lakes, and the development 
of specific programs and practices to meet these standards is most 
effective when done by the State. The role of the Federal Government in 
this effort should be limited to general oversight and funding support 
to assist the States in meeting the goals of the Federal CWA.
                                 ______
                                 
  Statement of Daniel F. Heilig, Executive Director, Wyoming Outdoor 
             Council and Member of the Clean Water Network
    My name is Dan Heilig and I am the executive director of the 
Wyoming Outdoor Council (WOC). Established in 1967, WOC is the oldest 
and largest independent non-profit conservation organization in 
Wyoming. The mission of my organization is to protect Wyoming's 
environment and conserve its natural resources by educating and 
involving citizens and advocating environmentally sound public 
policies. I appreciate the opportunity to testify today in support of 
the Clean Water Action Plan.
    I am also an active member of the Clean Water Network, an alliance 
of over 1000 public interest groups representing environmentalists, 
family farmers, anglers, commercial fishermen, civic associations, 
rural policy, and consumer advocacy groups working together to 
implement and strengthen Federal clean water policies. The Clean Water 
Network submitted hundreds of pages of written comments on the Clean 
Water Action Plan in 1997 and 1998 during the official public comment 
period and members of its steering committee briefed this committee's 
staff last week on the Clean Water Action Plan. I am testifying today 
on behalf of the Clean Water Network as well as the Wyoming Outdoor 
Council.
    Encompassing nearly 98,000 square miles, Wyoming is a vast, 
sparsely populated State. Approximately 49 percent of the State's land 
area, about 30 million acres, is managed by the Federal Government, 
primarily the Forest Service and Bureau of Land Management. The 
Nation's first Park, Yellowstone, first Forest, Shoshone, and first 
Monument, Devils Tower, lie within Wyoming's borders.
    Although known better by its official motto as the ``Equality 
State,'' Wyoming is the Nation's headwaters State. The Snake, Green, 
Madison, Yellowstone, Bighorn, and North Platte rivers all originate 
here, high in the Rocky Mountains. Unfortunately, despite the 
extraordinary natural values of these headwaters, only one river, the 
Clarks Fork of the Yellowstone, has been designated a Wild and Scenic 
River.
    My organization supports the Clean Water Action Plan (``Plan'') 
because it focuses significant Federal resources on the most pervasive 
cause of water quality impairment to Wyoming's surface waters: polluted 
surface runoff. The Plan's emphasis on watersheds, rather than discrete 
stream segments, makes sense given that polluted surface runoff comes 
from many different and often diffuse sources spread out over large 
areas. A key feature of the Plan is a $100 million increase in funding 
under Section 319 of the Clean Water Act for Fiscal Year 1999 for 
locally-led restoration efforts in watersheds that do not meet clean 
water or other natural resource goals.
    Unfortunately, not everyone in Wyoming shares our enthusiasm about 
the Plan. In February of this year, the Wyoming Association of 
Conservation Districts (``Districts'') and several other parties filed 
a 60-day notice of intent to sue the EPA and the U.S. Department of 
Agriculture in which the Districts oppose the Plan. Underlying this 
effort is a fear that identifying watersheds that do not meet clean 
water or other natural resource goals could ultimately lead to 
regulatory action to restrict land uses and activities found to be 
contributing to water quality impairment. This concern is evidently 
based, in part, on their experiences with Wyoming's TMDL (total maximum 
daily load) Program. Under the TMDL program, States are supposed to 
identify and restore impaired watersheds by creating a list of impaired 
waters and then developing and implementing restoration plans, commonly 
called TMDLs. The TMDL provisions have been a feature of the Clean 
Water Act since its enactment in 1972, but implementation of these 
provisions has only been recent.
    In 1996, using information provided by a variety of sources--
including many Wyoming Conservation Districts--the Wyoming Department 
of Environmental Quality (``DEQ'') listed over 360 stream segments as 
water quality limited, and therefore requiring watershed restoration 
strategies or TMDLs. As far as the Districts were concerned, the larger 
the list the better, since the availability of Section 319 money was 
based in part on the presence of impaired water quality. Later, when 
the Districts learned that TMDLs could be required for impaired 
segments, they took affirmative steps to remove as many segments from 
the list as possible. This effort proved successful when, in 1998, the 
EPA approved Wyoming's 303(d) list containing only 63 water quality 
limited segments. Over 300 segments were removed from the 303(d) list 
and placed on a list requiring monitoring sometime in the next 5 years.
    Since late 1996, the Wyoming Association of Conservation Districts 
has focused its attention and resources on strategies to block the 
creation and implementation of TMDLs. As mentioned earlier, this 
strategy involves removing as many segments as possible from the 303(d) 
list (without taking corrective action) and efforts to reclassify 
surface waters to a lesser standard to obviate the need for pollution 
limits. As a result, citizens in Wyoming today are involved in a 
pitched battle to prevent the further weakening of water quality 
standards by interests that seem interested in nothing but maintaining 
the status quo. It is our hope that the availability of Federal dollars 
and other benefits provided by the Plan and successes of neighboring 
States may eventually entice the DEQ and Conservation Districts back 
into the business of restoring damaged watersheds.
    For the benefit of this committee, I provide an overview of the 
situation in Wyoming from my vantage point.
    Unified Watershed Assessments. The Unified Watershed Assessment is 
the centerpiece of the Clean Water Action Plan. We considered it a 
major milestone in Federal policy because for the first time it calls 
on States to consider data from a variety of sources and to develop one 
unified set of watershed restoration priorities by coordinating across 
Federal and State programs. The fact it was done hand in hand by water 
quality and agricultural agencies was a sign of progress.
    Wyoming was the only State in the Nation to miss the initial 
deadline for submitting a Unified Watershed Assessment. As you can see 
from the map on page 5 of the EPA's first year report on the CWAP, 
Wyoming was also the only State in the Nation that failed to identify 
any watersheds requiring restoration efforts. The absence on the map of 
such watersheds should not be construed as evidence that we have no 
water quality problems in Wyoming. Rather, it reflects the Conservation 
Districts' concerns that identifying damaged watersheds could trigger a 
regulatory response that includes restrictions on land use or mandatory 
imposition of best management practices.
    It is amazing that Wyoming officials appear to feel threatened by 
the Federal agencies asking them for their assessment of which 
watersheds are in need of action. The Unified Watershed Assessment and 
Watershed Restoration Action Strategy requirements were truly minimal 
mostly just asking States where and why they wanted to direct new 
Federal dollars that are allocated to address non-point pollution. 
Apparently, the State of Wyoming feels that Congress should simply hand 
over the cash, no questions asked.
    EPA-USDA Unified National Strategy for Animal Feeding Operations 
(EPA-USDA AFO Strategy). Another important part of the Clean Water 
Action Plan is the EPA-USDA AFO Strategy. This strategy is simply a 
road map for how the Federal agencies will work together to implement 
existing Clean Water Act authority. More than 25 years ago, the Clean 
Water Act identified feedlots as point sources of pollution thus 
required to obtain National Pollution Discharge Elimination System 
(NPDES) permits. However, these provisions have been largely ignored 
until recently.
    The EPA-USDA AFO Strategy describes steps to be taken over the next 
5 to 10 years to implement the vision of the Clean Water Act by 
permitting large-scale animal feedlots. The Strategy does not in itself 
create any new rules or regulations. It does, however, describe a 
timeline for updating regulations on permitting and technology 
standards. These updates will require EPA to go through the formal 
rulemaking process, including public comment.
    As a strategy, the EPA-USDA AFO Strategy was not required to go 
through the entire rulemaking process. However, it should be noted that 
the EPA and USDA provided ample public notice and comment 
opportunities--a 120-day comment period and 11 public listening 
sessions around the country. Clean Water Network members participated 
in the listening sessions and dozens of members submitted detailed 
comments on the EPA-USDA Strategy.
    Triennial Review a Decade Behind Schedule. Wyoming's triennial 
review of its surface water standards is nearly a decade behind 
schedule. Last completed in 1990, this three-year review is required by 
Section 303(c) of the Clean Water Act (``Act''). As a result of the 
nearly 10-year delay, and due to inadequate oversight by EPA, many of 
Wyoming's surface water standards do not meet minimum Federal 
requirements. For example, all of Wyoming's Class 4 waters (classified 
for industrial, agriculture and wildlife watering uses) do not comply 
with the Act because they are not supported by a Use Attainability 
Analysis (UAA). EPA's regulations require a UAA for surface water 
standards that do not support aquatic life or recreational uses.
    Lack of An EPA Approved Antidegradation Policy. Although the 
antidegradation provisions are a critical element of the Clean Water 
Act, Wyoming's water quality standards still lack--27 years after the 
passage of the Act--this mandatory provision. As a result, many of its 
high quality ``tier 2'' waters have been unlawfully degraded by point 
and non point source pollution. In some cases, single point source 
discharges lacking proper effluent controls have consumed substantially 
all of the water body's assimilative capacity.
    Recent Legislative Enactments Block Attainment of Clean Water Goals 
and Threaten Wyoming's Primacy to Administer Environmental Laws. 
Earlier this year, the Wyoming State Legislature passed two laws that 
directly conflict with Federal pollution control measures. Known as the 
``credible data'' bill, Senate File 27 requires the use of credible 
data--defined as ``scientifically valid chemical, physical and 
biological monitoring data collected under an accepted sampling and 
analysis plan, including quality control, quality assurance procedures 
and available historical data''--to designate uses and to establish 
water quality impairment. Because the law requires that designated uses 
assigned by the DEQ be backed by credible data, it frustrates the water 
quality ``enhancement'' goals of the Clean Water Act. Under the Act, 
designated uses must reflect the potential water quality that could be 
attained with proper pollution controls and best management practices. 
The requirement that designated uses be based on water quality as it 
exists today will not improve water quality. Moreover, because it 
severely restricts the kind of data DEQ may use in determining 
impairment, it prevents DEQ from considering such obvious forms of 
water quality impairment as oil slicks, foul odors, floating scum and 
fish kills. Among its other egregious flaws, Ron Micheli, the Director 
of Wyoming's Department of Agriculture, boasted in the Department's 
Spring 1999, newsletter that ``the approval of this legislation [SF 27] 
will now send DEQ back to the drawing board on [the Triennial Review of 
water quality standards].''
    Second, concern surrounding the controversial Senate File 147-
Brownfields legislation has prompted EPA to undertake a review of 
Wyoming's primacy under the Resource Conservation and Recovery Act 
(RCRA). Among its many problems, this law substantially expands 
exemptions to landowner liability, in conflict with strict liability 
provisions of Federal law. In a March 4, 1999 letter to Wyoming 
Governor Jim Geringer, EPA Region VIII Administrator William Yellowtail 
noted that ``The Federal programs' provision of strict liability would 
be negated by the proposed revision. Owners of property contaminated by 
a previous owner, or by a contractor, or by any other party, would have 
no obligation to clean up the property, no obligation to monitor or 
investigate the contamination, and no obligation to comply with waste, 
water, and air program monitoring requirements. This proposed provision 
is unparalleled in Federal law and is inconsistent with authorized, 
approved and delegated State programs.''
    It is interesting to note that both laws were enacted over strong 
objections from citizens, conservation organizations and the U.S. 
Environmental Protection Agency.
    Wyoming's Program for Reducing Non-Point Source Pollution Suffers 
from Lack of Resources and Oversight. A 1997 audit prepared by the 
EPA's Office of Inspector General revealed that Wyoming's Section 319 
Program lacks adequate resources and sufficient oversight and technical 
support by EPA. Despite citizens' efforts to compel enforcement of the 
TMDL provisions of the Clean Water Act, Wyoming still refuses to take 
meaningful efforts to address the leading cause of impairment of 
Wyoming's rivers and creeks: siltation. Over 300 stream segments 
identified on the State's 1996 303(d) list as impaired from siltation 
were removed from the 1998 list and placed on a ``monitoring'' list. 
The few TMDLs that have been developed lack daily load allocations and 
many of the other basic elements of real TMDLs such as a margin of 
safety.
    Loss of Wetlands Continues at Unacceptable Rates. I believe that 
the Clean Water Action Plan's goal of achieving a net gain of 100,000 
acres of wetlands per year by 2005 is a laudable goal. However, unless 
the Administration and the States start protecting more remaining 
natural wetlands in addition to their efforts to restore degraded 
wetlands, it will be expensive and extremely difficult to reach that 
goal. Wyoming has already destroyed over 38 percent of its natural 
wetlands since 1780 according to the US Fish and Wildlife Service. 
According to Wyoming's 1996 and 1998 Section 305(b) water quality 
assessments, 413 acres of wetlands were destroyed over a 4-year period. 
Although this loss was partially offset by the addition of 339 acres of 
constructed wetlands, the loss of values of naturally functioning 
wetlands is significant. No program exists to monitor the effectiveness 
of wetlands constructed as mitigation.
    These 305(b) reports indicate that most losses occur under various 
nationwide permits. A recently proposed general permit, Wyoming GP 98-
08, would have authorized the destruction of up to 2 acres of wetlands 
and unlimited inundation of ephemeral drainages for each natural gas 
well drilled in Wyoming. With as many as 15,000 new natural gas wells 
proposed for construction in the next 10-15 years, wetland loss from 
this general permit would have been unacceptable. To its credit, the 
Corps of Engineers has responded to public comment and lowered to 1 
acre the permissible loss per well and has proposed other strengthening 
provisions.
    Finally, we are concerned that wetland loss reported to the Corps 
of Engineers may not accurately reflect actual losses. Many projects 
proceed without authorization, while others result in destruction to 
wetlands well beyond the scope of the permit. A recent example is the 
canal constructed on the Wind River near Riverton, WY. There, the Corps 
granted a permit to Fremont County (on behalf on the 1838 Rendezvous 
Committee) to remove 30 cubic yards of material as part of a flood 
control project. When the project was completed, an estimated 4,000 
cubic yards of material had been removed to create what local officials 
dubbed the ``Suez Canal.''
    Lack of Resources Remains a Problem. Despite the addition of new 
staff and an expanded budget, the lack of adequate technical and 
financial resources within the Water Quality Division is still a factor 
in the inadequate administration and enforcement of the State's clean 
water program. It is generally acknowledged that additional monitoring 
requirements imposed by Senate File 27 can not be met with existing 
budget and staff levels. The problem could be alleviated by a permit 
fee system, but recent legislative attempts to institute such a system 
have proved unsuccessful. Wyoming citizens pay to fish, hunt, and 
park--but polluters pay nothing to cover the administrative costs of 
permits that give them the privilege of spilling millions of gallons of 
waste into our surface and ground waters each year.
    Access to Information Barred. Public access to water quality 
related information is frustrated by unreasonable agency policies. In a 
recent example, staff of the Powder River Basin Resource Council 
requested from the Wyoming Department of Environmental Quality a copy 
of a draft NPDES permit for produced water associated with coal bed 
methane development in the Powder River Basin. They were advised that 
in order to review the proposed permit, they would have to travel to 
the DEQ's main office in Cheyenne, a 6 hour drive from Sheridan. 
Although the information request was made in response to a legal notice 
announcing the availability of the draft permit, the DEQ refused to 
provide photocopies of the permit by mail.
    State-Tribal Relations Suffer. Chronically poor relations between 
the Northern Arapaho and Eastern Shoshone Tribes and the State of 
Wyoming continue to undermine efforts to achieve the goals of the Clean 
Water Act. For example, when Tribal representatives announced last year 
their intent to develop water quality standards for surface waters 
within the Wind River Reservation, Wyoming's then Attorney General 
William Hill fired off a letter opposing their efforts. Despite the 
well established authority to the contrary, the Attorney General 
claimed--without citing any case law--``[a]s a matter of law, the 
Tribes lack the authority to adopt such standards.''
    In conclusion, let me just say that the Wyoming Outdoor Council and 
many of Wyoming's citizens support the goals of the Clean Water Act and 
efforts to achieve those goals, including the Clean Water Action Plan. 
While it certainly won't fix all of Wyoming's problems, it has raised 
public awareness of water quality issues in our State and has made 
available significant new resources, both technical and monetary, for 
watershed restoration and protection efforts.
    I would also like to enter into the record, testimony from other 
members of the Clean Water Network on various aspects of the Clean 
Water Action Plan not addressed in my statement.
    Mr. Chairman and members of the committee, thank you, again, for 
the opportunity to be here today.
                                 ______
                                 
  Responses by Dan Heilig to Additional Questions from Senator Chafee
    Question 1. Mr. Heilig, you allege in your testimony that Wyoming 
delisted 300 water bodies and was unwilling to conduct unified 
watershed assessments out [of] fear that such listings and assessments 
would lead to regulation. Are you saying Wyoming has sufficient data to 
classify water bodies as impaired and refuses to do so, or that fear of 
regulation is preventing Wyoming from adequately monitoring its waters.
    Response. The Wyoming DEQ has ample evidence to support a finding 
of impairment or threat of impairment on many of the 300 segments 
removed for the 1996 Sec. 303(d) list. The information used to compile 
the 1996 list came from a variety of sources including the Wyoming 
Association of Conservation Districts (WACD), United States Geological 
Survey (USGS), United States Fish and Wildlife Service (USERS), Wyoming 
Game and Fish Department (WGFD), Wyoming Department of Environmental 
Quality (DEQ), National Park Service, Bureau of Land Management (BLM) 
and USDA Forest Service. There is little fear that monitoring may lead 
to regulation since the recently enacted Senate bill 27 sets such a 
high threshold (by requiring chemical, physical and biological 
monitoring data) for documenting water quality impairment.

    Question 2. Federal law requires the calculation of TMDLs, but 
implementation is left to the States.
    2a. Assuming that further monitoring confirms water body 
impairments and TMDLs are calculated, do you foresee the State taking 
action to meet the load and waste load allocations established by the 
TMDLs?
    Response. Wyoming DEQ has begun to calculate daily waste load 
allocations for incorporation into NPDES permits. The State is much 
more reluctant' however' to establish TMDLs for sediments, nutrients 
other pollutants caused by non-point sources, preferring instead to 
address this pervasive form of pollution through voluntary 
implementation of best management practices.

    Question 2b. Does Wyoming State law contain regulatory responses 
that could be triggered by the calculation of TMDLs?
    Response. Yes. Section 35-11-301 of the Wyoming Environmental 
Quality Act (WEQA) prohibits the ``discharge of any pollution or wastes 
into the waters of the State'' or ``alter[ation] of the physical, 
chemical, radiological, biological or bacteriological properties of any 
waters of the State'' without a permit, WEQA Section 302 directs the 
DEQ to adopt rules, regulations, standards and permits that prescribe 
among other things: water quality standards specifying the maximum 
short-term and long-term concentrations of pollution, effluent 
standards and limitations specifying the maximum amounts or 
concentrations of pollution and wastes; and standards for the issuance 
of permits under section 402 of the Clean Water Act. Thus, under the 
WEQA, the Wyoming DEQ could establish and enforce TMDLs on any surface 
water where technology-based effluent limits, alone, are not adequate 
to implement any applicable water quality standard.

    Question 3: As you stated in your testimony, a 1997 audit by EPA 
indicated that the Agency was providing insufficient technical support 
for the Wyoming section 319 program.
    3a. Do you feel that the Action Plan remedies this problem?
    Response. Although the Action Plan provides significant increases 
in incremental section 319 funding to Wyoming, EPA's capacity to 
oversee the State's use of the money has not kept pace. For example, 
inadequate travel budgets and staff shortages prevent EPA from 
maintaining a presence in Wyoming necessary to ensure appropriate 
oversight and enforcement of the NPS program. The Action Plan does not 
appear to directly address this problem.

    Question 3b. With respect to the development of TMDLs, do you feel 
that EPA is providing sufficient technical and financial support to the 
States?
    Response. In Wyoming we often hear the expression; ``You can lead a 
horse to water but you can't make him drink.'' Although EPA has made 
technical and financial resources available to Wyoming to support its 
fledgling TMDL program, the Wyoming DEQ continues to question the need 
for TMDLs by arguing that segments identifies as impaired in the 1996 
Sec. 303(d) list were listed improperly, on the basis of inaccurate, 
incomplete or erroneous information. We believe EPA must improve its 
oversight of Wyoming's program, and resist approving TMDLs that lack 
the basic statutory elements such as a margin of safety and maximum 
daily loads.
                                 ______
                                 
 Statement of Paul Schwartz, Programs Director for Clean Water Action 
                 and Member of the Clean Water Network
    Clean Water Action is pleased that the Administration with the 
support of Congress is using the Clean Water Action Plan to begin a 
long overdue process of coordinating and targeting limited funds in a 
rationalized manner. The mere act of many Agencies and Departments and 
Divisions sitting down together to coordinate overlapping or 
disconnected programs and management values may lead in the end to 
great cost savings and economies of scale. Also, we are pleased that 
both Congress and the Administration are putting more dollars into some 
of the most successful and best used programs to achieve improvements 
in clean water such as CREP and EQUIP.
    A number of issues, however, disturb us about the direction of the 
plan:
    <bullet> Many necessary programs are severely underfunded. We 
commend that Unified Watershed Assessments were ``done'' by all 50 
States, 5 territories, DC and 18 tribes, but note that the overall 
quality of these important plans is less than meets the eye. More 
funding for actual on the ground monitoring and surveys, which includes 
real public participation is needed. Also, application of GIS and the 
best data sets available to the Assessments needs to be done more 
uniformly and this will take more funding going out to the States. 
Though the UAW targets and priorities restoration dollars, more dollars 
need to be made available for restoration and antidegradation 
activities. Polluted runoff has been identified as a huge clean water 
priority, accounting for about 60 percent of the problems in assessed 
waters, yet the $200 million in grants provided by EPA is but the 
proverbial drop in the bucket compared to the money infrastructure 
commands. Also, allowable funding of non-point and pollution prevention 
problems by the States under their SRF programs are horribly 
underutilized. The coastal runoff control program, one of the few 
enforceable programs in our pollution fighting kit bags is also 
underfunded. Finally, the CSO and SSO problems faced by our communities 
around the country are not well address either in the current plan or 
in the Administration's future request.
    <bullet> Given the overall clean and safe water funding ``gap'' 
using limited SRF funds as grants may be problematic--EPA has publicly 
recognized that a huge funding gap exists for dealing with existing 
clean and safe water needs. Some estimates put the combined funding gap 
at well in excess of $200 billion over the next 20 years. The two State 
SRF accounts will obligate some $200 billion over the next 20 years so 
there needs to be a doubling of the rate of spending just to keep up 
with current needs let alone plan for new regulations to address 
problems that are looming on the horizon. Without expanded funding, 
however, we oppose converting a full 20 percent of the State SRF into 
grants, believing that will represent a fundamental weakening of the 
integrity of the SRF accounts that are doing so much good. Instead, we 
support full funding of the SRF accounts (especially a restoration of 
the $500 million cut to the Clean Water SRF proposed by the 
Administration), more Federal share and a polluters pay funding option.
    <bullet> Mechanisms to assure effective public participation in 
setting funding priorities are lacking. Taxpayers and ratepayers are 
not effectively at the table when funding priorities are being made 
either at the Federal or State level. Public interest and citizen 
groups are poorly represented if at all in stakeholder meeting and 
public processes dealing with funding. Two good examples of this are 
the effective ``barring'' of citizens from the States' CWSRF & DWSRF 
Intended Use Plan (IUP) process. Big water utilities, favored elected 
officials and municipalities, and engineering consultants dominate the 
process and politics; drinking water consumers, recreational water 
users, and those who make their living off the water get left out. With 
all the Federal funds flowing into the SERF and PWSS accounts, States 
should be required to set-aside a small amount of money to find and get 
to the table ordinary people and their representative organizations. 
This should be true for the upcoming ``Watershed Forums'' as well.
    <bullet> Performance criteria lack teeth--often giving way to bean-
counting substitutes--leaving us with the impression that some of the 
dollars are unmandated funds that will go down the proverbial rathole 
and are not accountable. Much of the work done under the banner of the 
319 program has not resulted in real improvements in water quality. 
Lack of an enforceable backstop is at the center of the problem. We do 
not support programs that just throw money at the problem but expect 
results for our tax dollars. Good baseline monitoring data along with a 
strong TMDL program will crate the type of assessment and water quality 
goal setting that may result in real improvements in getting to 
fishable, swimable and drinkable waters.
                                 ______
                                 
Statement of Jacqueline Savitz, Executive Director, The Coast Alliance 
                 and Member of the Clean Water Network
    I would like to submit this testimony on the Clean Water Action 
Plan to the committee on behalf of the Coast Alliance and the Clean 
Water Network.
                             coastal runoff
    With regard to Coastal Protection Issues, the Clean Water Action 
Plan hones right in on the primary remaining source of water pollution, 
polluted runoff, and reaffirms the Administration's commitment to 
addressing runoff through existing programs. In our recent report, 
Pointless Pollution, Coast Alliance discusses the plethora of problems 
being caused on every coast, (and even in some non-coastal States) by 
this diffuse but ubiquitous pollution problem.
    Whether the source is agricultural runoff, sloppy forestry 
practices or uncontrolled urban runoff, control over the continued 
onslaught from polluted runoff is long overdue. Besides contributing to 
the closure of nearly three million acres of the Nation's shellfish 
beds, polluted runoff is also credited with degrading at least a third 
of surveyed rivers and streams, and causing a ``Dead Zone'' covering 
more than 6,000 square miles in the Gulf of Mexico. Polluted runoff 
also promoted the toxic Pfiesteria outbreaks on the Mid-Atlantic Coast, 
made swimmers sick on beaches in California, and clogged important 
shipping channels in the Great Lakes and elsewhere.
    The most common source of pollution, runoff comes from thousands of 
diffuse sources, such as farms, logging areas, new and existing 
developments, natural waters, marinas, septic systems, dams and other 
sources. Together they create a serious and ubiquitous water pollution 
problem.
    The efforts described in the CWAP are not unpopular, they include 
research, monitoring, education, partnering, and technical assistance. 
In addition the Plan touts efforts to help States in a number of ways 
that will address runoff. There is discussion of using existing 
enforcement authorities to help States reduce pollutant discharges that 
are contributing to harmful algae blooms. Support to States to 
implement the Coastal Non-Point Pollution Control Program (of the 
CZARA) is part of the program, and in the CWAP the administration 
reiterates its commitment to this very important problem. Further, the 
Plan commits to bring closure to the State planning process so that 
States investments in planning can be brought to fruition.
    These efforts to support and move forward with the Coastal Non-
Point Pollution Control Program are the least we must do if we are to 
address beach contamination, Dead Zones, Harmful Algae Blooms, 
sedimentation in ports and harbors, and other results of polluted 
runoff gone awry. In truth, much stronger programs may be needed. 
However, the Coastal Non-Point Program must be given a chance to work.
    We need your help to secure funding for the States to make 
solutions to these problems a reality. Historically, the Coastal Non-
Point Program has not been adequately funded. The States, that are 
required to develop and implement these programs, need more financial 
support from Congress. Last year Congress appropriated $8 million for 
the program, one million of which is now in jeopardy of being 
rescinded. This year, Congress has the opportunity to fold the Coastal 
Non-Point Program into the Coastal Zone Management Act Reauthorization, 
which would give it a home, and make it a stronger candidate for 
limited Federal funding. Language to do this is currently included in a 
House Bill, and will hopefully be included in a Senate Bill to 
reauthorize the Coastal Zone Act as well. We look forward to working 
with all of you on this issue.
                         contaminated sediments
    Also in the spirit of cooperation, the Clean Water Action Plan 
contains an action item on contaminated sediments. Contaminated 
underwater muds exist in nearly every major watershed in the country. 
They are major contributors to contaminated fish, which are also all 
too common, and they create havoc when harbors require maintenance 
dredging or deepening. Here the CWAP commits to funding five 
demonstration projects to move forward on the State of the art for 
decontaminating these materials. This is an important step. Additional 
funding to clean up these underwater toxic sites as was sought by 
Senator Levin in the past, is critical to insuring Americans have 
access to clean safe seafood and fish.
    We need your help to ensure funding is available for cleanups. We 
also need your help to minimize the amount of sediments that are 
dredged for harbor maintenance and deepening. One way to minimize this 
is to minimize Federal subsidies for dredging. The House WRDA bill 
calls for increased subsidies for deep dredging, the Senate version 
does not. We need your help to ensure that the conference reverts to 
the Senate language on this issue.
    Thank you for considering my testimony.
                                 ______
                                 
 Statement of Mary Wells, Policy Analyst, Earth Justice Legal Defense 
               Fund and Member of the Clean Water Network
    The Clean Water Network applauds the Clean Water Action Plan's 
commendable goal of a 100,000 acre net gain in wetlands by the year 
2005. Natural wetlands are important filters of surface and ground 
water, they help retain flood waters and provide habitat for birds and 
wildlife. Unfortunately, the Administration has not demonstrated yet a 
serious commitment to achieving their previous wetlands goal of ``no 
net loss,'' let alone the new net gain goal. The most recent Draft 
Report to Congress on Status and Trends of Wetlands by the U.S. Fish 
and Wildlife Service found that from 1985 to 1995 an average of 117,000 
acres of wetlands were lost each year. Despite this alarming figure, 
the Administration continues to promote certain policies and projects 
that destroy more wetlands than they protect.
    Regarding policy, the Administration needs to replace the much 
abused Nationwide Permit 26 with permits that truly cause only minimal 
impacts and close any remaining loopholes in the program. In addition, 
the Administration also should end the current widespread destruction 
of wetlands due to the ``Tulloch rule'' court decision and act quickly 
to clarify the definition of ``discharge of dredged material'' under 
the ``Tulloch rule.'' Finally, the Administration should more carefully 
scrutinize Federal projects which result in wetland destruction. For 
example, three current projects in Mississippi--the Yazoo basin pumps, 
the Big Sunflower dredging, and the St. John's Bayou project--together 
could destroy up to 200,000 acres of wetlands. These expensive Federal 
projects deserve an interagency review to limit the amount of wetland 
destruction at the expense of Federal taxpayers. The Administration's 
current policies and practices regarding wetlands must be changed for 
the Clean Water Action Plan's goal of a 100,000-acre gain in wetlands 
ever to be realized. In addition, Congress must fully fund the 
restoration programs outlined in the Clean Water Action Plan if we are 
to reach the laudable goal of achieving a net gain of wetlands in the 
future.
                                 ______
                                 
Statement of Robbin Marks, Senior Policy Analyst for Natural Resources 
         Defense Council and Member of the Clean Water Network
    These comments are submitted on behalf of the Natural Resources 
Defense Council Inc., (NRDC), a national environmental organization 
with more than 400,000 members residing in all 50 States. NRDC's 
institutional purposes include the protection of water quality and NRDC 
has long been active in efforts to reduce polluted runoff, control 
point source discharges and promote sustainable agriculture.
the need for a comprehensive clean water act approach for factory farms
    The Clean Water Act (CWA), enacted in 1972, works to help solve 
water pollution problems that are national in scope. Pollution from 
large scale animal confinement operations is a national problem, 
affecting more than half of the States in the United States. Pollutants 
gushing into waterways or wafting airborne do not stop at State 
boundaries. Moreover, the current State specific approach has led to 
patchwork of State livestock programs, some regulatory, some not; and 
pollution shopping by industry to seek out the States with the weakest 
controls.
    As a key component of the President's Clean Water Action Plan, this 
spring the U.S. Environmental Protection Agency (EPA) and the U.S. 
Department of Agriculture (USDA) gave long-overdue recognition to the 
problems of factory farm pollution in their ``Unified National Strategy 
for Animal Feeding Operations'' (referred to here as the EPA-USDA 
Strategy). In addition to embracing enhanced voluntary approaches for 
the vast majority of livestock operations, the plan calls for the 
implementation of a national Clean Water Act program.
       the strategy implements existing clean water act authority
    More than 20 years ago, the Clean Water Act identified feedlots as 
point sources of pollution (and thus required to obtain National 
Pollution Discharge Elimination System (NPDES) permits), but very 
little has happened since then. Focusing its attention on more 
traditional point sources of pollution, EPA all but ignored factory 
farm pollution for decades. In 1992, the General Accounting Office 
estimated that 6,600 livestock facilities were large enough to qualify 
for Clean Water Act permits, but less than 2,000 of those facilities 
had obtained permits.\1\ Today, EPA estimates that there are at least 
10,000 large scale animal feeding facilities, and several thousand have 
not obtained NPDES permits.
---------------------------------------------------------------------------
    \1\ U.S. General Accounting Office, Briefing Report to the 
Committee on Agriculture, Nutrition and Forestry, U.S. Senate, Animal 
Agriculture, Information on Waste Management and Water Quality Issues, 
GAO/RCED 95-200BR, Washington, D.C. (1995), pp. 58-61.
---------------------------------------------------------------------------
    A national permitting system for large scale feedlots is not only 
required by the Clean Water Act; it is also needed to create greater 
consistency and protection across the Nation than is offered by the 
current patchwork of State programs. As is currently the case under the 
Clean Water Act, States would be free to adopt more environmentally 
protective standards but could not sink below the ``floor'' of Federal 
technology and permitting standards. While some States now issue 
permits to feedlots under a variety of State laws, only Clean Water Act 
permits provide the consistent environmental protection and procedural 
rights needed to control pollution from confined animal feeding 
operations (CAFOs): (1) Clean Water Act permits are designed to insure 
that water quality standards are attained. State permits are not 
necessarily based on this goal.\2\ (2) Under the Clean Water Act, if a 
nearby water body becomes polluted by feedlots and other industrial 
sources, EPA establishes pollution reduction goals for each 
polluter.\3\ (3) Under the Clean Water Act, citizens have the right to 
bring lawsuits against polluters to enforce the Clean Water Act.\4\
---------------------------------------------------------------------------
    \2\ Clean Water Act, Sections 101(a) and 402.
    \3\ Clean Water Act, Section 303(d).
    \4\ Clean Water Act, Section 505.
---------------------------------------------------------------------------
        epa has clean water act authority to regulate the land 
                         application of manure
     One of the best features of the EPA-USDA Strategy would require 
CAFOs to protect soil and water from pollution through the land 
application of too much manure. Recognition has been growing that 
spreading vast quantities of manure on land can be as much of a 
pollution threat as a leaking manure lagoon. EPA clearly has authority 
under the Clean Water Act to regulate land application within a NPDES 
permit. For example, Concerned Area Residents for the Environment v. 
Southview Farm, 34 F.3d 114 (2d 1994), cert. denied, 115 S.Ct. 1973 
(1995) \5\ held that manure spreaders are point sources. The Clean 
Water Act, 33 U.S.C. Sec. 1362(14) holds that a point source includes 
drainage tiles and ditches from which a pollutant flows.
---------------------------------------------------------------------------
    \5\ Concerned Area Residents for the Environment, et al. vs. 
Southview Farm and Richard Popp, 834 F. Supp. 1410 (W.D.N.Y. 1993), 
Defendant's Motion for Judgment as a Matter of Law, 834 F. Supp. 1422 
(Cir. 2, 1993), (rev'd 34 F. 3d 114 (2d Cir. 1994) (reversing 
defendant's motion)), cert. denied, 115 S. Ct. 1793 (1995).
---------------------------------------------------------------------------
    While the EPA-USDA Strategy clearly asserts that Clean Water Act 
permits for CAFOs must include proper land application of manure, the 
Strategy is unclear about what the specific requirements will be. 
Additionally, it appears that CAFOs will have years to develop 
Comprehensive Nutrient Management Plans (CNMPs) and several years 
thereafter to implement them, so the benefits of these plans will not 
occur for years to come. Finally, although the CNMPs are recommended as 
core features of Clean Water Act permits, for facilities issued general 
permits, the public is given no say on their terms. It appears that the 
plans will only be available to the public after they have been 
approved by USDA and EPA.
 epa should not issue clean water act permits to any new and expanding 
    large scale confinement operations until standards are upgraded
    The current Clean Water Act standards under which factory farms 
operate are woefully inadequate. For example, the technology standards 
allow factory farms to build football-field sized, open-air manure 
cesspools. These manure lagoons have burst, leaked and overflowed--
polluting waterways across the country.
    Under its new strategy, EPA is proposing to issue hundreds of 
permits to new and expanding large scale animal confinement operations. 
But these permits would be issued under the same antiquated technology 
rules that have allowed many CAFOs to pollute.
    EPA should impose a moratorium on permits for new and expanding 
animal factories that currently qualify as CAFOs. This moratorium 
should stand until EPA upgrades its standards regarding animal waste 
technology, and until EPA tightens its rules to insure comprehensively 
that all large scale animal confinement operations of all animal types 
are required to obtain a permits. This time-out would also allow States 
to assess the water quality effects of existing CAFOs before new 
operations are built or existing operations are expanded. The wisdom of 
a temporary time-out has been recognized by States all over the country 
at one time or another, including North Carolina, Kentucky, 
Mississippi, Missouri, Georgia and Oklahoma. Unfortunately, the EPA-
USDA Strategy does not include a moratorium.
 local citizens should be allowed to participate fully in the decision 
 as to whether a factory farm is allowed to locate in their community. 
and citizens should have the opportunity to help decide what pollution 
controls are needed on factory farms to protect their communities. only 
individual site-specific permits can accomplish this followed by strict 
 water quality monitoring by livestock operators and tough enforcement 
                   against clean water act violators.
    Despite the risk that CAFOs pose to water supplies and to public 
health, citizens in most States do not have the right to be notified 
before such a facility moves into their community. Once citizens are 
faced with the prospect of a huge animal factory that will generate 
more waste than several of their small towns put together, there is 
rarely anything they can do to stop the facility from operating. And 
once an animal factory has been established, there is little citizens 
can do to ensure stricter pollution controls. The lack of citizen 
participation in basic decisions about how to protect their communities 
from huge potential polluters is a basic feature of the general permit, 
which is the type of permit most commonly employed by States.
    Rather than allow general permits for factory farms, the EPA should 
require that all factory farms be subject to more stringent individual 
permits. Individual permits require public notice before a factory farm 
can be permitted, set site-specific permit terms and may require an on-
site evaluation prior to permit issuance. Site-specific permit terms 
might, for example, require the siting of a manure storage facility in 
the least ecologically vulnerable location on a property, despite the 
owner's plans to put it elsewhere. An individual permitting system 
might have prevented the location of a controversial factory farm 
within close proximity to a wildlife refuge in Mississippi.
    Unfortunately, the EPA-USDA Draft Strategy relies upon the use of 
general permits for many CAFOs, especially for existing operations. The 
strategy identifies a list of certain types of factory farms that 
should receive individual permits, such as new and significantly 
expanding operations and operations known to pollute or likely to 
pollute. This is a good starting point but not enough. All factory 
farms should receive individual permits. If a break or leak from a 
manure storage facility occurs or manure is over applied on the land, 
drinking water wells can become contaminated, fish can be killed and 
public health can be threatened. The potential consequences are simply 
too grave to authorize fast track permits for CAFOs of more than 1,000 
animal units.
    EPA has recognized the limitations of general permits in addressing 
specific pollutant concerns in its call in the Strategy for watershed-
based permits, but especially in a watershed-based context, individual 
permits make sense because they impose site-specific conditions.
    Finally, Clean Water Act permits for factory farms must be backed 
up with meaningful compliance. Most industries that are issued Clean 
Water Act permits must monitor receiving waters and periodically report 
the results to EPA. However, factory farms, which are not currently 
required to follow these water-testing requirements, should be required 
to follow them. A strict regimen of enforcement is needed, such as 
periodic and unannounced inspections and penalties for violations that 
will ensure compliance.
 epa should ban the use of open-air manure cesspools for factory farms 
 and their spraying of manure and urine into the air. environmentally 
             friendly farming systems should be encouraged.
    Factory farms generate so much manure and urine in one place that, 
unlike livestock operations on a smaller scale, their manure storage 
and land application practices are often more a matter of waste 
disposal than of fertilizing crops. These systems have resulted in 
enormous pollution problems. Recently, NRDC and the Clean Water Network 
published a report entitled, America's Animal Factories: How States 
Fail to Prevent Pollution from Livestock Waste. This report documented 
pollution problems across America attributed to the lagoon and 
sprayfield system including:
    <bullet> A North Carolina study of nearly 1,600 wells adjacent to 
hog and poultry operations showed that 10 percent of the wells tested 
were contaminated with nitrates above the drinking water standard, and 
34 percent were contaminated with some level of nitrates.\6\
---------------------------------------------------------------------------
    \6\ Memorandum from Dr. Kenneth Rudo, toxicologist to Dr. Dennis 
McBride, State Health Director, North Carolina Department of Health 
(August 1998).
---------------------------------------------------------------------------
    <bullet> In Indiana, animal feedlots were responsible for 2,391 
spills of manure in 1997.\7\
---------------------------------------------------------------------------
    \7\ Kyle Niederpruem, ``Short Staffing Makes Policing Polluters 
Harder,'' Indianapolis Star (April 21, 1998).
---------------------------------------------------------------------------
    <bullet> Sixty three percent of Missouri's CAFOs (over 1,000 animal 
units) handling wet manure that were inspected between 1990 to 1994 by 
the State's Department of Natural Resources had illegally discharged 
animal waste.\8\
---------------------------------------------------------------------------
    \8\ Missouri Department of Natural Resources, Press Release, DNR 
Takes Action on Mega Farm Hog Waste Releases, Division of Environmental 
Quality (October 20, 1995).
---------------------------------------------------------------------------
    <bullet> During the past 4 years in Iowa, there were 51 manure 
spills into the State's streams, rivers and lakes that were serious 
enough for financial penalties, resulting in more than 1.1 million fish 
being killed. Overflowing manure storage lagoons were the source of the 
biggest spills, while application of liquid manure onto fields caused 
the most frequent spills.\9\
---------------------------------------------------------------------------
    \9\ Department of Natural Resources Database, Iowa Department of 
Natural Resources, ``Prohibited Discharges at Iowa Livestock Operations 
Resulting in Monetary Penalties and/or Restitution for Fish Kill Being 
Proposed, Collected or Pending--1992 to Present'' (November 24, 1999).
---------------------------------------------------------------------------
    Open air lagoons and aerial spraying by factory farms should be 
banned. They should be replaced with technologies that do not rely upon 
open air storage of vast quantities of liquid manure, or that store 
manure in a drier form. Additionally, environmentally friendly and more 
humane farming systems should be encouraged, including composting and 
pasture systems. These systems, as well as an innovative system in 
which hogs are raised on straw, have been proven to work in Europe and 
in the United States. North Carolina passed legislation that required 
the State Department of Agriculture to develop a plan to phase out 
lagoons and sprayfields, but the Department's plan has failed to comply 
with this mandate. The EPA-USDA Strategy barely mentions more 
sustainable approaches. The strategy appears to support the continued 
use of liquid manure systems in the short-term, and while alternative 
approaches will be studied during the process of considering new 
effluent guidelines, the Strategy does not commit to banning lagoons 
and sprayfields in the long-term.
 epa should ensure that the nation's waters are protected from poultry 
manure. chicken factories should be regulated under the clean water act 
             in the same fashion as other animal operations
    According to the U.S. General Accounting Office, close to 2,000 
poultry operations were of sufficient size to warrant a permit in 1992, 
but only 39 operations had them.\10\ The historic rationale that has 
been used by EPA for exempting these operations was that poultry litter 
is dry. Yet even dry manure, when applied in excess quantities to the 
land, can create polluted runoff. Poultry factory farms should be 
issued Clean Water Act permits, whether the manure generated is dry or 
wet. In the initial round of permits under the EPA-USDA Strategy, it is 
not clear whether all dry litter factory farms will be regulated in the 
same fashion as other animal operations.
---------------------------------------------------------------------------
    \10\ U.S. General Accounting Office, Briefing Report to the 
Committee on Agriculture, Nutrition and Forestry, U.S. Senate, Animal 
agriculture, Information on Waste Management and Water Quality Issues, 
GAO/RCED 95-200BR, Washington, D.C. (1995), pp. 58-61.
---------------------------------------------------------------------------
there is a need to ensure that corporations that own livestock animals 
share responsibility for paying the costs of waste disposal and cleanup
    Large corporations often contract with smaller producers to raise 
their chickens and swine but do not take responsibility for disposing 
of the animals' waste. In many cases, farmers raising animals under 
contract are forced to become polluters because the major food 
corporations that own the animals will not provide enough acreage to 
apply wastes properly. As a result, small contract growers are often 
forced to over-apply manure to the fields that they have available. To 
its credit, the EPA-USDA Strategy requires that the corporations that 
exercise substantial control in the operations are co-permittees along 
with the producers who raise the animals.
additional funding is needed, but it should not subsidize factory farms
    To its credit, the Clean Water Action plan recommends additional 
Clean Water Act funding. However, we strongly oppose the use of Section 
319 funds, State revolving loan funds or Environmental Quality 
Incentive Program funds to assist CAFOs with meeting the costs of 
environmental compliance. By failing to address the true environmental 
costs of their operations, CAFOs have been subsidized for decades. 
These operations are well financed and have the resources to pay for 
environmental improvements. Scarce public dollars should be directed 
instead, to small and moderate sized animal feeding operations, and to 
research and facilitate the transfer of sustainable livestock 
practices.
                                 ______
                                 
    Statement of Ross Wilson, Vice President, Texas Cattle Feeders 
  Association, on behalf of the National Cattlemen's Beef Association
    Chairman Chafee, Mr. Baucus, members of the committee, good morning 
and thank you for inviting The Texas Cattle Feeders Association (TCFA) 
to be part of this hearing looking into the President's Clean Water 
Action Plan. TCFA represents cattle feeders in Texas, Oklahoma and New 
Mexico, an area that feeds 30 percent of the Nation's fed cattle. We 
are a State Affiliate of the National Cattlemen's Beef Association 
(NCBA). Mr. Chairman, I am Vice President of TCFA and serve on the 
Clean Water Working Group for NCBA, which has been working closely with 
EPA and USDA on all of the regulations and policies affecting the 
cattle industry. We in the cattle industry appreciate this opportunity 
to provide our insights on the Clean Water Action Plan and specifically 
the USDA/EPA Unified Strategy for Animal Feeding Operations.
    Cattle feeders and family ranchers, play an integral role in 
protecting the environment. TCFA and many other NCBA State affiliates 
have implemented proactive programs to protect the environment. Some 
examples of TCFA's efforts include (1) 25 years of environmental 
research with universities to determine proper land application rates 
for manure and wastewater, groundwater quality testing and coring of 
lagoons to document liner adequacy; (2) development of the 
Environmental Quality Assurance Program to help feedyards comply with 
regulatory requirements; (3) development of a model Pollution 
Prevention Plan with Texas A&M University, which received a 1994 
Environmental Excellence Award from EPA Region 6; and (4) a TCFA staff 
engineer that works daily with our feedyard members.
    Our industry is dependent upon the land and water and if we are to 
pass this onto future generations it is crucial that both are kept in 
excellent condition. However, not only is it important to protect the 
environment but in order to be successful as producers and as a Country 
we must maintain a strong livestock industry--so essential to the 
Nation's economic stability, the viability of many rural communities, 
and the sustainability of a healthful and high quality food supply for 
the American people.
    Mr. Chairman, our industry welcomes the opportunity to work with 
EPA and USDA on determining the best solutions to any potential 
problems that may exist. NCBA has worked closely with EPA to educate 
them on the cattle industry. TCFA took the EPA officials rewriting the 
effluent limitation guidelines on a tour of feedlots in Texas and 
Oklahoma and NCBA has been assisting them throughout the country. We 
welcome these opportunities because we want regulations and policy 
written on well-founded facts and data.
    The cattle feeding segment of the beef industry has been regulated 
for more than 20 years. The Concentrated Animal Feeding Operations are 
held to a ``zero-discharge'' standard. Thus, we are not allowed to 
discharge into the waters of the United States, except in the 25-year 
24-hour storm event. The implementation of this requirement has not 
been totally consistent from State to State but nor has any other 
aspect of the Clean Water Act. Forty-three States have been delegated 
the authority to implement this program and have done so with great 
success. Texas, Kansas and Nebraska account for nearly 70 percent of 
all the beef cattle currently being fed. Each State has a required 
State permit program for CAFOs adhering to Federal requirements, but 
retain the right to impose more stringent standards if the appropriate 
State authorities determine it is warranted. Each State has a manure 
management plan requirement, as well as restrictions for the land 
application of the natural organic fertilizer on land owned or 
controlled by the CAFO. I mention these three States because they are 
successful examples of Congress's intent when writing the Clean Water 
Act, to give the States the autonomy and authority to protect the 
waters of the United States.
    The USDA/EPA Unified Strategy for Animal Feeding Operations has a 
broad goal and extremely ambitious timetable to minimize water quality 
and public impacts from Animal Feeding Operations (AFOs). We agree with 
this goal and as the primary stewards of the land, we attempt to 
accomplish this everyday. Unfortunately, due to some politically driven 
messages, the average urban citizen has absolutely no idea about the 
efforts and dollars already spent by cattlemen to protect the 
environment. Citizens are inundated with data that is lacking in 
completeness and/or is so dated it is no longer considered accurate. 
The U.S. Geological Survey (USGS) in their 1993 scientific assessment 
of nation water-quality trends stated that the National Water Quality 
Inventory (State 305(b) reports) is so severely flawed and 
scientifically invalid that it could not be used to summarize water 
quality conditions and trends.
    The Clean Water Action Plan makes enormous assumptions and 
accusations based on this very data. It bases its conclusions on stream 
data that represents only 19 percent of the rivers and streams in the 
United States and only 40 percent of the lakes. Even with such a 
limited amount of data, it appears that the Administration is able to 
determine the source of all the pollution and is ready to go down a 
regulatory path that will put numerous livestock producers out of 
business and cost hundreds of millions if not billions of dollars. I do 
not want you to think the cattle industry does not recognize in some 
places there are areas of concern that need to be addressed. However, 
we ask that when addressing those problem areas that EPA use sound 
science, base their decisions on accurate and complete data, and 
consider economic achievability and impacts in selecting technologies 
and implementation schedules.
    At this point I would like to address some general concerns we have 
with the Unified Strategy for Animal Feeding Operations.
    As the title states this is a Strategy for ``Animal'' feeding 
operations and thus applies to all livestock. The problem with this 
``one-size-fits-all'' approach is that the various livestock operations 
are run with extremely different management practices. Pork, poultry 
and cattle are produced differently from the beginning of the process 
all the way to the end. As I am sure all of you know, the cattle 
industry involves grazing operations and feeding operations of all 
sizes. The Strategy fails to recognize these key management 
differences. For example, the Strategy mentions storing dry manure in 
production buildings or otherwise covering the manure from 
precipitation. This may work for an indoor facility but anyone that has 
seen a cattle feedlot would quickly recognize this is practically and 
economically impossible, due to the numerous acres of the operation. 
Indoor, covered storage has little or no environmental benefit when 
runoff is collected and the site does not produce any leaching. But 
even more importantly, from an environmental perspective, we believe 
our industry is achieving the goals of the Clean Water Act without EPA 
dictating every specific requirement.
    Just like the Strategy is a ``one-size-fits-all'' or livestock the 
same approach was taken when considering regional landscape and climate 
differences. The Strategy fails to take into account the regional 
climate, hydrological and topographic conditions of an operation. Mr. 
Chairman, we have some cattle feedlots that are located 10 miles from 
surface water and are located on a 300-foot deep ground water table, 
while others may be 400 yards from a stream and over a shallow, 20-foot 
ground water table. These two operations are clearly different in their 
management practices due to the various risk factors, however in this 
Strategy they are treated the same. This does not make any sense, 
especially if the goal of the Strategy is to protect the surface waters 
of the United States. The Strategy must recognize regional differences, 
especially when some of the key factors in determining risk include 
rainfall and soil type.
    This leads into the next area of concern with the Unified Strategy 
and that is the assumption that somehow the size of the operations 
equates with the amount of environmental risk. As stated above, cattle 
operations are located in a wide range of climates and landscapes. In 
some cases a 2000 head feed yard may have a greater potential to harm 
the environment than a 70,000 head feed yard. In reality, it all 
depends on location, design and management practices. However, the 
Strategy does not recognize this and basically states that no matter 
where you are located nor how arid or moist of a climate you are in, 
the key indicator as to the potential harm to the environment, is the 
number of cattle in that feed lot. We do not interpret the Clean Water 
Act to make determinations on size with no other considerations. States 
need to be provided with statutes and regulations that have flexibility 
so as to avoid these very rigid ``one-size-fits-all'' demands. We would 
encourage EPA to take environmental risk into account when considering 
who should be permitted and the type of design and management practices 
needed, rather than arbitrary numbers.
    The size of a cattle feedyard is also used when EPA determines if 
an operator should have a general permit or individual permit. In Texas 
we have been under a rigorous general permit that I think most would 
say has been extremely successful. It covers all aspects of the 
operations and in my eyes would be determined to be a ``functionally 
equivalent'' (to use terms from the Strategy) NPDES program. However, 
after many years of success Region 6 EPA has come back and said 
exceptionally large operations may need to be placed under an 
individual permit. This determination is made purely on size and does 
not look at the potential risk to the environment based on site-
specific conditions.
    Mr. Chairman, this is exactly what the Strategy is proposing, in 
that no matter how successful you may have been under a general permit, 
EPA's position is that due to your size you should have an individual 
permit--no other considerations, just size. This once again seems to 
defy logic when our goal is to protect the environment, not put overly 
burdensome regulations on large operations based solely on an arbitrary 
number.
    On the other end of the spectrum is the discussion on watershed 
permits for clusters of feedlots in an impaired watershed. EPA removed 
from the Draft Strategy the portion stating that merely by your 
location in an impaired watershed you would need a permit. However, the 
final Strategy does call for watershed permits where CAFOs, smaller 
than 1000 head, are located in a watershed that is impaired due to the 
aggregate of these operations. It is our opinion that there needs to be 
scientifically-based, site-specific determination that each one of the 
AFOs in the watershed, that are required to get a permit, are proven to 
be a source of the impairment. Otherwise this is merely an arbitrary 
determination based on nothing but location. This is extremely 
concerning when we know many States have determined waters to be 
impaired purely on visual data and no scientific testing.
    The Strategy calls for Comprehensive Nutrient Management Plans 
(CNMPs) for all AFOs by 2009. USDA and EPA stated that there would be 
flexibility as to what is included in a CNMP, however it is our 
impression that all operators will have the same basic requirements. 
One of those that is mentioned is feed management. While EPA has backed 
off on dictating feed management, it is still included in the strategy 
and there is a concern that down the road there will be mandatory feed 
requirements in the permits. As many of you know, feeding practices 
vary regionally and even seasonally and the goal is efficiency and 
productivity. For example, in Idaho many of the lots feed potato by-
products and even feed french fries that are rejected from fast food 
restaurants. These examples of variations in feed would make it 
extremely difficult to regulate and should not be addressed under the 
Clean Water Act.
    A second area of great concern in the CNMP is the discussion on 
land application of manure. This is an extremely important issue to the 
cattlemen and deserves great attention. At the beginning of this 
discussion land application of manure must be placed in two categories: 
(1) land application on the land owned or operated by the CAFO operator 
and (2) offsite land application. In Texas, the manure from feedlots is 
sold to third party contract haulers who then sell to farmers the 
product and service of applying the manure on their land. Texas permits 
require record keeping which includes: name of the contract hauler, 
amount of manure, and occasional nutrient testing. It is our concern 
that EPA would propose to hold the CAFO operator liable for off-site 
land application. To hold the operator liable for a product that has 
been sold and taken miles away from the CAFO would not only be 
extremely burdensome and costly, but may exceed the jurisdiction of the 
Clean Water Act. Farmers purchase manure fertilizer to improve soil 
condition and crop productivity. It would be cost prohibitive and in 
some cases decrease crop productivity for them to apply excess manure 
or commercial fertilizer.
    As we interpret the Clean Water Act, the agriculture stormwater 
exclusion and the flow return from irrigation place this in the non-
point source category and thus outside of the jurisdiction of the 
Federal regulatory agencies. Mr. Chairman, we ask that EPA respect this 
exclusion.
    The Strategy states in the guidance section that for offsite land 
application the owner operator would be required to do one or more of 
the following:
    <bullet> Provide data on nutrient content to the off-site 
recipient;
    <bullet> Record the recipients of the animal manure and wastewater 
being transferred off-site;
    <bullet> Obtain a certification from the off-site recipient that it 
has a CNMP.
    The third option could potentially destroy the market for manure 
because this would place liability and an enforcement mechanism on the 
CAFO operator to make sure the farmer 10 miles down the road has a 
CNMP. This also seems to only apply to the application of manure; thus 
the farmer next door could over apply commercial fertilizer with no 
regulatory limitations or repercussions. If EPA goes forward with this 
idea and decides to regulate commercial fertilizer then the store or 
plant that sells or manufactures the product would be liable, just as 
the CAFO operator may be held liable for land application of manure.
    Mr. Chairman this gets to the crux of the issue. The market for 
manure versus commercial fertilizer is a very fragile and competitive 
one and if EPA were to put regulatory restrictions on the land 
application of manure we would see many farmers switch to commercial 
fertilizer. This would be extremely detrimental to the CAFO operator 
and to the farmer because he would no longer get the organic material 
and other nutrients that make the use of manure so beneficial. This is 
not an area to regulate without making careful considerations and 
realizing the real world effects. We do not believe that EPA has 
documented problems related to land application of manure fertilizer by 
third-party farmers on land that is not associated with the CAFO.
    As this committee looks to reauthorize the Clean Water Act it is 
clear that the administration will push for EPA regulatory and 
enforcement authority over non-point sources. One of the reasons for 
this is so EPA can regulate land application of manure without any 
jurisdictional impediment. EPA holds a tremendous amount of power in 
this area with their ability to reject State plans and to make grant 
determinations. We feel the States have done an excellent job handling 
the non-point source pollution, with their limited resources. We 
recognize there is still a long way to go. However, as compared to a 
point source, end of the pipe pollution, this is a much more difficult 
area to control and there has been limited economic resources put into 
this program. The data, science and technology, that would allow us to 
clearly identify the sources and magnitude of this pollution and the 
most cost effective way of controlling it is still evolving.
    Mr. Chairman and committee members, we would ask that you let 
States remain in control of non-point sources and let the data evolve 
before allowing EPA to place huge regulatory burdens upon non-point 
sources.
    As I stated at the beginning, the proposed Strategy is an extremely 
aggressive plan with very stringent timetable. The Strategy states 
there are 450,000 AFOs and EPA has set a goal of having every AFO with 
a CNMP by 2009. This would require the help of NRCS, private technical 
assistance and enormous economic resources. EPA would like to have the 
CAFOs designated as priorities (15,000 to 20,000 CAFOs) with permits by 
January of 2000. The models for these permits are to be finalized by 
August 1999 leaving 3 months to issue 20,000 permits. It is these 
unrealistic timetables that concern our industry. However, not only are 
these ambitious timetables of concern but so is the lack of economic 
resources we are seeing for technical support. The administration 
proposed to cut its State Revolving Fund (SRF) funding and the EQIP 
dollars have not been enough to cover the requests. To force AFOs and 
all CAFOs to hire consulting engineers to meet unrealistic deadlines 
adds to the economic hardship that exists today in our industry. This 
proposal almost assures that only the largest operations will survive. 
It seems illogical to propose an extremely cost intensive Strategy and 
then reduce funding.
    Mr. Chairman, the Strategy also outlines incentives for operators 
to participate in the voluntary aspect of the program. The first 
incentive allows AFOs, which were placed in the regulatory program 
because of its location in an impaired waterway or because of a direct 
discharge, to exit after 5 years, if the problems have been corrected. 
This is not incentive because if the problems have been corrected the 
operator would be allowed to exit under current law, absent any 
incentive. The second incentive that allows the good faith operator a 
pass on a one-time discharge is one we would hope exists in all the 
programs EPA administers. Finally, the tax incentives are an excellent 
idea and at some time one will be extremely useful. The only problem is 
that many, if not most cattle producers are currently suffering 
financial losses, and cannot utilize any type of tax incentive at this 
time. We need to work together to put some real incentives in place 
that will truly encourage operators to participate in the voluntary 
program. Mr. Chairman, we would welcome the opportunity to sit down 
with EPA and attempt to draft some real, tangible incentives for 
producers.
    Finally, Mr. Chairman, the cattle industry has a long history of 
working with USDA and there has been a level of trust built between the 
producers and the employees in the field. Secretary Glickman called for 
a ``fire wall'' between the voluntary and regulatory program to protect 
this relationship. While we appreciate the Secretary for his work in 
trying to establish this firewall, the cattle producer would rather see 
this placed in the statute to provide a statutory ``clear wall.''
    Mr. Chairman, many environmental groups pushed for this Strategy. 
They used terms like ``factory farming'' or ``corporate farming'' to 
describe large operations that they feel are damaging the environment. 
Senators on this committee have spoken in recent weeks on the floor, 
asking for protection of the small farmer from the trend to consolidate 
agriculture. Well Mr. Chairman, this Strategy may do just that. It will 
force the small- to medium-size operations to expand or go out of 
business because of increased compliance costs and put much more 
pressure on larger operations to consolidate. On top of that, the issue 
that we should be talking about is not size but environmental 
protection. From an environmental protection perspective, the large 
operators have been regulated, will continue to be regulated and have 
the resources to protect the environment under current laws and 
regulations. Mr. Chairman, members of this committee, we need to ask 
ourselves and those individuals pushing this new Strategy: What is the 
goal?
    Mr. Chairman, members of the committee, let me reiterate the 
cattlemen's position. Our industry plays a crucial role in protecting 
the environment. Our livelihood depends upon the quality of the land 
and water. EPA has been regulating our industry for over 25 years. EPA 
admits that the current regulations have not been fully implemented and 
in some States the regulations have lagged behind others. However, EPA 
must also recognize many States are doing an excellent job and are 
going beyond what EPA requires under its regulations. With that in 
mind, we would recommend that EPA focus on the States that have not 
implemented the existing programs before implementing an entirely new 
Strategy which will place costly and unnecessary regulatory burdens on 
many producers.
    This concludes my testimony. The Texas Cattle Feeders Association 
wishes to thank Chairman Chafee, members of the committee and 
specifically Senator Hutchison for this opportunity to testify. I would 
be happy to answer any questions you or other members of the committee 
may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      National Cattlemen's Beef Association
                                                  January 19, 1999.
Denise C. Coleman,
Program Analyst,
Natural Resources Conservation Service,
Washington, D.C. 20013-2890.

RE: Comment on the Unified National Strategy for Animal Feeding 
    Operations

    The National Cattlemen's Beef Association (NCBA) appreciates the 
opportunity to comment on the Draft Unified National Strategy for 
Animal Feeding Operations, published on September 21, 1998 (63 Fed. 
Reg. 50192) hereinafter referred to as the ``Strategy.'' NCBA 
represents the many cattle feeders and family ranchers, all of who have 
a stake in protecting the environment. But we must also weigh these 
protections against maintaining a strong livestock industry--so 
essential to the nation's economic stability, the viability of many 
rural communities, and the sustainability of a healthful and high 
quality food supply for the American public. We believe that common 
sense, cost effective and affordable principles can be applied to 
livestock production to achieve water quality protection.
    Initiated in 1898, NCBA is the marketing organization and trade 
association for America's one million cattle farmers and ranchers. With 
offices in Denver, Chicago and Washington, D.C., NCBA is a consumer-
focused, producer-directed organization representing the largest 
segment of the nation's food and fiber industry. As representatives of 
family farmers and ranchers with a vested interest in protecting the 
environment, we are pleased to provide the following comments.
                           overview comments
    The Strategy sets out the joint USDA/EPA plans for dealing with so-
called ``polluted runoff'' from animal feeding operations (AFOs) and 
the land application of animal manure and wastewater. The Strategy 
calls for the implementation of comprehensive nutrient management plans 
(CNMPs) by operators of cattle, dairy, hog and poultry facilities to 
minimize adverse environmental impacts. The Strategy also acknowledges 
several regulatory and enforcement initiatives now underway at EPA, and 
describes the relationship between voluntary and regulatory programs.
    The Strategy's broad goal is to minimize water quality and public 
impacts from AFOs. NCBA agrees with this goal and recognizes that 
cattlemen, as one of the primary stewards of many of our nation's 
natural resources, have been successfully striving to accomplish this 
goal for numerous years. However, it is extremely difficult for the 
average citizen to see that effort when confronted with unsupported 
claims of non-point source pollution from animal agriculture. The data 
supporting those claims are lacking in completeness and/or are so dated 
they are no longer considered accurate. The U.S. Geological Survey 
(USGS) in their 1993 scientific assessment of national water-quality 
trends stated that the National Water Quality Inventory (State 305(b) 
reports) is so severely flawed and scientifically invalid that it could 
not be used to summarize water quality conditions and trends. NCBA 
depends on sound scientific and statistical data when analyzing the 
methods in minimizing water quality impacts. Before we require large 
economic investments by animal feeding operations into minimizing water 
quality impacts, we feel accurate data must be collected and analyzed 
to truly determine to what extent an impact exists and will the 
proposed solutions cure this possible impact. Collecting and updating 
this data should be the initial goal of any strategy affecting the 
waters of the United States.
    The Strategy is focused on the livestock industry as a whole. 
However, due to the maturity in the industry, the various species of 
livestock are being produced with extremely different management 
practices. For example, the pork and poultry operations are produced in 
almost entirely enclosed facilities. The cattle industry involves both 
grazing operations that can span over hundreds of acres and feed lots 
that are in open, outdoor penned facilities. The Strategy does not 
acknowledge these management differences. For example, the Strategy 
mentions storing dry manure in production buildings or otherwise 
covering the manure from precipitation. That may work for a pork or 
poultry operation, which is already indoors, however a great majority 
of the beef feedlots store manure in the cattle pens prior to being 
hauled out and land applied. Thus, covering the dry manure would 
involve placing roofs over the entire feedlot. This is economically and 
practically infeasible. It is very difficult to apply a broad-based 
Strategy to the entire livestock industry without some appreciation of 
the many different management practices. NCBA suggests a need to 
recognize in the Strategy the different management practices of the 
livestock species.
    Just like species are managed in a different manner, so are 
operations in the various regions. USDA and EPA must always take into 
consideration the regional climate, hydrological and topographic 
conditions of an operation. As I am sure you are aware, some cattle 
feedlots are on land that may be many miles from surface water and 
located over a 150-foot deep ground water table, while others may be 
200 yards from a stream and over a shallow, 20-foot deep ground water 
table. These two operations are clearly different in their management 
practices due to the various risk factors and potential management 
strategy differences. A national Strategy addressing water quality 
issues must acknowledge these regional differences.
    The Clean Water Act states that CAFOs are point sources and defines 
what a CAFO is in the regulations at 40 C.F.R. 122.23. Through the 
Strategy, it appears that EPA expands the definition of CAFOs to 
include operations that under the regulations are considered AFOs. We 
feel EPA should follow the Administrative Procedures Act and do a 
rulemaking, open for public comment, prior to changing these 
definitions.
    Finally, the Strategy makes various predictions on the number of 
feed lots that will be placed in the regulatory program versus 
participating in a voluntary program. These predictions were made with 
the current definition of AFO and CAFO. However, as I am sure you are 
aware, EPA is rewriting the Effluent Limitations Guidelines (ELG) for 
livestock and in that process looking at the definition for CAFOs. If 
this definition were to change, there would be a dramatic effect on the 
predictions of voluntary versus regulatory participants of this 
national Strategy. The current regulatory definition of a CAFO should 
remain the same for beef cattle and NCBA is conveying this point to the 
EPA officials rewriting the ELG. NCBA is extremely concerned that 
grazing, cow-calf, and temporary winter operations could be pulled into 
the CAFO designation if it were to change. The EPA officials working on 
the ELG will see that these operations do not pose a risk to the 
environment and it would be economically infeasible to regulate these 
operations. The definition of CAFO should be addressed in the ELG 
process and not this Strategy.
                comprehensive nutrient management plans
    The Strategy establishes a performance expectation that all AFOs 
nationwide should develop and implement technically sound, economically 
feasible, and site specific Comprehensive Nutrient Management Plans by 
2008, which should address, at a minimum, feed management, manure 
handling and storage, land application of manure, land management, 
record keeping, risks from pathogens and other pollutants, and include 
a schedule for implementing the management practices identified. The 
National Resources Conservation Service (NRCS) Field Office Technical 
Guide will be the primary technical reference for the development of 
CNMPs for AFOs, and technical assistance will be provided through Soil 
& Water Conservation Districts (SWCDs), Cooperative Extension Service, 
USDA Service Centers and the private sector. NCBA believes some form of 
plan is needed for any operation, however the plan needs to be 
productive and address those operations specific issues. Operators that 
are in different regions or vary in size could and should have 
substantially different plans. Currently many operators have a 
Pollution Prevention Plan in place that covers many if not more issues 
discussed in the CNMP. NCBA would urge EPA and USDA to work to 
incorporate these plans to avoid any duplication.
    The Strategy discusses the need for feed management. NCBA believes 
that feed should be managed by each operator due to the various 
economic and nutritional issues involved with feeding cattle. We are 
clearly aware of the phosphorus and nitrogen balance, however there are 
other issues when it comes to feed such as production and costs. To 
require operators to manage their feed through a permit would be 
extremely onerous and perhaps greatly hinder their profitability. NCBA 
suggests that feed management should not be a requirement of a CNMP, 
especially with the lack of research that has been done on this issue 
from an environmental perspective.
    A major portion of the CNMP focuses on manure storage, handling and 
application to land. As addressed above, this is an issue that species 
and regional differences must be considered. It would be very difficult 
and not very effective to outline specific storage and handling aspects 
to be included in a CNMP without considering the vast regional 
differences in land and proximity to water. The Strategy fails to 
discuss the differences between manure applied on land owned by the 
feeding operation versus manure sold, traded or given away to be 
applied on land not owned by the feedlot.
    NCBA is very concerned that this Strategy attempts to expand the 
legal authority of EPA to regulate the proper land application of all 
manure through CNMPs and/or NPDES permits. We do not agree with EPA's 
position that stormwater runoff from fields on which animal wastes have 
been properly applied should lose the stormwater exemption in the 
absence of a certified CNMP and be defined as a point source of 
pollution. We are concerned that attempts to strictly link offsite land 
application practices of third parties to a CAFO operators' NPDES 
permit will destroy the current markets for manure as a farmland 
fertilizer. Today farmers and others often purchase manure and spread 
it on their crops as an important source of nutrients. Their 
willingness to do so will likely change if excessive record keeping and 
restrictions are placed on their actions. We are very concerned with 
the fact that if land application were pulled into the NPDES permitting 
system we would see a massive increase in citizen suits, many of which 
would be frivolous and costly. These types of legal actions do nothing 
to protect the environment but can very easily force an operator to 
close.
    It is clear that AFO owners and operators will need substantially 
increased access to technical and financial assistance to meet the 
performance expectations of the Strategy. Since perhaps 300,000 new or 
revised CNMPs will be required, the Strategy recognizes that 
availability of private and public sector specialists to assist will 
potentially limit the successful completion of the Strategy. We urge 
the agencies to strongly support this need with the programs described 
in Section 5.0, Strategic Issue #1, and with additional Federal budget 
initiatives to ensure success. We especially support the suggestions 
that USDA develop agreements with third-party vendors similar to the 
1998 agreement with the Certified Crop Advisors (CCAs), and both EPA 
and USDA to place on their websites computer expert systems for use by 
producers in development of CNMPs. We also suggest that the agencies 
support the educational efforts of NCBA and other industry 
organizations.
                           voluntary programs
    For the majority of AFOs (estimated to be about 95 percent of all 
farms), the Strategy suggests that voluntary efforts will be the 
principal approach used by the agencies for CNMP implementation. NCBA 
believes this number will be substantially different should the 
definition of CAFO change during the ELG process and this needs to be 
mentioned in order to avoid misleading producers. The Strategy also 
suggests that CNMPs developed and implemented through voluntary action 
by operators may be less comprehensive and implemented over longer time 
periods than CNMPs required for compliance with a regulatory program. 
This sounds reasonable, but we also urge the agencies to factor in the 
regional climatic, hydrologic, and topographic differences that exist.
    The Strategy indicates that AFO owners and operators participating 
in voluntary programs must agree to develop and implement a CNMP before 
receiving financial assistance. We can understand why the agencies 
would want to apply this restriction to funds targeted to animal 
feeding operations, but we strongly hope that the agencies do not 
intend to apply this restriction to all Federal financial assistance 
potentially received by a farm raising both crops and animals. This 
needs to be kept a voluntary program and not turned into a regulatory 
program with financial assistance being the catch.
    NCBA recommends increasing the range and magnitude of the 
incentives to participate in the voluntary program. EPA and USDA need 
to meet with the stakeholders to-discuss what incentives could be 
placed on this voluntary program that would entice operators to 
participate while giving them the reassurance that this is not a pseudo 
regulatory program.
                           regulatory program
    The Strategy estimates that only 5 percent of the total number of 
AFOs will be in mandatory programs, under the proposed Strategy this 
will likely include all CAFOs. NCBA questions the accuracy of this 
percentage and the statement that only 2,000 CAFOs have NPDES permits. 
Does this include CAFOs that have state permits equal to or exceeding 
NPDES permit requirements? Does this include each individual general 
permit?
    The Clean Water regulatory program is going through a dramatic 
change with the rewrite of the ANPRM for water quality standards and 
effluent limitation guidelines for livestock; NCBA would encourage the 
USDA/EPA to acknowledge these changes in the Strategy.
    The Strategy calls for an increase in the number of permits issued 
to CAFOs. The Strategy proposes to inspect all priority CAFOs within 3 
years and all CAFOs within 5 years. In addition, it seeks to 
``significantly expand'' permitting by targeting the largest CAFOs by 
2003 and all others by 2005. Not only are these extremely lofty goals, 
but we seriously question whether the Federal agencies and the states 
have sufficient financial and personnel resources to accomplish these 
goals. Currently, many states have been delegated the permit authority 
and are struggling with the limited state budgets. Clearly, the 
agriculture industry does not have the resources to accomplish such 
demands. We would ask EPA and USDA to reconsider their lofty goals in 
light of the economics or to clearly outline the source of increased 
continual funding to accomplish these goals.
    The Strategy implies that the current regulatory program is not 
working and thus this new Strategy is needed. EPA acknowledges that the 
current regulatory program has not been fully implemented. NCBA would 
encourage EPA to implement existing programs and evaluating their 
success or failure before initiating an entirely new program or 
Strategy.
    The Strategy states that ``large facilities (those greater than 
1000 animal units) produce quantities of manure that are a risk to 
water quality and public health whether the facilities are well managed 
or not. `` NCBA takes issue with this extremely broad accusation and we 
would ask that such an accusation be backed up the sound scientific 
evidence. This statement disregards the need for science and fact-based 
decisionmaking, in favor of an arbitrary analysis. NCBA is concerned 
with such accusations, not only because it accuses a well managed 
feedlot of impacting water quality purely based on its size, but also 
such broad, unproven statements can cause great public concern.
    The Strategy states that animal feeding operations that remove 
manure from feedlot pens and stack it in areas exposed to rainfall or 
near an adjacent watercourse have established a crude liquid manure 
system for process wastewater that may discharge pollutants, and 
therefore would be subject to the CAFO regulations. These facilities 
are then point sources under the NPDES program if the number of animals 
confined at the facility meets the regulatory definition at 40 CFR Part 
122. Appendix B. or if the facility is designated as a CAFO after an 
onsite inspection. Although many cattle feedlots far exceed 1000 animal 
units in size and generally operate under NPDES permits, NCBA is 
concerned that EPA not prevent temporary in-field manure stacking. This 
is a common practice necessitated by the large quantities generated 
whenever the feedlot pens are cleaned. In the weeks that follow, 
manageable-sized quantities are withdrawn for land application from 
these stacks.
    The Strategy also suggests that the finding that an operation 
generates more dry manure than it has land to spread it on could also 
trigger a permit requirement. NCBA is concerned that EPA not apply this 
consideration to AFOs which sell or give away the manure produced on 
their facilities. In many cases, cattle feeders own little if any crop 
land for spreading manure.
    The Strategy discusses the denial of the agricultural stormwater 
exemption for land application. Case law has established circumstances 
under which the CWA's agricultural stormwater exemption can be denied 
for land application of manure. The exemption is intended to exempt 
fertilization of crops and pastures and the courts have held that it 
does not apply if manure is over-applied (e.g., Concerned Area 
Residents for the Environment v. Southview Farm, 34 F.3d 114 (2d Cir. 
1994), cert. denied 115 S. Ct. 1793 (1995)). However, over application 
cannot be subjectively evaluated. NCBA believes that EPA exceeds its 
authority to deny the agricultural stormwater exemption for all runoff 
associated with the land disposal of manure originating from a CAFO, or 
from AFOs for which the land application occurred without a CNMP 
developed by a public official or a certified private party or in a 
manner inconsistent with the CNMP.
                 smaller cafos exit regulatory program
    NCBA would like EPA/USDA to clarify their requirements for smaller 
CAFOs to exit the regulatory program. NCBA interprets this section to 
describe a smaller CAFO (less than 1000 animal units) that was 
originally regulated due to the fact that it was discharging into 
navigable waters through a manmade ditch; pollutants are discharged 
directly into waters of the U.S. which originate outside of and come 
into direct contact with the animals; or is considered a significant 
contributor of pollution to the waters of the U.S. If the reason for 
the CAFO designation no longer exists than under current regulations 
that operation would be an AFO and not subject to the regulatory 
program. The Strategy states the operation ``must'' fully implement a 
CAMP to exit the program. If the permit expires and the reason for the 
CAFO designation no longer exists then it is NCBA's conclusion that EPA 
would no longer have jurisdiction to require them to have a CNMP.
    NCBA agrees that incentives are needed for development of CNMPs by 
AFOs, but it is not enough to simply promise the opportunity to exit an 
enforceable permit program in 5 years. There needs to be a true 
incentive for AFOs, one that includes those AFOs that do not discharge 
or are not permitted due to the storm exemption. Also, these incentives 
should not be strictly tied to the size of the feed lot. A large AFO in 
a very arid region may be less of a risk than that same size feed lot 
in a high rainfall region. Risk factors are a very important 
consideration and the limiting factor should not be based solely on 
size.
                          good faith incentive
    The Strategy acknowledges that existing provisions of the CWA and 
related EPA regulations provide authority for including a significant 
number of AFOs in the permit program beyond those that now have 
permits. This will mean that many smaller AFOs will be regulated as 
CAFOs. NCBA concurs with the EPA/USDA's conclusion that many AFOs are 
currently taking voluntary action in good faith to manage manure and 
wastewater in accordance with a nutrient management plan. NCBA supports 
the incentive that small AFOs that have a discharge will be offered an 
opportunity to address the cause of the discharge before the agency 
considers their designation as a CAFO.
    NCBA believes that the good faith incentives offered small AFOs 
should be provided to all operations. Thus, all operations should be 
offered an opportunity to address management problems or the cause of 
any discharge before the agency considers their designation as a CAFO.
                            strategic issues
    Strategic Issue #1. The development and certification of CNMPs will 
be a very important and time-consuming process. NCBA would encourage 
USDA/EPA to examine programs that would put NRCS and feedlot operators 
together to serve as partners in certifying programs. This would 
provide the technical knowledge of NRCS with the practical knowledge of 
operators. NCBA feels that the feedlot operators, state and national 
associations need to play a role in this certification process along 
with USDA/NRCS.
    We are concerned the Strategy has adopted nutrient management 
planning goals that are entirely inconsistent with the private sector 
technical assistance delivery system's ability to support the planning 
effort. It is impossible for the combined efforts of the existing and 
anticipated public and private sector delivery system to prepare good 
quality, effective nutrient management plans for more than 300,000 
operations by 2008. The Strategy must be changed in this regard, and we 
stand ready to work with you to identify voluntary nutrient management 
planning goals or develop a process that will accelerate training and 
education efforts that are truly consistent with the public-private 
delivery system's anticipated capacity to provide quality technical 
assistance.
    If EPA and USDA ignore the fact that they have overestimated the 
technical assistance delivery system's ability to meet this demand, 
inadequate or poor quality plans will be prepared, and the credibility 
of the newly created private system will be greatly injured. As noted 
in the Strategy, there is an extensive and growing network of more than 
12,000 private and certified crop advisors and crop consultants who 
provide technical assistance services today. There is no question that 
this private component of the technical assistance delivery system will 
only grow in future importance to the country's efforts to support 
conservation activities in agriculture. But the future of the private 
sector system will be jeopardized if it is asked to handle the workload 
and timeframe laid out in the Strategy.
    Strategic Issue #2. USDA, EPA and the various stakeholders need to 
expand the voluntary incentives provided in this Strategy. NCBA agrees 
that the individual owners and operators have a duty to control the 
potential release of pollutants. However, NCBA does not think EPA has 
the authority to regulate ``companies and industries'' feed lot 
operators are involved with, in order to minimize the release of 
pollutants. Feed lot operators should not be the legal connection to 
regulate or place voluntary pressure on industries or businesses 
otherwise not regulated under the Clean Water Act.
    NCBA looks forward to developing voluntary programs and working 
closely with USDA and EPA to establish incentive programs. These ideas 
and programs will demand adequate and long-term financial incentives 
that apply equally to feed lot operators. NCBA does not feel existing 
programs will suffice in accomplishing the lofty goals of developing 
and implementing CNMPs for all AFOs by 2008. Flexibility will be needed 
in determining who is certified to develop CNMPs. Thus, NCBA welcomes 
working with USDA and EPA in developing new programs.
    Strategic Issue #3. Starting in the spring of 1999 in Round I of a 
two phased permitting program, EPA proposes to work with NPDES-
authorized States to use Best Professional Judgment (BPJ) to issue 
Statewide general NPDES permits to cover all CAFOs with greater than 
1000 animal units (A.U.s) and CAFOs with between 300 and 1000 A.U.s 
that have unacceptable conditions. This is consistent with existing 
Region 6 general permit policy. However, the Strategy also proposes 
that individual NPDES permits be issued for exceptionally large 
facilities, new or expanding operations or operations with a history of 
discharges. No definition of ``exceptionally large'' was given. NCBA 
strongly disagrees with this arbitrary discrimination, for a large part 
of the cattle feeding industry has successfully operated for many years 
under general permits. Roughly 33 percent of the U.S. cattle feeding 
industry is located in EPA's Region 6, and the general permits have 
worked well. Now is not the time to undertake the expense and lost time 
needed to develop and approve individual permits for existing ``large'' 
facilities. We urge EPA to rethink this part of the plan.
    Similarly, in Round I, EPA proposes to work with States to develop 
watershed general permits for selected watersheds not meeting clean 
water goals due to aggregate water quality impacts from AFOs on a 
watershed scale. The draft Strategy suggests that EPA may regulate AFOs 
that, as a group, may cause or contribute to watershed impairment. 
Under this scenario, an AFO making even minor pollutant contributions 
could be regulated if it is located in a watershed impaired from the 
cumulative impacts of many sources. NCBA is troubled by this proposed 
action. Current EPA regulations only give the Agency the authority to 
regulate AFOs as CAFOs if three specific conditions are met: (1) the 
AFO is individually a significant contributor of pollution to waters of 
the U.S.; (2) the AFO discharges through a manmade system, and (3) the 
waters into which the pollutants are discharged originate outside of 
the facility. Furthermore, a determination that these conditions are 
met must be made on a site-specific basis through an onsite inspection. 
NCBA believes that EPA lacks the authority to convert such a case-by-
case consideration of individual AFOs to one based on cumulative 
impacts of numerous AFOs and CAFOs on the watershed. NCBA would request 
EPA to define what it considers to be a significant contributor.
    In Round II of the two phased permitting program (about 2005), EPA 
proposes to incorporate newly developed effluent limitations guidelines 
(ELG) and nutrient criteria into NPDES permits. ELG development is 
underway now, and NCBA is working to facilitate EPA's understanding of 
the industry, collection of data, visits to representative facilities. 
EPA expects that revisions to the effluent guidelines will, among other 
things, evaluate options for regulating dry manure handling systems and 
be closely coordinated with any changes to the NPDES permitting 
regulations. NCBA is concerned that attempts to strictly link offsite 
land application practices of third parties to beef feedlot operators' 
NPDES permits will destroy the market for dry manure. Today farmers and 
others purchase manure and spread it on their crops as an important 
nutrient alternative to commercial fertilizer. Their willingness to do 
so will change if excessive record keeping and restrictions are placed 
on their actions. NCBA is concerned with the fact that if land 
application were pulled into the NPDES permitting system we would see 
an abusive use of citizen suits, many of which would be frivolous and 
costly.
    EPA will revise the NPDES permit program regulations regarding 
CAFOs: The Strategy states that by 2001, EPA intends to revise existing 
permitting regulations to clarify expectations and requirements for 
CAFOs as well as to reflect the changes in the industry. EPA also 
intends for the new livestock ELGs to be wholly consistent with these 
permit regulations. NCBA is working closely with EPA in the new 
livestock ELGs. Some of the key permitting issues that EPA intends to 
consider during this process are cause for concern by NCBA. They 
include:
    (a). requirements for effective management of manure and wastewater 
from CAFOs whether they are handled onsite or offsite. NCBA urges EPA 
and USDA to cooperate with states to find nonregulatory methods to 
encourage the proper offsite management of manure. Corporate producers 
cannot be directly responsible for the actions of third-party manure 
applicators;
    (b). exploring alternative ways of defining CAFOs, including 
reducing the animal thresholds involved. NCBA asks EPA to carefully 
consider numerous factors when analyzing the definition of CAFOs. The 
size of a feedlot is not the sole risk factor and thus should not be 
the sole determining factor in placing an operation in a regulatory 
program. The current definition is successful in separating feeding 
operations from grazing operations and this is important. To accomplish 
this, 40 CFR 122.23(b)(ii) that discusses the lack of crops, vegetation 
forage growth or post-harvest residues as a condition for CAFOs, must 
remain part of this definition. This is an area that species 
differentiation must also come into consideration. The economic burden 
the regulatory program places on the small operator is immense and 
would have a damaging effect on the cattle industry if all the factors 
above were not carefully considered. As stated above, this definition 
determination should be left to those rewriting of the ELG.
    (c) providing for expedited designation of smaller AFOs in 
watersheds identified for watershed general permits. NCBA reminds EPA 
that designation of smaller AFOs as CAFOs must occur on an individual 
basis, following onsite evaluation of potential adverse environmental 
effects. Many operations located in watersheds identified for watershed 
general permits will not be contributing to the problem, and any onsite 
evaluation will likely reveal this.
    (d) removing the exemption from permitting for AFOs that only 
discharge during a 25-yr, 24-hr storm. The agencies assume in the 
Strategy that all CAFOs will discharge sometime, regardless of their 
design and skill of management. Thus they wish that all CAFOs (by 
definition or designation) be required to operate under an NPDES 
permit. They argue that the permit provides a shield in the event a 
rare 25-year, 24-hour storm occurs. Current law provides the incentive 
for operations to construct facilities of sufficient capacity and in 
geographic locations which make a discharge highly unlikely. NCBA is 
concerned that EPA not remove the 25-year, 24-hour storm design 
criteria or known as the ``Acts of God'' safety net.
    Strategic Issue #4. The Strategy calls for a coordinated research, 
technical innovation, compliance assistance, and technology transfer 
relative to the environmental management of AFOs. USDA and EPA, 
together with other Federal partners, will establish coordinated 
research, technical innovation, and technology transfer activities, and 
compliance assistance, and establish a single point information center. 
NCBA fully supports this coordinated effort by USDA and EPA. Many times 
the problem with research is not the lack of, but the inability to 
locate the information. This will not only be helpful to the industry 
but to the various government agencies that are seeking information. 
However, there must be full cooperation from all parties, otherwise the 
gaps are merely smaller in size.
    Strategic Issue #5. The cattle industry has been a leader in the 
livestock industry for over a century. We have been stewards of the 
land prior to the development of most other industries and regulatory 
bodies. This Strategy needs to reflect that history if it is going to 
be a representation of the livestock industries past and future. NCBA 
has long history of working closely with state and Federal Government 
officials. . Currently, NCBA is helping EPA with the ELG guidelines and 
will continue to provide them with information and data. Other 
livestock species have entered into a ``Dialogue'' for a host of 
reasons that are not present in the cattle industry. NCBA has been and 
will continue to participate in the process and welcomes the leadership 
role. Our members pride themselves as stewards of the land and have 
pioneered much of the voluntary environmental practices that exist 
today.
    Strategic Issue #6. The USDA has a long history of collecting data, 
providing technical support, and establishing voluntary programs with 
the livestock industry. This government/industry relationship depends 
on a high level of trust. In order for the voluntary programs, outlined 
in this Strategy, to be successful some form of ``firewall'' between 
the voluntary and regulatory programs must exist.
    Strategic Issue #7. The Strategy outlines performance measures to 
gauge the success in implementing this Strategy. NCBA would welcome the 
opportunity to work with USDA and EPA in determining those performance 
measures. NCBA feels the cattle industry has a history of environmental 
stewardship and should be involved with determining the performance 
measures for the cattle industry.
                                 roles
    The Strategy calls for the involvement of a number of groups and 
individuals to play key roles in order to successfully carry out this 
Strategy. NCBA agrees with this statement, however we are concerned 
with some language in this section because in many cases it does not 
separate voluntary and regulatory roles. The line between the voluntary 
or regulatory program needs to be very clear. NCBA is very concerned 
with the section on environmental groups where it states: 
``Environmental groups can provide ``onsite'' reports about specific 
environmental quality concerns and can educate its members, the general 
public, the agricultural community and the media. . . . `` The Clean 
Water Act does not grant jurisdiction to environmental groups to do any 
type of onsite reporting on private property owner's land. This has the 
potential to open a host of legal issues ranging from forming a private 
attorney generals provision to trespass on private property.
    We appreciate the opportunity to comment on the Draft Unified 
National Strategy for Animal Feeding Operations. As an industry, we 
support the goal of minimizing water quality and public impacts from 
AFOs. We hope that the EPA and USDA will take our comments under 
careful consideration.
            Sincerely,
                                        Jim McAdams, Chair,
              Property Rights & Environmental Management Committee,
                             National Cattlemen's Beef Association.
                               __________
                                               U.S. Senate,
                                                 February 18, 1999.

The Honorable Dan Glickman, Secretary,
U.S. Department of Agriculture,
14th Street and Independence Avenue,
Washington, DC 20250.

    Dear Secretary Glickman: It is our understanding that the final 
proposal for the USDA/EPA Unified National Strategy for Animal Feeding 
Operations will be released on Friday, February 19. Mr. Secretary, U.S. 
producers have always taken a leading role in pursuing and implementing 
environmentally sound conservation and water quality practices. At a 
time of continued low prices in the livestock sector, we believe that 
many of the proposals contained in the draft strategy will place 
unnecessary and costly regulations on U.S. livestock producers.
    Producers have expressed serious concerns to us, and we urge your 
careful consideration of the these issues, including the following:
    Definition of CAFO and AFO. We urge EPA/USDA to withhold changes to 
these definitions without first providing for a formal public comment 
period.
    Comprehensive Nutrient Management Plans. As you know, many 
variables go into feed management. We ask that you provide producers 
with the proper flexibility to adjust to these variables when 
designating permit requirements.
    Land Application. We urge that land application of manure not be 
pushed into the National Pollutant Discharge Elimination System (NPDES) 
permitting process. Such an action could destroy many environmentally 
beneficial systems that are already in place.
    Record Keeping. We urge that any plan adapted take into account any 
reporting requirements already in place in order to avoid duplicative 
and costly paperwork requirements.
    NPDES permits. We are concerned with any proposal to issue 
individual permits on arbitrarily determined size qualifications that 
have no basis in sound, scientifically proven data.
    Limited Resources. Based upon the Administration's most recent 
budget request, it does not appear that adequate finding will be 
available to meet implementation guidelines outlined in the draft 
strategy. We assume a plan exists for implementing the strategy if 
inadequate financial and personnel resources exist.
    We agree that water quality is an important issue that must be 
addressed. However, agricultural producers have taken a leading role in 
this process through regulatory programs and more importantly their own 
voluntary improvements and the assistance of state programs that 
promote a cooperative approach to this issue. Any strategy put forward 
should buildupon the existing voluntary, incentive based system in 
which producers, state arid local government, and the Federal 
Government work together on environmental quality issues. Command and 
control polices with the heavy hand of government intervention are 
counter-productive and will riot have the desired effect that occurs 
when producers and government of finials work together to address these 
issues.
    As you move forward to develop a final strategy, we urge you to 
carefully consider the effect any final decision will have on our 
livestock producers. We look forward to working with you to ensure that 
producer interests are given a fair voice in this process.
            Sincerely,
Pat Roberts,
    U.S. Senate.

Sam Brownback,
    U.S. Senate.

Ben Nighthorse Campbell,
    U.S. Senate.

Chuck Hagel,
    U.S. Senate.

Paul D. Coverdell,
    U.S. Senate.

Wayne Allard,
    U.S. Senate.

Larry E. Craig,
    U.S. Senate.

James Inhofe,
    U.S. Senate.

Kay Bailey Hutchison,
    U.S. Senate.
                               __________
                             U.S. House of Representatives,
                                                    March 18, 1999,

The Honorable Al Gore,
Vice President of the United States,
White House,
Washington DC 20505.

    Dear Mr. Vice President: We are writing in regard to your 
announcement of the Unified National Strategy for Animal Feeding 
Operations (the Strategy). We will continue to scrutinize this very 
closely.
    You are undoubtedly aware of the long-term hardship endured by most 
livestock producers due to low market prices. In the short term, the 
situation has been particularly acute for pork producers, as evidenced 
by your announcement of $50 million in direct payments during your 
recent trip through Iowa. During a February 10, 1999 hearing before the 
House Agriculture Committee regarding livestock prices, witnesses 
testified that regulatory burdens, whether its food safety, 
environmental protection, or price reporting, add costs to doing 
business. As price takers in livestock markets, producers are unable to 
transfer these costs and must bear them entirely. Furthermore, costs 
added elsewhere are typically shifted back to producers. In all cases, 
we need to thoroughly understand these costs and who will pay them.
    We believe strongly that the American livestock industry wants to 
ensure that any future environmental degradation is prevented from 
resulting from their operations and that any past degradation is 
mitigated as quickly and efficiently as possible. However, we know that 
most livestock operations do not have the financial resources available 
to comply with burdensome requirements. Further, taxpayers should not 
and will not tolerate unnecessary expenditures of government money 
devoted to environmental efforts that are not efficient and are not 
truly based on legitimate need and sound science.
    We are very interested in the effect that this Strategy will have 
on livestock operations, as well as EPA and USDA workload and 
activities. We realize that you have indicated that this Strategy will 
be based on voluntary incentives and that the Administration's budget 
includes a request for additional resources devoted to the 
Environmental Quality Incentives Program (EQUIP). Is the Administration 
contending that this funding is paid for in your budget? Many of the 
Administration's proposals for increases in agriculture expenditures 
are intended to be offset by the imposition of several user fees. We 
consider this proposal unrealistic and will oppose it If these user 
fees were to be unposed it would result in new spending for 
Administration initiatives as this ``Strategy'' being shifted to the 
private sector. Therefore, private industry would be indirectly forced 
to fiend such new spending. Congress has consistently rejected this 
proposal for several years now and we would expect the same rejection 
this year.
    The Clinton Administration and some in Congress have said several 
times that any new spending that is not offset by cuts in existing 
programs in effect would come from funds needed for Social Security. We 
see no evidence of corresponding reductions in the budget of the EPA to 
pay for these increased voluntary incentive programs to meet these 
environmental goals. Without the costs of these programs being imposed 
on the Agriculture industry through the imposition of user fees how are 
you proposing to pay for these additional costs?
    Please provide to the Committee on Agriculture a detailed breakdown 
of how the Administration intends to monitor and implement the 
voluntary and regulatory program described in this announcement. Please 
also provide to the Committee a description of how much of the finding 
for these programs will come from the budget of the EPA and how much 
from the budget of the USDA and where corresponding reductions in the 
budgets of either of the two agencies would be recommended.
    Further, we strongly believe that the costs of any program that is 
mandated by the EPA should be paid for by reductions in the EPA's 
budget and should not come at the expense of any current programs under 
the budget of the Agriculture Department. Implementation of these 
voluntary incentive programs refeed to in the Strategy would require 
Finding for assistance directly to livestock operations as well as to 
cover He administrative costs of the increased workload of their 
administration. Can you assure us that these costs will be paid for 
from He EPA's budget? If not, would you support delaying any action 
that would affect livestock operations or agency workloads until such 
finding is provided?
    We look forward to your response.
            Sincerely,
                                   Larry Combest, Chairman,
                                    House Committee on Agriculture.
                         Richard K. Armey, Majority Leader,
                                     U.S. House of Representatives.
                                       Joe Skeen, Chairman,
Appropriations Subcommittee on Agriculture, Rural Development, Food 
                     and Drug Administration, and Related Agencies.
                                 ______
                                 
Larry Combest,
    Member of Congress.

Joe Skeen,
    Member of Congress.

John Boehner,
    Member of Congress.

Nick Smith,
    Member of Congress.

Saxby Chambliss,
    Member of Congress.

Helen Chenoweth,
    Member of Congress.

Gil Gutknecht,
    Member of Congress.

Doug Ose,
    Member of Congress.

Ernie Fletcher,
    Member of Congress.

Mike Simpson,
    Member of Congress.

Bill Barrett,
    Member of Congress.

Jo Anne Emerson,
    Member of Congress.

George Nethercutt,
    Member of Congress.

John Hostettler,
    Member of Congress.

Wes Watkins,
    Member of Congress.

Doc Hastings,
    Member of Congress.

Dan Burton,
    Member of Congress.

Kevin Brady,
    Member of Congress.

Robert Aterholt,
    Member of Congress.

Jim Nussle,
    Member of Congress.

Ed Whitfield,
    Member of Congress.

Ron Lewis,
    Member of Congress.

Ron Paul,
    Member of Congress.

Tom Latham,
    Member of Congress.

Richard Baker,
    Member of Congress.

Robin Hayes,
    Member of Congress.

Wally Herger,
    Member of Congress.

Richard Armey,
    Member of Congress.

John Cooksey,
    Member of Congress.

Jerry Moran,
    Member of Congress.

Greg Walden,
    Member of Congress.

Richard Pombo,
    Member of Congress.

Bob Riley,
    Member of Congress.

Bob Goodlatte,
    Member of Congress.

John Sweeney,
    Member of Congress.

Ray LaHood,
    Member of Congress.

John Thune,
    Member of Congress.

Henry Bonilla,
    Member of Congress.

John Doolittle,
    Member of Congress.

Bill Jenkins,
    Member of Congress.

Mark Green,
    Member of Congress.

Pete Sessions,
    Member of Congress.

Bill Thomas,
    Member of Congress.

Asa Hutchinson,
    Member of Congress.

Greg Ganske,
    Member of Congress.

Roy Blunt,
    Member of Congress.

Charies Taylor,
    Member of Congress.

Steve Buyer,
    Member of Congress.

Bob Schaffer,
    Member of Congress.

Chip Pickering,
    Member of Congress.

Mac Thornberry,
    Member of Congress.

George Radonovich,
                               __________
                             U.S. House of Representatives,
                                                    April 16, 1999.

The Honorable Albert Gore,
Vice President of the United States,
White House,
Washington, DC 20500.

    Dear Mr. Vice President: We are writing in response to your recent 
announcement of the final USDA/EPA Unified National Strategy for Animal 
Feeding Operations. While we appreciate the Strategy's recognition of 
Me many practices farmers and ranchers have employed to improve our 
nation's water quality, we do have some concerns about the Strategy 
itself.
    We know the Administration is aware of the significant hardships 
being endured by most livestock producers as a result of current low 
prices. Given this financial stress, we are concerned that some 
provisions in the Strategy will create art additional financial burden 
on our already struggling farmers and ranchers. Additional resources 
for financial assistance through the Environmental Quality Incentives 
Program (EQIP), as proposed in the President's budget, would help to 
address some of this need. However, it is presently unclear how you 
propose to make the necessary offsetting reductions in spending to 
accommodate this increase. Given past Congressional actions, the 
Administration's current proposal to fund increases in agricultural 
expenditures through new user fees is unrealistic.
    We are also very conceded that the accelerated permitting of 
Confined Animal Feeding Operations (CAFOs), described in the Strategy 
and the development of Comprehensive Nutrient Management Plans (CNMPs) 
for all AFOs, will result in dramatically increased workloads for state 
agencies and USDA field staff. Many of the livestock producers targeted 
by the Strategy will look to USDA's Natural Resources Conservation 
Service (ARCS) for assistance in writing CNMPs. Even with assistance 
from private sector consultants, this EPA policy change will create a 
tremendous cost-burden for USDA, as well as for producers. In fact, to 
date neither USDA nor EPA has been able to provide us with requested 
information on the workload specifics of the Strategy or the potential 
financial impacts on livestock operators.
    We see no way for ARCS to keep up with other ongoing conservation 
work, while also trying to meet He increased workload that the Strategy 
will create. On the one hand, this Strategy calls for an increased 
level of technical assistance to meet the implementation schedule. On 
the other hand. your budget officials have called for an overall 
reduction in ARCS staff in the fiscal year 2000 budget. They mint say 
that conservation operation funds are increased in the President's 
budget, but on closer examination it becomes clear that you've actually 
proposed a level below fiscal year 1998 figures.
    In attempting to meet your goals under the AFO Strategy, the 
current proposal seems destined to produce a crisis while causing other 
important conservation work to fall behind. We would like to know how 
you intend to provide additional resources to USDA to accomplish all of 
the tasks assigned to them regarding natural resource conservation.
    We look forward to your response and to working with you to 
maintain and enhance ongoing efforts by our farmers and ranchers to 
protect and improve U.S. water quality.
            Sincerely,
Charles W. Stenholm,
    Member of Congress.

John S. Tanner,
    Member of Congress.

Ronnie Shows,
    Member of Congress.

James A. Barcia,
    Member of Congress.

Ike Skelton,
    Member of Congress.

Karen L. Thurman,
    Member of Congress.

Martin Frost,
    Member of Congress.

Bart Gordon,
    Member of Congress.

David D. Phelps,
    Member of Congress.

Collin C. Peterson,
    Member of Congress.

Eva C. Clayton,
    Member of Congress.

Virgil H. Goode,
    Member of Congress.

Pat Danner,
    Member of Congress.

Ted Strickland,
    Member of Congress.

Leonard L. Boswell,
    Member of Congress.

Calvin M. Cooley,
    Member of Congress.

Sanford D. Bishop,
    Member of Congress.

Chrisopher John,
    Member of Congress.

Ciro D. Rodriquez,
    Member of Congress.

Bennie G. Thompson,
    Member of Congress.

Max Sandlin,
    Member of Congress.

Mike Thompson,
    Member of Congress.

Jim Turner,
    Member of Congress.
      
                                 ______
                                 
  Responses by Ross Wilson to Additional Questions from Senator Chafee
    Question 1. You acknowledge that implementation of the zero 
discharge standard has not been totally consistent from State to State. 
Should CAFOs be subject to the requirements of the strategy in 
watersheds where agriculture is established to be a major contributor 
to water pollutions
    Response. Senator Chafee, the Clean Water Act as it applies to the 
cattle industry, has not been applied consistently from State to State 
for some of the following reasons: State priorities, lack of funding, 
limited staff resources, lack of knowledge of the industry and the 
variations in State laws. Texas, Kansas and Nebraska, which amount for 
nearly 70 percent of all the beef cattle currently being fed, have 
State programs that in some cases are much more stringent than the 
Federal program. It is TCFA's position that CAFOs should be subject to 
the effluent limitation guidelines (ELG) established by current 
regulations which require retention of all process generated waste 
water plus all runoff from a 25-year, 2-hour storm. A discharge is 
permitted only when rainfall from a chronic or catastrophic stone 
exceeds this standard. However, if a CAFO can prove that it will not 
discharge into the waters of the United States, it should not be 
permitted because there is no jurisdiction under the Clean Water Act. 
Individual CAFOs should be held accountable for impairment caused by 
the identified CAFOs not other sources of agricultural or non-
agricultural impairment. Much of the data collected to date is nutrient 
specific but not source specific. We do take exception to EPA 
arbitrarily designating all AFOs in an impaired watershed as CAFOs 
without any site-specific determination of contribution to that 
impairment.

    Question 2. One of your concerns is that EPA will classify 
operations under 1000 Animal Units as CAFOs because they are located in 
an impaired watershed. What type of evidence would you require to prove 
an operation is a source of impairment?
    Response. EPA or State regulators should use current monitoring 
data, recorded discharge occurrences, on-site inspections and sound 
scientific determinations of the source of the pollutants prior to 
making the determination that an AFO should be regulated as a CAFO. EPA 
should not make arbitrary determinations on data that is incomplete and 
lacking in credibility.

    Question 3. What action should EPA take if they can establish that 
a water body is being impaired by agriculture, but they lack the 
resources to conduct site-by-site inspections of every operation?
    Response. The cattle producer is only one aspect of agriculture and 
only one of many possible contributors of nutrients. There are the 
numerous urban contributors and other agricultural operators that may 
be contributing to the impairment It would not only be unfair but 
economically devastating and an arbitrary and capricious decision by 
EPA to place a cattle rancher into the regulatory arena with no 
evidence of site-specific impairment because they lack the resources to 
make the determination. Our laws were written on the premise that we 
are innocent until proven guilty and this type of action would fly in 
the face of this premise which our legal system is based upon. EPA 
should not be given the authority to shift the burden of proof due to 
lack of resources. EPA would need to focus their resources and 
prioritize their inspections on a logical determination such as 
proximity of the operation to the waterbody. EPA could work with State 
and local officials to screen operations. Other groups which can assist 
with inspection activities might include soil and water conservation 
districts, producer groups with trained personnel or qualified 
consultants.

    Question 4. You state that regulating the land application of 
manure would place manure fertilizer at a competitive disadvantage 
compared to commercial fertilizer. How many operations purchase off 
site manure for land application?
    Response. TCFA has information on the number of feedyards which 
sell manure as fertilizer but not how many farmer customers purchase 
manure from each feedyard. Virtually all TCFA member feedyards in 
Texas, Oklahoma and New Mexico (210 feedyards) which marketed over 
seven million head of cattle in 1998 (30 percent of the Nation's fed 
cattle supply) market their manure as fertilizer to farmers. This would 
also be true of cable feeders in many pads of Kansas, Colorado and 
Western Nebraska.

    Question 5. What is the market price difference between manure and 
chemical fertilizer?
    Response. Fertilizer market price is variable based on geographic 
location, fertilizer form, and nutrient composition. Nitrogen and 
phosphorus and the two primary nutrients purchased by farmers. At 
current market prices, it would cost about $50/acre to apply either 
manure or chemical fertilizer for application on corn farmland. Manure 
has other agronomic benefit beyond that of chemical fertilizer, such as 
organic matter, micronutrients and increased soil water holding 
capacity. However, any additional regulation of manure would encourage 
most farmers to trade the secondary benefits of manure for the 
opportunity to use an unregulated nutrient source--chemical fertilizer.

    Question 6. What is your estimate of the revenue generated for 
cattle operations from the sale of manure?
    Response. Most feedyards that sell manure as fertilizer generally 
sell their manure to a company which provides the service of cleaning 
pens, then hauling and distributing the manure fertilizer to farmer 
customers, i.e. a contract manure hauler. Some of these companies also 
compost the product which increases the total cost of the end product. 
Most of the revenue generated in manure removal, hauling and 
distribution is absorbed by contract manure haulers who have developed 
both the feedyard and farmer clientele for manure marketing and 
utilization. On the average, the process of pen cleaning, transporting 
and distributing the manure results in an end product cost of $5 to $6 
per ton to the farmer. A normal application rate of 10 tons per acre 
(for irrigated corn in the Texas High Plains) results in a cost to the 
farmer of $50 to $60 per acre for manure fertilizer.
                                 ______
                                 
            Statement of the American Farm Bureau Federation
    Farm Bureau and its affiliated State organizations represent the 
interests of producers of all commodities nationwide. We are committed 
to improving water quality and share the public's concern about the 
quality of our water resources. Farmers and ranchers have made great 
strides in addressing water quality concerns. Today, more than two-
thirds of our Nation's waters now meet their designated uses. We 
believe that market forces, technology, and incentive-based programs 
such as the Environmental Quality Incentive Program, the Wetland 
Reserve Program, and the Conservation Reserve Program, have lead to 
water quality improvements and will, over time, make additional 
contributions in improved water quality in rural areas. Our bottom line 
is, that despite commonly held perceptions, water quality trend lines 
are moving in the right direction, in large part, due to the success of 
American farmers and ranchers.
    When problems and solutions are identified and well-defined, 
farmers and ranchers have demonstrated a great willingness to solve 
problems. Over the past decade, agricultural producers have restored 
millions of acres of wetlands and have achieved an annual net gain in 
wetland conservation. We have protected over 36 million acres of 
fragile soils in the Conservation Reserve Program and another 135 
million acres of highly erodible soils are protected through the use of 
conservation plans. Various forms of conservation tillage and crop 
residue management are used on more than 60 percent of cropland in the 
country. The conservation revolution that has occurred on farms and 
ranches across the country is a remarkable accomplishment in a 
relatively short period of time. Farmers and ranchers have proven that 
incentive-based partnerships work. We believe that nutrient management 
can and should be approached in a similar manner.
    Farm Bureau is troubled that much of the justification for the 
administration's Clean Water Action Plan (CWAP) is drawn largely on the 
EPA's National Water Quality Inventory.\1\ This report indicates that 
agriculture is responsible for over 70 percent of the pollution in our 
Nation's surface water. A closer look at the numbers in this report 
indicates that they are deceiving, scientifically indefensible, and 
result in strong biases against agriculture.
---------------------------------------------------------------------------
    \1\ The inventory is a summary of State reports more commonly known 
as the 305(b) reports. These reports are required every 2 years by 
section 305(b) of the Clean Water Act.
---------------------------------------------------------------------------
    The U.S. Geological Survey in their 1993 scientific assessment of 
national water-quality trends indicated that the National Water Quality 
Inventory (State 305(b) reports) is so severely flawed and 
scientifically invalid that it could not be used to summarize water 
quality conditions and trends. However, the EPA continues to use State 
305(b) reports even though they readily admit the use of drive-by 
assessments and the existence of biased data. The misperceptions 
continually left by their reports show that there is a national water 
quality crisis, that inconsistent and inadequate State programs are 
failures, and that agriculture pollutes 70 percent of the Nation's 
streams.
    Farm Bureau has carefully reviewed EPA's 1990, 1992, 1994 and 1996 
National Water Quality Inventories and our analysis shows that what the 
EPA doesn't tell, and/or glosses over, in their reports is more 
revealing than the perception EPA tries to leave with the casual 
observer. In fact, Table 1 shows that EPA has no data for the seven 
agricultural subcategories in 35 States, tribes, and territories, but 
still publicizes a total for the number of miles of streams and rivers 
supposedly impaired by agriculture.
    In EPA's report to Congress,\2\ it acknowledges that the assessment 
methods used by the States are terribly lacking. In fact, EPA's report 
is largely devoid of scientifically defensible data. Despite the 
original intent, the U.S. Geological Survey scientists in an article in 
Environment,\3\ indicated that EPA's National Water Quality Inventory 
is so severely flawed and scientifically invalid that it could not be 
used to summarize water quality conditions and trends. Farm Bureau is 
very concerned that if the data used to develop the Inventory is so 
severely flawed and unscientific that it can not be trusted, policy 
makers likewise should reserve policy decisions based on such faulty 
technical information.
---------------------------------------------------------------------------
    \2\ National Water Quality Inventory, 1992, Report to Congress, 
Chapter 1, pages 6-7.
    \3\ Environment, Vol. 35, Number 1, January/February, 1993, pages 
19-20.
---------------------------------------------------------------------------
    Unfortunately, as with many issues, perception and reality often 
tend to reach different conclusions. Despite the misperceptions, all 
indications are that surface water quality is improving and the trend 
will more than likely continue in that direction for some time. (See 
Attachment #1--Summary--Trends in Stream Water quality in the United 
States.\4\)
---------------------------------------------------------------------------
    \4\ ``Stream Water Quality in the Conterminous United States--
Status and Trends of Selected Indicators During the 1980s,'' by Richard 
A. Smith, Richard B. Alexander, and Kenneth J. Lanfear, U.S. Geological 
Survey, 1993.
---------------------------------------------------------------------------
    Recently, both livestock and crop farmers have come under attack 
for supposedly contributing excessive amounts of nutrients to the 
Nation's streams and rivers. If nutrients from agriculture were 
contaminating our rivers and streams on a large scale and doing so in 
increasing amount and frequency then it would be reasonable to expect 
that the nutrients would be showing up in increasing amounts at the 
mouth of the Mississippi River. However, since 1983, the nitrate trend 
in the Mississippi River has been just the opposite. In fact, the total 
mass of nitrate-nitrogen delivered to the Gulf has been decreasing.
    The decline in nitrate cannot be attributed to publicly owned 
treatment works (POTWs), precipitation or wildlife populations. POTWs 
are serving an increasing population but, with few exceptions, have no 
restrictions or requirements for treating or reducing nitrate. Those 
that are required to treat ammonia simply convert it to nitrate and 
discharge it. Overall, the nitrate contained in precipitation 
(atmospheric deposition) should have stayed the same or increased since 
the average amount of precipitation has increased.\5\ Wildlife 
populations have increased also, so their output of nitrogen has 
increased. Therefore, since nitrate from these three sources has 
increased, there must have been a clear decrease in one or more of the 
other four major potential sources of nitrate, i.e., nutrients from 
manure, oxidation of the soil's natural organic matter, nitrogen from 
legume crops and/or nitrogen fertilizer.
---------------------------------------------------------------------------
    \5\Williams, J., M. Nearing, A. Nicks, E. Skidmore, C. Valentin, K. 
King, and R. Savabi. Using soil erosion models for global change 
studies. Journal of Soil and Water Conservation, 51 (4): 381-385.
---------------------------------------------------------------------------
    Since the POTWs, precipitation, and wildlife are increasing their 
output of nitrogen to the streams, that means that farmers are the only 
ones that have done anything at all to reduce the amount of nitrate 
flowing into the Gulf of Mexico. Farmers have learned to do things 
better, faster, cheaper and more efficiently compared to the way they 
did things in the 1960s and 1970s. All of this reduction occurred as a 
result of incentive programs and market forces rather than rigid 
compliance with Federal permits.
    There are three distinct periods of nitrate-nitrogen flux entering 
the Gulf of Mexico from the Mississippi River since 1955. The first 
period is for 12 years, from 1955 to 1966. Loadings ranged from 0.44 to 
0.18 million metric tons per year. Interestingly, the trend for that 
period was headed down, see Figure 1.\6\ Each year during this first 
decade, the nitrate-nitrogen levels decreased by an average of 17 
thousand metric tons (this is the slope of the trend line).
---------------------------------------------------------------------------
    \6\ This trend line utilizes indicator variables to reference the 
three time periods and has a coefficient of determination, or r\2\, of 
0.82. The closer the r\2\ is to 1.0, the greater the relationship 
between the independent variable (years) and dependent variable 
(nitrate loadings).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    However, things changed in the mid-1960s and the nitrate-nitrogen 
loadings, while varying from year to year, increased steadily and 
dramatically to about 1.25 million metric tons per year by 1983.\7\ 
During this 17-year period, nitrate-nitrogen loadings increased 
annually, on average, by 46 thousand metric tons (slope of the line).
---------------------------------------------------------------------------
    \7\ Source: U.S.G.S.
---------------------------------------------------------------------------
    Almost as suddenly as conditions had changed in 1966, the situation 
changed again in 1984. Scientifically-monitored data from U.S. 
Geological Survey indicates that nitrate-nitrogen loadings have fallen 
dramatically. In other words, except for the flood of 1993, the trend 
has been downward since 1984 (the slope returns back down to an annual 
decrease of 17 thousand metric tons each year) \8\. This data indicate 
nitrate-nitrogen loading began to decrease more than 15 years ago and 
appears to indicate that there is not a nitrate crisis in the 
Mississippi River.
---------------------------------------------------------------------------
    \8\ For this period, the drought years of 1987 and 1988 were 
treated as extreme events as was the flood year of 1993. These three 
data points were treated as outliers.
---------------------------------------------------------------------------
    So what happened? At least three major factors converged in the 
early 1980s and began to play themselves out together:
    1. The farm economy was very volatile. Many farmers overextended 
their land holdings during the high interest rates of the 1970s as they 
planted to meet the growing demands of a world market. Then an embargo 
was placed onto grain exports to Russia. Meanwhile, energy prices 
escalated rapidly and increased the cost of fertilizer causing farmers 
to pay closer attention to the amount of nitrogen fertilizer they 
applied. Farm debt load was high, grain crops were in surplus and 
prices were low. Variable expenditures, such as fertilizer, were one of 
the few things that farmers could control and they watched these 
expenses carefully. Nitrogen fertilizer use leveled off at 10 to 12 
million tons per year and has stayed around that level ever since.
    2. Corn researchers continued to produce hybrids that increased 
yield and increased their ability to use nitrogen fertilizer. In fact, 
on a 5-year rolling average, the number of pounds of nitrogen 
fertilizer applied to grow a bushel of corn has declined 22 percent 
from a high of 1.31 lbs. N/bushel produced in 1984, down to 1.02 lbs. 
N/bushel in 1998.\9\
---------------------------------------------------------------------------
    \9\ Sources: Phosphate and Potash Institute, and USDA.
---------------------------------------------------------------------------
    3. In the late 1980s, research produced a new late spring soil 
nitrogen test and began to show when farmers need not apply additional 
fertilizer and to what degree to apply it if it was needed. This test 
has received widespread use in Iowa.\10\ The results of using the test 
may be beginning to show up as a part of the downward trend in the 
concentration of total nitrogen in the Iowa River. This finding was 
part of a recent report published by the U.S. Geological Survey which 
analyzed 20 years of river data from 1974-1994.\11\
---------------------------------------------------------------------------
    \10\ Iowa State University. Nitrogen fertilizer recommendations for 
corn in Iowa. Pm-1714, May 1997.
    \11\ Lurry, D.L. and D.D. Dunn. Trends in nutrient concentration 
and load for streams in the Mississippi River Basin, 1974-1994. U.S. 
Geological Survey. Water Resources Investigations Report 97-4223.
---------------------------------------------------------------------------
    Farm Bureau believes these examples exemplify market-based 
approaches and financial incentives which provide the proper 
foundation.
    In conclusion, there is growing awareness that cooperative 
approaches are likely to be more effective in producing further gains 
in environmental compliance and improvements. ``Quite simply, it is 
more effective to prevent pollution than to punish violations after 
they occur, to harness market forces rather than to rely solely on 
command-and-control directives, and to respond affirmatively to firms 
that seek partnerships to advance environmental priorities in harmony 
with economic activity.'' \12\
---------------------------------------------------------------------------
    \12\ Reinventing EPA Enforcement, Theodore L. Garrett, Natural 
Resources and Environment, American Bar Association.
---------------------------------------------------------------------------
    It is critical that adequate Federal resources be allocated to 
address remaining water quality challenges. Collectively, we have spent 
over $100 billion over 26 years in dealing primarily with urban point 
sources of pollution, which, by all accounts, have only achieved a 35 
percent reduction in total nitrogen discharges from POTWs. As priority 
now shifts to nonpoint sources, resources should shift as well. The 
State Revolving Loan Fund should be retargeted to rural areas and 
additional funding should be allocated to better water quality 
monitoring, technical assistance and cost-share programs rather than 
new regulatory programs at the Federal level that compete for already 
scarce dollars.
                 strategy for animal feeding operations
    EPA and USDA-NRCS have issued their Unified National Strategy for 
Animal Feeding Operations. This strategy would expand permit-based 
regulation to an increased number of livestock farms and would also 
require them to prepare and implement nutrient management plans. This 
strategy also encourages all farms with livestock to engage in a 
voluntary nutrient management program with cost assistance. The 
strategy targets for regulation those concentrated animal feeding 
operations (CAFOs) that have not yet been regulated, other livestock 
farms that do not comply with best management practices for water 
quality and farms that are located in ``sensitive'' watersheds. These 
last two criteria can be used to increase the number of livestock 
facilities being designated as CAFOs and subject to a permit, by 
including farms that have fewer than the CAFO definition of 1,000 
``animal units'' on a farm.
    Comments submitted by AFBF express farmer concerns about the 
increased scope of regulatory authority, the expansion of permit-based 
regulation, and the adequacy of the water quality data. The voluntary, 
incentive-based portion of the strategy recognizes the needs of 
agricultural businesses and can work to protect and improve water 
quality if properly funded. The financial burden on farmers to develop 
and implement nutrient management planning, whether required or 
voluntary, is a major limiting factor. At this time of low commodity 
prices farmers are unable to invest in capital-intensive water quality 
protection. Enhanced Federal and State resources are necessary for NRCS 
staffing and for cost-share assistance to farmers. The strategy's 
approach for expanding regulation over a greater number of farms makes 
accurate water quality data a crucial concern to farmers across the 
country.
    Our comments to EPA and USDA on the Strategy and to EPA on the 
Region 6 general permits are attached.
    What is needed are additional resources better targeted to impaired 
watersheds and directed at on-the-ground activities and practices that 
will result in further water quality improvements. Agricultural 
research, technical assistance and conservation initiatives are keys to 
continued agricultural abundance. We look forward to working with 
members of this committee to develop the concepts and framework needed 
to achieve balanced resource conservation.
                               __________

                              ATTACHMENT 1

                                Summary
               trends in stream water quality in the u.s.
    The United States Geological Survey, in a study, Trends in Stream 
Water Quality in U.S.,\1\ has found that traditional indicators provide 
evidence of improvement in stream water quality during the decade of 
the 1980s, when the economy and population showed significant growth. 
The scientific assessment of national water quality from 1980 to 1989 
by USGS indicates:
---------------------------------------------------------------------------
    \1\ ``Stream Water Quality in the Conterminous United States--
Status and Trends of Selected Indicators During the 1980s,'' by Richard 
A. Smith, Richard B. Alexander, and Kenneth J. Lanfear, U.S. Geological 
Survey, 1993.
---------------------------------------------------------------------------
    <bullet> The National Water Quality Inventory (State 305(b) 
reports) is severely flawed and scientifically invalid. EPA's inventory 
cannot be used to summarize water quality conditions and trends.
    <bullet> Dissolved-oxygen concentrations changed little from 1980 
to 1989, but streams in urban areas showed slight improvement in 
dissolved-oxygen conditions, possibly reflecting improvements in point-
source controls. Among the four land-use types (agriculture, forest, 
range and urban) the average concentration of dissolved oxygen were 
lowest at stations in urban areas.
    <bullet> Nitrate concentrations and yields remained nearly constant 
nationally, but they declined in a number of streams draining 
agricultural areas where nitrate levels have been historically high.
    <bullet> Total-phosphorus decreased slightly in all land-use 
classes. Decreases in total-phosphorus yield were greatest in the 
agricultural and range land-use areas.
    <bullet> Suspended-sediment concentrations and yields decreased 
slightly in most of the country, and the quantity of suspended sediment 
transported to coastal segments decreased or remained the same in all 
but the North Atlantic region. The steepest declines occurred in areas 
dominated by range and agricultural land.
    <bullet> Concentrations of the toxic elements arsenic, cadmium, and 
lead and the organic compounds chlordane, dieldrin, DDT, toxaphene, and 
total PCB's all declined significantly.
    <bullet> Trends suggest that control of point and non-point sources 
of fecal coliform bacteria improved over the course of the decade.
    <bullet> Downward trends of dissolved solids were especially common 
in the central part of the country, the Pacific Northwest, and far 
southwestern United States, whereas upward trends were most common in 
drainage to the Gulf of Mexico and Atlantic Ocean.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       re: comments on the unified national strategy for animal 
                           feeding operations
    The American Farm Bureau Federation is the Nation's largest general 
farm organization, representing producers of virtually every commodity 
grown or raised commercially in the United States. Our members are 
concerned about our environment and have a long history of implementing 
sound conservation practices in partnership with government. 
Agriculture has made substantial investments over the last dozen years 
through numerous incentive-based programs that are paying significant 
dividends in improved water quality. We believe that the trend is in 
the direction of continued improvement in water quality. While there 
may be site-specific problems in the livestock sector, these problems 
are manageable and we therefore question the need and authority for a 
``significant expansion'' of regulatory efforts as proposed by this 
strategy.
    The draft AFO strategy raises a number of specific concerns and 
questions that must be addressed if we are to achieve the desired goal 
of protecting water quality in the most economical, most practical, and 
least burdensome way for farmers and ranchers. A more detailed account 
of these concerns follows.
                 improper redefinition of afo and cafo
    The Clean Water Act (CWA) conferred broad power upon the EPA to 
regulate point sources and that CAFOs are deemed to be point sources 
under the CWA. On the other hand, AFOs are largely unregulated, and EPA 
does not have the statutory authority to regulate them. The CWA does 
not define the terms ``CAFO'' or ``AFO.'' Rather, EPA defined both the 
terms through regulations. Through the AFO strategy, it appears that 
EPA is planning on expanding the definition of CAFOs to include 
operations that have not historically been treated as CAFOs but rather 
as AFOs or simply as agricultural stormwater runoff. To the extent that 
this can be achieved lawfully, EPA must go through the formal 
rulemaking procedures. However, EPA's ability to expand the definition 
of CAFO is restricted by congressional intent.
    In the CWA Congress intended to control the release of ``end-of-
pipe'' effluents from CAFOs, in that only those CAFOs which would 
collect and concentrate waste for discharge through a definite point 
source outlet would qualify as point sources under the definition and 
be subject to the NPDES permitting program. Accordingly, the AFO 
strategy is unlawful to the extent that it seeks to treat runoff from 
precipitation as a type of discharge that can be regulated under the 
NPDES program. Indeed, it is our position that a facility may not be 
deemed to be a CAFO simply because precipitation-induced runoff from 
fields upon which animal wastes have been applied leads to pollutants 
entering waters of the United States. The proposed strategy seeks to 
regulate the application of manure by a farmer to his fields.
    EPA's proposal to condition permits on the adoption of certain best 
management practices, such as the application of manure at agronomic 
rates, clearly exceeds the authority delegated to the agency by 
Congress to address nonpoint sources of pollution. EPA's position that 
stormwater runoff from fields on which animal wastes have been applied 
represents a point source of pollution is clearly unreasonable in light 
of the overall regulatory focus of the CWA. Any move by EPA to include 
such conditions in NPDES permits would therefore be an unlawful 
circumvention of Congress' implicit prohibition against the control of 
nonpoint sources of pollution through direct Federal regulation.
              confusion regarding those who are regulated
    There is confusion and a lack of awareness by individual producers 
about the requirements of the NPDES program and any obligations with 
which they might have to comply. This is largely due to the view held 
by most States that the CAFO requirements did not apply to agricultural 
livestock operations, regardless of the number of animals, if they 
produced crops and feed on the farm and had sufficient land to spread 
the manure. According to the prevailing view, these were simply dairy, 
hog, poultry and other types of farms, not ``animal feeding 
operations.'' The draft AFO strategy seems to indicate otherwise and 
does not make clear how these producers are supposed to definitively 
determine whether they are subject to regulation.
    The confusion surrounding the definitions of AFO and CAFO naturally 
leads to differing interpretations and the draft AFO strategy simply 
exacerbates this confusion. The draft AFO strategy should aim to 
clarify the definitions of AFO and CAFO and the obligations of those 
subject to the corresponding regulations. Otherwise, with the CWA's 
dual administrative and enforcement authority whereby both EPA and 
those properly delegated states may administer and enforce the NPDES 
program, farmers are likely to be caught in the middle of a fight 
between the States and the Federal Government regarding their 
obligations under the CAFO regulations.
               expansion of the npdes permitting program
    We are concerned about the intention to expand current NPDES 
permitting to include a larger number of facilities below the 1,000 AU 
threshold. While EPA currently has the regulatory authority to require 
certain AFOs to obtain NPDES permits, we believe that this authority is 
limited to the very few AFOs that discharge pollutants from their 
confinement areas to waters of the United States. We also believe that 
the draft AFO strategy's intent to regulate a significant number of 
AFOs below the 1,000 AU threshold is neither justified nor is it the 
most effective means to achieve progress on the ground. Indeed, the 
magnitude of such a change would require significantly more resources 
for a program that has been historically a low priority of the States 
because of the lack of adequate resources. EPA and USDA have set up the 
States and farmers for failure. It will be a monumental task for State 
water quality agencies to permit those confinement operations above 
1,000 AUs, let alone permit operations with fewer than 1,000 AUs. The 
financing for farm assistance and for necessary staff is not available 
to accomplish this goal.
    Furthermore, the development of the Unified Watershed Assessment 
ties future nonpoint source funding from EPA to those watersheds listed 
as impaired. With the amount of watersheds that have been listed by 
States, the connection between the Unified Watershed Assessment and the 
AFO strategy means that more livestock operations will be subject to 
regulation, putting a greater strain on resources.
                  need for improved water quality data
    Data collection is given a very high priority in the AFO strategy. 
This data and ``information'' is ostensibly collected for several 
reasons, including better decision-making, enforcement and public 
information. The AFO strategy proposes to collect information on the 
location, characteristics, size, type of animals and environmental 
impacts of animal feeding operations from a variety of databases, 
including the Department of Agriculture. This information will then be 
cross-referenced with data on impaired and priority water bodies. We 
are concerned from two standpoints about this approach.
    First, the collection of data on animal feeding operations (farms 
and ranches) is a general cause for concern from the standpoint of an 
individual's right to privacy and the potential misuse or abuse of data 
and other information.
    We are very troubled about the potential for abuse and or misuse of 
this information by individuals or groups with other agendas or who 
simply do not understand agricultural practices. Furthermore, the 
information collected and made available to the public will not be 
limited to just those operations over the 1,000 AU threshold, thus 
potentially subjecting all farms with livestock to criticism or 
harassment over their farming practices. We strongly support an 
approach that protects private information as a necessary component to 
the development of efforts to protect agricultural water quality.
    Second, the collection of data on livestock farming operations via 
the USDA database of farm program participants presents another very 
serious concern. The EPA has attempted to obtain information about 
livestock farming operations from databases of participants in USDA 
programs such as NRCS technical assistance and the Environmental 
Quality Incentives Program (EQIP). This is very disturbing and presents 
a serious threat to the continued success of voluntary incentive-based 
programs like EQIP, the Wetland Reserve program, the Conservation 
Reserve Program and other similar initiatives. The great conservation 
gains in the recent years that will have direct long-term benefits for 
water quality have come through voluntary, incentive-based approaches 
associated with farm programs, not through regulatory programs under 
the CWA. The success of those initiatives is due in large part to the 
long history of voluntary partnerships between farmers, ranchers and 
the Department of Agriculture. Over the last half-century, a unique 
relationship has developed between the USDA, specifically the Natural 
Resources Conservation Service (NRCS), and farmers and ranchers. It is 
a relationship built and sustained on trust, confidential advice, 
information and technical assistance. That unique relationship is 
seriously breached when access to confidential, voluntarily provided 
farm-specific information is granted to other agencies for regulatory 
purposes or for the purpose of generally informing the public. 
Additionally, NRCS's traditional role must be protected. NRCS autonomy 
must be clearly established with relation to the regulatory role of 
other government agencies. We appreciate the NRCS-issued policy 
statement that prohibits the release of site-specific information in 
conservation plans and case files.
    Lastly, while we generally agree with the approach of targeting 
priority watersheds first, the water quality data on which this 
approach is premised is inadequate. Farm Bureau has extensively 
reviewed the agency's 1990, 1992, and 1994 National Water Quality 
Inventories. In the agency's subsequent report to Congress, it 
acknowledges the weakness in the assessment methodology. The U.S. 
Geological Survey has stated in published reports that the National 
Water Quality Inventory data is so severely flawed and scientifically 
invalid that it could not be used to summarize water quality conditions 
and trends. The fundamental problem with the information from the State 
section 305(b) reports is the overall low priority and limited 
resources States place on water quality monitoring. The reasons the 
National Water Quality Inventory report numbers are so contentious is 
because:
    (1) There is no scientific, national random sample taken to assess 
river miles;
    (2) States tend to assess water bodies with suspected problems;
    (3) Scientific monitoring accounts for less than 40 percent of the 
reported data;
    (4) More than 42 percent of the data is based on visual evaluation 
of a water body;
    (5) Data may be several years old;
    (6) Data is often double- and triple-counted;
    (7) There is unscientific source attribution;
    (8) No consideration is given to natural background levels; and
    (9) No assessment is made of stream morphology (natural erosion).
    Unfortunately, as with many issues, perception and reality often 
tend to reach different conclusions. Despite the perceptions, all 
indications are that surface water quality is improving and the trend 
will more than likely continue in that direction for some time. For 
these reasons, we are concerned that this data is not reliable and that 
policy decisions surrounding the AFO strategy should be made very 
carefully and with the fundamental weakness of the National Water 
Quality Inventory in mind. The agency should make all efforts to 
support its decision-making with scientifically valid monitoring data.
                      resources and implementation
    The AFO strategy proposes to inspect all priority CAFOs within 3 
years and all CAFOs within 5 years. In addition, it seeks to 
``significantly expand'' permitting by targeting the largest CAFOs by 
2003 and all others by 2005. We seriously question whether the agency 
and the States have sufficient financial and personnel resources to 
accomplish that task within those time frames. But we strongly believe 
the industry does not have the resources to meet those goals. We have 
spent over $100 billion in the last 26 years to address point source 
discharges from primarily urban and suburban facilities, principally 
publicly owned treatment works. The resources devoted to rural point 
and nonpoint efforts have come largely through the agricultural 
programs and some CWA section 319 grants to States. The spending has 
been woefully inadequate. Given the enormity of the task, it is 
inappropriate to establish such an ambitious time frame for compliance 
and enforcement without the necessary resources to accomplish the task.
                       regulation vs. incentives
    We strongly believe that the approach of significantly expanding 
the CAFO program moves in the wrong direction. Not only do we believe 
the agency's recent efforts to expand the scope of regulated activities 
goes beyond congressional intent, but we believe as a matter of policy 
it is more appropriate to address these inherently nonpoint source 
issues through incentive-based programs rather than through increased 
regulation and permitting. The voluntary program as outlined in the AFO 
strategy can work to assist farmers in their efforts to improve water 
quality. The usual problem is in securing the necessary financial 
commitment of government assistance to allow the farmer to implement a 
CNMP. We are strongly concerned that farmers will bear the blame for a 
plan's failure, when in reality the problem is the result of a lack of 
government resources and financial incentives.
    Additional sources of funding to assist producers must be 
developed. Existing authorities, such as the section 319 grants 
program, the Clean Water State Revolving Fund, and the Environmental 
Quality Incentives Program (EQIP) must be directed and funded to meet 
the growing need for assistance.
                             state primacy
    The efforts of farmers, conservationists, local governments, and 
State governments must not be undermined or hampered by the development 
and implementation of this strategy. Individual States have responded 
strongly to water quality issues and are working cooperatively with 
their agricultural community on effective programs to improve water 
quality while maintaining farm businesses. In New York, the New York 
City Watershed Agricultural Program and the Skaneateles Lake Watershed 
Agricultural Program and in Iowa the Raccoon River Watershed Program 
are working examples of cooperative, voluntary, and incentive based 
programs formed for the purpose of maintaining public drinking water 
quality. Other States are engaged in similar watershed based efforts 
source pollution in the Clean Water Act must be recognized.
                               conclusion
    Agricultural producers have achieved extraordinary conservation 
gains through voluntary, incentive-based programs to conserve fragile 
soils and wetlands and to protect water quality and wildlife habitat. 
We urge the agency to rethink its approach outlined in the draft AFO 
strategy and to expand the use of its incentive-oriented program to 
address the larger issue of nutrient management and nonpoint source 
runoff. The solution to livestock environmental problems is to develop 
policies which completely utilize all organic residuals as resources. 
This will not happen under the draft AFO strategy. The draft strategy 
incorrectly assumes that more of the current regulatory system will 
solve the problems. We can only improve water quality protection in 
agriculture when a farmer-oriented plan that is based upon economic 
reality and properly supported by government incentives is developed 
and implemented.
                                 ______
                                 
 Statement of the Associated General Contractors of America Regarding 
Clean Water Action Plan Before the Senate Environment and Public Works 
                               Committee
    The Associated General Contractors of America (AGC) appreciates the 
opportunity to submit testimony questioning the Administration's Clean 
Water Action Plan. The plan, as announced by President Clinton in the 
1998 State of the Union address and detailed in the president's budget 
submission should concern all Americans. This proposal would divert 
money from the successful State Revolving Fund (SRF) programs and limit 
each State's ability to utilize SRF money to address the most important 
environmental problems in the State. More importantly, this diversion 
of funds from proven, successful and needed programs that provide clean 
water to new less tangible programs could restrict each State's ability 
to meet Federal drinking and wastewater treatment standards.
    The Clean Water Action Plan (CWAP) would change the Nation's 
wetlands policy from ``no net loss'' to increasing wetlands by 100,000 
acres. It also focuses on agricultural runoff as a source of pollution. 
Most of these activities are already eligible for funding from the 
State revolving funds, but at the State's discretion. States are free 
to use their revolving funds to create and implement non point source 
management programs and to preserve and protect estuaries under the 
national estuary program. The CWAP would simply limit each State's 
ability to determine priorities. The SRFs have been successful 
programs. Do not let them be hamstrung by another dictate from 
Washington.
    The Clean Water State Revolving Fund (CWSRF) and the Drinking Water 
State Revolving Fund (DWSRF) were created by Congress to provide for 
the treatment of wastewater and to provide safe drinking water to all 
areas of the country. These programs have had a dramatic effect, 
providing wastewater treatment to 190 million people and safe drinking 
water to an estimated 243 million people.
    Despite the obvious successes, the estimated 20-year needs for 
these programs continue to grow. In 1988, EPA estimated that it would 
require $83.5 billion to meet the country's projected wastewater needs. 
In 1996, EPA estimated the country's 20-year (2016) wastewater needs to 
be $139.5 billion. Unofficial EPA estimates for 1999 show about $200 
billion in wastewater needs (a 240 percent increase in estimated needs 
since 1988). Private estimates of wastewater needs are even more 
staggering--$330 billion, or four times the 1988 estimates. Private 
estimates of drinking water needs are $325 billion. However, the 
Federal commitment thus far would address little more than 2 percent of 
the combined wastewater and drinking water needs. By 1997, Federal 
capitalization of this program has been $ 13.2 billion, which States 
have grown to $24 billion through bond issues and payments of 
principles.\1\ Clearly the needs of this program have overrun original 
estimates, but the overall goal of providing communities with 
wastewater treatment facilities is succeeding. These programs are 
stretched thin to meet the demonstrated needs and should not be seen as 
a piggy bank to finance new programs.
---------------------------------------------------------------------------
    \1\ ``State Revolving Fund: A Decade of Successful SRF Performance 
1987-1997'' Council of Infrastructure Financing Authorities and 
Environmental Financial Advisory Board.
---------------------------------------------------------------------------
    Despite the extensive needs and tremendous support from the 
American people, President Clinton's fiscal year 2000 budget proposed 
cutting the Clean Water State Revolving Fund from $1.35 billion to $800 
million, a $550 million reduction. It is unthinkable that as needs 
continue to grow President Clinton would cut the funding by 41 percent. 
The President should have recommended an increase not a decrease in 
these funds.
    The second assault on the State revolving fund programs was the 
proposed Clean Water Action Plan. The proposed plan was drafted as a 
legislative rider to the appropriations bill, not as part of a needed 
reauthorization of the Clean Water Act, which expired in 1994. It would 
focus on nonpoint source issues, which are already eligible for funding 
from the State revolving funds. EPA's proposal would actually restrict 
the States' ability to address their own most pressing environmental 
needs. In addition, EPA is asking Congress to sanction a program EPA 
has been promoting for years. Since the lapse in the Clean Water Act 
authorization, AGC has been highly critical of the Administration's 
failure to support reauthorization legislation, and to stonewall 
Congressional initiatives.
    Equally disturbing is a new proposal by Senator Ron Wyden to direct 
``a significant portion'' of the CWSRF funding to promote ``smart 
growth'' of cities and suburbs. Senator Wyden has said the plan would 
``set aside a portion of clean water dollars and then invite applicants 
to produce creative homegrown solutions to urban sprawl.'' \2\ With the 
mounting wastewater needs, this is hardly the time to divert the 
precious and limited funding from these critical State revolving funds. 
This program is too important to short-change in favor of the latest 
political campaign fad.
---------------------------------------------------------------------------
    \2\ Senator Ron Wyden's comments to the Environmental Media 
Services news breakfast.
---------------------------------------------------------------------------
    AGC believes that the Nation's clean water program should be viewed 
for what it truly is--an investment in the future health and economic 
viability of the Nation. Each $1 billion invested in the construction 
of wastewater facilities generates some 52,000 new jobs. Even more 
importantly, wastewater treatment creates opportunities for economic 
development in communities by allowing new industries and new homes to 
locate there. These facilities are fundamental elements of the Nation's 
environmental infrastructure. At this time, when our global competitors 
are recognizing the importance of infrastructure as the vital 
foundation on which future economic growth is based, the United States 
must provide the needed capital investment to allow our Nation to 
thrive.
    The 1972 Clean Water Act created a Federal grant program that was, 
in 1987, transformed into the Clean Water State Revolving Fund program 
to fund the construction and modernization of municipal sewage plants. 
Congress recognized that simply funding grants was not leveraging the 
government's funds effectively. Low-cost loans are provided to local 
governments to finance needed facilities. The loans are then repaid and 
new loans are made from the CWSRF.
    The Drinking Water State Revolving Fund originated in the Safe 
Drinking ter Act Amendments of 1996. The program, which operates like 
the Clean Water State Revolving Fund, assists public water systems to 
finance the costs of infrastructure needed to achieve or maintain 
compliance with the Safe Drinking Water Act requirements and to protect 
public health.
    AGC is proud of the role the construction industry has played in 
improving water quality. Our members build and rehabilitate the 
facilities financed by these two programs, both of which have been 
responsible for significant water quality improvement. Since enactment 
of the Clean Water Act in 1972, water quality has improved 
significantly on over 50,000 miles of waterway. Streams and lakes, once 
devoid of fish and other aquatic life, now support abundant and varied 
populations. The foundation for many of these environmental 
improvements is in the construction grants program and the SRF 
programs.
    The needs, however, are still staggering. In the Environmental 
Protection Agency's (EPA) first report to Congress in January, 1997 
entitled Drinking Water Infrastructure Needs Survey, the EPA reported 
that the Nation's 55,000 community water systems must invest a minimum 
of $138.4 billion over the next 20 years to install, upgrade, or 
replace the infrastructure. Of this total, $12.1 billion is needed 
immediately to meet current Safe Drinking Water Act (SDWA) mandates. 
The EPA's report is a conservative estimate because many of the systems 
surveyed were unable to identify all of their needs for the full 20-
year period.
    In fact, a more complete and independent study released in October 
of last year by the American Water Works Association (AWWA) found that 
the capital investment needs for the water supply community over the 
next 20 years is $325 billion.\3\ The EPA's emphasis in their survey 
was on identifying the utility investment needed to comply with the 
Federal mandates issued under the Safe Drinking Water Act Amendments 
(SDWAA), so that Congress could better understand the costs imposed by 
Federal drinking water regulations. The objective of the AWWA 
investigation, on the other hand, was to examine the longer-term 
infrastructure investment requirements of U.S. water utilities, 
regardless of whether they are directed at current or future needs over 
the 20-year period.
---------------------------------------------------------------------------
    \3\ American Water Works Association: Infrastructure Needs for the 
Public Water Supply Sector, October, 1998.
---------------------------------------------------------------------------
    Even if we use EPA's estimates, the water infrastructure needs are 
overwhelming. EPA's report indicates that the largest category of need 
is installation and rehabilitation of transmission and distribution 
systems--$77.2 billion. Aging, deteriorating pipes can allow water in 
the distribution system to become contaminated, leading to illnesses 
from ingestion of waterborne pathogens as well as interruptions in 
water service. Most needs in this category involve the extraction and 
replacement of existing pipe.
    The second largest category is treatment, constituting a total 20-
year need of $36.2 billion. Storage needs are the third largest 
category at $12.1 billion. The fourth category of need is source 
rehabilitation and development, estimated at $11.0 billion. An 
additional $1.9 billion in need is categorized as ``other.''
    In addition to the extensive capital needs, the American public is 
very concerned about water quality and supports the Federal Government 
investing in the effort to clean up our water supply. In a recent 
survey commissioned by the Rebuild America Coalition, 66 percent of the 
American people from all regions and areas of the country describe 
spending on America's infrastructure as a ``strong investment in 
America.'' 74 percent are even willing to pay 1 percent more in taxes 
if it meant you could guarantee a safe and efficient sewage and water 
treatment system. The support transcends party lines, carrying 
overwhelming support from Republicans, Independents and Democrats (see 
attached document).
    AGC believes in these times of economic prosperity, and with the 
increasing needs in our Nation's drinking water and wastewater, now is 
not the time for the Federal Government to lessen its commitment to 
clean water. Toward that end, AGC urges Congress to appropriate stable 
annual funding for the Clean Water State Revolving Fund and for the 
Drinking Water State Revolving Fund. In addition, this funding should 
not reduce the State's flexibility to spend this money its individual 
priorities.
                                 ______
                                 
                                   Atlanta Audubon Society,
                                                      June 2, 1999.
Georgia Forestry Association,
Norcross, GA.
    Dear Georgia Forestry Community: On behalf of Audubon, I commend 
Georgia's Forestry community on the completion of the recent revision 
of voluntary forestry Best Management Practices (BMP). The effort was 
the most comprehensive review of forestry BMPs ever undertaken in 
Georgia and included input from some members of the conservatin 
community as well as the forest products industry, Federal, and State 
biologists and officials.
    The new Georgia BMPs for forestry are a step in the right 
direction, significantly strengthening protection of the State's water 
quality related to the potential impact of timber harvesting and other 
activities. By working together:
    <bullet> We agreed to stop clear cutting the Streamside Management 
Zone;
    <bullet> We added protection for ephemeral streams;
    <bullet> We improved protection for trout streams;
    <bullet> We included recent Federal law for site preparation in 
wetlands and stream crossing requirements. And clearly distinguished 
legal requirements from voluntary practices by the use of the Justice 
Scales symbol;
    <bullet> We provided greater flexibility for on-the-ground 
professionals to apply their management judgement;
    <bullet> We included a strong recommendation for written plans with 
basic lay-out and planned actions to improve communication between the 
landowner and forest professionals;
    <bullet> We included recommendations on other management objectives 
for Wildlife Management, Protected Species, Aesthetics and Sensitive 
Sites in addition to protecting water quality.
    As compared with other southern States, the industry has recorded a 
high level of compliance with forestry BMPs in the past. We look 
forward to continued emphasis on educating landowners, loggers and 
others to obtain greater compliance in the future with these more 
stringent BMPs.
    As Georgia's population continues to grow, there will be continued 
pressures on land use and the State's water quality. As members of the 
conservation community, we urge the forest products industry and other 
industries in the State to continue to review their activities for 
their potential impacts on the quality of Georgia's water and total 
environment.
    We join the forestry community in supporting voluntary Best 
Management Practices to protect our environment because it reduces 
regulation and government costs and allows greater flexibility to 
utilize new equipment and techniques.
            Sincerely,
                                           Lolly Lederberg,
                                President, Atlanta Audubon Society.
                                 ______
                                 
                       Letter from Michael Evans
                                                      May 11, 1999.
Senator John Chafee,
Environment and Public Works Committee,
Washington, DC.
    Dear Senator Chafee: I am writing to comment on the Clean Water 
Action Plan and it's implementation. First of all, I live in Wyoming, 
was born and raised here. My wife and I operate a small cattle ranch 
that has been in the same family for 103 years. We are both involved 
with State environmental organizations, and I am an elected supervisor 
for the local conservation district.
    These locally-controlled districts seem to be given the opportunity 
of implementing CWAP. I think it is a great chance for conservation 
districts to actually address water quality issues. I am disppointed 
that there has not been very much communication between representatives 
from EPA/USDA and local districts. I do not recall nor can I find any 
record of our district ever receiving any correspondence from anybody 
involved with CWAP at the Federal agencies.
    There are some conservation districts in Wyoming that have been 
monitoring water quality for several years. I am proud to say ours is 
one of them. For example, we are also involved in a collaborative 
effort involving 5 districts known as the Tri-County Watershed 
Assessment project. This is a significant effort to monitor some of the 
water bodies, in three major watersheds, that are on the 303d impaired 
list. The information obtained will be used to identify any problem 
areas that may exist and cooperative efforts established between the 
districts and land owner/producers to insure clean water quality. This 
project was established before CWAP came along. There are other 
watershed-based projects in Wyoming that districts arid CRM groups are 
involved in. It seems to me that what is already taking place in many 
Wyoming watersheds is what CWAP is all about. It would not take but a 
little effort, to expand on what is in place. These efforts should be 
credited and acknowledged by the powers to be in our benevolent Federal 
agencies. The lofty and desirable goals put forth in CWAP are what 
local conservation districts are all about.
    I think we are all missing the chance to involve Federal support 
and expertise with local commitment and effort. CWAP gives us a pretty 
good framework to work with, if there is any attempt, by all parties to 
avoid power and turf battles, some positive results would take place. I 
do think there is real commitment by the local districts, that I am 
aware of, to implement the Clean Water Act and not just get out of 
doing what needs to be done. There will always be the ``fox guarding 
the chicken house'' syndrome just as there will be the ``feds should 
leave us alone'' sentiment.
    I do not support the Wyoming Association of Conservation Districts 
directed litigation against CWAP. Like I said above, I think we are 
missing a chance to establish good working relationships which will 
hopefully lead to the protection and, if necessary, clean up of our 
water bodies. I also resent my local property tax dollars being used to 
sue Federal agencies which I help fund. I would also like to say that 
most Federal agency folks do not know what clean water looks like until 
they come and see it in Wyoming.
    I hope your oversight hearings strengthen the commitment to our 
water resources by involving both Federal and local conservation 
efforts. If you can come up with a process that actually implements 
CWAP through locally-led efforts I am all for it. I may be naive and 
Pollyanna about this but it seems possible to me. There are many 
analogies and lessons to be learned from the events taking place in 
Kosovo today. Ranchers in the west are but a small enclave. Too many of 
us are unwilling to change let alone admit that change is needed. Yet 
we have obviously done a pretty good job of stewardship, otherwise our 
land would not be coveted by all the folks who have gelded their region 
to the point where they require a change. Sadly that change is an easy 
escape for them, to simply move. For me, their choice requires major 
changes on my part. I personally am willing to make some of those 
changes. I and most people who live and work with the land know that in 
order to sustain a livelihood, we must protect the quality of all of 
our natural resources. Today for example while I was feeding my cows in 
one of our typical spring snow storms I had the privilege of observing 
Northern Goshawks. They along with a pair of Peregrine Falcons find 
this place good enough to tolerate along with my family.
    Regardless of what you and your committee hearings come up with, 
most people in Wyoming and their elected conservation district 
officials do care for the quality of our water and can and will do the 
best we can to maintain that quality. Perhaps with a little gentle 
prodding, CWAP can be implemented in the west. Remember, this is arid 
country, and if you are thirsty enough you will drink most any water. 
Especially if you work for EPA, are on a continental divide trail 
trekking vacation and the support vehicle with the Evian got lost. With 
that, I do not hope to be taken too lightly. I do hope that political 
considerations are set aside and with the use of credible water quality 
data this State's and this Nation's water is protected. Again CWAP is a 
good beginning.
    Good luck in your deliberations and thank you for considering my 
comments.
            Sincerely,
                                                     Michael Evans.
                                 ______
                                 
              Michigan Department of Environmental Quality,
                                                      May 12, 1999.
Hon. John H. Chafee, Chairman,
Senate Environment and Public Works Committee,
Washington, DC.

Hon. Max Baucus, Ranking Member,
Senate Environment and Public Works Committee
Washington, DC.

    Dear Senators Chafee and Baucus: I understand that the Senate 
Environment and Public Works Committee has scheduled a hearing with 
regard to the Clean Water Action Plan. I would like to share with you 
Michigan's comments which address concerns we have about a component of 
this plan--the final United States Department of Agriculture (USDA)/
United States Environmental Protection Agency (USEPA) Unified National 
Strategy for Animal Feeding Operations (Strategy) that was released on 
March 9, 1999.
    Michigan supports the concept of minimizing water quality and 
public health impacts, ensuring the long-term sustainability of animal 
agriculture, building on the strength of existing programs, and 
focusing technical and financial assistance to support animal feeding 
operations as outlined in the guiding principle of the Strategy. 
Although the Strategy suggests that the emphasis will be on voluntary 
efforts to achieve these goals, there are specific concerns that 
Michigan has with the final Strategy. These concerns include the 
Strategy's lack of flexibility to implement functionally equivalent 
measures that result in environmental protection and the fact that the 
Strategy places too much emphasis on a 'command arid control' 
regulatory approach. The Strategy is very prescriptive and permit 
oriented and thus does not lead to the establishment of a Federal and 
State partnership that is necessary for successful implementation. The 
Strategy will divert limited staff resources from higher priority 
programs. The Strategy also does not clearly define the environmental 
benefits and outcomes it is designed to achieve.
         state flexibility and functionally equivalent programs
    The Strategy does not provide for the flexibility to recognize 
functionally equivalent State programs that meet environmental goals 
and standards. The Strategy only recognizes functional equivalency 
``where a State can demonstrate that its program meets the requirements 
of an NPDES [National Pollutant Discharge Elimination System] 
program.'' This is a process, not an environmental goal. The 
establishment of a national performance standard is the best way for 
the USDA and the USEPA to promote and measure environmental protection.
    Michigan believes that all States must have the flexibility to 
implement their own functionally equivalent State strategies based on 
measures of environmental performance, not the mandated Federal 
process. Michigan supports the establishment of a national performance 
standard to promote and measure environmental protection. The 25-year, 
24-hour storm exemption is a well-recognized national standard and 
design criteria that provides a realistic and environmentally 
protective performance standard.
    Attachment 1 outlines what Michigan believes should be the 
components to determine a State program that is functionally 
equivalent. Basing a program on these components would provide more 
meaningful environmental protection than prescribing a ``one-size-fits-
all'' permit process.
                  environmental benefits and outcomes
    Michigan does not believe that addressing water quality issues 
associated with animal feeding operations should require a 
reprioritization of our water quality programs. Michigan is very 
concerned that the permit effort will be much greater than envisioned 
by the USEPA. Based on USEPA estimates, implementing the Strategy could 
require an additional 1,000 permits in Michigan, which would almost 
double our individual permits issued. We are not certain that the 
additional effort for permitting will provide any greater reduction in 
pollutant loading than would occur in the highly utilized voluntary 
program that we are developing. Michigan has concerns about the overall 
impact on water quality programs and if the States are forced to permit 
these animal feeding operations, an actual degradation of water quality 
may occur by the shifting of resources from other higher priority 
areas.
    The Strategy attempts to use the Clean Water Act to address other 
non-environmental issues associated with animal feeding operations. We 
do not believe it is appropriate to use an environmental permit process 
in this manner.
    For your information, I have included a letter (Attachment 2) on 
the draft Strategy signed by all USEPA Region 5 Environmental and 
Agriculture Directors. A majority of the concerns expressed in this 
letter have not been resolved in the final Strategy.
    We appreciate the opportunity to share our perspectives with you on 
this important issue and respectfully request that you add our comments 
to the hearing record. The new Strategy must allow the States 
flexibility to implement functionally equivalent programs that meet 
stated environmental goals and focus on the implementation of strong 
voluntary programs--not processes. Michigan has a strong partnership 
with agriculture, and is proceeding with an environmentally sound 
approach to deal with animal feeding operations of all sizes. If you 
have any questions, please contact me.
            Sincerely,
                                        Russell J. Harding,
                                                          Director.
                                 ______
                                 

                              ATTACHMENT 1

    Required Components of a Functionally Equivalent Animal Feeding 
                           Operation Program
    1. Legally Established Performance Standard
    2. Voluntary Program
      (a) Education
      (b) Technical Assistance
      (c) Financial Assistance
    3. Complaint Response
    4. Spill/Release Response
    5. Enforcement Provisions
    6. Proactive Inspections
    7. Statewide Water Quality Monitoring
                                 ______
                                 

                              ATTACHMENT 2

Ms. Denise C. Coleman,
U.S. Department of Agriculture,
Natural Resource Conservation Service,
Washington, DC.
    Dear Ms. Coleman: The Environmental and Agriculture Directors of 
the U.S. Environmental Protection Agency (EPA) Region 5 States of 
Illinois, Indiana, Michigan, Minnesota, Ohio and Wisconsin (States) 
have jointly compiled the following comments concerning, the U.S. 
Department of Agriculture (USDA)-EPA Draft Unified Strategy for Animal 
Feeding Operations (Strategy). With 20 percent of livestock operations 
in the United States occurring in the Region 5 States, this is a very 
important issue. While signing this letter together, individual States 
may also be submitting comments concerning the Strategy.
    The States support the guiding principles of the draft Strategy. 
However, there are specific issues with which the States have concern. 
The Strategy does not allow enough flexibility for the States to 
implement functionally equivalent measures that result in environmental 
protection. The Strategy is very prescriptive and permit-oriented and 
thus does not lead to the establishment of a Federal and State 
partnership that is necessary for successful implementation. The 
Strategy does not clearly define the environmental benefits and 
outcomes it is designed to achieve.
          state flexibility and functional equivalent programs
    The States believe that any national Strategy for Animal Feeding 
Operations must be sufficiently flexible to recognize State 
implementation of functionally equivalent programs that result in the 
meeting of a national performance standard. The establishment of a 
national performance standard is the best way for the USDA and EPA to 
promote and measure environmental protection.
    The States support the concept of nutrient management plans that 
focus principally on the collection, storage, and utilization of manure 
as an organic fertilizer. The States believe the existing effluent 
guidelines offer opportunities to work with landowners and reduce the 
potential impact they have on States' water quality. The States support 
and recognize the importance of inspection programs to provide some 
review of pollution control activities. The nature of these inspection 
activities must allow the States sufficient flexibility to individually 
tailor these programs. The States strongly support the education and 
training promoted in the Strategy through the voluntary USDA programs 
and encourage enhancing these programs, both technically and 
financially, to increase participation.
                    prescriptive and permit oriented
    The States have several concerns about the overall impact on water 
quality programs. If a significant shift is forced upon the States to 
permit Animal Feeding Operations, an actual degradation of water 
quality may occur by taking resources from other higher priority areas.
            Sincerely,
                                     Rebecca Doyle,
                                                  Director,
                                Illinois Department of Agriculture.

                                       Joe Pearsen,
                                    Assistant Commissioner,
                 Indiana Office of the Commissioner of Agriculture.

                                         Dan Wyant,
                                                  Director,
                                Michigan Department of Agriculture.

                                      Sharon Clark,
                                       Acting Commissioner,
                               Minnesota Department of Agriculture.

                                       Fred Dailey,
                                                  Director,
                                    Ohio Department of Agriculture.

                                       Ben Brancel,
                                                 Secretary,
                               Wisconsin Department of Agriculture,
                            Trade and Resource Consumer Protection.

                                      Mary A. Gade,
                                                  Director,
                          Illinois Environmental Protection Agency.

                                     John Hamilton,
                                              Commissioner,
                    Indiana Department of Environmental Management.
                                Russell J. Harding,
                                                  Director,
                      Michigan Department of Environmental Quality.

                                      Lisa Thorvig,
                                       Acting Commissioner,
                                Minnesota Pollution Control Agency.

                                    Jennifer Trell,
                                          Interim Director,
                              Ohio Environmental Protection Agency.

                                   George E. Meyer,
                                                 Secretary,
                         Wisconsin Department of Natural Resources.
                                 ______
                                 
 Statement of Sally Yozell, Deputy Assistant Secretary for Oceans and 
Atmosphere National Oceanic and Atmospheric Administration, Department 
                              of Commerce
    Good morning, Mr. Chairman, and members of the committee. I am 
Sally Yozell, Deputy Assistant Secretary for Oceans and Atmosphere of 
the National Oceanic and Atmospheric Administration (NOAA). I am 
pleased to be here today to discuss NOAA's role in the Clean Water 
Action Plan.
    NOAA is proud to be a part of the Clean Water Action Plan. The 
Action Plan represents a major commitment by the Administration to 
improve the quality of our water resources by addressing problems of 
habitat degradation and polluted runoff through a collaborative 
approach among Federal agencies and in conjunction with State, tribal 
and local governments and affected interests.
                              the problem
    Water quality is an important issue in coastal areas. Runoff from 
sources far upstream, as well as those on adjacent lands, ultimately 
makes its way to the coasts and consequently our coastal waters are in 
jeopardy. Every year, degraded water quality causes warnings and 
thousands of days where beaches are closed to the public and nearly 30 
percent of U.S. shellfish growing areas continue to be restricted or 
closed, resulting in substantial losses to tourism, recreation and 
seafood industries. Harmful algal blooms (HABs), which pose a serious 
threat to water quality, have impacted nearly every coastal State. The 
rapid expansion of HABs in the past two decades is responsible for 
economic losses approximating $100 million per year. Hazardous waste 
sites in certain coastal areas may also pose significant threats to 
coastal life and habitat.
    The increasing frequency and magnitude of these problems demands 
that significant action be taken now to restore and the health of our 
vital waters. The Clean Water Action Plan is designed to mobilize 
Federal resources to assist States, tribes, local governments and 
private citizens to protect and restore America's waters on a watershed 
by watershed basis.
            collaboration under the clean water action plan
    In the spirit of greater government efficiency, the Action Plan 
calls for a new way of doing business--moving away from single-focus 
programs to broad-based coordination to protect and restore water 
quality and natural resources on a watershed basis. NOAA is committed 
to this cooperative, collaborative approach.
    As you have heard, States and some tribes have identified their 
priority watersheds--those in greatest need of restoration--through 
what is called the ``unified watershed assessment'' process. Through 
the Action Plan, the Federal agency partners are working together to 
assist them in these efforts. We are also coordinating our efforts to 
assist other public and private stakeholders and improve resource 
stewardship on Federal lands.
    One of the ways we are doing this is by forming regional Federal 
coordination teams to coordinate Federal activities and streamline 
technical assistance to our State, tribal, local and private partners 
to undertake watershed restoration and other activities under the 
Action Plan. Federal coordination teams have been convened in 12 cities 
across the country and are meeting this week in Shephardstown, West 
Virginia to develop a strategy to coordinate their activities under the 
Action Plan and improve the delivery of Federal services to our non-
Federal partners.
                              noaa's role
    NOAA is taking a leadership role on twelve coastal-related action 
items under the Action Plan to deal with problems of habitat 
degradation and polluted runoff in coastal areas. We are coordinating 
with local, State, tribal and private entities and other Federal 
agencies to make these actions items as effective as possible.
    Today I would like to focus on three key elements of our role under 
the Plan: (1) helping to ensure that the best available science is 
employed to support the efforts under the Plan, especially regarding 
efforts to deal with harmful algal blooms and hypoxia; (2) supporting 
State-led efforts to reduce polluted runoff into coastal waters and 
estuaries, and (3) helping to ensure that cleanup actions at coastal 
hazardous waste sites protect and restore natural resources and result 
in cleaner coastal waters. I would like to describe the issue in each 
of these three areas, NOAA's role and what we have accomplished, and 
our plans for the year 2000.
1. Science for Preventing Harmful Algal Blooms and Hypoxia
            a. What is the issue?
    Harmful Algal Blooms (HABs) and hypoxia are increasing in magnitude 
and frequency. Hypoxic conditions (low oxygen) are found in 50 percent 
of the Nation's estuaries. The dead zone in the Gulf of Mexico is the 
most dramatic example of the problems associated with severe hypoxia 
along our coasts. HABs, such as red tides, brown tides, paralytic 
shellfish poisoning, and others, reoccur every year in every part of 
our coastal waters with each occurrence costing the local and National 
economy from $ 2 million to over $20 million. Although HABs are a 
naturally occurring phenomenal the linkage between their increased 
occurrences and pollution cannot be ignored. The need to better 
understand all the causes and continue to develop the most effective 
solutions for local and State managers for these hypoxia and HABs 
underpins NOAA's research efforts.
            b. What happened and what is likely to happen?
    In 1998, HABs were reported along the U.S. coast resulting in fish 
kills and mammal and bird mortalities as well as closures of shellfish 
harvests in several regions. For example:
    <bullet> Over 50 sea lions died along California's southern coast 
and many deaths were associated with domoic acid poisoning resulting 
from localized blooms of the diatom Pseudo-nitzschia australis in and 
near Monterey Bay. Some researchers suggest that blooms of this diatom 
may have been linked to unusually high nutrient input from higher than 
normal river flow in the system. If this relationship proves to be 
correct, it would mark the first time that blooms of this diatom have 
been linked to nutrient enrichment of coastal waters through river 
inputs and therefore land-use. Domoic acid, the toxin responsible for 
the sea lion mortalities in California, was also found along the Oregon 
coast and the toxin was found at near record levels in Washington's 
shellfish.
    <bullet> Pfiesteria piscicida was reported in the Neuse River, 
North Carolina, estuary and associated with fish kills and possibly 
with human health effects such as eye irritation in river watermen. 
However, the fish lesion and mortality events were not recorded in 
Maryland's eastern shore tributaries in 1998, even though conditions 
leading into the summer appeared ideal for expression of the toxic 
population. The absence of Pfiesteria outbreaks was attributed to low 
fish populations in the systems and the absence of summer storms and 
runoff, which possibly act as triggers.
    <bullet> Paralytic shellfish poisoning (or PSP), which generally 
results from accumulations of the toxic dinoflagellate Alexandrium 
spp., continued closure of the Alaskan coast to shellfish harvest and 
caused additional closures along portions of the Oregon coastline to 
shellfishing in the summer of 1998. PSP-contaminated shellfish beds 
along Maine's coast were also closed to harvesting for several summer 
months.
    <bullet> Blooms of the toxic dinoflagellate Gymnodinium breve, 
responsible for Florida's Red Tides, were again observed off the 
State's western coastline, while along the Texas coast, reports of 
thousands of dead fish coincided with blooms of G. breve.
    In 1999, the summer will likely be typical of past summers, with 
events expected in the Gulf of Mexico and, likely, our West coast:
    <bullet> Sea lions with symptoms similar to those observed in last 
year's domoic acid event on California's coast have already been 
reported in southern California, with the toxin reported in the urine 
of the ill animals.
    <bullet> Paralytic shellfish poisoning (PSP) is very probable in 
Alaska, as this is a permanent problem.
    <bullet> Shellfish closures along Maine's coasts from PSP are also 
highly probable due to potential seeding from local beds of resting 
stages of the toxic dinoflagellate as well as delivery of distant 
populations via coastal currents.
    <bullet> Similarly, Red Tides-caused G. breve are likely to be 
observed on Florida's west shelf as blooms of this organism have been 
annual events in 23 of the last 24 years.
    <bullet> Outbreaks of Pfiesteria piscicida in mid-Atlantic States 
are more difficult to predict as researchers are just beginning to 
identify the environmental conditions supporting expression of the 
cell's toxicity. However, high fish densities in some of the shallow, 
poorly-flushed coastal systems common along the Mid-Atlantic coast 
could trigger outbreaks.
            c. What is NOAA's role and what have we accomplished?
    NOAA's role in preventing HABs and hypoxia is to support research, 
monitoring, assessment and response, in cooperation with our State, 
Federal and academic partners. Specifically, FY 99 funding through the 
NOAA component of the Clean Water Initiative is supporting three 
innovative programs to address HABs:
    ECOHAB, (The Ecology and Oceanography of HABs) is an interagency 
research program. Agencies involved include NOAA, EPA, ONR, NSF, and 
NASA.
    <bullet> NOAA is contributing $1.15M for new projects on 
development of prevention, control, and mitigation practices to reduce 
HAB impacts on fisheries and mariculture; assessments of economic 
impacts of HABs; research on the Long Island brown tide organisms 
responsible for the collapse of the Eastern Long Island scallop 
industry; and studies of HAB ecology, physiology, and toxicity. The 
funding announcement for this year was recently published (ECOHAB 99).
    <bullet> NOAA is also providing $2M in continuing support for 
ECOHAB 97 and ECOHAB 98 projects including the development of 
biological and physical HAB models in the Gulf of Maine and Gulf of 
Mexico, a means to control recurring blooms in these areas, and 
rigorous multi-disciplinary investigations of Pfiesteria's biology, 
ecology, toxicity, and detection.
    <bullet> ECOHAB research is also being used to develop forecasting 
models for HABs, which will be incorporated into State HAB monitoring 
programs and shared with the public, policy makers, and scientific and 
public health communities. Distribution of this information is 
expanding through use of national websites sponsored by the Coastal 
Ocean Program and National and State Sea Grant institutions.
     expanding noaa-state partnership for monitoring and assessment
    <bullet> Operating continuously since 1997, NOAA, with EPA, 
continues to provide funds to mid-and south Atlantic, and Gulf States 
to expand existing State monitoring programs for Pfiesteria and fish 
health. The goal is to provide States with increased capabilities for 
pro-active detection of toxic events and to develop a national database 
to identify the environmental conditions required for toxic outbreaks 
of Pfiesteria piscicida.
    <bullet> NOAA is working with the States of Maryland and Florida to 
initiate multi-year pilot studies to intensively survey areas of high 
outbreak risk. These studies include field testing of several promising 
sensors for continuous monitoring of the environmental conditions 
associated with HAB outbreaks.
    <bullet> Funds are also being used for shared, cross-cutting 
activities such as a national list-server for distributing Pfiesteria/
fish health information quickly, workshops on standardized sampling 
practices, training sessions for plankton and fish lesion 
characterization, and molecular detection of Pfiesteria piscicida's 
cells and toxicity.
     developing the interagency federal event response plan for hab
    <bullet> NOAA is leading the development of the Federal Event 
Response Plan for HABs to provide support to States experiencing major 
HAB events, including Pfiesteria outbreaks. Under this plan NOAA, EPA, 
FDA, and CDC have identified services and resources that they can 
provide to States for responding to Pfiesteria outbreaks and the plan 
will be expanded to cover other types of HAB events nationwide.
    <bullet> FY 1999 funds will also support rapid response 
capabilities to supplement existing State programs and assist those 
States that have not yet implemented rapid response planning for HAB 
events.
    The Harmful Algal Bloom and Hypoxia Research and Control Act 
(HABHRCA), passed by Congress in 1998, recognized the importance of 
prevention, control, and mitigation of HAB impacts by authorizing 
multi-agency assessments of the occurrence, impacts, and costs of HABs 
in U.S. coastal waters and the options currently available for reducing 
those impacts. NOAA will continue to work with all of its partners to 
undertake these assessments and work to transfer this knowledge to 
improve coastal water.
    NOAA is also working with other agencies to address the issue of 
hypoxia in our coastal waters. As part of a process of considering 
options for response to hypoxia, the Mississippi River/Gulf of Mexico 
Watershed Nutrient Task Force was formed during the Fall of 1997 in 
which NOAA is a participant. The Task Force asked the White House 
Office of Science and Technology Policy to conduct a scientific 
assessment of the causes and consequences of Gulf hypoxia through its 
Committee on Environment and Natural Resources (CENR). While NOAA has 
been asked to lead the CENR assessment, oversight is spread amongst 
several Federal agencies and the assessment itself is being conducted 
by teams that include academic, Federal, and State scientists from 
within and outside the Mississippi River watershed. The assessment of 
the causes and consequences of Gulf hypoxia is intended to provide 
scientific information that can be used to evaluate management 
strategies, and to identify gaps in our understanding of this problem.
d. What do we plan to do in 2000?
    Continuation of these efforts in FY 2000 is critical for addressing 
prevention, control, and mitigation of HABs in U.S. coastal waters. 
With increasing threats to public health and safe seafood in U.S. 
waters, it is important for the U.S. to move to the next level in 
managing its coastal waters to reduce or eliminate HAB impacts.
    Much has been learned about the incidence of HABs, including 
Pfiesteria-complex organisms. What is needed now is to determine what 
environmental conditions trigger blooms of potentially toxic algae; 
develop reliable and inexpensive methods for detecting bloom organisms 
and their toxins; and develop techniques for mitigating HAB impacts on 
coastal communities.
    In FY 2000 NOAA plans to be able to initiate pilot studies in 
States whose waters are susceptible to toxic Pfiesteria complex 
outbreaks. NOAA plans to support studies to test the performance and 
reliability of improved methods and technologies to monitor the 
presence and toxicity of Pfiesteria-complex organisms during suspected 
outbreaks. NOAA also plans to implement the Federal Event Response Plan 
for HAB.
          2. supporting state-based coastal nonpoint programs
a. What is the issue?
    Increasing outbreaks of harmful algal blooms along all coasts, the 
dead zone in the Gulf of Mexico, closed shellfish beds and decreasing 
fisheries are all signs that coastal waters are being stressed by 
polluted runoff. According to State water quality reports, urban runoff 
and storm sewers together are the second leading source of pollution in 
the Nation's surveyed estuarine waters. States have also reported that 
agricultural pollution is the fifth leading source of pollution of 
surveyed estuarine waters. Coastal population continues to expand, 
exacerbating runoff pollution from new development and human related 
activities. For example, growth along the southern California coast 
from Santa Barbara to San Diego has averaged about 3,400 newcomers 
every week. In partnership with coastal States under the Coastal Zone 
Management Act (CZMA) and with EPA, as co-administrator of the Coastal 
Nonpoint Program, NOAA is directing a great deal of effort to combat 
polluted runoff and to conserve and restore coastal waters.
b. What is NOAA's role and what have we accomplished?
    In 1990, Section 6217 of the Coastal Zone Act Reauthorization 
Amendments created a new State-based Coastal Nonpoint Pollution Control 
Program. The Coastal Nonpoint Program represented a departure from 
previous efforts to tackle polluted runoff in that it called on State 
CZM agencies to work together with State water quality agencies to pool 
their land management and water quality expertise to design programs to 
control polluted runoff from land-based sources into coastal waters. 
Patterned after the largely successful approach to controlling 
pollution from point sources such as pipes and outfalls, the Coastal 
Nonpoint Program established a technology-based approach for dealing 
with polluted runoff. This approach generally consists of implementing 
management measures to control nonpoint sources of pollution before 
they impact coastal waters. Management measures include techniques such 
as controlling erosion from construction activities, managing nutrients 
from fertilizers applied to agricultural land, reducing the impacts of 
stormwater runoff, and protecting areas that are particularly important 
for water quality. The measures are detailed in guidance developed by 
the Environmental Protection Agency (EPA), in consultation with NOAA, 
and address a broad spectrum of nonpoint pollution sources, including 
agriculture, forest harvesting activities, urban runoff, marinas, 
impacts associated with the construction and maintenance of dams and 
channels, and other alterations of natural systems. State coastal 
nonpoint programs were developed in accordance with this guidance and 
submitted to NOAA and EPA for approval. These State coastal nonpoint 
programs will be administered by a variety of State and local agencies 
through implementation of new and existing authorities, plans, and 
projects.
    Under the Clean Water Action Plan, NOAA and EPA were asked to aim 
for completion of the review and conditional approval of the first 29 
Coastal Nonpoint Programs by June 30, 1998. I am happy to say that we 
have met this deadline. While coastal States generally have made 
progress in addressing this difficult issue, some further program 
development efforts are needed. In addition, three new States (Texas, 
Georgia, and Ohio) have since joined NOAA's Coastal Zone Management 
Program and are in the process of developing their coastal nonpoint 
programs. A fourth State, Minnesota, is expected to have its CZM 
Program approved later this year. At that time, it too will begin the 
development of a coastal nonpoint program.
    NOAA and EPA are working diligently with the coastal States to 
complete development of their coastal nonpoint programs and are 
providing technical and financial assistance to support effective 
program implementation. The funding that NOAA received in FY 99 under 
the Clean Water Initiative is being provided directly to the coastal 
States and territories to help them complete development and begin 
implementation of their Coastal Nonpoint Programs. This will 
substantially improve their ability to manage polluted runoff and 
reduce coastal water pollution.
    For example,
    <bullet> Through its Coastal Nonpoint Program, Rhode Island 
conducted a study that identified a significant threat to water quality 
from failing septic systems. As a result, last month the State adopted 
final revisions to the Salt Ponds Region and Narrow River Special Area 
Management Plans (SAMPs) to address nutrient loading from septic tanks. 
The Rhode Island Coastal Management Program also continues to implement 
its marina certification program and eight marinas and terminal 
operators have developed Operation and Maintenance Plans for 
controlling Nonpoint Source Pollution for upland portions of their 
facilities.
    <bullet> The Massachusetts Coastal Zone Management Program (MCZM), 
through its Coastal Nonpoint Program, is developing and implementing a 
program to address nonpoint source pollution from marinas and boaters. 
MCZM's focus will be on the development of a guidance document, 
technical assistance, and education that will help marina operators and 
boaters control nonpoint source pollution.
    <bullet> Oregon's Department of Environmental Quality (DEQ) has 
developed a Watershed Assessment Manual which is to be a diagnostic 
tool accessible to a non-technical audience. The manual will assist 
local and watershed councils to identify priority water quality and 
habitat issues which will help to target restoration efforts.
c. What do we plan to do in 2000?
    In FY 2000 it is critical for the Federal Government to provide 
States with adequate financial resources to implement their coastal 
nonpoint program. It is also imperative that we provide our four new 
State coastal programs with the support they need to develop their 
coastal nonpoint programs and to support on-the-ground work by the 
original 29 coastal States and territories to implement pollution 
control measures and support locally-led restoration efforts, similar 
to those mentioned above. NOAA's efforts will complement the efforts of 
EPA and USDA, working with their partners, the State water quality and 
agriculture agencies, to provide a comprehensive program that relies on 
the combined strength of all resource management agencies. This 
innovative program is important to achieving the goals of the Clean 
Water Action Plan and is an example of the opportunities presented 
under the Action Plan to maximize efficiencies in providing resources 
and expertise to protect water quality and conserve and restore natural 
resources.
            3. reducing pollution from hazardous waste sites
a. What is the issue?
    Hazardous waste sites in the coastal zone degrade and destroy 
valuable marine, estuarine, and coastal habitat by contaminating the 
waters and sediments that support fish, shellfish, marine mammals, and 
other natural resources. There are many types of hazardous waste sites, 
from Superfund sites to Brownfield sites. Each hazardous waste site has 
its own set of contaminant issues that must be approached in a 
watershed context in order to restore and protect our valuable coastal 
waters.
b. What is NOAA's role and what have we accomplished?
    NOAA's Coastal Resource Coordination (CRC) program works within the 
remedial process at hazardous waste sites with EPA and other lead 
cleanup agencies to develop remedies that protect coastal resources, 
supporting habitats, and human health. These activities result in more 
productive and diverse habitat for fish and wildlife, cleaner coastal 
waters, and healthier coastal ecosystems. Since 1985, the CRC program 
has ensured protection and enhanced recovery and restoration of coastal 
habitats at over 500 hazardous waste sites.
    The Coastal Resource Coordination (CRC) program consists of a 
network of Coastal Resource Coordinators (CRCs) and a technical support 
group. NOAA's CRCs are environmental scientists, located in EPA coastal 
regional offices, that provide technical support in evaluating natural 
resource concerns at hazardous waste sites and improve coordination 
with Federal and State natural resource trustee agencies. CRCs and 
supporting staff evaluate ecological risk, recommend protective cleanup 
levels and strategies, and advocate remedies that prevent or minimize 
adverse effects to coastal resources and waters that support them.
    The CRC program is primarily funded with Superfund program money 
that is passed to NOAA through an interagency agreement with EPA. Due 
to the nature of this funding, the range, extent, and priorities of 
NOAA's stewardship efforts at coastal hazardous waste sites are 
limited. With FY99 appropriations under the Clean Water Initiative, the 
CRC program has been able to continue its previous level of 
accomplishment at hundreds of waste sites across the country as well as 
serve a broader constituency, accelerating cleanups at a range of waste 
sites by building stronger relationships with States and local 
communities. The program is working on new sites that pose a 
significant risk to coastal natural resources, applying its expert to 
pressing environmental issues such as persistent toxic contamination in 
sediments and fish, and is working more closely with States and local 
communities on restoration of contaminated coastal habitats. 
Specifically, the CRC program has been:
    <bullet> providing technical assistance and training on contaminant 
issues directly to States such as Massachusetts, New Jersey, New York, 
Florida, Illinois, Michigan, Louisiana, Texas, California, and Oregon.
    <bullet> working with the Department of Defense and States to 
develop protective, cost-effective clean-up strategies and appropriate 
restoration of natural resources at Federal facilities.
    <bullet> providing technical support to EPA and the States on 
ecological risk and other contaminant issues at active industrial 
facilities.
    <bullet> developing watershed database/mapping projects in Hudson 
River/Newark Bay, NY/NJ; Lehigh River, PA; Anacostia River, Washington, 
DC, St. Andrews Bay, FL, Willamette River, OR, Kalamazoo River, MI, and 
Puget Sound, WA which will be used for designing sampling and cleanup 
strategies, and conducting restoration planning at a variety of sites, 
including four Brownfields pilot projects; and
    <bullet> conducting studies in cooperation with Federal and State 
agency scientists to evaluate exposure and contamination in fish in 
order to address specific contaminant problems and improve the health 
of our coastal waters.
c. What we plan to do in 2000?
    Continued support will allow NOAA to continue: (1) working on sites 
where States have the lead for cleanup activities, (2) working on non-
National Priorities List industrial and military facilities and other 
non-Superfund sites, (3) conducting site-specific research studies, and 
(4) developing watershed mapping tools to improve remedial decision-
making and restoration planning in partnership with States and other 
coastal resource managers. It will also allow the CRC program to 
continue providing technical assistance directly to States and local 
communities to accelerate restoration of hazardous waste sites and 
Brownfield sites, improving the health of our coastal waters and the 
resources they support. Coastal areas where these activities have been 
initiated include Long Island Sound, Newark Bay, Delaware River, 
Christina River, San Francisco Bay, Willamette River and Puget Sound.
                    accomplishments and partnerships
    The partnerships developed under the Clean Water Action Plan has 
allowed NOAA and other agencies to accomplish a number of items to 
improve our Nation's coastal waters. Beside the ones listed above, NOAA 
has made several noteworthy accomplishments over the past year:
    <bullet> we completed a report and CD-ROM on the status of 
shellfish bed conditions nationally, the factors contributing to 
harvest limitations and the potential to restore impaired areas;
    <bullet> we worked with Fishery Management Councils to identify 
Essential Fish Habitats in 38 Fishery Management Plans and proposed 
them for public comment;
    <bullet> we developed two new interagency partnerships for wetlands 
restoration--with EPA and Forest Service--and plan to explore other 
opportunities to work more closely with other agencies;
    <bullet> we worked with EPA, the Corps, NRCS and USFWS to develop 
draft guidance on wetlands restoration, creation and enhancement. This 
draft was made available to the public through the internet and this 
improved public access has proven to be invaluable. Although this is a 
working draft undergoing peer review, we have already solicited and 
received extensive public input and plan another public review.
                                closing
    The Clean Water Action Plan is an innovative, cost-effective and 
coordinated effort to protect public health and restore America's 
waterways, by addressing problems at a watershed level, building on 
existing programs and forging new partnerships. The FY 2000 request for 
NOAA builds upon the strengthens of these program successes by asking 
for modest increases to continue improving our ability to understand 
HABs and develop HAB action plans, and to continue aiding the States in 
developing and implementing their nonpoint programs. We at NOAA are 
proud to be a part of this effort and we are committed to working with 
you, with our Federal partners, and with State, local, tribal and 
private stakeholders to make the collaborative vision of the Clean 
Water Action Plan a reality.
                                 ______
                                 
               Wind River Environmental Quality Commission,
                                            Fort Washakie, Wyoming.
Hon. Craig Thomas,
U.S. Senate, Washington, DC.
    Dear Senator Thomas: As the Director of the Wind River 
Environmental Quality Commission (WREQC) of the Wind River Indian 
Reservation (Reservation) at Fort Washakie, Wyoming. I offer the 
following comments and questions regarding the Clean Water Action Plan 
(CWAP) to the Senate Environment and Public Works Committee.
    1. The WREQC office is concerned that neither its staff or any 
other tribal environmental office were invited or notified of this 
hearing. This office and its counterparts around the Nation are 
responsible for the administration of many environmental programs, 
including several which fall under the auspices of the Clean Water 
Act--to which the CWAP has direct relevance.
    2. The WREQC office is currently involved in the process of 
developing, water quality standards (WQSs) for the Reservation and has 
used the State of Wyoming WQSs as a template. The U.S. Environmental 
Protection Agency (EPA) Region VIII Headquarters Office has indicated 
that the existing Wyoming WQSs do not meet the minimum requirements of 
the Clean Water Act and must be modified to attain EPA approval. 
Because of the problems with the Wyoming WQSs, as identified by EPA, 
the WREQC office has been closely following both the WQSs revision(s) 
process and the Total Maximum Daily Load (TMDL) issue currently being 
undertaken by the State of Wyoming. The WREQC office has identified 
problems with the Wyoming WQSs and the proposed revisions as they 
relate to Reservation water quality. In addition, the TMDL issue has 
made the WREQC office aware of several errors and inaccuracies with the 
current 303(d) list (stream impairment listing) as submitted by the 
State to EPA. These problems include incorrect classifications of 
Reservation water bodies which may lead to a lack of protection for 
public drinking water supplies or, on the other hand, 
``overprotection'' of water bodies which are not capable of supporting 
the beneficial uses as listed by the Wyoming Department of 
Environmental Quality (WDEQ).
    3. As noted above in paragraph #2, the WREQC office is very 
concerned the WDEQ's lack of accurate information or credible data 
regarding State waters and the Reservation in particular. The WREQC 
office is mandated to provide the highest possible protection of the 
environment on the Reservation. It is the belief of the WREQC office 
that the WDEQ can not provide Reservation residents with adequate 
protection of its water bodies to ensure that they are ``fishable and 
swimmable,'' as required under the Clean Water Act.
    4. The State of Wyoming is the only State not to complete its 
United Watershed Assessment (UWA) which was required as part of the 
CWAP. This inaction has led to the State being ineligible for 
supplemental Non-point Source Water Quality funds from the EPA. Most of 
these funds ($1,000,000.00) would have been available to the State's 34 
Conservation Districts. The WREQC office has initiated contact with the 
four conservation districts which coincide with Reservation's exterior 
boundaries. These contacts are essentially attempts to coordinate and 
cooperate with the districts to ensure adequate and comparable data 
collection activities. The WREQC office realizes that the inactivity of 
the State with regards to UWA has eliminated the funding opportunities 
which may have been available to these conservation districts. The 
WREQC office did complete its UWA for the Reservation and expects to 
access any supplemental funds which are made available as a result of 
the CWAP implementation.
                               conclusion
    The WREQC office would like to express its concerns that, with 
regards to the CWAP, tribal issues have not been identified and tribal 
involvement has not been solicited by the Senate Environment and Public 
Works Committee. Perhaps, in your capacity as a member of the Senate 
Committee on Indian Affairs, you would introduce this important subject 
to that committee. Tribal concerns regarding the CWAP must be clearly 
identified and tribal environmental offices and governments must be 
allowed to actively participate in these important public discussions. 
Thank you.
            Sincerely,
                                                Don Aragon,
                                      Executive Director for WREQC.
                                 ______
                                 
 Statement of the National Association of Conservation Districts, NACD 
                       Water Resources Committee
    The National Association of Conservation Districts represents the 
Nation's 3,000 conservation districts and more than 16,000 men and 
women who serve on their governing boards. Established under State law, 
conservation districts are local subdivisions of State government 
charged with carrying out community-based programs for the protection 
and management of natural resources. Conservation districts work with 
nearly two-and-half million cooperating landowners and operators and 
provide assistance in managing and protecting nearly 70 percent of the 
private lands in the contiguous United States.
    Conservation districts have a successful 60-year history of 
carrying out local programs to improve the quality of the Nation's land 
and water resources. Partnering with State water quality agencies, 
State conservation agencies, the U.S. Department of Agriculture (USDA), 
the U.S. Environmental Protection Agency (EPA), and other agencies and 
organizations, conservation districts are key players in implementing 
Federal, State and local water quality protection and enhancement 
programs. Thus, we have a keen interest in initiatives such as the 
Clean Water Action Plan (the Plan).
    The Clean Water Action Plan, which the Vice President unveiled in 
February 1998, has more than 100 nationally identified resource 
priorities and many of the actions identified will affect local 
producers, conservation districts and local resource priorities. While 
we recognize that there will be many opportunities to implement 
voluntary components of the Plan through the conservation district 
delivery system and the locally-led conservation process, we are deeply 
concerned that the EPA and USDA developed the initial draft of the Plan 
with little, if any, public or State and local government input. The 
agencies indicate throughout the plan, however, that successful 
implementation of many action items will rely on stakeholders, local 
governments and State efforts and involvement. The Nation's 
conservation districts oppose the method by which the Clean Water 
Action Plan was developed based on a lack of local input and the 
regulatory overtones contained in the Plan.
    We also have concerns over one of the Plan's key components that 
could have a serious impact on agricultural producers--the Unified 
National Strategy for Animal Feeding Operations (AFO Strategy). Many 
States have nutrient management and permitting programs that already 
address animal feeding operations. Although the final AFO Strategy, 
released March 9, addresses some of our initial concerns relative to 
State primacy in dealing with runoff from animal feeding operations, we 
feel strongly that the current authority for States to develop these 
programs must not be preempted or compromised by the AFO Strategy. Nor 
should the Federal Government add conflicting requirements to existing 
State programs. We strongly urge EPA to work with State and local 
governments in refining and implementing the AFO Strategy and allow 
existing State programs that are attaining and maintaining federally 
approved State water-quality standards to operate in lieu of new 
Federal requirements.
    The AFO Strategy and other Plan components also will have a serious 
impact on the workload of the agencies implementing it, as well as that 
of their non-Federal partners. USDA's Natural Resources Conservation 
Service (NRCS), working with local conservation districts, will bear 
the primary responsibility for providing technical assistance to help 
operators develop some 450,000 comprehensive nutrient management plans 
called for in the strategy. Further, the Plan also calls for 
implementing integrated pest and crop management systems, developing 
non-AFO nutrient and animal waste management plans, installing 
practices to reduce erosion and runoff and restoring and/or enhancing 
100,000 acres of wetlands per year by 2005.
    While these goals are praiseworthy, we must caution that 
considerable increases in Federal, State and local resources will be 
required to achieve them. NRCS and conservation districts, both of 
which will be instrumental in achieving these objectives, are already 
critically short of resources needed to address their current 
conservation priorities. Our National Field Workload Analysis showed a 
gap of more than 7,000 staff years needed to address 1996 Farm bill 
priorities and the ongoing workload of NRCS, conservation districts and 
their partners. To absorb an additional workload of the magnitude 
envisioned in the Clean Water Action Plan without providing substantial 
increases in funding will seriously compromise our efforts to provide 
quality assistance to affected landowners and operators.
    Although we are troubled with the way the Plan was developed, we do 
support a number of its individual initiatives. For example, 
conservation districts strongly support the President's budget 
initiative to increase funding for USDA's Environmental Quality 
Incentives Program, EPA's Section 319 program, the Forest Service's 
State and Private Forestry Programs to help address the increased 
workload. We also believe that the proposed EPA Better America Bond 
Fund offers considerable opportunities to help communities address 
water quality issues through preserving green space and redeveloping 
brownfields.
    Conservation districts are committed to preserving our Federal-
State-local partnership's voluntary, incentives-based approach in 
providing assistance to landowners and operators. We also support EPA's 
role as a regulatory agency within its current authority under the 
Clean Water Act. We do not believe that additional laws or rules are 
needed that would broaden EPA's regulatory and enforcement authority 
over animal feeding operations.
    The Nation's conservation districts are committed to finding and 
implementing voluntary, site-specific solutions to water quality issues 
developed through partnerships with other local, State and Federal 
agencies. While it is important to have a regulatory framework in place 
to deal with point source water quality issues under Clean Water Act 
jurisdiction, we believe the Federal Government's primary role in 
addressing nonpoint source pollution should be to continue providing 
technical and financial resources to help farmers and ranchers to craft 
voluntary solutions. For every dollar we invest in conservation 
technical and financial assistance, American taxpayers receive multiple 
benefits, including cleaner and safer surface and groundwater sources.
    There are none more committed to good land and water stewardship 
than America's 3,000 locally-led conservation districts. We welcome the 
challenge of restoring and maintaining the Nation's waters and stand 
ready to work with the Congress and the Administration to accomplish 
these goals.
    We appreciate the opportunity to share conservation districts' 
views on the Clean Water Action Plan.
  

                                  <all>
</pre></body></html>
